U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




BUREAU OF EXPORT ADMINISTRATION


 Improvements Are Needed to Meet the Export
   Licensing Requirements of the 21st Century


     Final Inspection Report No. IPE-11488/June 1999




                     PUBLIC
                    RELEASE




       Office of Inspections and Program Evaluations
June 18, 1999



MEMORANDUM FOR:               William A. Reinsch
                              Under Secretary for Export Administration



FROM:                         Johnnie E. Frazier
                              Acting Inspector General

SUBJECT:                      Final Report: Improvements Are Needed to Meet the Export
                              Licensing Requirements of the 21st Century (IPE-11488)

As a follow-up to our May 7, 1999, draft report, this is our final report on our program evaluation
of BXA’s export licensing efforts. The report includes comments from your June 3, 1999, written
response. A copy of your response is included in its entirety as an attachment to the report.

While our report highlights some areas that are working well in BXA, it also highlights problems
that hamper BXA’s efforts to effectively and efficiently carry out its export licensing
responsibilities. The report offers a number of specific recommendations that we believe, if
implemented, will better prepare BXA for the export licensing requirements of the 21st century.

Please provide your action plan addressing the recommendations in our report within 60 calendar
days. If you have any questions or comments about our report or the requested action plan,
please contact me on (202) 482-4661.

We want to thank your entire staff for their assistance and courtesies extended to us during our
review.

Attachment

cc:    William M. Daley, Secretary of Commerce
                          Final Report




     Improvements Are Needed to Meet the
Export Licensing Requirements of the 21st Century




                           June 1999

                   Report Number IPE-11488




                  U.S. Department of Commerce
                     Office of Inspector General
          Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                                  Final Report IPE-11488
Office of Inspector General                                                                                               June 1999




                                                 TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

          I.        Current Export Control Legislative Authority, Executive Orders, and
                    Regulations Need Attention . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

                    A.         Congress should renew legislative authority for export controls . . . . . . . 23
                    B.         Post shipment verifications mandated by the 1998 NDAA are a
                               questionable use of resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
                    C.         Some clarification is needed for Executive Order 12981 pending
                               new legislation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
                    D.         Export control policy and regulations for foreign workers
                               need clarification . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

          II.       More Transparency Is Needed in the Commodity Classification Process . . . . . . 39

                    A.         BXA’s processing of commodity classifications has improved, but
                               timeliness is still a problem . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40
                    B.         Commodity classification referral criteria need to be clarified . . . . . . . . 42

          III.      Licensing Officers’ Analysis of Export Applications Could Be Enhanced . . . . . 47

                    A.         Better policies and procedures are needed to assist licensing officers . . . 48
                    B.         BXA needs a formal training program for its licensing officers . . . . . . . 52

          IV.       Export License Application Process Is More Transparent, but Some
                    Weaknesses Need to Be Addressed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57

                    A.         Sufficient justification exists for most of the non-referred cases . . . . . . . 59
                    B.         Review of export license applications by the intelligence
                               community is limited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63
                    C.         Concerns are raised about the Department of State’s ability to
                               review cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 68
                    D.         License applications should be screened against Customs Service’s
                               TECS database . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 70
U.S. Department of Commerce                                                                              Final Report IPE-11488
Office of Inspector General                                                                                           June 1999




               E.        Some licenses were issued without meeting conditions of
                         Department of Defense . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 75

       V.      Dispute Resolution Process Gives Referral Agencies Meaningful
               Opportunity to Escalate Licenses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77

               A.        Operating Committee is effective but some matters need attention . . . . 78
               B.        Advisory Committee on Export Policy is working well . . . . . . . . . . . . . 82
               C.        BXA’s process of returning escalated cases to LOs lacks quality
                         control . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 83

       VI.     BXA Has Sought Interagency Guidance During Review of Exporter Appeals,
               but a More Formal Process Is Needed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87

               A.        Authority for exporter appeals process is valid . . . . . . . . . . . . . . . . . . . . 87
               B.        Overturned appeals had support from majority of the referral
                         agencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 89
               C.        Some reopened cases have characteristics of exporter appeals . . . . . . . . 90
               D.        Lack of clear procedures obscures BXA’s appeals process . . . . . . . . . . . 92

       VII.    BXA Needs to Improve Its Monitoring of License Conditions . . . . . . . . . . . . . . 93

               A.        Export Administration is not adequately monitoring exporter
                         compliance with license conditions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 95
               B.        Export Enforcement also needs to step up its monitoring efforts . . . . . 100

       VIII.   End Use Checks Are a Valuable Tool, but Some Improvements
               Are Needed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 103

               A.        More interaction between BXA and US&FCS posts is needed . . . . . . . 105
               B.        Safeguard Verification Program enhances end use check process,
                         but some improvements are necessary . . . . . . . . . . . . . . . . . . . . . . . . . . 113
               C.        End use checks in three countries of concern were reviewed by
                         OIG teams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 117

       IX.     Other OIG Concerns Are Related to the Export Licensing Process . . . . . . . . . 125

               A.        Applications were returned without action after receiving
                         unfavorable PLCs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 125
               B.        License determination process is untimely . . . . . . . . . . . . . . . . . . . . . . 127
U.S. Department of Commerce                                                                              Final Report IPE-11488
Office of Inspector General                                                                                           June 1999




         X.        BXA Needs a New Automated Export Licensing System . . . . . . . . . . . . . . . . . 133

                   A.        ECASS has major limitations and needs to be replaced . . . . . . . . . . . . 134
                   B.        Future export licensing automation needs interagency
                             commitment and coordination . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 134
                   C.        ECASS internal controls are generally satisfactory, but some
                             improvements are needed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 141

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 157

APPENDICES

                   A.        Answers to the Chairman of the Senate Committee
                             on Governmental Affairs’ Questions . . . . . . . . . . . . . . . . . . . . . . . . . . . 167
                   B.        Tier 3 Countries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 187
                   C.        List of Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 189
                   D.        BXA’s Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 191
U.S. Department of Commerce                                                            Final Report IPE-11488
Office of Inspector General                                                                         June 1999




                                       EXECUTIVE SUMMARY

In August 1998, the Chairman of the Senate Committee on Governmental Affairs requested that
the Inspectors General from the Departments of Commerce, Defense, Energy, State, the
Treasury, and the Central Intelligence Agency conduct an interagency review of the export
licensing process for dual-use commodities and munitions. The Committee Chairman specifically
asked the six Inspectors General to update a 1993 special interagency Office of Inspector General
review of the export licensing process and answer 14 questions.1 (See Appendix A for questions
and answers.) In addition to addressing the committee’s questions, we expanded our review to
perform a complete program evaluation of the Department’s export licensing process, focusing on
the effectiveness of the current policies, procedures, and practices in its licensing of dual-use
goods and technologies.

Dual-use commodities are goods and technology determined to have both civilian and military
uses. The Department of Commerce’s Bureau of Export Administration (BXA) administers the
U.S. government’s export control licensing and enforcement system for dual-use commodities for
national security, foreign policy, and nonproliferation reasons. It does so under the authority of
several different laws, including the Export Administration Act of 1979, as amended. Although
that statute expired in September 1990, Presidents Bush and Clinton have extended existing
export regulations by executive order, invoking emergency authority contained in the
International Emergency Economic Powers Act. These controls continue in effect today through
Executive Order 12924, dated August 19, 1994, and Executive Order 12981, dated December 15,
1995.

Since early 1990, both the Congress and the Administration have tried to rewrite the basic law
that authorizes the President to regulate exports from the United States. The principal focus of
the continuing policy debate pertains to national security export controls that are used to restrict
exports of dual-use technologies to successor states to the Soviet Union, Eastern Europe, and the
People’s Republic of China. There is a wide range of opinions on how the government’s export
control policies and practices should balance the need to protect national security and foreign
policy interests with the desire not to unduly hamper U.S. trade opportunities and
competitiveness. Striking this balance poses a significant challenge for the parties involved.
Furthermore, some critics of the export licensing process argue that Commerce has an apparent
conflict of interest in promoting and regulating exports. For instance, while China is viewed by
the U.S. export control licensing agencies as a potential technology transfer risk, China is also
seen as an important trading partner, and as such, Commerce has made great efforts to encourage
and help U.S. companies entering the Chinese market.




        1
         The Federal Government’s Export Licensing Processes for Munitions and Dual-Use Commodities,
conducted by the Offices of Inspector General at the U.S. Departments of Commerce, Defense, Energy, and State,
September 1993.

                                                       i
U.S. Department of Commerce                                                           Final Report IPE-11488
Office of Inspector General                                                                        June 1999




Our review found the licensing of U.S. dual-use exports to be a balanced multi-agency review
process that attempts to bring divergent policy views and information to bear on decision-making
for export licenses. That process includes not just Commerce, but also Defense, Energy, Justice
(for encryption exports), State, the U.S. Arms Control and Disarmament Agency (ACDA),2 and
the Central Intelligence Agency’s Nonproliferation Center. Under Executive Order 12981,
Defense, Energy, State, and ACDA have the authority to review any export license application
submitted to Commerce under the Export Administration Act and regulations. The executive
order also established mandatory escalation procedures when agencies disagreed about dual-use
export license applications and refined the timelines for this process.

We determined that the interagency referral and the escalation processes are working reasonably
well. There are four levels of escalation for dual-use cases: the Operating Committee (OC) at the
senior civil service level, the Advisory Committee on Export Policy (ACEP) at the assistant
secretary-level, the Export Administration Review Board (EARB) at the Cabinet level, and the
President. Each level of the escalation process is required to consider all matters referred to it,
giving consideration to foreign policy, national security, and domestic economy concerns as well
as concerns about the proliferation of weapons of mass destruction. With an orderly procedure to
resolve interagency disputes, the export licensing process has been greatly improved since the
1993 special interagency OIG review.

Throughout our review of the export licensing process, we found BXA personnel to be extremely
burdened by oversight reviews and multiple requests for information from congressional
committees, the General Accounting Office, and outside organizations, including extensive
Freedom of Information Act requests. In spite of these demands, BXA personnel have been able
to successfully perform their normal duties of reviewing export license applications and issuing
export licenses. While we noted significant areas of improvement, we also found the following
problems that warrant management’s attention.

Current export control legislative authority, executive orders, and regulations need
attention.

The 1990s have brought dramatic changes in worldwide economic and political conditions, as
well as in the environment for controlling the export of U.S. commodities and technology.
However, as we examined the legislation, executive orders, and regulations used to control U.S.
exports, we found several weaknesses that need to be addressed in order to strengthen the export
licensing and enforcement process.

First and foremost, new legislative authority is needed to replace the expired Export
Administration Act and accurately reflect current export control policies. In providing this
authority, one issue to be addressed is whether the Congress should consider allowing BXA to
review dual-use items that may fall under the U.S. Munitions List administered by the State


       2
        ACDA was a separate agency until April 1999, when it became a part of the Department of State.

                                                     ii
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999




Department, thereby increasing the transparency of the government wide licensing process. In
addition, the requirement to conduct a post shipment verification for every high performance
computer shipped to Tier 3 countries, as mandated by the 1998 National Defense Authorization
Act, may not be the most effective use of government resources. We also determined that minor
changes are needed to Executive Order 12981 with regard to the impact of the U.S. Arms Control
and Disarmament Agency’s merger with State, as well as clarification on agency representatives at
the assistant secretary-level Advisory Committee on Export Policy. Finally, we believe that the
export control policy and regulations regarding the release of technology to foreign
nationals–commonly referred to as “deemed exports”–are ambiguous and need to be revised.
(See page 23.)

More transparency is needed in the commodity classification process.

While BXA holds the exporter responsible for classifying an export item, it will advise an exporter
whether an item is subject to the Export Administration Regulations and, if applicable, identify the
appropriate Export Control Classification Number. Exporters may verbally inquire about a
commodity classification (e.g., telephone call), but only written inquiries result in binding
determinations. During our review, we found that BXA had instituted a front-end review
mechanism to pre-screen commodity classifications before distributing them to the appropriate
engineer for review.

This initial step serves as an important quality control measure, but we have identified two areas
that still need improvement. First, Export Administration’s processing of exporters’ commodity
classification requests is untimely, resulting in delays for exporters. Second, and more
importantly, BXA needs to work with both Defense and State to ensure that the CCATS process
is more transparent with regard to items or technologies specifically designed, developed,
configured, adapted and modified for a military application, or derived from such items as called
for in the NSC guidance. Therefore, we recommend that BXA, in conjunction with the Defense
and State, work with the NSC to develop specific criteria and procedures for the referral of
munitions-related commodity classifications to Defense and State. Otherwise BXA leaves this
process vulnerable to incorrect classifications (e.g., the 1995 investigative report on the crash of a
Chinese rocket carrying a satellite for which BXA mistakenly determined no license was
required). (See page 39.)

Licensing officers’ analysis of export applications could be enhanced.

One of BXA’s core missions is to analyze and process export license applications. Proper case
analysis is critical in ensuring that the appropriate export policy and procedures are followed for
individual applications. However, during our review, we found it difficult to determine whether
some applications were being thoroughly analyzed by licensing officers in the initial review period
because there was little indication in the license history about how they reached their conclusions.




                                                  iii
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999




The lack of information in the licensing history does not necessarily indicate that licensing officers
did not take into consideration the necessary elements, such as the reasonableness of the end use
or background of the end user. However, without this critical information in the history, referral
agencies cannot make the most informed decisions. We believe that better policies and
procedures, as well as additional training, could enhance licensing officer analysis and
documentation of applications. (See page 47.)

Export license application review process has improved, but some weaknesses need to be
addressed.

In fiscal year 1998, BXA referred 85 percent of export license applications to other agencies for
review, up from 53 percent in fiscal year 1995. While we believe the overall referral process is
generally effective, we did identify some areas that need management attention including
(1) licensing officers amending existing licenses without interagency review; (2) inadequate
review time provided to the CIA’s Nonproliferation Center for its end user checks; (3) BXA not
providing its licensing officers with the latest CIA guidance outlining what license applications
should not be referred to the Nonproliferation Center; and (4) BXA canceling pre-license checks
without notifying the referral agencies when they have approved a license conditioned on a
favorable end use check. In addition, we highlight two other areas of concern that require
interagency attention.

First, while the intelligence community plays a critical role in license review and threat analysis,
we found that the CIA and its Nonproliferation Center do not review all dual-use export
applications or always conduct a comprehensive analysis of export license applications they do
receive. In addition, the current dual-use licensing process does not take into account the
cumulative effect of technology transfers. While individual technology sales may appear benign,
combining technology sales over a long period of time may allow U.S. adversaries to build
weapons of mass destruction or other capabilities that could threaten our national security. We
believe this type of cumulative effect analysis, while difficult to make, would be valuable to have
during the export license application decision-making process. BXA should work with the
intelligence community, including the CIA, Defense, and Energy, to determine the feasibility of
developing a mechanism to better track and assess the cumulative effect of dual-use exports to a
specific country or region.

Second, as we have reported in the past, another key element missing from the export licensing
process is the screening of all parties to pending license applications against the Treasury
Enforcement Communication System (TECS) database maintained by the Treasury Department’s
U.S. Customs Service. TECS was created to provide multi-agency access to a common database
of enforcement data to satisfy a recognized need to promote the sharing of sensitive information
between federal law enforcement agencies. Screening every export license applicant and
consignee against TECS during the initial phases of the licensing process would give licensing and
enforcement authorities early warning of any potential concerns Customs may have. (See page
57.)


                                                 iv
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999




Dispute resolution process gives referral agencies a meaningful opportunity to escalate
licenses.

The four-level dispute resolution process has been effective. From fiscal years 1991 to 1998, the
number of cases escalated to the Operating Committee increased by 353 percent, while the
number of cases escalated to the Advisory Committee on Export Policy decreased by 62 percent.
In addition, only 21 license applications have been escalated to the Export Administration Review
Board during this time period; however, only one has been escalated since 1991. The fact that
there has been a significant increase in the cases escalated to the Operating Committee, and a
decrease in cases escalated to the ACEP and EARB, indicates that this process is working well.

We found that the Chair of the Operating Committee affords each agency–including BXA–the
opportunity to present its recommendation on every application the OC reviews. While the OC
Chair has been given the authority to decide all cases at this level without having to reflect the
recommendations of the majority of the participating agencies, the decisions of the Chair are
usually based on interagency consensus. However, we did identify several areas that need
management attention: (1) the OC Chair’s role needs to be clarified, (2) agency delegations of
authority cause delays at the OC, (3) the process of returning escalated cases to the licensing
officers requires additional quality control. (See page 77.)

BXA has sought interagency guidance during review of exporter appeals, but a more
formal process is needed.

Once an export license application has been formally denied, the exporter has the right to appeal
to the Under Secretary, whose decision is considered final. Although BXA informally confers
with the referral agencies on appeals, there is no requirement that this decision be made in
consultation with the other referral agencies involved in the export licensing process.

However, this part of the exporter appeals process raises a legitimate question as to whether an
exporter could use the process to circumvent the interagency referral process (i.e., a case denied
during the interagency license review could be approved during an appeal, with no formal
interagency review). While we found no evidence to suggest that this has happened, we believe
that for the sake of transparency in the export licensing process, the referral agencies should be
formally included in the appeals process. (See page 87.)

BXA needs to improve its monitoring of license conditions with reporting requirements.

The ability to place conditions on a license is an important part of the license resolution process,
as well as an additional means to monitor certain shipments. While 28 standard conditions can be
placed on an export license, there are only 7 that actually require the exporter to provide
documentation to BXA for shipments made against the license. Export Administration is




                                                 v
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999




responsible for monitoring six of these conditions, and Export Enforcement the remaining one.
However, BXA is still not adequately monitoring license conditions as first reported in the 1993
special interagency OIG review.

Specifically, both Export Administration’s and Export Enforcement’s follow-up subsystems were
out of date because they had not followed up on expired licenses. In addition, most licensing
officers (except for those responsible for deemed exports and encryption) are not involved in
monitoring conditions they place on the licenses. Licensing officers also did not have access to
exporters’ compliance history in order to make the most informed decision about an export
license application. By not having an adequate monitoring system in place, BXA cannot assure
itself that the goods were not diverted to an unauthorized end user, and exporters may receive
new licenses even though they did not comply with previous licenses.
(See page 93.)

End use checks are a valuable tool, but some improvements are needed.

End use checks, an important part of the license evaluation process, are used to verify the
legitimacy of export transactions controlled by BXA. A pre-license check is used to validate
information on export license applications by determining if an overseas person or firm is a
suitable party to a transaction involving controlled U.S.-origin goods or technical data. Post
shipment verifications strengthen assurances that exporters, shippers, consignees, and end users
comply with the terms of export licenses and licensing conditions, by determining whether goods
exported from the U.S. were actually received by the party named on the license and are being
used in accordance with the license provisions. These checks, which help prevent and detect
illegal technology transfer, are generally conducted by Commerce’s U.S. and Foreign Commercial
Service (US&FCS) officers stationed at overseas diplomatic posts and BXA’s export enforcement
agents through its Safeguard Verification program.

This review found some of the concerns identified in previous OIG reports with respect to end
use checks conducted by US&FCS. Among these concerns are (1) untimely end use checks,
(2) US&FCS’s use of foreign service nationals and personal service contractors to conduct some
checks, (3) failure to perform on-site checks, and (4) insufficient US&FCS coordination with
other parts of the embassy and host governments in conducting checks.

In addition, while Export Enforcement’s Safeguard Verification program enhances the end use
checks because of the “enforcement” element it brings to the process, we have a number of
suggestions that could make this program more effective: (1) better initial trip planning, (2) better
in-country consultations, (3) clearer guidance or a standard format for trip reports, and (4) faster
and wider dissemination of Safeguard check results, especially negative findings. We also believe
that BXA should use the Safeguard visits as an opportunity to better train US&FCS staff on
conducting end use checks. Our report also highlights specific conditions regarding end use
checks in China, Hong Kong, and Israel. (See page 103.)




                                                 vi
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999




Other OIG concerns are related to the export licensing process.

Our review identified two areas in the export licensing process that have raised enforcement
concerns. The first issue is BXA’s practice of returning some export license applications without
action after an unfavorable pre-license check was received. A second issue is Export
Administrations’s untimely processing of license determination requests from BXA’s export
enforcement agents and the Customs Service. (See page 125.)

BXA needs a new automated export licensing system.

The Export Control Automated Support System, developed by BXA in 1984, is a large database
system that provides license processing and historical license information to BXA and the referral
agencies. We determined that the system’s internal controls are generally adequate and that its
data are sufficiently reliable. However, we have identified some controls that need strengthening
or further implementation. In addition, although the export licensing referral process has been
working reasonably well and become increasingly transparent over the past five years, the agency
automation systems are lagging way behind. We strongly agree with BXA that it needs a new
system to process export license applications efficiently and effectively. While we encourage
BXA and the Congress to move ahead with the development and funding of a new system as soon
as possible, we believe that BXA should concurrently ensure that it considers the best available
options, including a classified system. We also urge BXA to coordinate its system development
efforts with the other export licensing agencies to ensure that all of the systems are compatible
and, at a minimum, are able to interact with each other. (See page 133.)

On page 157, we offer detailed recommendations to address our concerns.



In BXA’s June 3, 1999, written response to our draft report, the Under Secretary for Export
Administration generally agreed with most of our recommendations. The Under Secretary
reported that for some recommendations, the benefits of changing BXA’s current practice are not
readily apparent or the changes may be difficult to implement, such as those relating to “deemed
exports,” or providing for TECS screening of pending license applications. We disagree.

With regard to the “deemed export” rule, our review determined that not only are the regulations
for deemed exports ill-defined, but the export control policy concerning deemed exports itself
appears to be ambiguous. The lack of understanding regarding deemed exports could damage
national security if sensitive technology is released to inappropriate end users. We strongly urge
BXA to move expeditiously to clarify this requirement with the National Security Council and
provide clearer guidance to U.S. research laboratories and industry.




                                                vii
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999




In addition, since we first identified the weakness related to BXA’s failure to screen its licensing
data against TECS, we have not seen any real improvement in this process. As a result, we have
again recommended that BXA update the 1993 MOU between BXA and Customs to provide for
TECS screening of pending license applications. Screening every applicant and consignee against
TECS during the initial phases of the licensing process would give licensing and enforcement
authorities early warning of any potential concerns Customs may have. We believe that as the
agency with the ultimate responsibility for issuing U.S. dual-use export license applications, BXA
has an obligation to take every precautionary measure to ensure that all potential export
enforcement concerns within the U.S. government are considered before issuing a license. By not
doing so, BXA is making licensing decisions based on incomplete information. We do not
understand why BXA has not implemented this three-year-old recommendation since the problem
is not fixed.

The Under Secretary also stated that a critical shortcoming in our report is that virtually none of
our recommendations, whether BXA agrees with them or not, includes any assessment of the
budgetary impact. We are not convinced that the majority of our recommendations would require
substantial budget increases, with the exception of the development of its new automated
licensing system. We also contend that all of our recommendations will improve the efficiency
and effectiveness of the export licensing process.

Finally, while the Under Secretary indicated a concern that our answers to Senator Thompson’s
questions do not precisely track the body of the report, we disagree. Obviously, as BXA points
out, the report is a more detailed document than the answers to the specific questions. For each
question, we refer the reader back to the applicable section of the report for more details.

Where necessary, we have made changes to the report and recommendations. BXA’s complete
response has been included as Appendix D to this report.




                                                viii
U.S. Department of Commerce                                                        Final Report IPE-11488
Office of Inspector General                                                                     June 1999




                                          INTRODUCTION

In August 1998, the Chairman of the Senate Committee on Governmental Affairs requested that
the Inspectors General from the Departments of Commerce, Defense, Energy, State, and the
Treasury and the Central Intelligence Agency conduct an interagency review of the export
licensing process for dual-use commodities and munitions. The committee chairman specifically
asked the six Inspector General offices to update a 1993 interdepartmental OIG review of the
export licensing process3 and answer 14 questions. (See Appendix A for a complete listing of the
14 questions and answers.) In addition to addressing the committee’s questions, we expanded
our review to perform a complete program evaluation of the dual-use export licensing process
which is administered by the Department’s Bureau of Export Administration.

Program evaluations are special reviews the OIG undertakes to give agency managers timely
information about operations, including current and foreseeable problems. By highlighting
problems, the OIG hopes to help managers move quickly to address them and to avoid similar
problems in the future. The evaluations are also conducted to detect and prevent fraud, waste,
and abuse and to encourage effective, efficient, and economical operations. Program evaluations
may also highlight effective programs or operations, particularly if they may be useful or adaptable
for agency managers or program operations elsewhere.

We conducted our evaluation from October 1, 1998, through April 15, 1999. This evaluation was
conducted pursuant to the authority of the Inspector General Act of 1978, as amended, and in
accordance with the Quality Standards for Inspections issued by the President's Council on
Integrity and Efficiency. During our review, we found that BXA personnel felt extremely
burdened by oversight reviews and multiple requests for information from congressional
committees, the General Accounting Office, and outside organizations, including extensive
Freedom of Information Act requests. According to BXA, in fiscal year 1998, it had 141
Freedom of Information Act requests including several time-consuming ones from Judicial Watch;
77 congressional requests; 8 General Accounting Office requests; and 4 Inspector General
requests. BXA provided the House Select Committee on U.S. National Security and
Military/Commercial Concerns with the People’s Republic of China (commonly known as the Cox
Commission) with information for over nine months. In spite of these demands, BXA personnel
have performed their normal duties of reviewing export license applications and issuing export
licenses. However, during our review, we found that some BXA personnel felt under siege and
were somewhat defensive in responding to our requests for information. Nonetheless, we also
found that most of BXA’s managers, licensing officers, and systems personnel were cooperative.
At the conclusion of the program evaluation, we discussed our observations and
recommendations with BXA’s Under Secretary and other bureau officials.




        3
         The Federal Government’s Export Licensing Processes for Munitions and Dual-Use Commodities,
conducted by the OIGs at the Departments of Commerce, Defense, Energy, and State, September 1993.

                                                    1
2
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999




                                     PURPOSE AND SCOPE

The purpose of our program evaluation was to assess the interagency export licensing process for
dual-use commodities and determine whether current practices and procedures are consistent with
established national security and foreign policy objectives. The scope of our program evaluation
included assessing the adequacy of (1) compliance with the current legislative authorities and
federal regulations regarding dual-use commodities, (2) the interagency export licensing process
for dual-use commodities, including the escalation and appeals processes, (3) exporter compliance
with export license conditions, (4) monitoring the stated end use and end users of licensed
commodities, and (5) the licensing information management system, including security of data
transmitted between the various agencies.

To coordinate the review of interagency licensing issues and determine the work performed by
each OIG team, the six OIGs formed an interagency working group and held monthly meetings.
Representatives of the six OIG review teams also met several times with the Staff of Senator Fred
Thompson, Chairman of the Senate Committee which requested the review. We discussed the
scope and procedures of the review with the committee staff , but not our findings prior to
issuance of the reports. A decision was made by the six OIGs that each OIG would issue a report
on the findings of its agency review, and there would also be a consolidated report on
crosscutting issues that all six OIGs would contribute to and approve.

BXA’s export control legislation

We examined current and prior legislation, executive orders, and related regulations, including the
Export Administration Act of 1979, the Export Administration Regulations, the International
Emergency Economic Powers Act, and Executive Orders 12924, 12981, and 13026 to assess the
roles and responsibilities of the governmental agencies and departments involved in dual-use
export licensing. We also examined (1) BXA annual reports for fiscal years 1993-97,
(2) Presidential Budget Submissions for Fiscal Years 1993-99 and the Office of Management and
Budget’s Fiscal Year 2000 budget submission for BXA, and (3) BXA’s strategic plan for fiscal
years 1999-2004 to determine how BXA is carrying out its responsibilities.

Export licensing process for dual-use commodities

We interviewed more than 50 BXA officials, including most of the bureau’s senior managers and
two of its attorneys; regulatory officials, licensing officials, and analysts in Export Administration;
and enforcement agents and analysts in Export Enforcement to assess BXA’s export licensing
process. We also interviewed officials at the Departments of Defense, Energy, Justice, State, and
the Treasury; the U.S. Arms Control and Disarmament Agency; the General Accounting Office;
the National Security Agency; the Nonproliferation Center of the Central Intelligence Agency; and
the U.S. Postal Service.




                                                  3
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999




To further assess the strengths and weaknesses of the export licensing process, we sent out a
questionnaire to survey all Export Administration licensing officers (LOs) and their supervisors,
and reviewed LO operating manuals, personnel position descriptions, performance plans, training
plans, and vacancy announcements. We examined prior reports on dual-use and munitions export
licensing processes prepared by our office and the General Accounting Office. In addition, we
reviewed reports prepared by BXA’s task force that examined commodity classifications, export
licensing, license determinations, and the Operating Committee (OC).

In addition to our interviews, survey and document review, we examined BXA’s licensing
process, including (1) commodity classification, (2) non-referred licensing, (3) referral process,
(4) escalation process, (5) appeals, and (6) license determinations. To understand the above six
components of the licensing process, we sampled and reviewed licenses for some components, or
because of a small number, reviewed all license applications for other components.

l      The Departments of Defense and State both indicated to the other OIG team members a
       need for more transparency in the commodity classification process. To address their
       concerns and evaluate whether BXA is generally making the correct classification, we
       reviewed a sample of 103 commodity classification line items out of 6,161 done during
       fiscal year 1998.

l      To determine whether the licensing and referral process is generally operating as mandated
       by current export control legislation, orders and regulations, we reviewed a sample of 60
       non-referred export licenses and 179 referred licenses during the period January - June
       1998. The objective of our sample design was to address Senator Thompson’s Question 7
       regarding license application referrals. The tested conditions were whether (1)
       applications referred out of Commerce for review by other U.S. agencies should not have
       been and (2) those not referred should have been. Our review used a stratified sample
       structure to accommodate the fact that each application may be referred to two or more
       federal organizations outside of Commerce. We conducted our review based on the
       referred/non-referred distinction. Within each stratum (referred and non-referred), we
       used a simple random sample.

l      To determine whether the escalation process is generally operating as mandated by
       Executive Order 12981, we reviewed 26 license applications out of 266 that were
       escalated to the OC and all 8 escalated to the Advisory Committee on Export Policy
       (ACEP) during the same time period as our license sample. We also attended three OC
       meetings and two ACEP meetings. Because the Export Administration Review Board
       (EARB) did not convene during our evaluation, we did not attend any of its meetings.

l      If an exporter disagrees with the final licensing decision, they can appeal the decision; we
       reviewed 23 appeals by exporters that were resolved during the period October 1997 -
       December 1998.




                                                4
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999




l       To address the concerns of Export Enforcement staff regarding the long time it takes
        Export Administration to complete a license determination, we examined the records for
        212 license determinations referred to Export Administration by Export Enforcement.

Exporter compliance with conditions placed on licenses

The 1993 special interagency OIG review of BXA’s export licensing process pointed out a lack of
exporter compliance with conditions on export licenses. To determine whether BXA corrected
this problem, we interviewed Export Administration and Export Enforcement personnel
responsible for monitoring exporter compliance. We also analyzed samples of 39 licenses in
Export Administration’s Compliance Follow-Up Subsystem, 20 licenses in Export Enforcement’s
Compliance Follow-Up Subsystem, and 42 licenses from the sample of referred licenses.

End use check guidelines, procedures, and practices

We examined Commerce’s monitoring of licensed items and end users by reviewing 12 Safeguard
trip reports4 and prior OIG reports, sampling 1245 out of 331 completed/canceled
pre-license checks as listed on an October 1998 ECASS printout, and sampling 18 out of 109
completed post shipment verifications as listed on an October 1998 ECASS printout. Commerce’s
United States and Foreign Commercial Service (US&FCS) overseas personnel and Export
Enforcement agents conduct end use checks. To understand how both groups perform end use
checks, we surveyed commercial officers at 27 US&FCS posts, observed end use checks
performed by US&FCS personnel in Israel, and observed end use checks performed by Export
Enforcement personnel in Malaysia. We also discussed the performance of end use checks by
other US&FCS officers during our conduct of recent OIG inspections of US&FCS posts in China
and Hong Kong.

BXA’s Export Control Automated Support System

We reviewed the operation of the Export Control Automated Support System (ECASS), BXA’s
automated licensing information management system, by reviewing the system’s operations and
procedures manuals. To assess data integrity and system integrity, we reviewed the ECASS
database management controls related to data management, database management, database
integrity, database operations, and database security. We also interviewed BXA information
technology personnel and BXA system contractor personnel about implementing a new system




        4
         BXA’s Office of Export Enforcement agents prepare Safeguard reports after each overseas trip they
conduct to monitor or check on the end use and end users listed on dual-use export licenses.
        5
          Originally, we selected 166 PLCs to review, but only 124 were initially found in BXA’s files. Except for
our discussion in Section IX, our sample analyses are based on these 124 PLCs. BXA later found and submitted
supporting documents for all but one of the 166 sample PLCs requested.

                                                        5
U.S. Department of Commerce                                               Final Report IPE-11488
Office of Inspector General                                                            June 1999




and performing actions to make ECASS Year 2000 compliant. We did not review BXA’s specific
Year 2000 actions to date; we only determined what Year 2000 actions have occurred.

We also interviewed numerous BXA managers and licensing officers to obtain their comments,
issues, and concerns about ECASS. We interviewed computer personnel at the referral agencies
who are responsible for receiving information from and transmitting information to BXA on dual-
use export licenses. We also interviewed the Department’s Chief Information Officer to discuss
BXA’s system development efforts.




                                              6
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999




                                        BACKGROUND

The United States controls the export of dual-use commodities for national security, foreign
policy, and nonproliferation reasons under the authority of several different laws. Dual-use
commodities are goods and technology determined to have both civilian and military uses. The
primary legislative authority for controlling the export of dual-use commodities is the Export
Administration Act of 1979, as amended. Under the act, the Department of Commerce’s Bureau
of Export Administration (BXA) administers the Export Administration Regulations (EAR) and
the U.S. Government’s export control licensing and enforcement system for dual-use
commodities.

The Export Administration Act has been expired since September 1990, except for a brief time in
1994 when it was reinstated. However, during periods in the past when one version of the act has
expired and a new version has not been enacted, the authority for imposing export controls is
derived from the International Emergency Economic Powers Act (IEEPA). Most recently,
IEEPA has enabled BXA to control exports for the period from August 1994 to the present while
the Congress continues to debate enactment of a new export control act. (See Section I for a
further discussion of the impact of the Export Administration Act’s expiration.)

BXA is a regulatory agency that enhances the nation’s security and its economic prosperity by
controlling exports for national security, foreign policy, and short supply reasons. BXA
administers the Export Administration Act by developing export control policies, issuing export
licenses, and enforcing the laws and regulations for dual-use exports.

BXA was established in 1987 in response to a congressional mandate to ensure adequate
separation of the Department of Commerce’s export control and export promotion roles and
responsibilities. Before that time, the Department’s export control functions were performed by
the International Trade Administration, which continues to be responsible for the Department’s
trade promotion activities. Despite the separation, there is still much debate about whether the
Commerce Department and BXA maintain the appropriate balance between promoting U.S. trade
and exports and controlling the export of goods and technology that could be detrimental to our
national security interests.

I.     BXA’s Organizational Structure

BXA's two principal operating units, Export Administration and Export Enforcement, as well as
its Office of Administration, have undergone significant reorganization in recent years in an effort
to reform and streamline the export control system. Before October 1994, the
export control function within BXA was separated into three elements: policy, licensing, and
enforcement. In October 1994, BXA’s new leadership combined policy and licensing into units
with specific areas of concern: (1) nuclear and missile technology, (2) chemical and biological
weapons, and (3) strategic trade and foreign policy. BXA’s new structure was designed to




                                                 7
U.S. Department of Commerce                                                          Final Report IPE-11488
Office of Inspector General                                                                       June 1999




provide better coordination between BXA export policy and licensing decisions. Enforcement is
still a separate functional element. (See Figure 1.)

Figure 1

                                     Bureau of Export Administration
                                         Organization Structure

                                                                                      Director of
                                                                                    Congressional,
                                                  Under Secretary for                  Public and
                                                 Export Administration            Intergovernmental
          Director of                                                                   Affairs
         Administration
                                                 Deputy Under Secretary

                                                                                   Chief Counsel




                                                    Director of Critical
                Assistant Secretary for                                    Assistant Secretary for
                                                      Infrastructure
                Export Administration                                       Export Enforcement
                                                     Assurance Office


                  Deputy Assistant                                           Deputy Assistant
                    Secretary for                                              Secretary for
                Export Administration                                       Export Enforcement



          Director of
       Exporter Services                  Director of Chemical and
                                          Biological Controls and                  Director of
                                             Treaty Compliance                Enforcement Analysis



      Director of Nuclear                                                          Director of
          and Missile                       Director of Strategic              Export Enforcement
     Technology Controls                     Trade and Foreign
                                               Policy Controls
                                                                                    Director of
                                                                              Antiboycott Compliance
                                            Director of Strategic
                                               Industries and
                                             Economic Security


Source: 1999 Organization Chart, Bureau of Export Administration.




                                                           8
U.S. Department of Commerce                                                                   Final Report IPE-11488
Office of Inspector General                                                                                June 1999




Export Administration

Export Administration is composed of five offices: (1) Exporter Services, (2) Nuclear and Missile
Technology Controls, (3) Chemical and Biological Controls and Treaty Compliance, (4) Strategic
Trade and Foreign Policy Controls, and (5) Strategic Industries and Economic Security.

         Office of Exporter Services

The Office of Exporter Services is responsible for Export Administration’s outreach and
counseling efforts to help ensure exporters’ compliance with Export Administration Regulations,
and coordination of policy within Export Administration. To educate exporters about the
requirements of U.S. export control laws and regulations, Exporter Services personnel develop
brochures and other written guidance and distribute them in workshops, exporter seminars, and
on BXA’s website. This office also provides exporter counseling. The Office of Exporter
Services codifies regulatory policy, revises the existing regulations, drafts new regulations, and
coordinates with other federal agencies on the clearance of all changes to Export Administration
Regulations. In addition, Exporter Services is responsible for the receipt, screening, and data
inputs of all export license information into ECASS, BXA’s automated licensing information
system, and the issuance of all export licenses once approval has been obtained. This office is also
responsible for following up to determine exporters’ compliance with license conditions.

         Office of Nuclear and Missile Technology Controls

The Office of Nuclear and Missile Technology Controls has a full range of responsibilities
associated with the licensing of exports controlled for nuclear or missile technology reasons and
proposed exports subject to the Enhanced Proliferation Control Initiative.6 The office has two
divisions: (1) the Nuclear Technology Controls Division and (2) the Missile Technology Controls
Division.

The Nuclear Technology Controls Division is responsible for licensing items that is responsible for
licensing items that fall under the Nuclear Referral List and the Nuclear Suppliers Group (NSG).
The Nuclear Referral List are items subject to the EAR that could be of significance for nuclear
explosive purposes if used for activities other than those authorized at the time of export or
reexport. The NSG–established in 1992 and composed of 34 member countries–sets controls on
nuclear material, equipment, and technology unique to the nuclear industry, and dual-use items
that have both nuclear and non-nuclear commercial and military applications. The Nuclear
Suppliers Group published guidelines and an annex setting forth how members should proceed in
imposing restrictions on affected exports and listing the items that each member nation should




         6
            This initiative’s provisions require that all exporters obtain a license if they have knowledge or are
informed by BXA that a proposed export could be used in nuclear, chemical, or biological weapons or missile
activities.

                                                           9
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999




make subject to export controls. The guidelines establish the underlying precepts of the regime,
provide a degree of order and predictability among suppliers, and help ensure harmonized
standards and interpretations of NSG controls. The Nuclear Technology Controls Division
reviewed more than 1,300 licenses in calendar year 1998.

The Missile Technology Controls Division is responsible for all licensing of items that relate to the
Missile Technology Control Regime. The Missile Technology Control Regime was formed in
1987 by the United States and 6 other countries (now totaling 29 members) to limit the
proliferation of missiles capable of delivering weapons of mass destruction. Although the current
members are not bound by a treaty, they have agreed on guidelines to coordinate their national
export controls to prevent missile proliferation. The guidelines provide licensing policy,
procedures, review factors, and standard assurances for missile technology exports and form the
basis for U.S. missile technology controls. Licensing authority for most of these items lies with
the Department of State. A considerable portion of the license applications reviewed for missile-
related concerns by BXA are for commercial aviation exports, including avionics, navigation,
telemetry, composite materials, and test equipment. The Missile Technology Controls Division
reviewed approximately 840 licenses in 1998.

        Office of Chemical and Biological Controls and Treaty Compliance

The Office of Chemical and Biological Controls and Treaty Compliance, consisting of the
Chemical and Biological Controls Division and the Treaty Compliance Division, reviewed
approximately 2,100 licenses in calendar year 1998. The Chemical and Biological Controls
Division administers export controls and develops policy relating to the Australia Group. The
Australia Group is a forum of 30 industrialized countries that cooperate in curbing the
proliferation of chemical and biological weapons through the coordination of export controls, the
exchange of information, and other diplomatic actions. Australia Group members have agreed to
adopt controls on dual-use chemicals and equipment and biological microorganisms and related
equipment. The Treaty Compliance Division is responsible for outreach efforts to develop
industry awareness about the impact of the Chemical Weapons Convention, which became
effective on April 28, 1997, including providing information about industry’s rights and
obligations, and completing on-site inspection protocols.

The Office of Chemical and Biological Controls and Treaty Compliance also oversees the Foreign
Nationals Program and the Short Supply Program. The Foreign Nationals Program administers
export controls and develops policy relating to “deemed exports.” According to the Export
Administration Regulations, any release to a foreign national of controlled technology or software
that is subject to the regulations is “deemed to be an export” to the home country of the foreign
national. In such instances, the U.S. host(s) would generally be required to obtain an export
license before providing the foreign national access to such technology or software.7 The

        7
         Per 15 CFR 734.2(b)(2)(ii), this deemed export rule does not apply to persons lawfully admitted for
permanent residence in the United States and does not apply to persons who are protected individuals under the
Immigration and Naturalization Act (8 U.S.C. 1324b(a)(3)).

                                                        10
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999




Short Supply Program administers the short supply export controls as mandated by the Export
Administration Act, such as western red cedar and crude oil.

       Office of Strategic Trade and Foreign Policy Controls

The Office of Strategic Trade and Foreign Policy Controls comprises three divisions that
reviewed over 6,000 licenses in 1998. The Strategic Trade Division is responsible for
implementing the multilateral export controls under the Wassenaar Arrangement, the successor
regime to the Coordinating Committee on Multilateral Export Controls, which deals with
conventional arms and related dual-use items. The Wassenaar Arrangement, consisting of 33
member states, including Russia, attempts to respond to the new security threats of the post-Cold
War era. It does this by seeking to control exports of armaments and sensitive dual-use items,
such as computers, machine tools, and satellites.

The Foreign Policy Controls Division implements and oversees U.S. export controls imposed for
foreign policy reasons, including controls for crime control, antiterrorism, and regional stability.
As such, this division is also responsible for administering controls on exports to terrorist states
such as Iran, Iraq, Libya, and North Korea. The Encryption Policy Division develops encryption
control policy, licenses commercial encryption products, and regulates key recovery agents.

       Office of Strategic Industries and Economic Security

The Office of Strategic Industries and Economic Security oversees issues relating to the health
and competitiveness of the U.S. defense industrial base by assisting U.S. companies to diversify
from defense-related products and industries to commercial production and markets, promoting
the sale of U.S. weapons systems to U.S. allies, analyzing the impact of export controls on key
industrial sectors, and conducting primary research and analysis on critical technologies related to
defense-related sectors. This division does not review export licenses.

Export Enforcement

Export Enforcement is composed of three offices: (1) Export Enforcement, (2) Enforcement
Analysis, and (3) Antiboycott Compliance.

       Office of Export Enforcement

The Office of Export Enforcement (OEE) investigates alleged export control violations of the
Export Administration Act, apprehends violators, and coordinates with other federal agencies,
including the Department of Justice and its Federal Bureau of Investigation, the Department of
the Treasury and its Customs Service, and the Department of State. The Office of Export
Enforcement has a headquarters office in Washington, D.C. and eight field offices staffed with




                                                 11
U.S. Department of Commerce                                                 Final Report IPE-11488
Office of Inspector General                                                              June 1999




federal criminal investigators empowered to make arrests, carry firearms, execute search warrants,
and seize goods about to be exported illegally. OEE agents also go overseas to conduct end use
or Safeguard checks to monitor the end use and end users listed on dual-use export licenses.

       Office of Enforcement Analysis

The Office of Enforcement Analysis is the central point for the collection, research, and analysis
of classified and unclassified information on end users who are of export control concern. Office
of Enforcement Analysis specialists review license applications and shipper’s export declarations
and develop preventive enforcement programs. This office also analyzes intelligence information
and determines when pre-license check and post shipment verification checks should be requested.
OEA also assists OEE special agents with research and analysis on investigative matters.

       Office of Antiboycott Compliance

The Office of Antiboycott Compliance monitors compliance with the 1977 provisions of the
Export Administration Act by seeking to counteract the participation of U.S. citizens in other
nations' economic boycotts or embargoes that the United States does not sanction. To enforce
the antiboycott provisions, the Office of Antiboycott Compliance investigates violations, such as
companies refusing to deal with blacklisted businesses and religious discrimination. This office
pursues the pertinent administrative or criminal sanctions against violators of the antiboycott
provisions, including civil penalties, the imposition of export denial for specific periods, and
referral to the Department of Justice for criminal prosecution.

Office of Administration

The Office of Administration is responsible for BXA’s overall administrative management. The
office manages administrative functions in support of headquarters, domestic, and overseas
operations; maintains liaison for administrative services provided by the Department’s Chief
Financial Officer and Assistant Secretary for Administration; prepares budget submissions;
coordinates the administrative aspects of BXA programs involving other departments and
agencies; provides supervision and guidance for BXA’s security program; supports the Under
Secretary and Deputy Under Secretary in developing BXA programs related to Department and
government wide initiatives such as diversity, quality management, and foreign technical
assistance and reinvention; and manages ECASS.

       BXA Appropriations

If BXA’s estimated funding for FY 2000 is realized, funding from FY 1993 through FY 2000 will
have increased almost 32 percent, from $41.0 million to $54 million. In FY 1993 BXA’s
appropriation was $41 million. From FY 1994 to FY 1998, BXA’s appropriations fluctuated




                                               12
U.S. Department of Commerce                                                                  Final Report IPE-11488
Office of Inspector General                                                                               June 1999




from a low of $34.7 million in FY 1994 to a high of $43.9 million in FY 1998. BXA’s budget
also increased to $52.3 million in its FY 1999 budget and to $54 million in its FY 2000 budget
request. (See Figure 2.) BXA’s funding growth for FY 1998 through 2000 is primarily for new
programs in Export Administration and Export Enforcement.8

Export Administration’s budget for FY 1998 was $20.3 million, and its FY 1999 budget increase
of $1.4 million is mainly to support its responsibilities under the Chemical Weapons Convention.
Export Administration’s FY 2000 increase, if enacted, will provide over $1.3 million in additional
funding for the Chemical Weapons Convention.

Figure 2




Source: President’s Budget Submission to the Congress, FY 1995 - 2000.


Export Enforcement’s budget has also grown from $20.6 million in FY 1998 to $21.6 million in
FY 1999. Part of this increase was to cover (1) new enforcement responsibilities related to




         8
            Not included in the FY 2000 budget estimate above is $6.4 million for the establishment of a new office
in BXA to implement the Critical Infrastructure Program. Presidential Decision Directive 63 calls for a national
effort to assure the security of the increasingly vulnerable and interconnected infrastructures of the United States.
Such infrastructures include telecommunications, banking and finance, energy, transportation, and essential
government services. PDD 63 instructs the Department of Commerce to establish the Critical Infrastructure
Assurance Office to support the National Coordinator’s work with government agencies and the private sector and
to develop a national plan. Within Commerce, the CIAO is located in BXA whose Director reports to the Under
Secretary as well as the Secretary of Commerce and the National Coordinator at the National Security Council.

                                                         13
U.S. Department of Commerce                                                                 Final Report IPE-11488
Office of Inspector General                                                                              June 1999




encryption controls and the Fastener Quality Act,9 (2) staffing field offices including overseas
enforcement support, to meet increased responsibilities (e.g., counter-terrorism); and
(3) monitoring shipments to Hong Kong to identify possible diversions of strategically controlled
goods to China. Export Enforcement’s FY 2000 increase, if enacted, will provide additional
funding of $1 million for the post shipment verifications of high performance computers as
mandated by the National Defense Authorization Act.10

Figure 3 illustrates the personnel levels of Export Administration and Export Enforcement from
FY 1993 through 2000. In FY 1993, Export Administration supported 206 full time equivalents
(FTEs). The personnel levels fluctuated slightly during FY 1994 through FY 1996 and then
dropped to 148 FTEs in FY 1997. Personnel levels for Export Administration have grown in FY
1998 and 1999 and are projected to reach 200 FTEs in FY 2000, approximately the same number
of FTEs that Export Administration had in FY 1995. Most of the growth in Export
Administration personnel levels is due to its responsibility for implementing the Chemical
Weapons Convention (38 FTEs).

Figure 3




Source: President’s Budget Submission, FY 1995 - 2000.




         9
           The Fastener Quality Act of 1990, as amended, requires that certain threaded fasteners meet specified
technical standards and that they be tested by an accredited laboratory.
         10
            Under the National Defense Authorization Act for FY 1998, EE must undertake time-sensitive
analytical screening of pre-export notifications and conduct post shipment verifications on exports of high
performance computers to 50 countries, including China, India, Israel, Pakistan, and Russia.

                                                         14
U.S. Department of Commerce                                                          Final Report IPE-11488
Office of Inspector General                                                                       June 1999




Personnel levels for Export Enforcement was 154 in FY 1993 and fluctuated between 143 and
146 from FY 1994 through FY 1996, but increased to 162 in FY 1997 and 170 in FY 1998. The
number of FTEs is estimated to increase to 195 in FY 1999 and 200 in FY 2000, representing a
39 percent increase since FY 1994. The growth in EE personnel levels between FYs 1998 and
2000 is mainly in staffing for the National Defense Authorization Act and field investigative units.

        Export Control Automated Support System

BXA developed the Export Control Automated Support System in 1984 to expedite the license
approval process and better serve the U.S. exporter. ECASS, which is managed by the Office of
Administration, is a large database system used to process, store, and transmit dual-use export
licensing information, running on a mainframe at the departmental computer center in Springfield,
Virginia. ECASS is an unclassified system that supports over 600 users, including BXA
headquarters and field offices; the U.S. Arms Control and Disarmament Agency;11 the Central
Intelligence Agency; and the Departments of Defense, Energy, State, and the Treasury. During its
life cycle, ECASS has been upgraded to permit manual, electronic, and optical character
recognition data entry of license applications and commodity classification requests. (See ECASS
Section X of the report for a further description and discussion of the system.)

II.     Interagency Export Licensing Process

The Export Administration Act of 1979, as amended, gives authority to the Secretary of
Commerce to issue rules and procedures for processing dual-use export license applications. The
Congress intended that a determination concerning an export license application be made to the
maximum extent possible by the Secretary of Commerce without referral to any other government
department or agency. Authority to manage the dual-use export licensing process was delegated
by the Secretary to BXA. On December 5, 1995, the President issued Executive Order 12981, in
response to the need for more transparency in the dual-use export license process. Specifically, it
authorized the Departments of Defense, Energy, and State and the Arms Control and
Disarmament Agency to each have the authority to review any license application received by
Commerce. In addition, the executive order established mandatory escalation procedures for all
dual-use export license applications under interagency dispute and refined the time line for this
process. (See Figure 4.)




        11
          The U.S. Arms Control and Disarmament Agency was dissolved on April 1, 1999. Its licensing review
function was moved to the Department of State.

                                                     15
     Figure 4


                                                         Dual-Use Export Licensing Process
           0 Days                                        9 Days                                              39 Days                                    90 Days

                         Pre-License              License or Deny or RWA                               License or Deny or RWA                    License or Deny or RWA
                                                                                                                                                                                   Office of Inspector General




                            Check
                            (PLC)
                                                                                                                                                                                   U.S. Department of Commerce




         BXA Initial                     EE
         Screening/                    Review               Not Referred                                                                                           Post Shipment
         Technical                                                                                                                                                  Verification
          Review                                                                   NPC
                                                                               Information                      Decision
                                                                                                                                   Disagree
                                                       Decision      (1)
         (Registration
              of
         Application)                                       Referred
                                        Initial
                                                                           Referral Process
                                        Case




16
                                       Analysis
                                                                                ACDA
                                                                               Defense                (2)                                   Dispute Resolution Process
                                                                               Energy
                                                                                                Recommendations                       OC      ACEP     EARB      President
                                                                               Justice
                                                                                State                                                 (3)      (4)      (5)        (6)



                                                                                 PLCs




        (1) On day 9 of registration, BXA must either refer the application or issue, deny, or return without action (RWA) the license.

        (2) On day 39 of registration, the referral agencies must provide BXA with a recommendation.

        (3) On day 40 of registration, the application can be escalated to the Operating Committee, which has 14 days to make a recommendation.
        (4) On day 59 of registration, the application can be escalated to the Advisory Committee on Export Policy, which has 11 days to make a recommendation.

        (5) On day 75 of registration, the application can be escalated to the Export Administration Review Board, which has 11 days to make a recommendation.

        (6) On day 90 of registration, the application can be escalated to the President.



     Source: Export Administration Regulations, Bureau of Export Administration.
                                                                                                                                                                                                June 1999
                                                                                                                                                                                   Final Report IPE-11488
U.S. Department of Commerce                                                                Final Report IPE-11488
Office of Inspector General                                                                             June 1999




BXA Review Process

The number of export license applications that BXA receives has decreased from 65,111 in fiscal
year 1990 to 10,696 in fiscal year 1998, primarily due to the loosening of export controls at the
end of the Cold War. (See Figure 5.)

Figure 5




Source: Office of Administration, Bureau of Export Administration.

After a license application is received by BXA it is entered into ECASS, either manually or
electronically. ECASS automatically tries to match the parties listed on the application to parties
already in the system in order to assign it the same identification number (see Section X for
further discussion). For parties not recognized as already in the system, the system refers them to
the Office of Enforcement Analysis. On a daily basis, ECASS automatically screens all new
applications against the watchlist to identify any “flags” on the parties.12 Applications flagged by
the system are automatically referred to the Office of Enforcement Analysis or the Office of
Export Enforcement for further review and simultaneously to licensing officials in Export
Administration. Applications that are not flagged are automatically referred to licensing officials
for processing.

According to Executive Order 12981, BXA has nine days to conduct its initial case review and
refer the case to other reviewing departments or agencies if appropriate. Within the nine days,
licensing officers conduct an initial screening of the export license application to determine if



        12
           BXA’s watchlist contains the names of parties that have been identified as warranting increased scrutiny
for export license purposes.

                                                        17
U.S. Department of Commerce                                                      Final Report IPE-11488
Office of Inspector General                                                                   June 1999




there is sufficient information to process it. If so, the licensing officer then verifies the exporter’s
commodity classification–a critical step in the export licensing process because the commodity
classification determines the appropriate policies and procedures to apply. In addition, the
licensing officer will (1) determine the reasonableness of the end use specified by the exporter,
(2) document the licensing history of the exporter, (3) document the licensing history of the
ultimate consignee or end user(s), (4) analyze the reasonableness of the end use of the goods,
(5) document the reason(s) for not referring a license application to the other agencies if
applicable, and (6) provide a written recommendation.

Referral Process

While the four referral agencies can now see all export license applications, they have provided
Commerce with delegations of authority for certain types of applications based on the level of
technology, the appropriateness of the item’s stated end use, and the country of destination. Even
with the delegations, Defense receives and reviews almost all export license applications.
Applications with items controlled under the Nuclear Referral List and the Nuclear Suppliers
Group are referred to Energy. Applications for all items controlled for “foreign policy” reasons
are referred to State. ACDA gets all referrals of applications with items subject to “regional
stability” and “terrorism” controls; applications with items subject to certain “national security”
controls; applications with items controlled by the Australia Group, the Missile Technology
Control Regime, and the Nuclear Suppliers Group.

BXA also sends applications that have potential missile, nuclear, chemical, and biological
proliferation concerns to the Central Intelligence Agency’s Nonproliferation Center for an end
user review. In addition, since the transfer of jurisdiction of commercial encryption products from
State to Commerce in November 1996, the Department of Justice has been included in the referral
process for encryption exports. See Figure 6 for a comparison of referred and
non-referred license applications from fiscal years 1991 through 1998.




                                                  18
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999




Figure 6




Source: Office of Administration, Bureau of Export Administration.


Under the executive order time frames, referral agencies must provide a recommendation to
approve or deny the license application to the Secretary of Commerce within 30 days of receipt of
the referral and all the required information. To deny an application, the referral agency is
required to cite both the statutory and regulatory basis for denial, consistent with the provisions of
the Export Administration Act and the Export Administration Regulations. An agency that fails
to provide a recommendation within 30 days is deemed to agree with the decision of the Secretary
of Commerce.

Most export licenses are issued with conditions that require the exporter to abide by certain
restrictions. The conditions are primarily used to control proliferation of the commodity by
limiting the end use or restricting access of the commodity to specific end users. There are 28
standard conditions that BXA can place on an export license. When BXA refers the export
license application to the referral agency, it attaches the conditions for the agency to review. The
referral agencies can also recommend additional conditions to be placed on the export license
before it is issued. If any agency disagrees, the agency can escalate the application to the dispute
resolution committee(s).

Interagency Working Groups

If any of the referral agencies, including the intelligence community, wish to address a potential
proliferation concern about a particular application before escalating the matter, the export license
application may be referred for discussion to one of the three interagency working groups, all of



                                                      19
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999




which are chaired by the Department of State: (1) the Subgroup on Nuclear Export Coordination
which reviews nuclear related dual-use cases, (2) the Missile Technology Export Control Group
which reviews missile technology dual-use export license applications, and
(3) the Shield which reviews dual-use export license applications related to the possible
proliferation of chemical or biological weapons.

Dispute Resolution Process

If there is agency disagreement on whether or not to approve a pending license application after
the 30-day interagency review period, the application is automatically escalated to a higher-level
interagency working group called the Operating Committee. Under Executive Order 12981, the
OC members are comprised of representatives from the Departments of Commerce, Defense,
Energy, and State. The Chair of the OC is appointed by the Secretary of Commerce.
Non-voting members of the Operating Committee include representatives of the Nonproliferation
Center and the Joint Chiefs of Staff. The OC meetings occur weekly. The Chair of the OC
considers the recommendations of the reviewing departments before making a decision on the
export license applications. The OC Chair’s decision does not have to be based on the majority
vote. (See Section V for further discussion on the dispute resolution process.)

Any reviewing department may escalate the decision of the OC Chair, within five days of that
decision, to the Advisory Committee on Export Policy. The ACEP, which meets monthly, is
chaired by the Commerce Assistant Secretary for Export Administration, and members include
assistant secretary-level representatives from the Departments of Defense, Energy, State, and
ACDA. Appropriate representatives of the Nonproliferation Center and the Joint Chiefs of Staff
are non-voting members of the committee. Any dissenting department or agency may appeal the
majority decision of the ACEP to the Export Administration Review Board within five days.

The Export Administration Review Board is chaired by the Secretary of Commerce, and its
members include the Secretaries of Defense, Energy, State and the Director of ACDA. The
Chairman of the Joint Chiefs of Staff and the Director of the Central Intelligence Agency are
nonvoting members of the EARB. The EARB’s decision is based on a majority vote. Again,
within five days of this decision, any dissenting agency may make a final appeal to the President.

End Use Checks

End use checks help determine if the overseas parties or representatives of U.S. exporters are
suitable for receiving sensitive U.S. items and technology and will likely comply with appropriate
end use conditions and retransfer restrictions. As a result, end use checks are an important
component of the export licensing process. End use checks consist of pre-license checks (PLCs)
and post shipment verifications (PSVs). PLCs are conducted before the approval of a license
application to obtain information about a foreign end user or intermediary consignee. PSVs are
conducted after goods have been shipped to determine whether the licensed item or technology
was received and is being used appropriately by the party named on the license or shipper’s export


                                                20
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999




declaration (SED) or whether it was diverted to an unauthorized end user. The results of PLCs
are factored into the licensing recommendation that Export Enforcement makes to the licensing
offices. A PSV is used to verify whether the commodity is being used in accordance with the
license provisions.

Most PLCs and some PSVs are conducted by the Department’s International Trade
Administration’s U.S. and Foreign Commercial Service (US&FCS) personnel stationed in the
country where the check is to take place or by State Department personnel if US&FCS has no
office in the country. In addition, most PSVs and some PLCs are conducted by OEE’s
enforcement agents under the Safeguard Verification Program. In Fiscal Year 1998,
approximately 258 PLCs and 60 PSVs were conducted by US&FCS personnel, and 25 PLCs and
286 PSVs were conducted by BXA Safeguard teams. A total of 283 PLCs and 346 PSVs were
completed. The end use checks can be initiated or requested by any of the parties involved in the
license review process, including BXA’s licensing or enforcement personnel, referral agencies, or
members of interagency groups to which a license has been referred.

III.   Problems Previously Identified in the Export License Application Process (1993)

In our September 1993 special interagency OIG report, we identified a number of problems in the
license process, including continued disagreement among most of the agencies regarding which
applications should be referred for comments and inconsistencies in the databases at BXA and
Energy. We recommended that Commerce, Energy, Defense, and State, in cooperation with the
National Security Council, develop appropriate procedures for addressing the referral issues and
determine the feasibility of, and potential benefits from, expanding the use of ECASS for dual-use
export information licensing data.

Our 1993 report also stated that BXA was not (1) maintaining sufficient documentation to
provide a reliable audit trail of the actions taken on applications, (2) taking actions to ensure that
exporters had complied with conditions placed on licenses, and (3) taking measures to ensure that
the PLC or PSV programs were as effective as they should be.

BXA generally agreed with our 1993 review findings, but it stated that further efforts to
streamline the referral procedures should be handled by the National Security Council. We were
satisfied that BXA’s planned efforts should improve its audit trail of the actions taken on
applications. In addition, Export Administration officials agreed to improve the number of
compliance conditions on licenses that they would follow-up on within their budget constraints,
and to review the need for improved guidance for its end use check program. During our current
review, we have followed up on each the findings from the 1993 report to determine the adequacy
of the actions BXA has taken.




                                                 21
22
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999




                          OBSERVATIONS AND CONCLUSIONS

I.     Current Export Control Legislative Authority, Executive Orders, and Regulations
       Need Attention

The 1990s have dramatically changed the United States export licensing environment through
global and economic change. However, as we examined the legislation, executive orders, and
regulations that are used to control U.S. exports, we found several weaknesses that need to be
addressed in order to strengthen the export licensing and enforcement process. First and
foremost, we believe that new legislative authority is needed for export controls to replace the
expired Export Administration Act, to accurately reflect current export control policies. In doing
so, consideration should be given to allowing the Bureau of Export Administration to review
dual-use items that may fall under the U.S. Munitions List administered by the State Department.
In addition, we believe that the requirement to conduct a post shipment verification for every high
performance computer shipped to every Tier 3 country, as mandated by the National Defense
Authorization Act of 1998, may not be the most effective use of government resources.

We also determined that minor changes are needed for Executive Order 12981 with regard to the
impact of the U.S. Arms Control and Disarmament Agency’s merger with State, as well as
clarification on agency representatives at the assistant secretary-level Advisory Committee on
Export Policy. Finally, we believe that the export control policy and regulations regarding the
release of technology to foreign nationals–commonly referred to as “deemed exports”–are unclear
and ambiguous. We discuss these issues in more detail below.

A.     Congress should renew legislative authority for export controls

Since World War II, the United States has controlled exports for three reasons: to preserve
national security, to prevent domestic shortages and inflation, and to further foreign policy. The
first major postwar export control law, the Export Control Act of 1949, authorized a virtual
embargo on exports to Communist countries. The enactment of the Export Administration Act of
1979 maintained U.S. export controls, but called for removal of controls on goods and
technologies freely available to Communist countries from non-U.S. sources and on items that do
not contribute significantly to the military strength of potential adversaries. The Export
Administration Act reaffirmed the need for national security, foreign policy, and short supply
controls while also emphasizing the importance of exports to the economic well-being and
national interest of the United States.

When the Export Administration Act of 1979 expired in September 1990, President Bush
extended existing export regulations by executive order, invoking emergency authority contained
in the International Emergency Economic Powers Act. As required by IEEPA, the President
declared a national emergency “...with respect to the unusual and extraordinary threat to the
national security, foreign policy, and economy of the United States...,” posed by the act’s




                                                23
U.S. Department of Commerce                                                                   Final Report IPE-11488
Office of Inspector General                                                                                June 1999




expiration. IEEPA-based controls were later terminated during the extension of the Export
Administration Act in 1994, but after the final expiration of the act later that year, President
Clinton reimposed controls under IEEPA. These controls continue in effect to date through
Executive Order 12924, dated August 19, 1994, and Executive Order 12981, dated December 15,
1995.

However, under IEEPA BXA has less authority than under the Export Administration Act.
Specifically, BXA states that its penalty authorities, both criminal and civil, are substantially lower
than those for violations that occur under the Export Administration Act. Another limitation of
IEEPA concerns the police powers (e.g., the authority to make arrests, execute search warrants,
and carry firearms) of its enforcement agents. Those powers lapsed with the expiration of the act
and BXA agents must now obtain Special Deputy U.S. Marshal status in order to exercise these
authorities and function as law enforcement officers.

Since early 1990, both the Congress and the Administration have tried to rewrite the basic law
that authorizes the President to regulate exports from the United States. The focus of the
continuing policy debate pertains to national security and proliferation based controls that are
used to restrict exports of dual-use technologies to the successor states to the Soviet Union,
Eastern Europe, and the People’s Republic of China. There is a wide range of opinions on how
the government’s export control policies and practices should balance the need to protect U.S.
national security and foreign policy interests13 with the desire not to unduly hamper the U.S. trade
opportunities and competitiveness. Striking this balance poses a significant challenge for the
parties involved.

Export Administration Act has expired

The Export Administration Act of 1979 was enacted at the beginning of the Cold War primarily
to help block the export of critical goods and technologies to the Communist bloc for national
security reasons. During the eighties and early nineties, the United States worked in concert with
the international body known as the Coordinating Committee on Multilateral Export Controls
(CoCom) in this endeavor. Section five of the act,“National Security,” references this relationship
often with regard to U.S. dual-use exports controlled for national security reasons. However,
CoCom disbanded in 1994, and its replacement group, the Wassenaar Arrangement on Export
Controls for Conventional Arms and Dual-Use Goods and Technologies, has few of the national
security protections of CoCom.14 In addition, whereas CoCom tried to block exports to Russia,
that nation is now a member of the Wassenaar Arrangement. Since the end of the Cold War,
many of the threats to the U.S. national security and foreign policy goals stem from rogue



         13
            Foreign policy export controls relate to the broad issues of human rights, anti-terrorism, regional
stability, chemical and biological warfare, missile technology, and nuclear nonproliferation.
         14
           For example, under CoCom, proposed exports were vetted among the member partners, and if one
objected, the export was denied. However, there is no such provision under the current regime.

                                                          24
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999




countries and groups who seek to acquire weapons of mass destruction and delivery systems and
employ or support international terrorists.

As the United States encourages other countries, such as those in Eastern Europe and Southeast
Asia, to implement export controls, it must set the example by sending a clear, unambiguous
message that it is committed to export controls. However, it has been 10 years since the
expiration of the Export Administration Act,15 and, in our opinion, this could send the wrong
signal to these countries as well as our allies that the United States is not truly committed to
export controls. As the current Under Secretary for Export Administration stated in his written
testimony on March 3, 1999, before the Subcommittee on International Economic Policy and
Trade of the House International Relations Committee, the lack of an Export Administration Act
“...can undercut our credibility as leader of the world's efforts to stem the proliferation of
weapons of mass destruction.”

However, the statement made by a former Under Secretary for Export Administration in recent
testimony on the reauthorization of the act probably sums this issue up the best. Specifically, he
stated,

        “The fact that the Export Administration Act was last amended in 1988, a year
        before the collapse of the Soviet Union, would seem reason enough to justify the
        effort to draft and adopt a new Export Administration Act to guide export controls
        in the 21st Century.”16

Suggestions for new export control legislation

The Export Administration Act gives decision-making authority for dual-use license applications
to Commerce and encourages Commerce to carry out its authority with limited referral to other
agencies. The act also states that the Secretary of Commerce will seek recommendations from
government agencies that have an important bearing on exports. As we reported in the special
interagency review conducted by four OIGs in 1993, this ambiguity led to many conflicts
regarding the referral issue between the various export control agencies.

However, Executive Order 12981 clearly defines the export licensing referral process by
authorizing the Departments of Defense, Energy, and State, and the U.S. Arms Control and
Disarmament Agency to review any license application received by Commerce. As a result, each
agency has an opportunity to provide its individual perspective (e.g., national security or foreign
policy) about a potential dual-use export transaction, thus making the process more transparent.



        15
             Except for a brief time period in 1994 when the EAA was temporarily extended by the Congress.
        16
          Prepared Testimony of Dr. Paul Freedenberg at the Senate Banking, Housing and Urban Affairs
Committee, Subcommittee on International Trade and Finance, Hearing on the Reauthorization of the Export
Administration Act and Managing Security Risks for High Tech Exports, March 16, 1999.

                                                         25
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999




As we discuss in Section IV of this report, all of the licensing agencies involved in reviewing
export license applications (including Commerce) believe the process works much better now
than it did in the early 1990s because of the transparency in the licensing process. Therefore, we
believe that any new legislation for export controls should maintain the openness in the licensing
process by continuing to allow all licensing agencies the ability to review all export license
applications.

In addition, the expired act does not contain an interagency escalation process. Executive Order
12981 also clearly outlines a dispute resolution process. Specifically, any dissenting agency can
escalate its concerns about any particular license applications to various ascending levels of
review all the way to the President. Again, as we discuss in Section V of this report, we found
the interagency dispute resolution process to be working well. Therefore, we believe that any
new legislation on export controls should include a dispute resolution process.

Furthermore, although the other export licensing agencies have the opportunity to participate in
the dual-use export licensing process, BXA lacks the same opportunity to participate in the
munitions licensing process. The Arms Export Control Act of 1976 authorizes the President to
control the commercial export of goods and technologies that are on the U.S. Munitions List.
The authority for administering the export control functions of this act was delegated to the
Secretary of State. State’s Office of Defense Trade Controls (DTC) administers the International
Traffic in Arms Regulations, which govern the export of munitions.

The Office of Defense Trade Controls refers license applications to other agencies or bureaus for
review because of concerns about technical or policy issues related to the applications. Referrals
are made to Defense, Energy, the Arms Control and Disarmament Agency, the National
Aeronautics and Space Administration, or State Department bureaus. DTC does not refer any
license applications to BXA for review.

According to BXA officials, some items are controlled by the multilateral regimes (e.g.,
Wassenaar Arrangement and the Missile Technology Control Regime) as “dual-use” but licensed
in the United States as munitions items. One example is image intensification tubes. Since these
items are treated by our foreign partners as dual-use, and BXA administers U.S. dual-use exports,
BXA believes that State could benefit from BXA’s technical expertise for these items. In
addition, BXA officials believe that along with national security and foreign policy concerns,
commercial issues should also be addressed, since U.S. companies may face foreign competitors
whose governments have less stringent export controls.

In addition, the Export Administration Regulations indicate that there are a limited number of
items that may be subject to both the International Traffic in Arms Regulations and the Export
Administration Regulations.17 For any item (e.g., rad-hardened chips) where the dividing line is




       17
            15 CFR 734.6.

                                                26
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



not clearly defined between the Commerce Control List and the U.S. Munitions List, we believe
both Commerce and State could benefit from having a complete picture of what is being
approved or denied for consistency’s sake. BXA could not tell how large of a problem this is
since it does not see State licenses.

Although we are not suggesting that BXA be consulted on export licenses for “arms,” we do
believe that BXA, in conjunction with the other referral agencies, should evaluate the benefits of
making the munition licensing process more transparent with regard to those items that may be
dual-use but fall under the U.S. Munitions List. We would encourage BXA to discuss this issue
with the applicable congressional committees while they are considering new legislation for the
dual-use process.




In its written response to our draft report, BXA concurred with our recommendation to continue
to work closely with the Congress and the Administration to renew export control legislative
authority and stated that it has testified several times recently on the importance of renewing the
Export Administration Act.

With regard to our suggestion that the Congress and the Administration evaluate the benefits of
making the munition licensing process more transparent with regard to those items that may be
dual-use but fall under the U.S. Munitions List, BXA reaffirmed its position that Commerce’s
involvement in those dual-use licenses currently under State’s jurisdiction is appropriate.
Specifically, BXA stated that as the Department of Defense becomes increasingly dependent on
commercial-off-the-shelf procurements, the viability of the commercial sector (whose growth has
been export driven) becomes a national security issue.

In addition, BXA points to a 1996 decision memorandum from the National Security Council on
commodity classifications and commodity jurisdictions which indicates that the State Department
should refer to BXA any munitions license applications that might more properly be controlled
under the Commerce Control List. BXA indicated that to date it has received no such referrals.
The fact that BXA has received no referrals does not necessarily indicate that the State
Department is not adhering to the guidance, but it does illustrate one benefit that would come
with more transparency in the munitions export licensing process.

B.     Post shipment verifications mandated by the 1998 NDAA are a questionable use of
       resources

The Congress added provisions to the National Defense Authorization Act for fiscal year 1998
requiring exporters to notify BXA of their intent to export or reexport high performance
computers (HPCs) with a performance capability of between 2,000 and 7,000 Million Theoretical




                                                 27
U.S. Department of Commerce                                                          Final Report IPE-11488
Office of Inspector General                                                                       June 1999



Operations Per Second (MTOPS) to Tier 3 countries.18 Export control policy for HPCs
organized countries into four Tiers with Tiers 3 and 4 including countries of concern to U.S.
security interests. The four Tier listings are as follows:

Tier 1          Most of the industrialized democracies in Western Europe and Japan. Exports
                may proceed without prior government review (i.e., export under a license
                exception) and with no limitation on MTOPs.

Tier 2          Countries in Asia, Africa, Latin America, and Central and Eastern Europe with low
                risk proliferation records and export control concerns. No government review for
                exports up to 10,000 MTOPs.

Tier 3          Countries such as China, India, Pakistan, Israel and Russia posing proliferation or
                other security risks. Licenses are not required (unless a referral agency objects to
                the export) for HPCs up to 7,000 MTOPS exported to civilian end users for
                civilian end uses, while exports above 2,000 MTOPS to end users of concern for
                military or proliferation of weapons of mass destruction reasons require a license.
                (See Appendix B for a complete listing of Tier 3 countries).

Tier 4          Terrorism-supporting countries, such as Cuba, Iran, Iraq, Libya, North Korea,
                Sudan, and Syria. Exports to these countries are generally prohibited.

In addition, the National Defense Authorization Act mandated that BXA (1) issue a “one-time”
report on HPC exports to the Congress in fiscal year 1998, (2) perform post shipment
verifications on all HPCs greater than 2,000 MTOPS exported to Tier 3 countries, and (3) submit
an annual report to the Congress on all HPC exports to Tier 3 countries.

Under the Act, the Departments of Commerce, Defense, Energy, and State and the Arms Control
and Disarmament Agency have 10 days to review each exporter notification, and if no agency
raises an objection, the exporter may proceed with the transaction without obtaining a license. If
an agency objects to the transaction, the notification will automatically be converted to a license
application and BXA will advise the exporter or re-exporter that a license is required. The license
application is then processed under the normal export license application review process
(including intelligence community review, as appropriate). Whether or not a license is required,
the exporter is required to provide a written report containing shipping information to BXA after
shipment of the goods. BXA uses this information to initiate a PSV for those HPCs above 2,000
MTOPS.




         18
         National Defense Authorization Act, 1998, P.L. 105-85, Sections 1211–1215, 111 Stat. 1629,
November 18, 1997.



                                                     28
U.S. Department of Commerce                                                Final Report IPE-11488
Office of Inspector General                                                             June 1999



In the National Defense Authorization Act First Annual Report to Congress, issued in December
1998, BXA reported that there were 390 HPC exports made to Tier 3 countries in fiscal year
1998 (up from 279 in 1997). Of these 390 exports, 288 HPCs were shipped under license
exceptions, and 102 HPCs under an export license. Based on these exports, BXA identified nine
categories for how HPCs are being utilized as well as the percentage breakdown of each.
(See Table 1.)

In addition, BXA reported that of the 390 reported exports, there were only 104 PSVs performed
(27 percent). Table 2 illustrates the Tier 3 countries, number of HPCs shipped, and number of
PSVs conducted. While close to half of these HPCs shipments were made to China, only one
PSV was actually performed there. As we discuss in Section VII of this report, the United States
has historically had problems with conducting end use checks, especially PSVs, in China. In fact,
while the Chinese government has allowed some pre-license checks in the past, it had never
allowed post shipment verifications until September 1998. BXA officials have attributed the
ability to have performed the PSV on the one HPC shipment to the End Use Visit Arrangement
agreed to in July 1998 as part of the U.S.- China summit.




                                               29
U.S. Department of Commerce                                               Final Report IPE-11488
Office of Inspector General                                                            June 1999



Table 1: End Uses/End Users for High Performance Computers Sold to Tier 3 Countries
                          (U.S. Exports, Fiscal Year 1998)

                               End Use/End User Categories                           Percent
                                                                                      Sold

 Communications & Utilities—telephone companies, television stations, television        35
 program production, advertising agencies, movie production, online shopping,
 Internet service providers, Internet access, radio stations, news bureaus,
 newspapers, and gas/electric suppliers
 Financial Industry—banks, savings and loan, credit unions, insurance, pension,         21
 stock brokers, and stock exchanges.
 Manufacturing & Software Development—administration, manufacturing                     13
 research, product development, and software development.
 Seismic Research & Petroleum Industry—oil exploration, oil production and              7
 refining, petroleum product distribution, seismic research, and earthquake
 prediction.
 Demonstration & Resale—includes HPCs purchased for demonstration purposes              6
 or for resale.
 Civilian Government Agencies—patent, trademark, customs, taxation authorities;         4
 weather services; transportation including railroads and police departments.
 Academia—includes colleges, universities, research centers, basic research, and        4
 medical research.
 Distribution—includes retail and wholesale distribution of items other than HPCs       3
 (distribution of HPCs is under “Demonstration & Resale”) and petroleum
 products (distribution of petroleum products is under “Seismic Research &
 Petroleum Industry).
 Other—includes military, hospitals, some special comprehensive licenses, and           7
 instances where end use is not specified.
Source: Export Enforcement, Bureau of Export Administration.

An obstacle the Chinese government has placed on this process is the requirement of an End User
Certificate issued by its Ministry of Foreign Trade and Economic Cooperation for any exports
that the United States wants to perform a PSV on in China. However, End Use Certificates have
only been associated with “licensed” exports from the United States, and most of the HPC
exports shipped to China fell under a License Exception. To accommodate the Chinese insistence
of requiring end use certificates for PSVs, BXA recently amended the Export Administration



                                                    30
U.S. Department of Commerce                                                            Final Report IPE-11488
Office of Inspector General                                                                         June 1999



Regulations to require exporters of HPCs to China to obtain an end user certificate issued by
China before exporting if the HPC is to be exported under the authority of an export license or
License Exception.

Table 2: Number of PSVs on HPCs to Tier 3 Countries in Fiscal Year 1998

               Country                     HPCs Shipped                  PSV                No PSV
                China                             191                      1                   190
                Egypt                              11                      2                     9
                India                              29                     20                     9
                Israel                             82                     42                    40
                Russia                             33                     21                    12
             Saudi Arabia                          8                       2                     6
     United Arab Emirates                          20                     11                     9
               Other19                             16                      5                    11
                Total                             390                    104                   286
Source: BXA’s First National Defense Authorization Act Annual Report to Congress, December 1998.

In addition to the 190 HPC shipments to China that did not have a PSV check, 96 other PSVs
were not performed on the HPC exports to Tier 3 countries. The status of these checks is as
follows:

l       PSVs are planned for the coming year (47).

l       PSVs are still pending at overseas posts (28).

l       Original PSV indicated consignee sold the HPC; new PSVs are pending (13).

l       HPCs have not been delivered to customer (2).

l       HPCs were returned to U.S. ownership (6).




        19
         The other 12 countries are: Algeria, Angola, Azerbaijan, Bahrain, Croatia, Kazakhstan, Kuwait,
Lebanon, Oman, Pakistan, Serbia, Ukraine.



                                                        31
U.S. Department of Commerce                                                         Final Report IPE-11488
Office of Inspector General                                                                      June 1999



All 104 PSVs conducted were reported as favorable, in that the checks found no discrepancies
between the stated and the actual end use. However, one discrepancy was found in a check that
was only partially completed during the reporting year. While we do not have any reason to
believe that the HPCs were not physically at the stated facilities, we do question if these checks
can truly identify how the HPCs are being used. Again, as we discuss further in Section VIII, we
believe that end use checks are an appropriate tool to use if the U.S. government wants to verify
the physical location of a commodity and learn more about the foreign entity.

However, determining the actual end use of a commodity in some cases may be difficult. For
instance, a computer can be networked with other computers or machines in other facilities to
increase its capabilities. More specifically, a computer at Facility ABC could be networked with a
more powerful computer at Facility XYZ through a Local Area Network (LAN), giving the
computer at Facility ABC more computing power. With the increased computing power, a
networked computer can be used for multiple purposes (commercial or military applications), and
the information can be stored on a computer at a different location through the LAN. A physical
check of the HPC most likely would not detect this. This dilemma points out the inefficiency of
some end use checks as well as the futility of certain controls.

Another reason that contributed to BXA’s inability to perform all of the required PSVs was
resources. At the time the 1998 National Defense Authorization Act was passed, BXA’s
appropriations for fiscal year 1998 were already enacted and the fiscal year 1999 budget
submission had already left the Department of Commerce, so BXA has had to operate the
program within existing resources. BXA officials informed us that they did not request a
supplemental appropriation for fiscal year 1999. However, this requirement essentially forced
BXA to divert some of its enforcement resources to conduct PSVs on some lower end HPCs that
could have otherwise been used for targeting end use checks on the HPC shipments of greater
concern or on more critical commodities and technologies. According to the Under Secretary for
Export Administration,

       “The resultant burden of on-site visits for each computer is an example of good
       intentions leading to wasteful government expense and no improvement to national
       security.... Requiring BXA to visit every site where an HPC is installed, regardless
       of what business the end user is in or how many times it has been visited before, is
       ineffective.... BXA needs to target its enforcement resources where they will do
       the most good.”20

Nonetheless, to meet this Congressional mandate, the Assistant Secretary for Export Enforcement
created a high performance computer team to coordinate the PSV checks and compile the annual
congressional report. The HPC team currently has two members. Most of the burden of actually
conducting the National Defense Authorization Act PSVs fell to BXA’s export enforcement



       20
            Growing Demand for U.S. High Performance Computers, January 8, 1999, BXA Press Release.



                                                     32
U.S. Department of Commerce                                                 Final Report IPE-11488
Office of Inspector General                                                              June 1999



agents through its Safeguard Verification Program, as well as Commerce’s United States &
Foreign Commercial Service staff located in the Tier 3 countries (see Section VIII for more
information on end use checks).

In its fiscal year 2000 budget submission, BXA has requested an additional five full time
equivalent positions and approximately $1 million in outlays to perform time-sensitive screening
of pre-export notifications and conduct PSVs for HPCs. However, BXA officials claim that with
small desk-top computers, as well as laptop computers, rapidly approaching the 2,000 MTOPS
level, it will drastically increase the number of future PSVs. They are still concerned that even
with these additional resources, they will not be able to meet the requirements of performing a
PSV for every HPC shipment.

We believe that the NDAA requirement to conduct a PSV for every HPC shipped to Tier 3
countries is not the most effective use of government resources. Since this requirement cannot be
adjusted by the executive branch, we would encourage BXA to seek relief from the Congress on
this issue.




BXA’s response to our draft report stated that it concurred with our recommendation to work
with the Congress to revise the 1998 NDAA requirement to conduct PSVs for every computer
meeting the threshold levels in Tier III. It also pointed out that when the 1998 NDAA passed, the
PSV requirement affected some mainframes, high end workstations, and powerful servers, but
now dual processor desktop workstations that exceed 2,000 MTOPS are captured under this
requirement. BXA’s response reiterated that the requirement calls for a U.S. government
employee to visit all high performance end users no matter how many times they have been visited
in the past, to judge whether their computers are being used for weapons development. As a
result, BXA believes that the burden of these visits becomes disproportionate to the benefits
derived from them. We agree that some modification to the current PSV requirement should be
given series consideration.

C.     Some clarification is needed for Executive Order 12981 pending new legislation

During our review, BXA management expressed its frustration to us regarding the failure of
referral agencies to send the appropriate representation level to the Advisory Committee on
Export Policy meetings. Specifically, they directed us to the Executive Order 12981 language
that specifies that the Advisory Committee on Export Policy (ACEP),

       “...shall have as its members the Assistant Secretary of Commerce for Export
       Administration, who shall be Chair of the ACEP, and assistant secretary-level
       representatives of the Departments of State, Defense, and Energy, and the Arms
       Control and Disarmament Agency. Appropriate representatives of the Joint Chiefs



                                               33
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



       of Staff and of the Nonproliferation Center of the Central Intelligence Agency shall
       be nonvoting members of the ACEP.”

However, upon further examination of the executive order, we found that it also states,
“Regardless of the department or agency representative’s rank, such representative shall speak
and vote at the ACEP on behalf of the appropriate Assistant Secretary or equivalent of such
department or agency.” A Department of Energy official we spoke with stated that the above
language gives agencies the flexibility to decide who should attend these meetings. BXA officials
disagree with this interpretation and insist that it was the intent of the drafters of the executive
order for representatives at ACEP to be at the assistant secretary-level or its equivalent. To settle
this dispute, we believe that BXA should request the National Security Council to clarify this
issue in an amendment to the executive order.

In addition, the merging of the U.S. Arms Control and Disarmament Agency into the State
Department in April 1999, leaves ACEP with only four standing voting members. Since ACEP
decisions are based on a majority rule, the committee faces a potential problem if a decision
comes down to a tie vote. We encourage BXA to request that the National Security Council
review this issue and provide a procedure to follow in the event of a tie vote.




In its written response to our draft report, BXA concurred with our recommendation to request
the NSC to provide a procedure to follow in the event of a tie vote at the ACEP and it indicated
that a review is currently underway. BXA also agreed that the advisory agencies need to improve
the level of representation at the ACEP and that it is working toward that end. However, BXA
indicated that it does not believe that this issue should be referred to the NSC because the cited
language Energy relies upon to send less than assistant-secretary representation is taken out of
context. We are not convinced that the language in the Executive Order is clear on this issue.
Furthermore, the fact that BXA and Energy have different interpretations of this language is
precisely the reason why the NSC should be asked to clarify this issue. Therefore, we reaffirm
our recommendation to BXA that it refer this issue to the NSC for clarification.

D.     Export control policy and regulations for foreign workers need clarification

According to the Export Administration Regulations, any release to a foreign national of
technology or software that is subject to the regulations is “deemed to be an export” to the home




                                                34
U.S. Department of Commerce                                                             Final Report IPE-11488
Office of Inspector General                                                                          June 1999



country of the foreign national. These exports are commonly referred to as “deemed exports.”21
Technology or software can be “released” for export through:22

l       Visual inspection by foreign nationals of U.S.-origin equipment and facilities;

l       Oral exchanges of information in the United States or abroad; or

l       The application to situations abroad of personal knowledge or technical experience
        acquired in the United States.

Items not subject to the Export Administration Regulations include publicly available technology
and software, except software controlled for encryption item reasons on the Commerce Control
List, that (1) are already published or will be published, (2) arise during or result from
fundamental research, (3) are educational, or (4) are included in certain patent applications.23

However, we found the definitions and subsequent regulations for “fundamental research” to be
vague and ambiguous. According to the regulations, fundamental research is defined as

        “...basic and applied research in science and engineering where the resulting
        information is ordinarily published and shared broadly within the scientific
        community. Such research can be distinguished from proprietary research and
        from industrial development, design, production, and product utilization, the
        results of which ordinarily are restricted for proprietary reasons or national
        security reasons.”

While the regulations indicate that research conducted by scientists, engineers, or students at a
university will normally be considered fundamental research, there are various exceptions to this
rule (e.g, certain situations where prepublication reviews of the research is required). In addition,
research conducted by scientists or engineers working for a federal agency or a Federally Funded
Research and Development Center may be designated as “fundamental research.” Finally,
research conducted by scientists or engineers working for a business entity will be considered
“fundamental research” at such time and to the extent that the researchers are free to make
scientific and technical information resulting from the research publicly available without
restriction or delay based on proprietary concerns or specific national security concerns outlined
in any funding arrangement by the U.S. government.



        21
          The deemed export rule does not apply to persons lawfully admitted for permanent residence in the
United States (e.g., persons carrying a green card).

        22
             15 CFR 734.

        23
             15 CFR 734.



                                                       35
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



Potential loophole to the deemed export regulation

According to the regulations, educational information is not subject to these regulations if it is
released by instruction in catalog courses and associated teaching laboratories of academic
institutions. We see this as a potential loophole in the regulations. Specifically, while a
proprietary course on design and manufacture of high performance machine tools is subject to the
Export Administration Regulations because the proprietary business does not qualify as an
“academic institution,” this same information, if taught as a university graduate course, would not
require a license even if some of the students were from countries to which an export license is
required. One could argue that if a foreign country wanted to gain as much knowledge about
U.S. technology as it could, this could be done, in part, by sending “professional” students to the
United States.

Compliance with deemed export controls

Deemed export license applications make up approximately 10 percent of all export license
applications processed by BXA. One BXA official estimates that 25 U.S. companies submit most
of the total number of deemed export applications that BXA processes, implying that there might
be many more high technology companies out there that may not be compliant with the
regulations due to a lack of knowledge or understanding of the regulations or simply an
unwillingness to comply.

In addition to the limited number of U.S. companies that have applied for these licenses, we also
learned that only one federal agency has submitted deemed export license applications in
connection with foreign nationals visiting its research labs. Specifically, in fiscal year 1998 two of
the federal labs under the Department of Energy submitted a total of two deemed export license
applications to BXA. The first export license application was returned without action due to
insufficient information, while the second was approved.

Given the high volume of foreign visitors that visit Energy laboratories who might have access to
export-controlled technology and/or software, BXA officials raised the concern that Energy may
not be complying with the deemed export regulations. During this review, Energy’s Office of
Inspector General informed us that most of the Energy laboratories are federally funded research
development centers. As such, some of these laboratory officials claim that most of their work is
“fundamental research,” which exempts them from this regulation. We discussed this issue further
with an Energy official who is an active participant in the dual-use export licensing process. This
official considers the deemed export provisions in the Export Administration Act to be difficult to
interpret, and therefore, understands the laboratories’ confusion in determining if deemed export
licenses are needed for some of its foreign visitors. More recently, another Energy lab applied for
two deemed export licenses involving foreign nationals from China. At the time of this writing,
the license applications were pending review at the Advisory Committee on Export Policy.




                                                 36
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



We would also like to point out, however, that BXA has not received any deemed export license
applications from any other federal laboratories, including those at Commerce’s National Institute
of Standards and Technology; Defense’s Army, Navy, and Air Force laboratories; and Health and
Human Services’ Centers for Disease Control and Prevention. While we have no evidence to
suggest that these or other federal agencies are noncompliant with the deemed export rule, based
on Energy’s lack of understanding about this rule, we wonder whether other federal agencies may
have the same problem.

       Summary

Having examined the general provisions specified in the Export Administration Regulations, and
after discussions with BXA officials on this topic, we believe that not only are the regulations
ill-defined, but the export control policy concerning deemed exports itself appears to be
ambiguous. The lack of understanding regarding deemed exports could damage national security
if sensitive technology is released to inappropriate end users. BXA should work with the National
Security Council to determine what the United States’ goal is with regard to requiring deemed
export licenses and to ensure that the policy and regulations are clear and do not provide any
avoidable loopholes that foreign countries can use to obtain proscribed sensitive U.S. technology
inappropriately.

We believe that it would be prudent for BXA to open up dialogues with the federal scientific
community to ensure that these agencies fully understand the deemed export requirements and to
help them determine if foreign visitors to their laboratories require a deemed export license. In
addition, while BXA has published deemed export guidance on its web site and developed a
course on technical data on software that deals with the hiring of foreign nationals in the United
States, we believe that if the U.S. government’s own federal laboratories do not understand these
regulations then it is plausible that industry might not as well. Therefore, we believe that BXA
needs to be more proactive by conducting a series of outreach visits to high technology companies
or industry associations it feels are appropriate candidates for deemed export licenses.




In its response to our report, BXA did not disagree with our observations that the regulations for
“deemed exports” are ambiguous or the fact that U.S. companies and other federal agencies may
be noncompliant with the regulations. However, BXA raised the issue of the constitutionality of
the “deemed export” regulation, specifically as it pertains to prior restraint of free speech. While
we did not address the constitutionality of this regulation, if BXA believes this regulation is
unconstitutional, it has an obligation to raise this issue with the Department of Justice.




                                                 37
U.S. Department of Commerce                                                                  Final Report IPE-11488
Office of Inspector General                                                                               June 1999



In addition, BXA stated that our report ignores the “most serious aspect of the issue which is the
current standard being employed for triggering ‘deemed export’ license applications.”24 We
disagree. Again, we recommended that BXA work with the NSC to determine what the United
States’ goal is with regard to requiring deemed export licenses. By determining what the goal is,
we contend that policymakers would also have to review the reasonableness of the current
“deemed export” rule. Therefore, we reaffirm our recommendation to BXA that it should work
with the National Security Council to determine what the United States’ goal is with regard to
requiring deemed export licenses and to ensure that the policy and regulations are clear and do
not provide any avoidable loopholes that foreign countries can use to obtain proscribed sensitive
U.S. technology inappropriately.

Finally, while BXA agreed to expand its outreach efforts, it conditioned this action upon the
resolution of the concerns it cited in its response. We agree that the regulations regarding deemed
exports should be clarified before BXA expands its outreach efforts. But we urge BXA to move
expeditiously to clarify that requirement with the NSC and provide clearer guidance to U.S.
research laboratories and industry.




         24
          The current standard requires an export license for hiring a foreign national when he or she will be
exposed to technology in the United States that would require export authorization if it were to be transferred to his
or her home country.



                                                          38
U.S. Department of Commerce                                                                 Final Report IPE-11488
Office of Inspector General                                                                              June 1999



II.      More Transparency Is Needed in the Commodity Classification Process

As the agency responsible for administering the Export Administration Regulations, BXA is
responsible for determining whether an item or activity is subject to these regulations and, if so,
what licensing or other requirements apply. Such a determination affects only Export
Administration Regulations requirements, and not the applicability of any other regulatory
programs. For example, the item may fall under the U.S. Munitions List and therefore be subject
to the controls of the International Traffic in Arms Regulations under the licensing jurisdiction of
State’s Office of Defense Trade Controls. If an item falls under the U.S. Munitions List, BXA
will forward the request to State.

In general, BXA holds the exporter responsible for classifying an export item. However, BXA
will advise an exporter whether an item is subject to the Export Administration Regulations and, if
applicable, identify the appropriate Export Control Classification Number. When making written
commodity classification requests, exporters must provide descriptive literature or brochures,
precise technical specifications, or papers that describe the items in sufficient technical detail to
enable BXA engineers to accurately classify the items. BXA also responds to many phone
inquiries about commodity classifications, but they are not binding determinations.25

Exporters can submit written requests electronically or in paper form. These are entered into
BXA’s Commodity Classification Automated Tracking System (CCATS). CCATS is commonly
used by BXA officials to refer to classification requests from exporters. In fiscal year 1998, BXA
responded to 2,723 CCATS requests with 6,161 line items.26

During this review, we found that BXA had instituted a front-end review mechanism to
pre-screen commodity classifications before distributing them to the appropriate engineer for
review. This was an important quality control measure, but we identified two areas that still need
improvement. First, we found that Export Administration’s processing of CCATS is untimely,
resulting in delays for exporters. Second, and more importantly, we found the commodity
classification process is not transparent, leaving it vulnerable to incorrect classifications.




         25
          We reviewed only written commodity classification requests, and our recommendations pertain only to
such requests.
         26
            According to 15 CFR 748.3, each classification request should be limited to five items, but exceptions
may be granted by BXA on a case-by-case basis for several related items if the relationship between the items is
satisfactorily substantiated in the request.



                                                         39
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



A.     BXA’s processing of commodity classifications has improved, but timeliness is still a
       problem

Before 1998, commodity classification requests were being assigned to one of Export
Administration’s seven licensing divisions by nontechnical support staff in the Office of Exporter
Services. However, due to a concern that CCATS were being assigned to incorrect divisions, a
1997 Export Administration task force determined that a quality control mechanism was needed
to pre-screen CCATS before distributing them for analysis. Essentially, this quality control
mechanism consists of a front-end technical review of the commodity classification by an engineer
before they are distributed to the appropriate licensing division.

While this process was implemented briefly in 1998, it was interrupted when the key staff person
assigned to this function departed in September 1998. This procedure was reinstated again in
February 1999. BXA management has stated that as a result of this quality control mechanism,
commodity classification requests are now being routed to the appropriate division for review.
We believe that Export Administration has taken a positive step toward improving the commodity
classification process by implementing the front-end review. However, it needs to ensure that this
procedure is not affected in the future by absences of key staff persons.

In-house delays in CCATS processing

According to the Export Administration Regulations, commodity classifications submitted by
exporters (with the exception of encryption products) must be completed within 14 calendar
days.27 However, we found that the average CCATS in fiscal year 1998 took BXA 37 days to
process. Delays in commodity classifications could delay U.S. exporter shipments unnecessarily if
it is determined that no license is required. According to one senior Export Administration
official, the primary reason CCATS processing is delayed is that the licensing officers give priority
to license applications because they are expected to adhere to strict time frames in processing
applications under Executive Order 12981. We found that a lack of written procedures for
assigning CCATS to multiple licensing divisions also contributes to processing delays.

First, with regard to commodity classifications not being a priority, licensing officers need to
understand that while the Executive Order 12981 mandates timely processing of export license
applications, the Export Administration Regulations require timely processing of CCATS. We
believe that BXA managers must communicate to LOs the importance of processing CCATS in a
timely manner and hold them accountable for doing so. However, BXA’s managers have
informed us that they cannot tell from the ECASS management reports they receive if a CCATS
is overdue as a result of LO inaction or if the CCATS is legitimately “on hold” because the LO is




       27
            15 CFR 750.2.



                                                40
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999



waiting for additional information from the exporter necessary to complete his review.28 Unlike
the automated export license application process, ECASS has not been programmed to allow an
LO to place a CCATS in a “hold without action” status, thus “stopping the clock” with regard to
mandated processing times. We believe BXA should program ECASS to allow for the “hold
without action” feature.

Second, when a commodity classification is subject to controls in more than one licensing
division, it must be reviewed by all applicable divisions. In fiscal year 1998, there were 133
CCATS that were referred to multiple divisions. There are no written procedures in place that
outline the requirements for reviewing commodity classifications that involve more than one
division. As a result, we have been told, misunderstandings have occurred resulting in processing
delays. We encourage Export Administration to develop policy and procedures for the intra-
agency review of commodity classifications, as it has for intra-agency licensing review.

CCATS Delays at the National Security Agency

A different time line has been established for processing commodity classification requests for the
export of certain mass market encryption software that falls under “Encryption Item” controls. If
the software product meets certain criteria, the request is supposed to be processed within 15
working days from receipt of a properly completed request.29 The criteria are as follows: (1) the
software product must be mass market software, (2) the software must be designed for
installation by the user without further substantial support by the supplier, and
(3) the software includes encryption for data confidentiality. BXA shares these classification
requests with the National Security Agency for a technical review of the encryption product.

However, the 15-day turnaround time for processing encryption CCATS requests has not always
been met. As of March 1999, there were 107 pending encryption classification requests, and
BXA had been waiting an average of 69 days for a technical review of them by the National
Security Agency. According to a National Security Agency official, the delay in the agency’s
review of these CCATS was due to BXA changing its regulations on encryption exports effective
January 1999. Because of these changes, many exporters submitted commodity classification
requests to learn if they qualified for license exceptions. The official said that the agency received
more requests in the first three months of 1999 than in all of 1998 and was overwhelmed by the
workload. However, many of the requests were one-time requests, and the Agency expects the




        28
           Although both the Export Administration Regulations and BXA’s web page make clear that a
commodity classification request requires the applicant to submit appropriate technical specifications of the
commodity, software, or technology in order for BXA to evaluate the request, there are instances when the exporter
does not submit sufficient information.

        29
             Supplement No. 6, 15 CFR 742, paragraph (a)(1).



                                                        41
U.S. Department of Commerce                                                             Final Report IPE-11488
Office of Inspector General                                                                          June 1999



workload to return to prior levels. The official said that approximately 75 percent of BXA’s
pending encryption classification requests have been cleared as of mid-April 1999.




In its written response to our draft report, BXA generally concurred with our recommendations
to improve its in-house processing of commodity classifications. BXA stated that its goal is to
complete all commodity classifications within the 14 days stipulated in the EAA but that this has
been difficult to do in recent months due to the external demands placed on the agency, including
requests for information from the Congress and the public.

With regard to our recommendation for BXA to program ECASS to allow commodity
classifications to be put on “hold without action,” BXA stated it was an interesting suggestion
that it would review as it balanced the interest of the timely completion of commodity
classifications with the need for accurate time accounting. However, we believe that the “hold
without action” feature will help BXA managers determine why a CCATS has been delayed and
hold the licensing officers accountable for their inactions. Therefore, we reaffirm our
recommendation that BXA program ECASS to allow commodity classifications to be put on
“hold without action.”

B.      Commodity classification referral criteria need to be clarified

A 1996 memorandum from the National Security Council (NSC) set forth guidance for processing
commodity jurisdiction and commodity classification requests. Included were procedures for
initial screening, transparency, escalation and deadlines. Regarding initial screening, the previous
policies for both processes were maintained. Specifically, the NSC guidance directed the State
Department to continue to refer to Defense and Commerce all commodity jurisdiction requests.
A commodity jurisdiction request is used to determine whether an item or service is subject to the
export licensing authority of the EAR, as administered by BXA, or the ITAR, as administered by
State’s Defense Trade Controls.30 There are more liberal deadlines for commodity jurisdictions
than for CCATS. According to the NSC guidance, Defense Trade Controls has 90 days to make
a commodity jurisdiction determination. There is also a three-level escalation process outlined by
the memo, starting with the Assistant Secretary level, to the Under Secretary or Secretary level,
and finally to the President. During fiscal year 1998, Defense Trade Controls processed 276
commodity jurisdiction requests, and all were referred to Commerce for comments.




        30
           While BXA is the primary licensing agency for dual-use exports, Defense Trade Controls licenses
defense-related or munitions articles and services.



                                                       42
U.S. Department of Commerce                                                         Final Report IPE-11488
Office of Inspector General                                                                      June 1999



The NSC guidance also continued the process of allowing exporters to initiate commodity
classification requests with Commerce to determine whether items are subject to the Export
Administration Regulations. Again, BXA has 14 days to make a CCATS determination. While
there were no general provisions for Commerce to refer commodity classification requests to
Defense or State, the NSC guidance did state that Commerce “will share with State and Defense
all commodity classification requests for items/technologies specifically designed, developed,
configured, adapted and modified for a military application, or derived....” from such items or
technologies [emphasis added].

Furthermore, the guidance instructed Commerce to refer these munitions-related commodity
classification requests to State and Defense, allowing them a two-working-day turnaround time.
At the end of those two working days, silence will be deemed to be consent, and Commerce may
proceed with the processing of a final and binding commodity classification in accordance with its
own regulations, practices, and policies. Since the 1996 NSC guidance, BXA has referred 27
CCATS to Defense Trade Controls.

Subsequent to the NSC guidance on this subject, Defense informed BXA in 1996 that it did not
want the opportunity for an initial review of munitions-related commodity classifications and
instead requested that Commerce provide, on a weekly basis, a copy of such completed
commodity classifications requests and decisions to Defense.31 Defense OIG has informed us that
the Defense Threat Reduction Agency has received 12 such completed commodity classifications
since the 1996 ruling.32 BXA did not provide us with any contrary figures. According to the
NSC guidance, Commerce should be referring appropriate commodity classification requests to
both State and Defense. However, BXA did not explain the discrepancy between the 12
completed munitions-related CCATS referred to Defense and the 27 munitions-related CCATS
referred to State.

Defense’s current position on the commodity classification process is significantly different than it
was in 1996. Both Defense and State have indicated to us a need for more transparency in the
CCATS process. Specifically, they believe that this process should be completely opened for
interagency review similar to the export licensing process. Since there is no way for Defense or
State to question commodity classifications that are not referred, they are concerned that BXA
may be advising exporters that munitions-controlled items are licensable by Commerce or require
no license at all. To illustrate the need for more transparency, the agencies point to a case in 1995
in which BXA mistakenly determined that an investigative report on the crash of a Chinese rocket
carrying a satellite as needing no export license. BXA allowed the release of this report without
consulting the referral agencies. BXA has since admitted that its commodity classification


        31
          Memorandum dated May 13, 1996, from the Director of Defense Technology Security Administration to
the Deputy Assistant Secretary for Export Administration.
        32
          Until October 1998, the Defense Threat Reduction Agency was known as the Defense Technology
Security Agency.



                                                    43
U.S. Department of Commerce                                                                  Final Report IPE-11488
Office of Inspector General                                                                               June 1999



determination was incorrect because the accident occurred in part of the rocket, not in the satellite
being carried, and the release of the report should have been authorized by the State Department.

As part of our review, we sought to determine whether past commodity classification
determinations by BXA did, in fact, support the concerns of Defense and State. We invited
analysts from Defense Trade Controls and the Defense Threat Reduction Agency to review a
sample of 103 CCATS line items and second-guess the original CCATS determinations made by
BXA.33 The sample was reviewed by analysts from the Defense Threat Reduction Agency in
preparation for a joint review session. The Commerce and Defense OIGs convened the joint
BXA-Defense Threat Reduction Agency review session in which 13 of the cases–those that the
Defense Threat Reduction Agency found most troublesome of the 103 CCATS line items–were
discussed. The Defense Threat Reduction Agency disagreed with BXA’s decision in 5 of the 13
cases. In two of the five cases, the agency argued that the items were not under the Commerce
Control List, and the CCATS should have been referred to Defense Trade Controls as commodity
jurisdiction requests.

The first case was for a ruggedized, portable, encrypted radio. Commerce officials stated that the
radio had not been built to military standards and therefore was not a munitions item under the
jurisdiction of the ITAR. Defense officials stated that the literature accompanying the request
described the radio as militarized and that other radios built by the manufacturer were subject to
munitions export licenses. The second request was for an antenna. Commerce officials stated
that the antenna was not a munitions item, despite company literature describing it as militarized.
Defense officials stated that the literature satisfied ITAR criteria for a “defense article”
(munitions) and that the manufacturer had a history of exporting products under the munitions
export licensing process.

Regardless of whether these items fall under the ITAR or CCL, we believe that BXA should have
at least referred these two CCATS to State per the 1996 NSC guidance–especially since the
manufacturers’ own literature describes them as “militarized.” Again, the NSC guidance requires
BXA to share with State and Defense all commodity classification requests for items or
technologies specifically designed, developed, configured, adapted and modified for a military
application, or derived from such items or technologies.

In the remaining three cases, the Defense officials agreed that the items fell under the Commerce
Control List but disagreed with BXA’s export control classification number. BXA ultimately
agreed with Defense’s classification for one of the three CCATS but maintained its original
position on the other two.




       33
            Officials from State’s Defense Trade Controls chose not to participate in the review.



                                                          44
U.S. Department of Commerce                                                 Final Report IPE-11488
Office of Inspector General                                                              June 1999



The opinions expressed by senior Defense Threat Reduction Agency and BXA officials after this
review illustrate the different perspectives held by these two agencies. In the opinion of the
Deputy Director, Technology Security Directorate, Defense Threat Reduction Agency, this
exercise demonstrated that while in the vast majority of CCATS cases there was no difference in
the conclusions of the Defense Threat Reduction Agency and BXA, there is an opportunity for
mistakes as highlighted above.

In the opinion of the Deputy Assistant Secretary for Export Administration, this exercise showed
that BXA made appropriate classifications in 99 percent of the sample cases (indicating that the
Defense Threat Reduction Agency’s analysis did not convince BXA that it was wrong in the other
four CCATS). He also stated that while it is important to have participation by referral agencies
in the export license application process for policy considerations, BXA can handle the CCATS
and judge what is under the Export Administration Regulations without help from its colleagues
at these agencies. In response, the Defense Threat Reduction Agency official stated that the
process, as currently set up, could undercut its review of potential International Traffic in Arms
Regulations items, which could affect its license review rights. In further discussions with BXA
officials on this subject, it appears that they are concerned that referring all CCATS to Defense
and State would unnecessarily slow down the review process. BXA believes any delays would
discourage exporters from submitting CCATS requests, the submission of which are voluntary.

However, as our sample demonstrates, BXA appears to not have fully complied with NSC’s 1996
guidance to refer all munitions-related commodity classification requests to State. Furthermore,
per Defense’s request, BXA has not referred all of the completed commodity classifications for
such items to Defense. At this time, we are not convinced that BXA should refer all CCATS to
both Defense and State given the fact that these agencies may not have adequate resources to
review all CCATS in a timely manner. However, we strongly believe that BXA needs to work
with both Defense and State to ensure that the CCATS process is more transparent with regard to
items or technologies specifically designed, developed, configured, adapted and modified for a
military application, or derived from such items as called for in the NSC guidance. Therefore, we
recommend that BXA, in conjunction with the Defense and State, work with the NSC to develop
specific criteria and procedures on how to implement its 1996 guidance for the referral of
munitions-related commodity classifications to Defense and State. In addition, we believe BXA
should consult with Defense to determine if it wants to continue its delegation to BXA on
munitions-related CCATS or withdraw it.




In its written response to our draft report, BXA concurred with our recommendation that the
NSC 1996 memorandum should be revisited to clarify the guidance on the referral of munitions-
related commodity classifications to Defense and State. However, it disagreed with some of our
analysis.




                                               45
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



Specifically, BXA’s response pointed out that the fundamental difference between CCATS and
license applications is that the former are technical determinations that, in its opinion, should be
divorced from policy or politics. It further stated that whether or how an item appears on the
CCL is an empirical judgment well within the expertise of a BXA licensing officer and this should
not be the subject of interagency negotiation. On the other hand, BXA stated that licensing
determinations are policy decisions and that the perspectives of different agencies are important in
these decisions. While we generally agree with BXA that a CCATS determines what a product is
and where it appears on the CCL, we also believe that this decision could ultimately impact policy
decisions–especially if BXA incorrectly informs an exporter through a CCATS that no license is
required, as it did with the investigative report on the crash of a Chinese rocket carrying a
commercial communications satellite under Commerce’s jurisdiction.

While BXA contends that the crash investigative report is not a true commodity classification
because it pertained to a previous export license, we disagree. The exporter requested a written
commodity classification determination from BXA regarding whether this item required an export
license. The licensing officer provided the exporter with a written determination on two different
occasions using the CCATS form. There is no mention of a prior license anywhere on the written
CCATS. Thus, we contend this decision is an example of a CCATS, and it clearly would have
been beneficial if it would have been reviewed by the referral agencies.




                                                46
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



III.   Licensing Officers’ Analysis of Export Applications Could Be Enhanced

BXA’s core mission is to analyze and process export license applications. Significant changes
have occurred in BXA over the past several years that have affected how export license
applications are processed. First, BXA’s 1994 reorganization combined the once separate policy
and licensing functions into units of specific areas of concern, such as nuclear and missile
technology, chemical and biological weapons, and strategic trade and foreign policy. Second, the
Executive Order 12981 mandated stricter time frames with regard to processing export license
applications and gave referral agencies the right to full review and to provide recommendations on
any export license application. Third, and perhaps most important, the complexity of export
license application reviews has increased due to rising proliferation threats, requiring licensing
officers to make a more comprehensive analysis.

Proper case analysis is critical in ensuring that the appropriate export policy and procedures are
followed for individual export license applications. According to Executive Order 12981, BXA
must either refer the application to other agencies or dispose of the application within nine days of
the registration of a license application. While the Executive Order does not preclude the LO
from continuing to seek additional information about the end use or end user after the nine days, it
is within this period that BXA must make the necessary decisions to help ensure that cases are
processed appropriately during the interagency review. Within the first nine days, LOs
(1) determine if there is sufficient information to process the application; (2) refer the application
to the Central Intelligence Agency’s Nonproliferation Center for end user checks, if appropriate;
and (3) analyze the information and document their conclusions about the license application.

However, during our review of export license applications, we found it difficult to determine
whether applications were being thoroughly analyzed by LOs in the initial review period because
there was little indication in the license history about how they reached their conclusions. For
example, in some cases LOs omitted critical information in their referral comments or notes
section, with regard to (1) the reasonableness of the end use specified by the applicant,
(2) detailed characterizations of the ultimate consignee or end user(s), and (3) the detailed
licensing history of the applicant or the foreign entity. While the lack of information in the
licensing history does not necessarily indicate that the LOs did not consider the above elements,
without this critical information, referral agencies cannot make the most informed licensing
decisions.

The consequences of incomplete analysis or documentation by LOs in this initial review period are
significant. One result, according to some BXA officials, is that more and more license
applications are being disputed by the referral agencies and escalated to the Operating Committee
because LOs either (1) do not know all they can about a transaction (e.g., legitimacy of the end
user or end use) before they make their decision and refer it out for interagency review or (2) are
not providing this critical information to the referral agencies. Based on our review of 26 export
license applications that went to the OC during the period January 1 to June 30, 1998, our
observations from three OC meetings we attended, and the percentage of licenses escalated to the



                                                 47
U.S. Department of Commerce                                                              Final Report IPE-11488
Office of Inspector General                                                                           June 1999



OC between fiscal years 1995 and 1998, this seems plausible. (See Figure 7.) We believe that
better policies and procedures as well as additional training could enhance LOs’ analysis and
documentation of export license applications.

Figure 7




Source: Office of Administration, Bureau of Export Administration.

A.      Better policies and procedures are needed to assist licensing officers

We found that the policy and procedures used by licensing officers varied. The Licensing
Officers Operating Manual, dated October 1, 1995, has become an assortment of outdated or
superceded documents and is no longer user friendly. Many of our OIG survey respondents, as
well as those we interviewed throughout the review, identified the lack of up-to-date guidelines as
one of BXA’s major weaknesses. We also found that the contents of individual licensing officers’
operating manuals varied among LOs as well as from one of the BXA employees responsible for
drafting new guidance.34 Export Administration officials stated that after the LO operating
manual was modified per Executive Order 12981 in 1995, it was not updated again for almost a
year and a half due to resource constraints. They also informed us that pertinent sections of the


        34
           The OIG team conducting this review also had difficulty getting a complete up-to-date licensing officer
manual. On November 20, 1998, we were provided a copy of the operating manual from the Director of the Office
Exporter Services, who informed us that it was a complete and updated copy. However, in March 1999, we learned
that several key sections of the operating manual, such as case analysis, were missing from our copy. On March
25, the Office of Exporter Services provided us with the missing sections.



                                                       48
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



LO operating manual, such as case analysis and administrative procedures, are still valid but they
conceded that these sections need to be updated.

The operating manual being used by LOs at the time of our review included a small section
entitled “Case Analysis Guidance,” which outlined eight points that must be addressed as part of
an LO’s analysis of an export license application and be included in the initial referral comments
to all advisory agencies:

1.     Export Control Classification Number(s) and reason for control.

2.     Brief background statement highlighting licensing history involving the applicant and
       or/item, previous working group consultations, issues of interest, any precedent setting
       aspects of the proposed transaction.

3.     Characterization of the end user(s) including type and relationship with applicant, if any
       (e.g. bank, motel, U.S. subsidiary).

4.     Number of end users and reasonableness of end use.

5.     Reason for not referring to an agency.

6.     The LO’s written recommendation.

7.     Statement as to whether or not conditions are appropriate and, if so, identification of the
       specific conditions the Department of Commerce would suggest.

8.     LO’s name, telephone, and facsimile numbers.

While we believe these are the appropriate areas that the LOs should focus on during their review,
guidance as to how they should accomplish these objectives is lacking. For instance, the third
item tells the LO to “characterize the end user,” but it does not provide any suggestions about
how the LO should go about acquiring this information beyond that which was submitted by the
applicant (e.g., researching the entity on the Internet) or what types of questions the LO should be
addressing when dealing with end users in dynamic markets such as China and Russia. For
example, since there is an increasing number of export license applications involving joint ventures
between China and western partners, one BXA official stated that LOs need to take into account
fundamental information about the joint venture including (1) whether the joint venture is in a
formative stage or already established with the necessary authorizations and licenses from the
Chinese Government; (2) the type of joint venture; and (3) elements that each joint venture
partner contributed to the enterprise, such as capital, fixed assets and equipment, resources, and
management. We believe this type of information would be especially helpful to the referral
agencies as they do their own follow-up checks on end users, and also pertinent if the Central
Intelligence Agency’s Nonproliferation Center reports, “No comment” or “No intelligence



                                                49
U.S. Department of Commerce                                                 Final Report IPE-11488
Office of Inspector General                                                              June 1999



information was found on the entity.” (See Section IV for more discussion on the Central
Intelligence Agency’s role in the export licensing process.)

To supplement this “eight-point” policy and procedures, BXA’s Chemical and Biological Controls
Division (CBCD) issued specific guidance for its LOs as a reference during case analysis.
CBCD’s guidance provides more comprehensive and descriptive case analysis guidelines than
appear in the LO operating manual. For example, the guidance states that indicating a
“university” is not a complete description of an end user, unless the LO specifies the school or
laboratory within the university. CBCD’s guidance also requires that any decision made as a
result of contacts with various individuals and organizations or review of supporting
documentation must be documented in LO notes. CBCD also created a “Commodity
Classification and License Determination Guide” to assist LOs in determining the appropriate
Export Control Classification Number for items controlled for chemical and biological warfare
reasons. In the absence of comprehensive policy and procedures for all LOs, we compliment this
office for creating useful reference materials for LOs to use during case analysis.

In an effort to improve LO guidance for case analysis, on March 31, 1999, Export Administration
officials implemented new procedures that emphasize the importance of obtaining sufficient
information before processing a case and identify the types of facts and details that must be
documented in LO notes. We found the new procedures to be more detailed than the prior
guidance–expanding upon the original “eight points” outlined above. For instance, with regard to
the end user, the new guidance states that simultaneously with the Nonproliferation Center
review, the LO should seek additional information on the business nature and reliability of end
users through Dun and Bradstreet, Lexis/Nexis, or the Internet and include this information in the
referral history for the reviewing agencies.

The new guidance also stresses that LOs should document all relevant facts and details in notes
throughout the review and analysis of an export license application, including discussions with the
applicant, supervisors, or senior technical staff; summary of relevant end use check cables
reviewed; and information obtained from the Internet, Dun and Bradstreet, or other open sources.
The guidance also provides clearer instructions for interoffice referrals, pre-license checks, and
referrals to the Operating Committee. While the new license application analysis procedures are
more thorough than the previous case analysis procedures, we believe it would also be beneficial
to provide LOs with specific questions they should be contemplating when processing export
license applications to specific countries (e.g., China joint ventures described above). The new
procedures are also more comprehensive than the existing procedures with regard to licensing
history. The new procedures require LOs to specify details about both the prior licensing history
for item(s) and/or consignees, including license identification numbers and number of licenses.
However, we believe the new procedures should also require that LOs include the most recent
dates of prior licenses or denials in the license history.

Export Administration is also currently creating an electronic library to store new policies and
procedures. The library will be an on-line licensing officer manual and will include policies and



                                               50
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



procedures related to commodity classifications, case analysis, license determinations, country
policy, referral policies, and record keeping.

The policies and procedures in the electronic library are intended to be generic and will be
applicable to all Export Administration licensing divisions. However, some divisions may find a
need to customize the policies and procedures for specific issues relevant to their division, and all
will need to update their specific policies and procedures as necessary. LOs will be able to access
the electronic library via the case analysis screen in ECASS. The first guidance entered in the
electronic library is policy and procedures for hold without action, return without action, and
denials. The library is not yet available on-line for LOs’ use, but BXA officials have stated that
this action is imminent.

We applaud Export Administration for taking the initiative to update its policies and procedures
and to improve the initial licensing review by LOs. We also believe that the electronic library will
be a valuable reference tool for LOs to access while preparing the case analysis. Once all the new
policies and procedures are approved and entered into the library, they need to be periodically
updated to ensure that they are consistent with current issues and new regulations. Export
Administration should develop a long-term plan for maintaining the library, including who will be
responsible for updating the procedures, when they will be updated, and what procedures will be
followed for updates.




In its written response to our draft report, BXA indicated it is willing to explore the
implementation of our recommendation to provide a check list for licensing officers and require
them to include the dates of the most recent approval or denials in the licensing history.
Specifically, BXA’s response stated that since each case is unique, a list of questions may not fit
every contingency. However BXA agreed to pursue the development of such a list with licensing
officers as part of its training on case analysis. In addition, BXA states that its recent guidance to
licensing officers on case analysis requires that a past licensing history be considered. However,
this guidance does not require that the most recent dates of prior licenses or denials be included in
the license history. Therefore, we reaffirm our recommendation that BXA require LOs to include
those dates in the licensing history.

Finally, BXA agreed with our recommendation to update policies and procedures regularly and
fully implement the BXA electronic library. BXA’s response indicated that the library is nearing
completion, and it believes the library will go far in improving the consistent and timely provision
of guidance to licensing officers.




                                                 51
U.S. Department of Commerce                                                     Final Report IPE-11488
Office of Inspector General                                                                  June 1999



B.     BXA needs a formal training program for its licensing officers

BXA has not emphasized the need to develop and maintain a corps of highly qualified LOs who
have the skills and competencies required for optimal case analysis of export license
applications. The export licensing function requires a continuous structured training program to
ensure that the LOs’ critical thinking and knowledge of export control issues and concerns are
the best possible. During our review, we found training in Export Administration to be
inconsistent and unresponsive to LO needs.

LO training needs have not been properly identified or prioritized

BXA needs to identify and prioritize the current and future learning needs of its licensing officers
and then establish a formal training program to meet those needs. Any training program BXA
establishes must take into account the mission of the organization and identify the training
necessary to achieve this mission. In addition, BXA should designate a specific office and staff,
and provide the necessary resources to enable them to manage and implement this program.

All of the managers we spoke with in Export Administration said they place a strong emphasis
on training–pointing out that the training budget for the last several years has been more than
adequate. Actual obligations for training have increased from $31,621 in fiscal year 1997 to
$84,746 in fiscal year 1998. In addition, Export Administration managers stated they rarely
decline a request for training. However, we still believe that management’s commitment to
training has not been adequately communicated to all LOs, and has not resulted in quality and
relevant training for most of them.

The LOs we talked with perceive that training within Export Administration is a low priority. In
response to the questionnaire that we sent to all licensing officers, 25 of 39 respondents noted
that over the last three years they received an average of only 75 hours of training. This included
two experienced LOs and one new LO who responded that they received no formal training at all
within the last three years. In addition, some supervisors told us that the types of courses LOs
have taken did not always improve their ability to conduct more thorough analyses. We noted
that many of the training classes cited in the responses did not appear useful for improving LOs’
ability to review license applications. Some LOs we spoke with who want to improve their
technical expertise feel it is far too difficult to obtain approval to attend workshops, technical
seminars, or symposia that would improve their skills.

While training is a requirement in the LOs performance plans, the requirement is vague and
inconsistent among the three licensing offices in Export Administration. For example, the Office
of Strategic Trade and Foreign Policy Controls requires one training class per year, while the
other two offices do not specify how much training is required. In addition, this training
requirement does not specify the types of training that are required. Some LOs informed us that
the training required in their performance plans is not taken seriously and, as a result, they are not
held accountable for taking the training classes that will improve their ability to process export



                                                 52
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



license applications. Export Administration management needs to be more specific as to the
amount and content of required training and should include this in a training plan for the office
and also a training plan for each LO.

Training for new employees is inconsistent between Export Administration divisions

We were particularly concerned about the adequacy of training for new employees. Such training
for new LOs and other Export Administration employees was generally left up to the individual
divisions. LOs told us that new officer training generally consists of reading the Export
Administration Regulations and learning on the job by directing questions to experienced staff.
While a couple of divisions offered some additional training for their new employees, we found
one in particular that provides more extensive training. Specifically, the Encryption Policy
Division in the Office of Strategic Trade and Foreign Policy Controls provides a comprehensive
training program for all of its new analysts. Initially, new analysts spend three weeks answering
phones and sitting in on other calls in the Exporter Counseling Division. They also observe and
answer exporters’ questions via the speaker phone with the division director for two hours a day
for one month. The new analysts also attend a two-day regulations seminar and a half-day
technology seminar sponsored by BXA for exporters. In addition, new analysts observe
interagency working group meetings and industry meetings. Lastly, new analysts attend BXA
educational seminars provided to exporters to teach the licensing regulations. While we recognize
that training needs to be flexible to allow for a variety of learning methods in a variety
of disciplines, we recommend that Export Administration consider using this kind of training
program for all new LOs.

We believe a training program–consisting of courses that are relevant to Export Administration at
the group level, at the division level, and to new employees–is critical to maintain a standard of
high quality export licensing decisions. In addition, we believe BXA needs to designate either a
training team or training coordinator to manage and implement an Export Administration training
program.

We also found that some LOs record their training hours using a training project code, while
others do not track their hours. BXA may also want to consider requiring all LOs to use a project
code for training, to be recorded on LO timesheets, so that upper level management can
automatically track the hours spent on training.

Suggestions for training topics

Based on the responses to our survey and interviews with LOs and managers, we have identified a
number of areas where we believe training would improve LOs’ performance. Some of the basic
courses include those that would improve their (1) communications skills, including writing and
negotiating, and (2) research skills for obtaining additional information on companies and
products, such as use of the Internet. Ongoing training on changes and updates to the Export
Administration Regulations is also needed.



                                                53
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



We believe that LOs also need more training in the policy arena, including international trade,
international business, economics, and proliferation issues. Another important area includes
ongoing technical training for BXA engineers to keep them abreast of constant changes in
technology. For example, BXA LOs could visit companies or associations to obtain information
on new or cutting edge technologies, or visit Commerce’s National Institute of Standards and
Technology for data encryption information. Such contacts would be especially helpful in key
technical areas such as biotechnology, encryption software, chemical and drug manufacturing, and
optical computing.

Export Enforcement sponsors training programs each year to which all its employees are invited.
One of the advantages of Export Enforcement’s training program is that it brings together all the
agents, analysts and support personnel to hear from key speakers from the referral agencies, law
enforcement community, Export Administration, and the Office of the Chief Counsel for Export
Administration to discuss issues concerning export controls. We believe Export Administration
may want to consider a similar program.

In addition, Export Administration should work with its counterparts at the other export control
agencies to institute regular briefings by the various agencies. We believe this forum could be
used to provide LOs the opportunity to learn more about other agencies’ licensing functions as
well as to discuss current export control issues from different perspectives (e.g., national security
or nonproliferation concerns). This could help LOs gain a better understanding of how their
function fits into the “bigger” picture and improve LO working relationships with their
counterparts at the referral agencies. In that regard, we also suggest that Export Administration
explore the possibility of brief exchanges of licensing personnel among the referral agencies, or
even short-term assignments of BXA’s LOs to another agency’s licensing office or the
Nonproliferation Center.

Finally, Export Administration should consider implementing a temporary internship for new LOs
to work in the Operating Committee to observe the types of questions and issues that will be
raised by the referral agencies. This assignment should better prepare the new LOs for what to
consider in their initial review of an export license application.




In its response to our draft report, BXA concurred with our recommendation to develop and
implement a training program for its licensing officers. Specifically, BXA informed us that its
Licensing Officer Task Force is organizing an extended formal training program for all licensing
officers that will include briefings by other agencies, such as the NPC.

BXA disagreed with our finding that it “has not emphasized the need to develop and maintain a
corps of highly qualified LOs...,” and stated that the current diversion of resources to respond to
the extraordinary external requests for information placed on the agency has affected its ability to



                                                 54
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



conduct formal training programs. We do not believe that BXA can attribute the lack of a formal
training program or training coordinator solely to the drain on its resources from these requests in
fiscal year 1998. In addition, BXA stated that our report did not adequately highlight that its
primary method for training (especially new LOs) is on-the-job training with a senior licensing
officer. We disagree with this comment. We state in our report that “new officer training
generally consists of reading the Export Administration Regulations and learning on-the-job by
directing questions to experienced staff.” However, our report emphasizes that more than on-the-
job training is needed. We highlight as a best practice the efforts of one BXA licensing division to
provide a more comprehensive training program for all of its new analysts. Such training includes
attending seminars and interagency or industry meetings, and working for a time in the Export
Counseling Division. We again recommend that BXA consider using this kind of training
program for all new LOs.

Finally, BXA stated that we may have reached our conclusions about LO training as a result of
comparing the training programs of EE and EA. As part of our review we did obtain a basic
understanding of EE’s training program and determined that its practice of bringing together all of
its personnel on an annual basis for briefings from the referral agencies, law enforcement
community, and the Office of Chief Counsel for EA to discuss issues concerning export controls
was a sound idea. While we agree that EA must tailor its training on a more individual basis
because of its widely different areas of expertise and responsibilities, we contend that there are
still opportunities for centralized training.




                                                55
56
U.S. Department of Commerce                                                                Final Report IPE-11488
Office of Inspector General                                                                             June 1999



IV.      Export License Application Process Is More Transparent, but Some Weaknesses
         Need to Be Addressed

The dual-use export licensing process is more transparent today than it was in 1993. In fiscal year
1993, 53 percent of export license applications were referred by BXA. In fiscal year 1998, 85
percent were referred. In the 1993 special interagency review, the OIGs pointed out that there
was not complete accord between Commerce and most of the other federal agencies regarding
which license applications should be referred for comments to the other agencies which may have
important information bearing on exports. The report recommended that the Secretary of
Commerce, in cooperation with the National Security Council and the Secretaries of Defense,
Energy, and State, direct the appropriate officials to provide a mechanism for (1) resolving
referral criteria disputes at progressively higher levels and (2) periodically reviewing the referral
criteria and resolving future disputes. The report also recommended that the Congress clarify the
roles of the various agencies involved in the dual-use export licensing process.

In 1995, the President issued Executive Order 12981, which authorized the Departments of State,
Defense, and Energy, and ACDA to each have the authority to review any export license
application submitted to the Department of Commerce under the Export Administration Act and
the Regulations. The Secretary may refer license applications to other U.S. government
departments or agencies for review as appropriate.

While the four referral agencies can now see all applications, they have provided Commerce with
delegations of authority for certain types of applications, based on the level of technology, the
appropriateness of the items for the stated end use, and the country of destination. With the
delegations, most export license applications are still referred to Defense. Applications with items
controlled by the Nuclear Suppliers Group are referred to Energy. Applications for all items
controlled for “foreign policy” reasons are referred to State. ACDA got all referrals of
applications with items subject to “regional stability” and “terrorism” controls; applications with
items subject to certain “national security” controls; applications with items controlled by the
Australia Group, the Missile Technology Control Regime, and the Nuclear Suppliers Group; and
all applications for computers. Since the transfer of jurisdiction of commercial encryption
products to Commerce in 1996, the Justice Department and the National Security Agency have a
role in the license review process for encryption license applications.35 In addition, applications
for items that do not fall under the Commodity Control List but are determined to be related to
the Enhanced Proliferation Control Initiative are referred to all agencies.




         35
           Executive Order 13026, Administration of Export Controls on Encryption Products, November 15,
1996, authorizes the Department of Justice to review any export license applications pertaining to encryption items.
In addition, the National Security Agency was delegated authority by the Defense Threat Reduction Agency to
review most encryption item exports referred to the Defense Department, but DTRA retains its authority for
handling these cases during the escalation process.



                                                         57
U.S. Department of Commerce                                                             Final Report IPE-11488
Office of Inspector General                                                                          June 1999



In fiscal year 1998, 11,015 license applications were processed by Commerce. Of these, 9,405
applications were referred to the four agencies, as specified in Executive Order 12981, and Justice
as specified in Executive Order 13026, and the Nonproliferation Center of the Central Intelligence
Agency. Most export license applications are referred to more than one agency. Figure 8 shows
the percentage of the referred applications that were referred to the Departments of Defense,
State, Justice, Energy, ACDA, and the Nonproliferation Center. In fiscal year 1998, 1,610 (or
approximately 15 percent) of export license applications processed were not referred to any other
agency.

Figure 8




(*) This does not reflect 15 percent (1,610 applications) not referred to any agency.
Source: Office of Administration, Bureau of Export Administration.

While we believe the overall referral process is generally effective, we did identify some areas of
weaknesses that need management attention, including (1) LOs amending existing licenses
without interagency review; (2) inadequate review time provided to the Nonproliferation Center
for its end user checks; (3) lack of guidance provided to LOs with regard to the Nonproliferation
Center referrals; (4) vulnerabilities associated with not screening parties against the Customs
Service’s TECS database during the initial review period; and (5) canceling pre-license checks
without notifying the referral agencies when they approve a license with the condition of a
favorable end use check. In addition, we highlight two other areas of concern that require BXA
management’s attention. First, the intelligence community could provide a more comprehensive
analysis on end users. The current dual-use licensing process does not take into account the
cumulative effect of technology transfers. To obtain the greatest benefit from the intelligence
community, all export licenses should be referred to the Central Intelligence Agency, which could
distribute them to other units in addition to the Nonproliferation Center. Secondly, we identified



                                                         58
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999



a high number of “pullbacks” from one of State’s licensing units. We discuss these issues in more
detail below.

A.      Sufficient justification exists for most of the non-referred cases

In fiscal year 1998, BXA did not refer about 15 percent of license applications processed. As part
of our review of the export licensing process, we looked at a randomly selected sample of 60 non-
referred cases to determine whether BXA had sufficient justification for not referring those
applications. BXA officials provided a number of reasons for the non-referred cases, e.g., they
were mostly incomplete applications that were returned to the exporter without action, some
automatic denials, and a small number of routine cases that the other agencies have elected to
delegate to Commerce.

The most common reason export license applications in the sample were not referred was that
they lacked sufficient information to evaluate the application and were returned to the exporter.
Nineteen applications (or 32 percent of the sample) were not referred for this reason. The other
reasons for non-referral include:

l       The items were classified as “EAR 99" and qualified for “no license required” based on the
        destination. These applications were “returned without action.” “EAR 99" is the
        classification used for items subject to the Export Administration Regulations that are not
        on the Commerce Control List.36 If an item is classified as “EAR 99" and certain
        prohibitions do not apply, then the exporter is allowed to ship with “no license required.”37
        For example, a microwave switch not described in the Commerce Control List was
        classified as “EAR 99.” Because it was being shipped to Switzerland, the application was
        found to be “no license required” (10 cases).

l       The items had export control classification numbers but qualified for “no license required”
        based on the destination and end use. All were returned without action
        (8 cases).

l       The items were included in a delegation of authority from the referral agencies. For
        example, the referral agencies have delegated their authority to Commerce to review most
        applications for crime control items, e.g., polygraph systems (6 cases).




        36
            A license or other requirement applies only in those cases where other parts of the Export
Administration Regulations impose a licensing or other requirement on such items or activities. For example, a
license is required for an EAR 99 item whose destination is Cuba.
        37
           General Prohibitions Four through Six of 15 CFR 736 include actions prohibited by a denial order,
prohibited end uses or end users, and export or reexport to embargoed destinations.



                                                        59
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999



l       The items qualified for license exceptions and applications were returned without action.
        A “License Exception” is an authorization that allows the exporter to export or reexport,
        under stated conditions, items subject to the Export Administration Regulations that
        would otherwise require a license38 (3 cases).

l       Applications were rejected based on an outright denial policy for certain items going to
        India. On May 13, 1998, Presidential Determination No. 98-22 determined that India
        detonated nuclear explosive devices and directed that all licenses and other approvals to
        export or otherwise transfer defense articles and defense services from the United States
        to India or transfer U.S. origin defense articles and defense services from a foreign
        destination to India be revoked immediately (3 cases).

l       Applications were returned without action at the request of the exporters (3 cases).

l       Items involved “short supply” commodities, which are not specified as one of the types of
        applications to be referred under Executive Order 12981. Examples of “short supply”
        commodities include crude oil, other petroleum products, and unprocessed western red
        cedar. Both of these applications were approved with conditions (2 cases).

l       Applications were duplicates of pending export license applications and were returned
        without action (2 cases).

l       Item was determined to fall under U.S. Munitions List and was returned without action
        after BXA advised the applicant that the commodity was under State’s jurisdiction.
        (1 case).

l       Application was for a special case requiring last-minute approval for flights by a news
        organization to Cuba to cover a papal visit. BXA verbally discussed this case amongst the
        referral agencies in order to expedite the exporter’s request (1 case).

l       Applications were treated as amendments to previous licenses. One was approved with
        conditions, and the other was returned without action (2 cases).

In addition, the Departments of Defense and Energy and the Nonproliferation Center also
reviewed our sample of 60 non-referred cases. While the Nonproliferation Center had no
concerns about any of the non-referred cases in the sample, the Departments of Defense and




        38
           According to 15 CFR 740.1, items that would otherwise require a license are those falling under General
Prohibitions One, Two, or Three (Exports and Reexports, Parts and Components Reexports, Foreign-Produced
Direct Product Reexports), as indicated under one or more of the export control classification numbers in the
Commerce Control List in 15 CFR 774.



                                                        60
U.S. Department of Commerce                                                                Final Report IPE-11488
Office of Inspector General                                                                             June 1999



Energy expressed some concerns about six of the 60 not referred to them. Two of these cases
involved amendments to previous licenses, and four cases raised procedural concerns.

Amendments to existing licenses need interagency review

Two of the 60 export license applications not referred raise concerns because they involved
amending original licenses agreed to by the referral agencies. However, BXA did not seek
concurrence from the referral agencies who reviewed the original licenses.

The first case dealt with an application to export a work station to be used by a lab in Israel. The
application was meant to replace a validated license which had been reviewed and agreed upon by
the Missile Technology Export Control Group39 with the conventional condition of “no missile
related end uses.” However, the exporter had failed to notify BXA that the ultimate consignee
was a missile division and thus this condition would not be acceptable. BXA informed the
exporter to resubmit a new application with this information. According to the LO notes for the
newer application, the licensing officer wrote:

        “...I was disappointed that there was no expanded end use or reason the condition
        was not acceptable. When I called the exporter, I was able to reach a compromise
        with [the exporter] to add a clarifying sentence to the previous case. I had it
        reopened and approved it with this clarification, rather that (sic) start all over again
        with agency referrals and lengthy explanations.”

According to BXA management, the “clarification” referenced above was that there should be
“no category one missile end use.” BXA decided to reopen the existing, interagency-approved
license to modify the condition with this clarification, and returned the new application without
action. The Deputy Director of the Defense Threat Reduction Agency stated that the Export
Administration Regulations treat amendments to existing licenses as replacement licenses, which
should be referred to Defense and any other appropriate reviewing agencies. However, BXA
stated it was justified in not referring this case because it was just a clarification of the originally
agreed to conditions, not a change in scope. Nonetheless, Defense stated that if Commerce
makes substantive changes to licenses, Defense would like the opportunity to review such
changes. If the changes are simply grammatical, Defense indicated that it does not need to see
them.

Similarly, the second case dealt with an export license application to amend one of the conditions
placed on an existing license to export an aircraft navigation system to Taiwan. Specifically, the
exporter wanted to add an additional aircraft series onto the existing license. Instead of reopening
the existing license in this case, the licensing officer decided to process the new application. The



        39
           An interagency group chaired by State that primarily reviews applications involving items controlled for
missile technology reasons.



                                                        61
U.S. Department of Commerce                                                                Final Report IPE-11488
Office of Inspector General                                                                             June 1999



licensing officer notes indicated that the amendment did not constitute a major change so
interagency review was not warranted because all of the other facts in the case
remained the same. Therefore, the export license application was approved with conditions
without interagency review. Again, Defense believes this case should have been referred to it.

We agree with Defense that these two cases should have been referred. In our opinion,
determining what is a substantive change is a subjective process. We believe that whether BXA
processes amendments to existing licenses as new applications or reopens the existing licenses, it
must ensure that licensing officers refer or consult with the applicable reviewing agencies in order
to avoid allegations that its licensing decisions are not transparent.

Some non-referred export license applications raise procedural questions

As previously mentioned, BXA indicated it did not refer three export license applications,
destined to India, because they fell under the Administration’s policy of denial. However, the
Deputy Director of the Defense Threat Reduction Agency considered these non-referrals to be
procedural oversights. He explained that in 1998, when the President imposed sanctions on India
and Pakistan for conducting nuclear tests, the Deputy Assistant Secretary for Export
Administration had suggested in writing that, under the presidential sanctions, Defense could
delegate to Commerce the authority to deny these license applications outright. However,
Defense did not respond to the Commerce suggestion. Thus, in its opinion, it should still continue
to receive these applications. While Defense stated that it probably would not have challenged
Commerce’s decision to deny these cases, Defense believes the proposed transactions would have
provided it useful background knowledge. We agree that such license applications should be
referred to Defense. We believe that BXA needs to remind licensing officers to reread BXA’s
referral procedures and to follow them in the future to address the concern expressed by Defense
in the license referral process.

In addition, Energy expressed concern about one of the 60 export license applications from our
sample. Specifically, the export dealt with repairs and replacements of components to a civilian
nuclear power plant in Russia. According to BXA, this application was not referred because it
believes that such plants fall under the International Atomic Energy Agency40 safeguards. Since
Russia is a member of the Nuclear Safeguard Group, BXA concluded that the items did not
require a license and returned without action this application. However, Energy specified to
Commerce in a June 5, 1997, memo that applications intended for nuclear end uses or end users
should continue to be referred to Energy regardless of the reason for export control. In addition,
Energy officials indicated that while they do not necessarily have a concern with the shipment



        40
           The International Atomic Energy Agency serves as the international inspectorate for the application of
nuclear safeguards and verification measures covering civilian nuclear programs. In 1962, the United States
transferred safeguards responsibilities for its own bilateral nuclear export agreements to IAEA. With Soviet
support, IAEA became the first international inspection system supported by both the East and the West.



                                                        62
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



itself, it believes that Commerce should have referred the export license application for its
evaluation per the executive order. We agree that such license applications should be referred to
Energy. We believe that BXA needs to remind licensing officers to reread BXA’s referral
procedures and to follow them in the future to address the concern expressed by Energy in the
license referral process.




In its written response to our draft report, BXA agreed with our recommendation to instruct its
licensing officers to follow BXA’s referral procedures, and refer all appropriate license
applications including amendments. BXA said it will consider issuing new guidance requiring that
they be routinely referred. However, we disagree with BXA’s assertion that our review
demonstrated that “in every case BXA made the correct decision” with respect to referring export
license applications to the appropriate agency.

In fact, our review demonstrates that 6 of the 60 non-referred cases from our sample should have
been referred to either Defense or Energy. As our report discusses, 2 of the 6 export license
applications not referred raised concerns because they involved amending original licenses agreed
upon by the referral agencies, but BXA did not seek concurrence from the referral agencies who
reviewed the original licenses. In addition, three non-referred applications were considered to be
procedural oversights by Defense, and a fourth was considered to be a procedural oversight by
Energy. With respect to the different opinions of BXA and the Defense Threat Reduction Agency
on the referral of applications denied under the India and Pakistan sanctions, we recommend that
BXA and Defense clarify referral procedures for applications that are generally denied under
Administration policy.

B.     Review of export license applications by the intelligence community is limited

The Director of Central Intelligence is responsible for directing the Central Intelligence Agency as
well as coordinating the diverse activities of all U.S. intelligence agencies. The intelligence
community refers collectively to those Executive Branch agencies and organizations (e.g., the
Departments of Defense, Energy, and State) that conduct the varied intelligence activities that
make up the total U.S. national intelligence analysis effort. According to the Central Intelligence
Agency, the primary objective of intelligence analysis is to minimize the uncertainty with which
U.S. officials must grapple in making decisions about American national security and foreign
policies.41

However, we found that the intelligence community has not been fully engaged in the export
licensing process, which could lead to the licensing of dual-use commodities to unsatisfactory end



       41
            Central Intelligence Agency Home Page.



                                                     63
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



users. Specifically, we found that (1) the Central Intelligence Agency, at its own request, does
not review all dual-use export license applications, (2) the Nonproliferation Center does not
always conduct a comprehensive analysis of export license applications it reviews, and (3) the
intelligence community agencies are conducting only a limited assessment of the cumulative effect
of dual-use export licenses issued. We would encourage BXA to open up discussions about these
apparent weaknesses in the dual-use licensing process with not only the Director of the
Nonproliferation Center but the Director of the Central Intelligence Agency as well.

CIA’s review of dual-use export license applications

In September 1991, the Central Intelligence Agency established the Nonproliferation Center to be
the focal point for all intelligence community activities related to nonproliferation.42 The
Nonproliferation Center is responsible for supporting the dual-use export licensing process by
providing license reviewing agencies with intelligence information on potential end users.
However, according to a 1995 Memorandum of Understanding (MOU) between the
Nonproliferation Center and BXA, the Nonproliferation Center does not review those items or
end users which fall outside its nonproliferation mission or commodities which are generally
available and not likely to make a difference in proliferation. As a result, only 45 percent of all
dual-use export license applications disposed of in fiscal year 1998 received any input from the
Nonproliferation Center and subsequently the Central Intelligence Agency.

While the remaining 55 percent of applications not reviewed by the Nonproliferation Center are
those to which the Nonproliferation Center believes it cannot add any value, we question why
these applications–which are controlled for national security and foreign policy–are not reviewed
by any other Central Intelligence Agency units (e.g., its regional offices). According to its web
site, the CIA “...has unique analytic capabilities that exist nowhere else inside or out of
government.” Since, the export licensing agencies rely on intelligence information as part of their
decision-making process for determining whether an export license application should be
approved or denied, we believe it is imperative that the reviewing agencies have access to all
appropriate intelligence information for all appropriate export license applications in order for
them to make the most informed decision. We would encourage BXA to engage in discussions
with the Central Intelligence Agency on this important matter.

More detailed intelligence information would be helpful for licensing decision making

We found that the substance of intelligence information provided by the Nonproliferation Center
on the applications it reviews varies from case to case. Specifically, some of the Center’s reports,
known as trade reviews, appeared to provide very thorough and detailed information, while other
trade reviews reported, “No comment.” From our licensing officer questionnaire, we received 19
responses with regard to our question of whether BXA LOs have enough information from the



       42
            Internet web address: http://www.odci.gov/cia.



                                                        64
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



Nonproliferation Center to make a reasonable license determination. Among the flaws cited by
licensing officers in the information provided by the Nonproliferation Center were:

       “Intelligence community data is historic and has not been updated in most cases
       and while it may reflect the activities of past years it may not reflect present
       conditions.”

       “The Nonproliferation Center tends to focus on very limited activities, rather than
       looking at the full structure and functions of the end users.”

       “Sometimes they [do] not research the end user fully...”

       “The Nonproliferation Center end user reports are based on dated intelligence,
       drafted in language which raises inferences concerning certain activities which
       suggest proliferation in nuclear, missile, or CBW, but are not relevant to the
       transaction under review...Increasingly, the Nonproliferation Center end user
       intelligence reports do not attempt to assess what such dynamic economic or
       restructuring changes may mean in light of earlier inferences of activities which
       may have raised proliferation concerns.”

       “Greater access to intelligence (perhaps through on-line capability), a more timely
       response and better quality of analysis would help.”

       “The Nonproliferation Center information is late, incomplete, and not definitive.
       This is a major complaint from all licensing officers.”

In addition, licensing officers reported that in those cases where the Nonproliferation Center
provides substantial information, the referral agencies interpret the information differently.
To alleviate this problem, one BXA official recommended that the Center’s analysts “rate” the
risk of diversion or use in a proliferation project on some kind of quantitative (0-10) or qualitative
(high, moderate, low) scale, thereby giving BXA’s licensing officers and referral agencies a better
idea of the likelihood of diversion.

While the Nonproliferation Center disagrees with most of the characterizations made by the
licensing officers, noting that BXA does not understand “intelligence” information, we believe
that the Nonproliferation Center–and the Central Intelligence Agency as a whole–could
potentially provide more information to the licensing process (i.e., routinely seeking licensing-
related information from analysts in the regional offices who specialize in particular countries).
Furthermore, we believe that some export license applications dealing with countries of concern
may warrant soliciting information on particular foreign entities from overseas posts.




                                                 65
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



During our review, we identified other factors that may be hindering the Nonproliferation Center
analysts from conducting a more comprehensive search, including a lack of time to perform their
reviews and a lack of resources.

       Nine-day time frame is inadequate for review by the Nonproliferation Center

Currently, the Nonproliferation Center has nine days to conduct its review of end users for export
license applications. The intent behind this short time frame (as compared to the 30 days
provided to the other referral agencies) is to enable BXA licensing officers the opportunity to
review the intelligence information prior to referring the export license application to the
reviewing agencies with their recommendation.

Based on our referred sample of 179 export license applications, 82 of these applications were
referred to the Nonproliferation Center. Of these, approximately 50 percent took longer than nine
days for the Nonproliferation Center to respond. Twenty-five of these applications, destined to
China and India, took an average processing time of 23 days. Nonproliferation Center officials
informed us that nine calendar days to review end users is not enough time, particularly for
countries of concern like China and India. Several licensing officers indicated to us that they
would rather have the Nonproliferation Center take additional time to provide a trade review
report with more details on the end user or end use than one that reports “No comment.”
Therefore, we believe that BXA should work with the Nonproliferation Center to establish a more
realistic time frame for its review of end users especially in countries of concern.

       Nonproliferation Center has resource constraints

While the Central Intelligence Agency’s OIG is addressing the shortage of analysts in the
Nonproliferation Center licensing branch in its report on the export licensing process, we believe
there is another factor contributing to its resource constraints. Specifically, the Central
Intelligence Agency OIG determined that BXA was unnecessarily referring some export license
applications to the Nonproliferation Center contrary to the 1995 and 1997 conditions outlined in
the interagency agreement between the two agencies.

According to senior BXA officials, its licensing officers were provided guidance describing the
referral policy for the Nonproliferation Center. While it is not an exact copy of the 1995 MOU,
we determined that the guidance distributed, clearly outlines what is to be referred and not
referred. However, we found that not all LOs have a copy of the Nonproliferation Center’s 1997
addendum to the MOU which further reduced the number of referral cases. As a result, the
Nonproliferation Center claims that it has seen a dramatic increase in the number of end users sent
in for review that are contrary to the MOU. During this review, we notified BXA’s Deputy
Assistant Secretary of this matter and subsequently, a memorandum was issued on April 21, 1999
outlining the Nonproliferation Center’s 1997 addendum and the current policy on license
applications and end users that should be sent to the Nonproliferation Center for review.




                                                66
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



However, Export Administration managers informed us that the MOU does provide some
flexibility for licensing officers to refer a particular license application to the Nonproliferation
Center if they have concerns about it, even if it normally would not be referred. Export
Administration managers further stated that they would rather have the license officers be overly
cautious than not when it comes to nonproliferation concerns. We agree with this philosophy;
however, we also believe that BXA needs to instruct its LOs to indicate in the license application
referral history the reason they believe the Nonproliferation Center should review an end user
when it is contrary to the MOU.

Cumulative effect assessment for exports of dual-use commodities is needed

Cumulative effect refers to the impact resulting from a proposed export when added to other past
exports to a country of concern. A cumulative effect can result from individually minor but
collectively significant export actions taking place over time. We found that BXA licensing
officers appear to have institutional knowledge about what goods and technologies specific end
users or countries are receiving because they tend to process similar export license applications
dealing with the same commodities, exporters, and end users over time. However, according to
the survey responses from licensing officers, they do not routinely analyze the cumulative effect of
proposed exports or receive such assessments to use during license reviews.

On the basis of our review, it appears that the Energy Department’s seven laboratories conduct a
limited cumulative effect assessment review for nuclear dual-use exports, but there is no
coordinated effort to conduct such an assessment for all commodities. In addition, we learned
that Defense has a requirement to perform annual assessments of the total effect of transfers of
goods, munitions, services, and technology on U.S. security, but it had not yet performed such
reviews. Therefore, we believe that BXA should work with the intelligence community, including
both Defense and Energy, as well as the CIA, in developing some sort of mechanism to analyze
and track this cumulative effect of dual-use exports to specific countries and regions.




In its written response to our draft report, BXA agreed with our recommendation to engage in
discussions with the Director of the Central Intelligence Agency to seek ways to strengthen the
role of the intelligence community in the export licensing review process, including (1) referring
all appropriate license applications, (2) performing risk assessments on end users, and
(3) obtaining more detailed intelligence information. However, BXA deferred to the intelligence
community on the costs and feasibility of implementing our recommendations. BXA also stated
that it would reiterate its current guidance for documenting the reasons why referrals are made to
NPC when the established guidance would normally preclude referral.

In addition, while BXA did not disagree with our recommendation to establish a more realistic
time frame for the NPC’s review of end users in countries of concern, it stated that additional time



                                                67
U.S. Department of Commerce                                                     Final Report IPE-11488
Office of Inspector General                                                                  June 1999



for review must be reconciled with the competitive realities that U.S. exporters face and their
need for prompt decisions from the government. While we understand that U.S. exporters face
strong competition in the world today and deserve prompt decisions from the government, we do
not believe that this should be done at the expense of national security. In addition, providing
additional time for NPC does not necessarily mean that exporters will be delayed. Considering
the current resource constraints at the NPC, we reaffirm our recommendation that BXA work
with NPC to establish a more realistic time frame for its review of end users in countries of
concern, when necessary.

Finally, BXA agreed that tracking and assessing the cumulative effect of dual-use exports are
desirable but difficult to do. It further stated that since cumulative effect results not only from the
transfer of items under approved licenses, but also as the result of the provision of items not
requiring a license and shipments from foreign suppliers that would not be caught by our licensing
system, it believes that the assessment of cumulative effect should be made in the multilateral list
review process (e.g., Wassenaar Arrangement) instead of on each individual license application.
While we maintain that tracking and assessing the cumulative effect for proposed exports to
certain countries are critical, we also believe that conducting this type of assessment during the
list review process could be advantageous.

Nevertheless, BXA’s response stated that it agreed with our overall position and indicated that it
has included as part of its 2001 budget request the resources that it would need to conduct such
assessments. We also want to reiterate the importance of BXA working with the intelligence
community in developing any mechanism to analyze and track this cumulative effect of dual-use
exports.

C.     Concerns are raised about the Department of State’s ability to review cases

One shortcoming identified in the 1993 special interagency OIG report on the export licensing
process was unnecessary delays caused by referral agencies in processing of applications.
Executive Order 12981 addressed this by holding agencies accountable for delays. Specifically, it
states that within 30 days of receipt of a referral and all required information, a department or
agency shall provide the Secretary with a recommendation to either approve or deny the license
application. A department or agency that fails to provide a recommendation within 30 days shall
be deemed to have no objection to the Secretary’s decision. In our opinion, the executive order
time limit is adequate for agencies to conduct their reviews. If any additional information is
necessary, any agency can “stop the regulatory clock” by simply posing relevant questions for the
applicant or other sources (e.g., pre-license check). There is no limit on the number of questions
that can be posed or the time available to answer them.

Commerce relies on the various referral agencies for their expertise in foreign policy, national
security, and nonproliferation matters to determine the potential risks of exporting sensitive
commodities to specific end users. However, if an agency does not respond within the mandated
30 days, its position need not be taken into account.



                                                 68
U.S. Department of Commerce                                                              Final Report IPE-11488
Office of Inspector General                                                                           June 1999



When the referral agency does not respond to a license application in the specified time period,
the application is automatically “pulled back” from the agency.43 Of our sample of 179 referred
export licenses from the period January 1 through June 30, 1998, we found that three of the four
referral agencies experienced some “pullbacks.” Table 3 illustrates the total number of cases
referred to each agency, the number of cases pulled back, and the percentage of cases pulled back.
Among the three agencies, State had the greatest number of pullbacks in the sample.

Within the State Department, Office of the Under Secretary for Arms Control and International
Security, Bureau of Political Military Affairs, there are three groups that review dual-use license
applications: (1) the Office of Export Controls and Conventional Arms Nonproliferation Policy
reviews export license applications for encryption products, deemed exports, supercomputers, and
electronic devices; (2) the Office of Chemical, Biological, and Missile Technology reviews export
license applications for chemical, biological, or missile commodities; and (3) the Office of Nuclear
Energy Affairs reviews export license applications for dual-use nuclear commodities. A fourth
group, the Office of Energy Sanctions and Commodities, in the Bureau of Economic and Business
Affairs, reviews export license applications for crime control commodities. The Office of Export
Controls and Conventional Arms Nonproliferation Policy receives approximately 50 percent of all
dual-use licenses referred. Based on our sample, this office reviewed 91 out of the 153 cases
referred to the State Department and failed to respond on 24 percent of those cases, although the
overall pullback rate for all State Department referrals was approximately 12 percent.

Table 3: Sample of Export License Applications Pulled Back from Referral Agencies

     Referral Agency              Total Referred            Number of Cases              Percentage of
                                      Cases                 Pulled Back After          Cases Pulled Back
                                                                 30 days
             State                       153                         19                       12.4%
             Energy                       56                          2                        3.6%
          Defense                        172                          3                        1.7%
             ACDA                         97                          0                          0
Source: Office of Administration, Bureau of Export Administration.

We raised this issue with an official from that office who informed us that there was only one
licensing officer assigned to handle all of the dual-use license applications referred to this office.
This individual is also State’s representative to the Operating Committee and must handle all of




        43
          While BXA can technically proceed with processing the application, in the past its LOs have
occasionally sent the case back to the applicable agency to ensure that there were no concerns.



                                                       69
U.S. Department of Commerce                                                          Final Report IPE-11488
Office of Inspector General                                                                       June 1999



those cases as well. Thus, we believe a major reason for the number of State’s “pullbacks” is a
lack of resources devoted to looking at these export license applications. Upon discussing our
concerns with State’s Office of Inspector General team, we learned that as a part of ACDA’s
dissolution, one of its personnel will be assigned to this office to help with its export license
application review. We believe this should help resolve the resource issue in the Office of Export
Controls and Conventional Arms Nonproliferation Policy; however, we encourage BXA to
periodically check State’s pullback record to monitor this situation.




In its written response to our draft report, BXA agreed to periodically review State’s pullback
record to monitor this situation. However, it also noted that since State has requested to review
certain cases under the Executive Order, it is incumbent on that agency to determine how to meet
its own responsibilities. We agree.

D.      License applications should be screened against Customs Service’s TECS database

While the export licensing process is clearly more transparent today than it was in 1993, we
believe that one key element is missing from this process–the screening of all parties to pending
license applications against the Treasury Enforcement Communications System (TECS) database
maintained by the Treasury Department’s U.S. Customs Service. TECS was created to provide
multiagency access to a common database of enforcement data supplied by the participating
agencies, such as Customs, the Drug Enforcement Administration, and the Bureau of Alcohol,
Tobacco, and Firearms. Screening every applicant and consignee against TECS during the initial
phases of the licensing process would give licensing and enforcement authorities early warning of
any potential concerns Customs may have. We first identified this weakness in the licensing
process in 1996, and again in 1997, during our reviews of BXA’s Watchlist.44 While BXA agreed
with our overall conclusion that it is important for policy-makers to have all information available
to them in order to reach a licensing decision, it disagreed with our recommendation to screen all
parties to export license applications against TECS.

According to Section 12(c)(3) of the 1985 amendments to the Export Administration Act,
Commerce has the authority to refer pending export license applications to Customs. Specifically
it states: “The Secretary [of Commerce] and the Commissioner of Customs, upon request, shall
exchange any licensing and enforcement information with each other which is necessary to
facilitate enforcement efforts and effective license decisions.” [Emphasis added.]




        44
          Report to the Congress on the Department of Commerce’s Export License Application Screening
Process (IPE-8647), September 1996 and Export Application Screening Process Could Benefit from Further
Changes (IPE-9524), September 1997.



                                                     70
U.S. Department of Commerce                                                     Final Report IPE-11488
Office of Inspector General                                                                  June 1999



In addition, Executive Order 12981 clearly states that “the Secretary may refer license
applications to other United States Government departments or agencies for review as
appropriate.” We are not suggesting that Customs make licensing recommendations as do the
existing referral agencies, but we do believe that both the law and executive order authorize
Commerce to exchange names of parties associated with pending licenses with Customs in the
initial phases of the licensing process to give BXA licensing and enforcement authorities early
warning of any potential concerns Customs may have. Again, TECS was created to provide
multi-agency access to a common database of enforcement data to satisfy a recognized need to
promote the sharing of sensitive information between federal law enforcement agencies.
Furthermore, since the intelligence community is unable to collect information on U.S. citizens or
companies, it is also unable to collect information on U.S. subsidiaries overseas, even in countries
of concern. However, Customs is allowed to collect such information which it stores in TECS,
thereby giving BXA another valuable source of information to check export application parties
against.

As the agency with the ultimate responsibility for issuing U.S. dual-use export license
applications, we believe BXA has an obligation to take every precautionary measure to ensure
that all potential export enforcement concerns within the U.S. government are considered before
issuing a license. By not doing so, it leaves itself and the Secretary of Commerce vulnerable to
criticisms of making licensing decisions based on incomplete information.

We therefore reaffirm our recommendation that BXA work with Customs to provide for the
transmission of names, addresses, and telephone numbers from pending license applications to
Customs for screening against TECS for at least a two-year trial period. This will enable the
agencies to determine if TECS can add valuable information to the screening process.

Customs involvement in BXA’s current license application screening process

Under the 1993 MOU between BXA and Customs, Customs receives a daily tape of ECASS
licensing data for all cases approved, denied, or returned without action, which Customs then
enters into TECS. This information is supposed to be available for Customs’ enforcement
personnel in the field (e.g., an inspector at a U.S. port) to check the validity of certain export
shipments. However, we learned during our current review that this has not happened.

In addition, the MOU allows Customs to add to BXA’s watchlist any derogatory or adverse
information about the suitability of a party to participate in an export transaction involving dual-
use, U.S.-origin goods or technology. The procedures, as laid out in the MOU, are as follows:

l      A Customs special agent recommends, through Customs headquarters, that BXA’s Office
       of Enforcement Analysis (OEA) place on BXA’s screen the name of a party in which the
       agent has an enforcement interest.

l      OEA places the name on the screen. The name is now “flagged.”



                                                  71
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



l      A license application is received by Export Administration and is entered into ECASS.

l      The application contains the name of a party of concern to the Customs special agent;
       for example, the ultimate consignee.

l      ECASS matches the license application to the name on the screen. This is often referred
       to as a “screen hit.”

l      ECASS refers the license application to OEA’s queue. The license is held in this queue
       until the enforcement concern is resolved. The license cannot be approved until OEA lifts
       the “flag.”

l      OEA notifies the Customs headquarters contact of the screen hit and provides this contact
       a copy of the relevant license application. Customs provides to OEA any derogatory
       information Customs may have on the license application in question.

l      If Customs does not respond to OEA’s notification within four working days, the OEA
       lifts the flag and releases the application to Export Administration for normal processing,
       based on the assumption that Customs has no information to prevent Export
       Administration from considering the application on its merits.

l      If Customs believes it has information that would support a negative licensing action, for
       example, a rejection of the application by Export Administration in order to prevent a
       possible violation of the Export Administration Regulations, Customs provides the
       information to the OEA.

However, as we stated in 1996 and again in 1997, we believe the screening process can be easily
expanded to incorporate the screening of parties to pending license applications against TECS.

Enhancing the current license application screening process

As a result of the technological improvements in the direct cable connection between BXA’s and
Customs’ mainframes in recent years, we believe the screening of pending license applications
against TECS is much more feasible. BXA can more easily download a daily transfer of
application information from BXA to Customs if sent during off-peak hours, such as at night. As
a result, we believe that BXA can readily screen TECS and not slow its normal export license
process. As we suggested in 1997, we propose that BXA adopt the following, or similar,
procedures for accomplishing this task:

l      License applications are received by Export Administration and automatically entered into
       ECASS.




                                               72
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



l      Each night, ECASS would be programmed to create a batch file of all parties, including
       addresses and phone numbers, associated with the new pending applications for that day.

l      The file would be electronically sent to Customs via the hard-line access to TECS and
       then automatically screened against the database, or those portions of the database that
       BXA and Customs have agreed are relevant.

l      TECS is set up to automatically notify a Customs agent if there is a screen hit on any
       parties the agent may have flagged. Thus, if there is a screen hit in TECS for any of the
       parties sent over from BXA, the agent would be notified.

l      In the interim, Export Administration would continue to process the license application.

l      If Customs has information that might support a negative licensing action, such as a
       rejection of the application by Export Administration in order to prevent a possible
       violation of the Export Administration Regulations, Customs would provide the relevant
       information to OEA within four working days of the screen hit.

l      If Customs does not provide derogatory information to BXA within four working days,
       the license application will continue through its normal processing, based on the
       assumption that Customs has no information to prevent Export Administration from
       considering the application on its merits.

Like the current procedures providing for Customs’ involvement in adding parties to the
watchlist, this proposal puts the onus on Customs to notify BXA of any derogatory information.
However, under these procedures, BXA will be able to take additional precautionary measures to
ensure that all enforcement concerns are addressed.

BXA’s justification for not implementing our recommendation is not warranted

In responding to our draft report in 1997, BXA disagreed with our recommendation to screen all
parties against TECS. Specifically, its response argued that “to refer all license applications to
Customs for review in TECS effectively makes Customs a referral agency. This would not be
consistent with the President’s goal to streamline the export licensing process as expressed in
[Executive Order 12981].”

We do not believe that the additional screening of parties against TECS is inconsistent with
Executive Order 12981, which states that “the Secretary may refer license applications to other
United States Government departments or agencies for review as appropriate.” In our opinion,
this provision clearly provides the authority for BXA to exchange pending license application
information with Customs. We note that the executive order does not specifically provide for
Commerce to refer license applications to the intelligence community, but BXA does so because it
makes sense.



                                                73
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



Second, BXA argued that “[Executive Order 12981] responded to the needs and concerns of
American exporters by ensuring that strict standards and deadlines are imposed on the review and
escalation of cases.” We agree. However, our proposal gives Customs a four-day time period
(the established time frame under the current MOU) in which to notify BXA of any enforcement
concerns. The four-day time frame is also compatible with the application processing times
established by Executive Order 12981. If Customs reports back to BXA within the four-day time
frame that it has an enforcement concern regarding a particular party, we do acknowledge that the
processing time for that application may be extended to address the enforcement concerns.
However, this is the current practice for applications in which Customs and/or Export
Enforcement agents have concerns. We believe that this process is consistent with the executive
order and that it was not the President’s intent to streamline export controls at the expense of
national security.

Third, BXA’s 1997 response indicated that this important issue should be discussed within the
MOU framework between Customs and BXA at its quarterly meetings. BXA stated that it would
remind Customs of its obligation to provide BXA with the relevant information that can be used
to screen license applications. BXA contends that it is Customs’ responsibility to provide its
enforcement concerns to BXA—not BXA’s responsibility to provide all pending license
applications to Customs. Yet it took from October 1997 until February 1999 for Customs to
provide BXA with two diskettes, one containing business names and one containing individual
names. While there were approximately 3,500 business names provided on the one diskette, the
second diskette containing individuals' names was unreadable. As of March 1999, BXA systems
personnel informed us that none of this information has been imported into ECASS.

However, if all parties to pending license applications were run against the TECS database, the
issue of Customs not providing BXA the names of parties about which Customs has an
enforcement concern is a moot point. Under our proposal, these parties will automatically be
identified during the screening process against the TECS database. If there is a “hit” and a party
is flagged, the appropriate Customs agent will automatically be notified that a party they were
monitoring has applied for an export license. The Customs agent will then have to make a
decision as to whether there is enough derogatory or adverse information on the party to notify
BXA about Customs’ concerns with that license application.




In its written response to our draft report, BXA disagreed with our recommendation to update the
1993 MOU between BXA and Customs to provide for TECS screening of pending license
applications. BXA contends that since our 1997 report to BXA on this issue, Customs has
provided BXA with data to add to its watchlist and therefore does not believe that our alternative
solution is necessary.




                                                74
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



However, since we first identified this weakness in the licensing process in 1996 and again in 1997
during our reviews of BXA’s Watchlist, we have not seen any real improvement in this process.
In fact, it took from October 1997 (the date of our last watchlist report) until February 1999
(during this review) for Customs to provide BXA with two diskettes–one of which was
unreadable. As of June 1999, BXA systems personnel informed us that none of this information
has been imported into ECASS due to other priorities.

Screening every applicant and consignee against TECS during the initial phases of the licensing
process would give licensing and enforcement authorities early warning of any potential concerns
Customs may have. We reiterate that as the agency with the ultimate responsibility for issuing
U.S. dual-use export license applications, we believe BXA has an obligation to take every
precautionary measure to ensure that all potential export enforcement concerns within the U.S.
government are considered before issuing a license. By not doing so, it leaves itself, the Secretary
of Commerce, and the Administration vulnerable to criticisms of making licensing decisions based
on incomplete information. We do not understand why BXA has not implemented this three-
year-old recommendation since the problem is not fixed.

Since it appears that the only time BXA proactively seeks any names from Customs is when we
are conducting a review in this area, we reaffirm our recommendation that the 1993 MOU
between BXA and Customs be updated to allow the screening of all parties to pending license
applications against TECS.

E.     Some licenses were issued without meeting conditions of Department of Defense

During this review, we reviewed 331 PLCs listed on an October 1998 ECASS printout that were
completed or canceled during fiscal year 1998. Of the 56 PLCs canceled, four were part of
conditional approvals from Defense, pending favorable outcomes of the checks. Although the
PLCs were canceled and never conducted, BXA approved all four license applications with
conditions without notifying Defense that their condition could not be met. The locations and the
reasons given by BXA for these four canceled PLCs are shown in Table 4.




                                                75
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999



Table 4: PLC License Conditions Canceled by BXA

                       Date of         Date License
   Destination        Defense          Approved by                Reason for Cancellation of PLC
                     Conditional          BXA
                      Approval

  India                06/03/97           12/04/97        Post was unable to reply in a timely manner.


  Syria                09/10/97           12/25/97        Post was unable to reply in a timely manner.


  Russia               04/17/98           05/30/98        Cost was prohibitive; PLC canceled by
                                                          headquarters.

  China                09/15/98           10/21/98        PLC could not be initiated without an end use
                                                          certificate; PLC canceled by headquarters.45
 Source: Office of Enforcement Analysis, Bureau of Export Administration.

According to the Deputy Director of the Defense Threat Reduction Agency, Defense expects to
be notified when a PLC is canceled if it was a condition of its approval for a license. In his
opinion, these four cases were important, and Defense might have reversed its decision if it had
known that the PLCs had been canceled. We believe BXA should discuss the Defense Threat
Reduction Agency’s concerns with these four cases. We also believe that BXA should
immediately notify any referral agencies which conditioned approvals of licenses with favorable
PLCs if the PLCs are canceled and obtain the agency’s concurrence to proceed with closing out
the license.




In its written response to our draft report, BXA agreed with our recommendation to notify
referral agencies when pre-licensing checks (which were licensing conditions) are canceled.




          45
          Licensing officer notes state, “Applicant to provide to DOC with documentation that the end user exists.
When this info is provided, we’ll cancel the PLC - this agreement was reached between the LO & ... of DOD on
9/15/98.” However, there is no indication in the ECASS record that this information was submitted.



                                                        76
U.S. Department of Commerce                                                      Final Report IPE-11488
Office of Inspector General                                                                   June 1999



V.       Dispute Resolution Process Gives Referral Agencies Meaningful Opportunity to
         Escalate Licenses

Executive Order 12981 established mandatory escalation procedures for all dual-use export
license applications involving interagency disputes and refined the time lines for this process.
There are four levels of escalation for dual-use cases: Operating Committee at the senior civil
service level, Advisory Committee on Export Policy at the assistant secretary-level, Export
Administration Review Board at the Cabinet level, and the President. Each level of the escalation
process is required to consider all matters referred to it, giving consideration to foreign policy,
national security, and domestic economy concerns as well as concerns about the proliferation of
weapons of mass destruction.

Overall, we found that the interagency escalation process for disputed license applications allows
officials from dissenting agencies a meaningful opportunity to seek additional review of such
cases. From fiscal years 1991 to fiscal years 1998, the number of cases escalated to the OC
increased by 353 percent, but the number of cases escalated to the ACEP decreased by 62
percent. (See Table 5.) The fact that the number of cases escalated to the OC has increased,
while the number of cases escalated to the ACEP has decreased, indicates to us that this process
is working well.

Table 5: Number of Export License Applications Escalated Fiscal Years 1991 - 1998

                       Export License
     Fiscal Year        Applications                OC                 ACEP              EARB
                         Received
        1991                33,118                  169                  89                 20
        1992                24,071                  333                 105                 0
        1993                26,125                  493                 142                 0
        1994                12,609                  281                  97                 0
        1995                 9,988                  161                  68                 0
        1996                 8,710                  435                  71                 0
        1997                11,480                  784                  38                 1*
        1998                10,696                  766                  34                 0
 * Although this case was escalated to the EARB, the EARB never convened. Subsequently, the final vote
 on this case defaulted to the ACEP majority vote of approval with conditions.

Source: Office of Administration, Bureau of Export Administration.




                                                     77
U.S. Department of Commerce                                                              Final Report IPE-11488
Office of Inspector General                                                                           June 1999



However, we did identify several areas that need management attention, including (1) the need to
clarify the OC Chair’s objectivity, (2) agency delegations of authority cause delays at OC, and
(3) the process of returning escalated cases eliminates quality control.

A.      Operating Committee is effective but some matters need attention

When the reviewing agencies do not agree on a final disposition of a license application, the case
is escalated to the Operating Committee. The Department of Commerce serves as the OC Chair.
The voting members of the OC are the Departments of Commerce, Defense, Energy, Justice (for
encryption cases), and State, and the Arms Control and Disarmament Agency. Representatives of
the Director of the Central Intelligence Agency and the Chairman, Joints Chief of Staff, are
nonvoting members.

The OC meetings are held weekly. Based on the three OC meetings we observed, we found that
the OC Chair affords each agency–including BXA–the opportunity to present its recommendation
on every application. We generally found that the meetings build consensus through healthy
exchanges and debates. The OC Chair has been given the authority to decide all cases at this level
without having to reflect the recommendations of the majority of the participating agencies.46
Thus, agencies must justify their positions or risk being overruled.

However, we found that the decisions of the Chair are usually based on interagency consensus.
Specifically, only about five percent of the OC decisions decided by the Chair are contrary to the
majority decision, and virtually all of these cases were escalated to the ACEP for a final decision.
BXA records indicate that of the 70 cases escalated to the ACEP between February 1997 and
February 1999, only 6 actually overturned the chair’s decision.

We examined 26 of the 266 cases escalated to the OC during the period January 1, 1998 through
June 30, 1998. Of the 26 cases, 3 were settled before the OC meeting, 20 were approved with
conditions, and 3 were denied. (See Table 6.) Two of the 26 OC cases were escalated to the
ACEP, and they were both unanimously approved with conditions (although the ACEP revised
the conditions approved by the OC). We determined that the positions put forward initially by
agencies are preliminary, and the information assembled at the OC generally satisfies their
concerns. In addition, we found that typically agencies who maintain a denial, but do not wish to
escalate the case to the ACEP, often play a key role in crafting the conditions placed on the
approved licenses. In many cases, individual agency concerns are addressed by adding or
modifying license conditions.




        46
         However, the Executive Order does require a majority vote decision in the case of license applications
for commercial communication satellites and hot-section technologies.



                                                       78
U.S. Department of Commerce                                                                 Final Report IPE-11488
Office of Inspector General                                                                              June 1999



Table 6: OC Decisions from OIG Sample Cases

        Approved With Conditions (20)                                            Denied (3)
   Majority         Unanimous           DTRA voted            Unanimous           Majority         BXA voted
                                         to deny*                                                  to approve
        18                 13                  14                   1                  2                2
 *As mentioned in the text above, Defense only escalated 2 of the 14 cases to the ACEP. The destination for the
 14 licenses included Canada (1), China (2), India (4), Israel (3), Russia (3), and Sweden (1).

Source: ECASS printouts of OC license histories.

A notice of the Operating Committee license decision is sent to the designated person in each
participating agency. Any decision not escalated to the ACEP by a dissenting agency within five
days of the notification of the decision will become final.

Objectivity of OC Chair is critical

Authority for handling encryption export policy and licensing was transferred from the
Department of State to the Department of Commerce in 1997. Executive Order 12981 was
amended on November 15, 1996, by Executive Order 13026, “Administration of Export Controls
on Encryption Products,” to allow for Justice to review any export license application submitted
to Commerce and be a voting member of EARB and ACEP, and a full member of the OC, with
respect to such encryption products. Defense’s Defense Threat Reduction Agency also delegated
its review authority for export license applications for certain export control classification
numbers subject to “Encryption Item” controls to the National Security Agency.47 However, the
Defense Threat Reduction Agency maintained its sole authority for providing the Defense
recommendations and votes at the OC and ACEP.

During this review, both Justice and the National Security Agency raised concerns about the
objectivity of the OC Chair with regard to encryption export license applications. While both
agencies believe the OC Chair is doing a good job, they believe she is under pressure to promote
trade over national security with regard to these exports. According to the National Security
Agency and Justice officials, these concerns stem from the fact that the OC Chair has indicated to
them that any OC decisions written in the passive voice (e.g., “It has been decided....” versus
“The Chair determines....”) can be interpreted to mean that BXA management told her how to
decide a case and, therefore, it was not “her” decision.




        47
          The National Security Agency was established by Presidential directive in 1952 as a separate agency
within Defense under the direction, authority, and control of the Secretary of Defense.



                                                         79
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



After sitting down with National Security Agency officials to go over the six export license
applications that they believed raise questions about the OC Chair’s independence, we determined
that the cases were handled properly. Specifically, five of the licenses dealt with end users in
Germany, Finland, Japan, Sweden, and the United Kingdom. The remaining one dealt with end
users in 43 different countries. All six license applications were approved by the OC Chair, and
none is written in the passive voice. In addition, of the five cases escalated to the ACEP by
Defense, three were approved by an unanimous decision at that level, while a fourth was
approved by a majority decision (with the exception of Defense, which maintained its denial). The
final license application was returned without action because the exporter lost the sale to a
European competitor and no longer needed an export license. When asked, the OC Chair did not
indicate that there was a problem with these cases.

National Security Agency officials later provided us with an OC license decision written in the
passive voice. After reviewing this case, we determined that all of the participating OC agencies
approved the license application with conditions formulated by Justice (including
Defense/National Security Agency) except Commerce. While Commerce agreed with most of the
conditions, it did not agree with Justice’s recommendation to exclude two countries (Chile and
the Czech Republic) from the end user list. The OC license decision reflects the Commerce
position, which was to approve the license with all of Justice’s conditions except the one
excluding these two countries. Having said that, the procedures outlined in the Executive Order
12981 allow the OC Chair to overrule the majority and decide the final disposition of the case
unilaterally. In addition, as noted previously, no matter what the OC’s license decision was for
this case, all agencies (including the National Security Agency and Justice) had the right to
escalate this case to the ACEP. None of the agencies escalated the case even though at least one
of them had concerns about the two countries it wanted to exclude as a recipient of this product.

When we questioned the OC Chair about these allegations, she confirmed that she writes in the
passive voice when she believes management has told her how to decide a case. However, she
also indicated that this is a rare occurrence and generally it involves a situation where she believes
more information is needed about the transaction before a final decision can be made. We
discussed this issue with both the Assistant Secretary for Export Administration and his deputy,
who informed us that they have never “told” the OC Chair how to vote on a particular case but
stated they may have instructed her or provided her guidance as to the applicable policy for a
particular export transaction–especially since the export control policies for encryption items are
constantly changing to reflect advancement in technologies–in an effort to expedite the license
decision. By doing so, they indicated that they wanted the referral agencies to escalate the case to
the ACEP in order to force a policy discussion on them. In theory, policy decisions made at the
ACEP are supposed to set precedents for similar export license applications in the future.

Our review indicated that the OC plays a pivotal role in the export licensing process. Overall, we
heard only positive feedback about both the committee and its Chair. In addition, we were
impressed with the OC Chair’s willingness to stand firm on the licensing decisions she makes. For




                                                 80
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



instance, in one recent case, the OC Chair approved a license with conditions over the objections
of all of the participating agencies–including BXA. While the case was escalated to the assistant
secretary-level ACEP, it illustrates that the OC Chair does not give in easily if she firmly believes
in her decision.

Nonetheless, no matter what the rationale is, we believe that the OC Chair should be free to
independently decide a case. If the OC Chair makes a decision that BXA disagrees with, BXA
should escalate the matter to the ACEP as allowed by the executive order. BXA management
should definitely not give the impression that it is instructing the OC Chair on what licensing
decisions to make. We encourage BXA to use the avenue afforded it under the executive order to
escalate cases to the ACEP in order to avoid any misconceptions that this part of the process is
not transparent.




In its written response to our draft report, BXA did not address our recommendation to ensure
that it uses the avenue afforded it under the Executive Order to escalate cases to the ACEP in
order to avoid any misconceptions that this part of the process is not transparent. However, it did
state that both the Assistant Secretary and the Deputy Assistant Secretary have a responsibility to
ensure that the OC Chair carries out her responsibilities efficiently and in concert with U.S.
regulations and policy. As a result, the response indicated that from time to time, those BXA
management officials have instructed the OC Chair on the provisions of the regulations or on
changes in U.S. licensing policy to ensure that her actions are consistent with USG rules and
policies or to bring a case review to closure by making a decision (e.g., where the loss of a sale is
imminent or a case has exceeded the time frames of the Executive Order).

We agree with BXA’s statement that our review did not find significant problems with
management influence over the vote of the OC Chair. However, we also believe that one could
interpret the role of the OC Chair as outlined in the Executive Order to be “independent” since the
procedures call for the OC Chair to preside over the OC meeting and listen to all of the reviewing
agency arguments–including BXA’s–before rendering a decision on a case. Nonetheless, we do
recognize that the OC Chair is a BXA employee and that the Executive Order recognizes that an
OC decision is a Commerce decision that can be escalated by a dissenting member agency.
However, we strongly believe that the main reason the OC review process is so successful is
because of the current OC Chair’s willingness to be objective in her decisions and not necessarily
just vote the “Commerce” position. As a result, the OC Chair’s decisions are usually based on
interagency consensus.

Agencies That Have Given DOAs to BXA During Initial Review Cause Delays at OC

Many LOs and managers in BXA have raised a concern about agencies that provide BXA a
Delegation of Authority (DOA) in the initial referral process but reserve their right to review and



                                                 81
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



vote on these same export license applications in the dispute resolution process. BXA’s concerns
stem from the fact that since these agencies are not involved in the “debate” early on, they are not
familiar with the details of the case and subsequently hold up the licensing process in order to
essentially get caught up. As a result, it often takes two to three OC meetings to reach a decision
on such cases.

We discussed this issue with Energy licensing officials since they have provided a DOA for most
applications that do not involve nuclear end users or end uses. While they understand the
frustration of BXA, they believe that if a case is to be decided at a higher level, they feel an
obligation to participate. Nonetheless, they are working on expanding Energy’s review of
applications, and they believe this will work toward correcting the problem. We encourage BXA
to work with those agencies which have provided DOAs to find a way to expedite late reviews by
these agencies.



In its written response to our draft report, BXA agreed to work with the advisory agencies that
have delegated authority to BXA during the initial review of a case to expedite reviews by these
agencies if escalated to the OC so that cases are not unnecessarily delayed.

B.     Advisory Committee on Export Policy is working well

Any request for ACEP review must be signed by an official of the requesting agency who was
appointed by the President, with the advice and consent of the Senate. The Assistant Secretary
for Export Administration serves as the Chair of the ACEP. The ACEP voting members also
include the designated Assistant Secretaries or equivalent officer of the Departments of
Commerce, Defense, Energy, Justice (for encryption cases), State, and ACDA. Representatives
of the Director of the Central Intelligence Agency and the Chairman of the Joint Chiefs of Staff
are nonvoting members.

We believe one of the main reasons agencies escalate a case to the ACEP is because they want the
case to be decided at higher levels because of policy implications raised by the proposed
transaction. ACEP decisions are based on recommendations of the majority of the agencies.

For the eight export license applications that were disposed of by the ACEP during the period
January 1 through June 1, 1998, we found that all of the agencies concurred with approval in
seven of the cases. In the remaining case, Defense was the only objecting agency. Similar to the
OC process, agency concerns were generally addressed in these cases by adding to or modifying
the proposed license conditions. No cases were escalated to the EARB level during fiscal year
1998.




                                                82
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



C.     BXA’s process of returning escalated cases to LOs lacks quality control

Under the current process of returning export license applications from the OC, BXA’s LOs, and
not the OC staff, perform most tasks associated with export licensing cases once a case is
approved, denied, or returned without action, regardless of the level at which the licensing
decision was made. This also includes incorporating conditions or preparing denial notifications
agreed to at OC, ACEP, or EARB meetings. We found that this process is disjointed and adds
time, causes errors, and eliminates OC quality control for each case.

The Export Administration Regulations require exporters, consignees, and end users to comply
with all license terms and conditions.48 However, if the conditions on a final license given to an
exporter do not match the OC license decision, the parties to a license do not have to comply with
the decision. Currently there is no mechanism to ensure that conditions agreed to by the OC are
placed on the license by the LO. As a result, we found cases where conditions agreed to by the
OC had been changed, added, and deleted by the LOs. Examples of such cases include:

l      One OC license decision indicated an approval of an export license application with 10
       conditions. However, one of the conditions on the official license was worded differently
       than on the OC license decision. Specifically, the OC decision stated the commodity may
       be exported to banks, financial institutions, and U.S. subsidiaries in certain countries, but
       the actual license only stated the commodity may be exported to banks in certain
       countries, omitting “financial institutions and U.S. subsidiaries.”

l      Another license decision indicated an approval of an export license application with four
       conditions. In the first condition, the decision incorporated a reference to the consignee’s
       end use statement to reaffirm that the commodity may only be used for the stated purpose.
       However, the official license omitted this reference.

l      A third decision indicated a denial of an export license application based on missile
       proliferation concerns. However, the denial notice sent to the exporter stated the
       application was rejected for U.S. foreign policy reasons.

l      A fourth decision indicated that an export license application should be returned without
       action because the item sought to be exported was licensable under the International
       Trade in Arms Regulations, which is administered by State. The OC license decision
       encouraged the applicant to submit a license application to State; however, the return
       without action notice did not reiterate this and instead stated the reason for the return
       without action was “per the exporter’s conversation with the Director of the Office of
       Strategic Trade and Foreign Policy Controls.”




       48
            15 CFR 750.7.



                                                83
U.S. Department of Commerce                                                                   Final Report IPE-11488
Office of Inspector General                                                                                June 1999



In addition, the OC Chair informed us that in one contentious case involving an export to China,
the license was issued without agreed upon Defense conditions. However, this was not realized
until the OC reviewed a second license application from the same exporter, to the same project.
As a result, Defense required that the first license application be reopened to incorporate the
original conditions agreed to before it would approve the second license application. In their
defense, some LOs have informed us that changes get made to “clarify” conditions, reflect “their”
opinion on case conditions, or to “relax” conditions that are sometimes made more stringent by
the OC Chair (and not agreed to by the whole committee). However, in the OC Chair’s opinion,
once a case is reviewed and disposed of through the dispute resolution process, no
agency–including BXA–can unilaterally adjust or modify the decision. BXA’s Office of General
Counsel supports the OC Chair’s position, stating that while LOs and supervisors can suggest
changes to conditions placed on a license through the dispute resolution process, they have no
authority to add, change, and/or delete these conditions.

BXA’s License Processing Task Force reviewed the issue of whether the OC’s responsibility over
cases it reviews should be expanded.49 The task force evaluated three options: (1) retain the
current practice of LOs processing interagency decisions, (2) increase OC responsibility for
processing only denials, and (3) increase OC responsibility for processing all licensing decisions
made by the OC, ACEP, and EARB.

After evaluating each option, the task force recommended to BXA management that the OC be
given responsibility, and additional resources, for processing all licensing decisions made by the
OC, ACEP, and EARB in order to increase quality control for these cases.50 The task force also
recommended that draft and final OC decisions should be posted on BXA’s Intranet to quickly
provide case decisions to LOs, division directors, and office directors. This would reduce OC
time spent photocopying and distributing OC licensing decisions to the referral agencies; and
provide a searchable archive of interagency decisions for future reference. In response to these
task force recommendations, the Office of Exporter Services issued draft policies and procedures
in January 1999, including final sign-off responsibility for the OC Chair for cases handled under
the dispute resolution process. However, on March 31, 1999, the Deputy Assistant Secretary for
Export Administration issued the final policies and procedures, but omitted this final sign-off
procedure by the OC Chair. BXA officials stated that this procedure was rejected due to lack of
resources in the OC.



         49
              Task Force: Strategy for Improving the Licensing System, Bureau of Export Administration, August
1997.
         50
            With Option 1, the task force believed that although the LOs would continue issuing intent to deny
letters and handling rebuttals to intent to deny letters, the OC would continue to lack control over cases it has voted
on, increasing inaccuracies in interagency-agreed upon conditions or in denial reasons in intent to deny letters.
With Option 2, the task force stated that the OC would have to be given additional resources for the new
responsibility. The OC would retain complete control over its denied applications, and the content of the intent to
deny letters and handling of rebuttals.



                                                          84
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



Without a process to ensure that conditions agreed to by the OC are actually placed on the
license, quality control of OC cases will suffer. We strongly encourage BXA management to
reconsider this recommendation to give the OC responsibility and adequate resources to become a
“one-stop shop” for processing all licensing decisions made by the OC, ACEP, and EARB. This
would include receiving and deciding OC cases, countersigning cases, inputting OC licensing
decisions on BXA’s network, and processing escalated cases to the ACEP and EARB.



In its written response to our draft report, BXA indicated that our recommendation to let the OC
become a “one-stop shop” for licensing decisions brought before that body was a complex issue
that is under review by its Licensing Officer Task Force. However, as we mentioned in our draft
report, the task force already recommended to BXA management in March 1998 that the OC be
given responsibility, and additional resources, for processing all licensing decisions made by the
OC, the Advisory Committee on Export Policy, and the Export Administration Review Board.
This recommendation was based on the need to increase the quality control of processing
licensing decisions made by the OC.

BXA managers have questioned how the OC (primarily the OC Chair) could make licensing
decisions and then independently countersign the same licensing decisions. To be effective, the
OC would require an independent countersigning mechanism, similar to managers countersigning
licenses in the licensing divisions. However, we believe that since the OC Chair has the authority
to unilaterally make licensing decisions–unlike any other licensing official–we believe that there is
a different threshold for internal controls. Essentially, unless a dissenting agency, including BXA,
escalates a decision made by the OC, that decision is final. To ensure accuracy for OC cases, we
still believe that the OC licensing officer should sign off on the license application and the OC
Chair should counter-sign all license applications. If BXA still disagrees, another alternative
would be for the OC Chair to sign off on a case and the Deputy Assistant Secretary for Export
Administration could counter-sign these cases. Therefore, we reaffirm our recommendation that
BXA provide the OC with the responsibility and resources to process all licensing decisions made
by the Operating Committee, the Advisory Committee on Export Policy, and the Export
Administration Review Board.




                                                85
86
U.S. Department of Commerce                                                                Final Report IPE-11488
Office of Inspector General                                                                             June 1999



VI.     BXA Has Sought Interagency Guidance During Review of Exporter Appeals, but a
        More Formal Process Is Needed

As part of the license process, if BXA intends to deny a license application, it issues a written
notification to the applicant of the “intent to deny” decision. According to Section 750.6 of the
Export Administration Regulations, the exporter is allowed 20 days from the date of the
notification to respond to the decision before the license application is denied. Once a formal
denial has been made, an exporter has the right to appeal to the Under Secretary no later than 45
days after the date appearing on the written notice of administrative action.51 The appeal must
include a written statement as to why the exporter believes that administrative action has a direct
and adverse effect and should be reversed or modified. The Under Secretary may request
additional information that would be helpful in resolving the appeal, and may accept additional
submissions. At the time an appeal is filed, an appellant may request an opportunity for an
informal hearing and the Under Secretary may grant or deny the request.

The Under Secretary’s decision on an appeal is considered final, and there is no requirement in
either the Export Administration Act, or the Export Administration Regulations that this decision
be made in consultation with the other referral agencies involved in the export licensing process.
However, we found that BXA informally confers with the referral agencies in the appeals decision
process. From October 1, 1997, through December 31, 1998, 23 exporter appeal cases were
resolved. These involved 22 license applications and one commodity classification request. Of
the 22 appeal cases involving license applications, the original interagency decisions to deny the
applications were sustained in 17 cases. Of the five remaining cases, one case was withdrawn by
the exporter, one case was not treated as an appeal case by BXA, and three cases resulted in
reversals of the original decision.

The exporter appeals process raises a question as to whether an exporter could use the appeals
process to circumvent the interagency referral process; i.e., a case denied during the interagency
license review could be approved during the appeals process, which has no formal interagency
review procedure. While we found no evidence to suggest this has happened, we believe that for
the sake of transparency in the export licensing process, the referral agencies should be formally
included in the appeals process.

A.      Authority for exporter appeals process is valid

According to Section 10(j) in the Export Administration Act, “The Secretary [of Commerce] shall
establish appropriate procedures for any applicant to appeal to the Secretary the denial of an
export license application of the applicant.” However, officials at Defense have informally


        51
          Under 15 CFR 756, any person directly and adversely affected by an administrative action taken by BXA
may appeal to the Under Secretary for Export Administration for reconsideration of that administrative action.
This does not apply to denial or probation orders, civil penalties, sanctions, or other actions under 15 CFR 764 and
15 CFR 766.



                                                        87
U.S. Department of Commerce                                                              Final Report IPE-11488
Office of Inspector General                                                                           June 1999



questioned this authority now that the Export Administration Act has expired. As a result,
Defense has stopped participating in the appeals process.52 In an attempt to clarify this matter,
BXA’s Under Secretary sent a memorandum to the Under Secretary of Defense Policy, dated
February 5, 1998, stating:

        “I do not share the view that Executive Order 12981, in either letter or intent,
        abrogates exporters’ appeal rights. The appeals process is provided for in the
        Export Administration Act (whose provisions have been continued by Executive
        Order 12924) and the Export Administration Regulations. It is not included in
        Executive Order 12981. The Executive Order 12981 procedures deal with the
        timely processing of export license applications and the escalation of disputes
        among agencies during the license application review process, while the appeals
        process for license denials is intended to provide a right of review to the exporting
        community.”

When the Export Administration Act expired in 1990, President Bush extended existing export
regulations by executive order, invoking emergency authority contained in the International
Emergency Economic Powers Act (IEEPA). President Clinton reimposed controls under IEEPA
with Executive Order 12924, dated August 19, 1994. Section one of this Executive Order states:

        “...the provisions of the Export Administration Act, and the provisions for
        administration of the Export Administration Act, shall be carried out under this
        order so as to continue in full force and effect and amend, as necessary, the export
        control system heretofore maintained by the Export Administration
        Regulations....”

We agree with the Under Secretary’s interpretation that Executive Order 12981, dated December
15, 1995, deals with streamlining the export licensing review process while making the process
more transparent to all relevant agencies. We do not share Defense’s view that because the
executive order fails to mention the exporter appeals process–which we believe to be separate and
distinct from the interagency dispute resolution process–that somehow this process is invalid.
Specifically, we believe that section one in Executive Order 12981 clearly continues the
powers and authority of the Secretary of Commerce as conferred in the 1979 Act when it states:

        “To the extent permitted by law and consistent with Executive Order No.
        12924...the power, authority, and discretion conferred upon the Secretary of
        Commerce...under the Export Administration Act to require, review, and make
        final determinations with regard to export licenses, documentation, and other
        forms of information submitted to the Department of Commerce pursuant to the
        Act and the Regulations or under any renewal of, or successor to, the Export


        52
          An attorney from the Office of the Chief Counsel for Export Administration told us that Defense has
never formally challenged this authority.



                                                       88
U.S. Department of Commerce                                                                 Final Report IPE-11488
Office of Inspector General                                                                              June 1999



       Administration Act and the Regulations, with the power of successive
       redelegation, shall continue.”

Based on our discussions with BXA officials and our own review of the Export Administration
Act, and Executive Orders 12924 and 12981, we believe the current exporter appeals process is
authorized and appropriate. However, because Defense has stopped participating in the appeals
process, the process does not have the benefit of its comments.

B.     Overturned appeals had support from majority of the referral agencies

Two of the appeal cases that were overturned in fiscal year 1998 involved the same exporter,
commodities, and destination. In its appeal request, the exporter submitted additional technical
information involving the commodities destined for India. The Under Secretary sent the two
cases to the Advisory Committee on Export Policy for its guidance, which in turn, remanded
them to the Operating Committee for its evaluation.

In the interim, Defense conducted a new technical assessment based on the additional information
and, at a Missile Technology Export Control Group53 meeting in September 1997, reported that
the equipment involved would not make a material contribution to missile projects of concern.
However, Defense still believed the equipment raised national security concerns. The other group
participants agreed that the export license applications did not raise Enhanced Proliferation
Control Initiative-related missile concerns, and that the final disposition of the case should be
based on national security grounds. After reviewing the results of the group meeting, the majority
of OC participants–Commerce, Energy, and State–agreed that the denials could be withdrawn and
the applications approved with conditions. However, two OC participants–ACDA and
Defense–maintained their original denials based on regional stability concerns.

In letters to the Under Secretary of Energy, the Under Secretary for Political Affairs at State, the
Under Secretary for Policy at Defense, and the Director of ACDA, BXA’s Under Secretary wrote
that “national security” is not an appropriate regulatory ground to deny these cases when there is
no indication of a diversion out of India to a country targeted by our national security controls. In
addition, he stated that the items covered by these license applications were not controlled for
regional stability reasons and there was, therefore, no basis in the Export Administration
Regulations to deny these cases. Consequently, BXA’s Under Secretary overturned the denials
and granted the two appeals.

The third appeal case that was overturned involved a furnace to be used in a commercial electric
power generator in China. BXA originally denied this case in August 1996, with the agreement of




       53
            An interagency working group that reviews missile-related export license applications.



                                                         89
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



all agencies. The applicant appealed the denial, and an informal hearing was held in November
1996. While all of the referral agencies were invited to participate in the hearing, only the
Departments of State, Energy, and ACDA were represented, as Defense declined to participate.
At the hearing, the participating agencies held to their original views that the license should not be
granted; however, they informed the exporter that they might change their minds if U.S.-China
relations on nuclear matters improved. The exporter then requested that BXA hold the case open
in the hope that an improvement in U.S. relations with China would increase the chances that this
application could be approved in the future.

In the fall of 1997, the President decided to move forward on the 1985 U.S.-China Agreement for
Nuclear Cooperation Concerning Peaceful Uses of Nuclear Energy and made the necessary
certifications and reports to the Congress as required by law. In light of these developments,
BXA’s Under Secretary sought the guidance of the OC for this case in December 1997. Defense
representatives at the OC refused to participate, citing their belief that Executive Order 12981
prevented BXA’s Under Secretary from acting on export license appeals.

However, in view of the improvement in U.S.-China relations over nuclear matters, ACDA,
Energy, and State representatives supported BXA’s view that the appeal be granted and the
license be approved with appropriate conditions. Based on this advice, BXA’s Under Secretary
granted the appeal in February 1998.

C.     Some reopened cases have characteristics of exporter appeals

In fiscal year 1998, BXA reopened 120 closed license applications for various reasons. Three of
these reopened cases were license applications that had the characteristics of appeal cases, i.e.,
they were initially denied, but upon the submission of additional information by the applicant, the
denials were overturned. However, they were not processed as formal appeal cases, and the
Under Secretary for Export Administration did not make the final decision to overturn the original
denial.

In the first case, BXA issued an “intent to deny” letter in June 1997 and a formal denial letter in
September 1997 for an application to export chemicals to a plant in India. Later in September,
the applicant provided additional technical information to BXA, which it shared with the
Subgroup on Nuclear Export Coordination54 for a preliminary review of the information. The
Subgroup, based on favorable responses from the participating agencies at the meeting, concurred
with BXA that the original decision should be overturned. After two OC meetings in October
1997, Commerce, State, and Energy representatives voted to approve the application with
conditions; Defense voted to maintain its denial; and ACDA took no position. The OC Chair
recommended that the application be approved with conditions, and BXA reopened the case to
reflect the OC decision.



       54
            An interagency working group that reviews nuclear-related cases.



                                                        90
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999



In the second case, BXA issued an intent to deny letter in September 1997 and a formal denial
letter in October 1997 for an application to export a chemical to an American subsidiary in
Belgium. This case was originally rejected unilaterally by Commerce based on initial end user
concerns. In February 1998, upon receipt of a rebuttal letter from the exporter and end use
information from the end user, BXA took the case to the Missile Technology Export Control
Group for preliminary review in February. According to the licensing officer’s notes in this case,
the Missile Technology Export Control Group was “comfortable allowing the export to the end
user providing the end user conformed to specified procedures and did not export the chemical in
the form received.”55 Based on this concurrence, BXA managers reopened the case and the
application was officially approved with conditions.

In a more recent case, BXA issued an intent to deny letter in June 1998 and a formal denial letter
in July 1998 for an export license application to supply environmental monitoring equipment for
use in connection with decontaminating a nuclear test site in China. The applicant submitted new
information about the end user in its August 1998 rebuttal letter requesting a reversal of this
denial. In September 1998, BXA reopened this case and returned it for a second review to the
OC, which had issued the original denial. The license was ultimately approved with conditions by
the OC Chair in October 1998, with ACDA, Energy, and State concurring with the approval and
Defense maintaining its denial.

Unlike the formal appeal cases, in which the Under Secretary makes the final decision after
informally consulting with referral agencies through the ACEP, OC, or other means, the final
licensing decision in the three reopened cases were made by the OC Chair or other BXA
managers. A senior BXA official informed us that BXA’s main objective in the third reopened
case discussed above was to facilitate the reversal of the denial. Since it had the majority of
interagency support for this decision, BXA determined it was faster to reopen the case and place
it back into the export license review process rather than handling it under the formal appeal
process. According to one of BXA’s attorneys, there are no regulations prohibiting BXA from
reopening cases based on new information and reversing previous licensing decisions.

While we do not believe that the end result would have been any different for the three reopened
cases had they been reviewed under the appeals process, we question what rights the exporters
would have had if the reviewing agencies had decided to maintain the original decision to deny the
license. Since these cases would not have been technically treated as “appeals,” would the
exporter be allowed to “appeal” a second time? In our opinion, having two different processes to
handle exporters’ appeals obscures BXA’s formal appeals process and leaves BXA susceptible to
charges that its process lacks fairness and transparency.




        55
          However, it is unclear whether all the Missile Technology Export Control Group parties or just a
majority agreed with this recommendation.



                                                       91
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



D.     Lack of clear procedures obscures BXA’s appeals process

In the six export licensing cases discussed above that resulted in reversals of prior denials–the
three formal appeal cases and the three reopened cases--BXA consulted with referral agencies
before reversing the prior denials. With the three formal appeals cases, BXA’s Under Secretary
sought the views of the referral agencies through the ACEP or the OC representatives. With the
three reopened cases, two cases were approved with conditions by the OC after a second review
of the export license application, while the third case was approved by BXA after a review by an
interagency working group.

However, officials from the referral agencies have still expressed the concern that appeal cases are
not subject to interagency review. Although we found no evidence indicating that BXA does not
consult with the referral agencies before overturning a denial, we believe it should avoid any
misconceptions that its appeals process lacks fairness and transparency. Therefore, we suggest
BXA work with the National Security Council to amend Executive Order 12981 or obtain a new
directive, to establish formal procedures to include the referral agencies in the appeals process.
The new export licensing legislation should also include a formal interagency appeals process.




In its written response to our draft report, BXA stated that it did not object to our
recommendation that the referral agencies be brought into the appeals process in a more formal
way, and it is prepared to work with the NSC on this matter. While BXA disagreed with one of
our observations about a case we cited where BXA informally handled the appeal through the OC
in lieu of action by the Under Secretary, we can accept BXA’s argument that the exporter would
not have lost its appeal right.




                                                92
U.S. Department of Commerce                                                          Final Report IPE-11488
Office of Inspector General                                                                       June 1999



VII.   BXA Needs to Improve Its Monitoring of License Conditions

During our current review of the export licensing process, we found that BXA is still not
adequately monitoring license conditions as first reported in the 1993 special interagency OIG
report. The Export Administration Regulations state that a transaction authorized under an
export license may be further limited by conditions appearing on the license itself. The ability to
place conditions on a license is an important part of the license resolution process as well as an
additional means to monitor certain shipments. Frequently, the conditions are the result of
lengthy negotiations among the referral agencies.

While there are 28 standard conditions that could be placed on an export license, only seven
actually require the exporter to submit documentation back to BXA concerning any shipment
made against the license. Table 7 illustrates the seven conditions with their reporting
requirements. The “Write Your Own” condition allows licensing officers to specify unique
requirements for the license, including reporting requirements. For the other six reporting
conditions, a standard message is automatically put on the license indicating the reporting
requirements. The remaining 21 conditions do not require the exporter to submit any
documentation or information to BXA but may require the exporter to perform certain actions or
to ensure certain rules are followed. For example, one condition stipulates “No reexport of the
items listed on this license is authorized without prior authorization by the U.S. Government,”
while another one stipulates, “The items authorized for export by this license/authorization are not
to be used by nuclear end users or for nuclear end uses.” These types of conditions are only
monitored when export enforcement agents perform Safeguard visits overseas or when US&FCS
personnel perform post shipment verifications.

To track licenses with reporting conditions, BXA uses a computer-controlled monitoring system,
called the Conditions Follow-up Subsystem.56 The subsystem is divided into two modules that
have restricted access. Export Administration and Export Enforcement have their own
independent modules in the subsystem. Each office is responsible for following up on specific
license conditions. Export Administration’s conditions generally require an exporter to report
back to BXA regarding the export, whereas Export Enforcement’s condition requires the exporter
to submit shipping documents so that a post shipment verification of the export in the country of
destination can be conducted.




       56
            Conditions Follow-Up Subsystem, also known as Subsystem and/or Follow-Up Tickler Queue.



                                                     93
U.S. Department of Commerce                                                                    Final Report IPE-11488
Office of Inspector General                                                                                 June 1999



Table 7:   License Conditions with Reporting Requirements

      Condition                                               Requirements

   Write Your Own      Special reporting requirements written by the licensing officer on the license.

    Temporary or       Authorization is granted for shipment of the described items to the specified country of
    Demonstration      destination only on a temporary basis for demonstration. At the conclusion of the
                       demonstration or exhibit, the items must be returned to the U.S., to the country from which
                       originally shipped, or to another specifically authorized country, no later than one year from
                       the date of export. Prompt notification of an item(s) return must be given to BXA.

   Delivery Verified   The delivery verification (DV) procedure is required for all shipments made under this
                       license. The DV must be obtained from the appropriate government of the country of
                       ultimate destination. The original copy of the DV must be sent to BXA after the last
                       shipment has been made against the license.

  Temporary Sojourn    Upon return of the aircraft, immediate written notification must be sent to BXA’s Office of
                       Exporter Services.

      Encryption       The applicant must report to BXA biannually the item description, quantity, value, and end
                       user name and address of all transactions made under this license. The reports shall cover
                       exports made during six-month periods spanning from January 1 through June 30 and July 1
                       through December 31.

    Deemed Exports     1. Access to International Traffic in Arms Regulations (ITAR) controlled defense articles,
                       defense services, and technical data is not authorized. ITAR controlled software source
                       code and/or source code documentation is not releasable. 2. Approval is limited to release
                       of only unclassified information, and any activity that may lead to possible disclosure of
                       U.S. Government classified information would be the subject of additional government
                       review and must be approved by the U.S. Government in advance. 3. The applicant shall
                       maintain a record of when the foreign national obtains his/her permanent resident status
                       (i.e., green card) or leaves the company prior to obtaining a green card. This information
                       shall be made available to the U.S. Government upon request. 4. The applicant shall submit
                       another export license application if the foreign national’s duties require access to
                       controlled technologies other than those authorized by this license. 5. The foreign national
                       is allowed access to technology for the development of civilian dual-use encryption
                       technology and products. However, the applicant must seek U.S. Government approval for
                       access to any encryption technology related to government contracts, including military
                       activities. 6. The applicant shall inform the foreign national in writing of all license
                       conditions and his/her responsibility not to disclose, transfer, or reexport any controlled
                       technology without prior U.S. Government approval. 7. The applicant will establish
                       procedures to ensure compliance with the conditions of this license, particularly those
                       regarding limitations on access to technology by foreign nationals. A copy of such
                       procedures will be provided to BXA. Commerce will monitor to ensure that the applicant’s
                       compliance is effective.

    Post Shipment      After the first shipment is made against the license, the applicant must send one copy of its
     Verification      Shipper’s Export Declaration and Bill of Lading or Airway Bill to the Office of Enforcement
                       Analysis.

Source: Office of Administration, Bureau of Export Administration.

The 1993 special interagency OIG review disclosed that (1) Export Administration’s subsystem
did not contain all of the licenses that should be tracked, (2) Export Administration was not



                                                        94
U.S. Department of Commerce                                                              Final Report IPE-11488
Office of Inspector General                                                                           June 1999



following up on expired licenses in its subsystem, (3) licensing officers were improperly flagging
licenses indicating follow-up was required, when in fact none was required, and (4) Export
Enforcement did not update its subsystem even after the exporter submitted the required
documentation. We recommended then that BXA track all licenses with reporting conditions,
follow-up with exporters who did not comply with the reporting conditions, train licensing
officers to properly flag licenses if follow-up was required, and close out old licenses from the
follow-up subsystem. BXA agreed with all of the recommendations, but it indicated that it did
not have the resources to follow-up with every exporter who did not comply. Unfortunately, we
found similar problems still existing today.

A.     Export Administration is not adequately monitoring exporter compliance with license
       conditions

We found several weaknesses in Export Administration’s monitoring of exporter compliance with
license conditions. First, we discovered that the follow-up subsystem is incomplete and out of
date due to (1) the low priority placed on this function by Export Administration’s Office of
Exporter Services, (2) the improper flagging of licenses requiring reports from exporters, and
(3) the subsystem not tracking two major reporting conditions.

Second, we determined that most licensing officers (with the exception of those responsible for
deemed exports and encryption) are not involved with monitoring conditions they place on the
licenses. We found that licensing officers do not access the subsystem or the reports submitted by
exporters. Without this information, LOs are unable to determine the compliance history of an
exporter which we believe is important in making any licensing decisions. Without an adequate
monitoring system in place, exporters may receive new licenses even though they did not comply
with previous license conditions.

Monitoring of reporting conditions has been a low priority of Export Administration

Office of Exporter Services (OEXS) is responsible for performing compliance follow-up for four
of the seven reporting conditions: Write Your Own, Temporary or Demonstration, Delivery
Verified, and Temporary Sojourn. One of our review objectives was to determine how well the
Office of Exporter Services has been monitoring exporter compliance with license conditions that
have reporting requirements, including whether the Office of Exporter Services has been
requesting and receiving reports owed by exporters.57




       57
            We did not determine how well exporters were complying with licenses containing follow-up conditions.



                                                        95
U.S. Department of Commerce                                                                     Final Report IPE-11488
Office of Inspector General                                                                                  June 1999



The Office of Exporter Services personnel informed us that they did not routinely follow-up with
exporters who owed BXA reports before the licenses expired due to resource constraints.58 In
addition, we found that the Office of Exporter Services had not adequately followed up with
exporters whose licenses had expired in order to determine whether the exporter had shipped
against the license. Within the Office of Exporter Services this responsibility has been tasked to
one employee, whose performance plan lists managing the subsystem as a minor task (giving it a
weight of 10 out of 100 possible points). More importantly, this employee, in the presence of her
supervisor, told us that she has not received any written procedures or guidelines for maintaining
the subsystem. Office of Exporter Services management told us that no analysis had been done to
determine the resources needed for monitoring these conditions.

In November 1998, we requested a listing of all export licenses in the Office of Exporter Services’
subsystem to ascertain if any had expired. In December 1998, the Office of Exporter Services
provided a listing of 406 licenses in its subsystem dating back to 1994.59 Based on a breakdown
of the 406 licenses in the subsystem, we determined that 125 licenses issued between fiscal year
1994 and 1996 were still in the subsystem. (See Figure 9.) Although the licenses had expired,
the Office of Exporter Services had not contacted the exporters to verify whether the exporters
shipped against the licenses.

Figure 9




Source: Office of Exporter Services, Bureau of Export Administration.




         58
              With the exception of those related to encryption licenses, export licenses are generally valid for two
years.

         59
            In January 1999, we learned that the Office of Exporter Services’ subsystem actually contained an
additional 194 licenses dating back to 1992 bringing the total number of licenses in the subsystem to 600.



                                                             96
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



We also randomly selected 39 of the 406 licenses from all four condition categories to review. Of
the 39 licenses, 28 had not expired so it is possible that the exporter had not shipped yet and
therefore would not have provided BXA any documentation. However, we could not confirm
this because, as mentioned above, the Office of Exporter Services does not routinely follow-up on
licenses that have not expired. We did find that 5 of the 39 licenses had expired, and the Office of
Exporter Services informed us that it tried to contact one of the exporters associated with these
licenses to determine if it had shipped against the license, but it was unable to get a hold of the
exporter so it gave up. The Office of Exporter Services had not attempted to contact the
remaining four companies. We believe that the Office of Exporter Services needs to purge the
subsystem of expired licenses and in doing so, should contact the exporters to determine whether
shipments were made against the licenses. We would also encourage the Office of Exporter
Services to perform a random spot-check on licenses in the subsystem that have not expired in an
effort to inform exporters that BXA is serious about monitoring exporter compliance with
conditions placed on export licenses.

Licensing officers are improperly flagging licenses with “Write Your Own” conditions

In the remaining six licenses, (15 percent) of our subsystem sample, we found that the LO flagged
the wrong box associated with “Write Your Own” conditions, indicating that a report was needed
from the exporter. When the licenses were issued, ECASS automatically sent them to the
subsystem. Upon examining the six licenses, we determined that there was no reporting
requirement written into the condition. The Office of Exporter Services informed us that this is a
common mistake made by LOs. Thus, with the vast majority of follow-up conditions in the
subsystem being “Write Your Own,” we question how many more are in the subsystem
incorrectly. (See Figure 10.) While we understand that mistakes can happen, these licenses can
needlessly burden the subsystem. BXA needs to remind LOs and supervisors (who are
responsible for countersigning these licenses) of the importance of not flagging licenses with
“Write Your Own” conditions unless a reporting requirement is included.




                                                97
U.S. Department of Commerce                                                 Final Report IPE-11488
Office of Inspector General                                                              June 1999



Figure 10




Source: Office of Exporter Services, Bureau of Export Administration.



Encryption and deemed export licenses were not being tracked by the subsystem

Frequently, licenses issued for encryption and deemed exports have reporting conditions placed
on them as part of the license requirement. During our sample analysis, we found that these
conditions were not automatically being tracked by the subsystem. ECASS database managers
stated that they were unaware that encryption and deemed exports licenses were issued with
conditions that required exporters to submit reports to BXA. However, immediately after we
reported the problem to them, a software modification to ECASS was made, and now both
conditions are being tracked by the subsystem.

LOs are removed from the compliance process

A second major weakness we identified in Export Administration’s monitoring of exporter
compliance is that LOs (with the exception of those in the encryption and deemed export
divisions) are generally not involved in this process. LOs generally deal with specific industries
and often issue numerous licenses to the same company over time. However, we found that most
LOs neither review compliance reports submitted by exporters nor have access to the subsystem
to review the compliance history of a company.

Although the subsystem was not tracking conditions placed on encryption or deemed export
licenses, we determined that the individual licensing divisions were closely monitoring them.
Based on a sample of referred licenses during the period January 1 through June 30, 1998, we
identified 27 licenses with either encryption or deemed exports reporting conditions.



                                                      98
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



Of the 27 licenses, 17 dealt with encryption exports. The encryption division had already received
reports from exporters for six of these licenses. The Division Director informed us that for the
remaining 11 licenses, shipments had not occurred so no reports were necessary. The encryption
licensing staff monitor conditions by making follow-up telephone calls to exporters reminding
them of their reporting requirements. They also use this opportunity to keep the exporters
informed about pending policy changes and to find out how new regulations are affecting their
businesses.

Furthermore, all 10 of the deemed export licenses from our sample were closed out. Based on the
documentation provided by the exporters, we believe the companies were compliant with the
conditions. As mentioned earlier in this report, deemed export licenses are unique because they
involve foreign nationals working for entities in the United States. The supervisor in charge of
this program believes it would be a good idea to conduct on-site visits with these companies to
verify that security procedures and safeguards, as required by the license conditions, have been
put in place to protect controlled technology. We agree. In late 1998, the director informed us
that he was able to perform one on-site visit with a company who had received the most deemed
export licenses over the past several years. We encourage BXA to routinely spot-check these
companies to physically verify that security procedures are indeed in place and meet the
established criteria.

As reported above, we believe the steps taken by LOs involved in monitoring exporter compliance
with encryption and deemed exports license conditions should be used as a best practice by the
other licensing divisions. The compliance rate among exporters seems to be higher when the
licensing officers and their supervisors are actively involved in this process. In addition, LOs must
have readily available access to exporters’ compliance history in order to make the most informed
decision about an export license application including denying a license based on noncompliance.

At a minimum, LOs need to have “read-only” access to the subsystem so they can verify the
exporter’s compliance history and deny a license based on noncompliance. In addition, LOs
should review all reports submitted by the exporter and be involved with contacting exporters
who do not comply with the reporting conditions.




In its written response to our draft report, BXA agreed with our overall recommendation to
improve its monitoring of license conditions. It stated that BXA has recently implemented a new
Licensing and Enforcement Action Program (LEAP) designed to deal with the vast majority of
the problems with assigning conditions and their follow-up. BXA attached a copy of the LEAP
objectives as a part of its response to our draft report, but due to time constraints we were unable
to verify the validity of this program. However, based on our review of the objectives of the
program, it does not appear that it will address all of our recommendations in the compliance




                                                99
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



area. Therefore, we reaffirm our specific recommendations for BXA to (1) notify licensing
officers and supervisors of the importance of not flagging licenses with “Write Your Own”
conditions for follow-up if they have no reporting requirement, (2) routinely spot-check
companies related to deemed exports, to verify that security procedures are indeed in place and
meet the established criteria, (3) utilize the steps taken by licensing officers involved in monitoring
exporter compliance with license conditions for encryption and deemed exports as a best practice
by the other licensing divisions, (4) provide licensing officers with “read-only” access to the
compliance subsystem so that they can verify an exporter’s compliance history and deny a license
based on noncompliance, if necessary, and (5) ensure that licensing officers review all compliance
reports submitted by the exporter and be involved with contacting exporters that do not comply
with the reporting conditions.

In addition, we are concerned that BXA will only fully implement LEAP, and take interim steps to
improve monitoring of conditions, based on budgetary funding. We believe that monitoring
exporter compliance overall, and specifically following up on license conditions, is one of BXA’s
core functions that should be carried out as part of its export control responsibilities.

B.     Export Enforcement also needs to step up its monitoring efforts

Export Enforcement’s Office of Enforcement Analysis (OEA) has exclusive responsibility for
monitoring condition 14 in the Conditions Follow-up Subsystem. This condition requires an
exporter to submit a copy of the Shipper’s Export Declaration and Bill of Lading or Airway Bill
directly to OEA once a shipment against the license has occurred. Upon receiving the shipping
documents, OEA, with minor exceptions, initiates a post shipment verification to verify the end
use. The 1993 special interagency OIG review revealed that OEA was not closing out licenses
from its subsystem after the licenses had expired. Our current review uncovered a similar
problem.

In January 1999, we received a printout of all the licenses in the OEA subsystem, showing the
license number, exporter name, and date of issuance. We found that of the 192 licenses appearing
in the subsystem, 66 had expired. (See Figure 11.) After the OIG pointed out the problem,
Export Enforcement took immediate action and began contacting the exporters who held these
licenses.




                                                100
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



Figure 11




Source: Office of Enforcement Analysis, Bureau of Export Administration.


As of March 1999, 57 of the 66 licenses had been closed out of the subsystem. The following is a
breakdown of the licenses:

l       Exporter advised OEA that no shipments had been made against the license (23).

l       Shipping documents have been submitted and a PSV has been initiated (19).

l       Exporter could not be located/contacted, and licenses are currently pending referral to
        Office of Export Enforcement for action (10).

l       Licenses had already been referred to Office of Export Enforcement for action (3).

l       Licenses involved reexports and because shipper’s export declarations are not applicable
        for this type of transaction, it was determined that condition 14 had been placed on the
        license in error (2).

Regarding the nine expired licenses remaining in the follow-up subsystem, OEA informed us that
they contacted the exporter and are currently waiting for the requested shipping documents. We
believe condition 14 is one of the most critical conditions placed on a license, because somewhere
in the licensing process it was determined that a post shipment verification was warranted to
determine if the goods or technology was actually being used in accordance with the provisions of
that license. By not adequately monitoring this condition, BXA cannot assure itself that the
goods were not diverted to an unauthorized end user. In addition, exporters may continue to
receive licenses even though they were non-compliant on prior licenses. For example, we



                                                     101
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



discovered that at least three of the exporters who were associated with the 66 expired licenses
continue to receive licenses. Thus, it is imperative that the Office of Export Enforcement perform
timely follow-up work to verify compliance among exporters and uncover any noncompliance.

In July 1998, the Office of Enforcement Analysis hired a supervisory export compliance specialist
to, among other things, monitor exporter compliance with regard to condition 14. However, we
found no mention of the compliance monitoring follow-up task in the employee’s performance
plan. We would encourage the Office of Enforcement Analysis Director to incorporate this
responsibility into the supervisor’s performance plan to ensure accountability.




In its written response to our draft report, BXA disagreed with our recommendation to
incorporate this responsibility as a specific function in the supervisory export compliance
specialist’s performance plan. It stated that OEA has specific written instructions in place for the
individual to perform this function, and BXA believes these are sufficient without making them
part of the performance plan. We disagree. We found that BXA personnel were not following
the written instructions. By not incorporating this function into the supervisor’s performance
plan, we believe it will be difficult for BXA to hold anyone accountable for this function. As a
result, we reaffirm our recommendation.




                                                102
U.S. Department of Commerce                                                                Final Report IPE-11488
Office of Inspector General                                                                             June 1999



VIII. End Use Checks Are a Valuable Tool, but Some Improvements Are Needed

End use checks are an important part of the license evaluation process and are used to verify the
legitimacy of export transactions controlled by BXA. A pre-license check (PLC) is used to
validate information on export license applications by determining if an overseas person or firm is
a suitable party to a transaction involving controlled U.S.-origin goods or technical data. In
contrast, post shipment verifications (PSV) strengthen assurances that exporters, shippers,
consignees, and end users comply with the terms of export licenses and licensing conditions by
determining whether or not goods exported from the U.S. actually were received by the party
named on the license and if those goods are being used in accordance with the provisions of that
license.

Although we found some need for improvement in the conduct of end use checks, we believe they
are still a valuable tool in preventing proliferation and detecting problems. These checks are
important for the protection of controlled U.S. goods and technology by helping to prevent and
detect illegal technology transfer. However, as we mentioned in Section I, we believe that
conducting post shipment verifications for every high performance computer, as required by the
National Defense Authorization Act of 1998, may not be the most effective use of resources.

These checks can be requested by licensing officers, Export Enforcement special agents and
analysts, and officials from other federal agencies involved in the license review process. Most
PLCs and some PSVs are conducted by Commerce’s U.S. and Foreign Commercial Service
(US&FCS) officers stationed at overseas diplomatic posts who have knowledge of the geography,
bilateral relations, cultural norms, and local business practices and can provide valuable insight
into the end use check process.60 In addition, most PSVs and some PLCs are conducted by
Export Enforcement’s export enforcement agents under the Safeguard Verification program.

According to ECASS reports generated in October 1998, there were 275 PLCs and 109 PSVs
completed in fiscal year 1998.61 In addition to these completed end use checks, there were 56
PLCs canceled. Reasons for canceling the pre-license checks varied including:

l       The post was unable to conduct the PLC within the time limit or the post did not reply in a
        timely manner (13).

l       License applications were going to be returned to the exporter without action (12).




        60
           While the US&FCS’s primary role is to promote U.S. exports, it also has an ancillary role in helping to
control the illegal diversion of sensitive U.S. products and technologies.
        61
          As discussed in Section B, 8 PLCs and 237 PSVs conducted by Safeguard Verification teams were not
shown in the October 1998 ECASS printout.



                                                        103
U.S. Department of Commerce                                                          Final Report IPE-11488
Office of Inspector General                                                                       June 1999



l       Enforcement agents or analysts changed their minds (11).

l       Recent end use checks had been done on the end user (5).

l       Change in export control policy towards India (4).

l       Difficulty in conducting end use checks in China (4).

l       License applications ended up being rejected (3).

l       Items would be under the control of US/UK citizens (2).

l       Cost of conducting PLC was prohibitive (1).

l       Operating Committee had already approved the license (1).

The 1993 special interagency OIG review of the export licensing process found a number of
problems with end use checks, including (1) BXA lacked a strategic plan for checks and
verifications, (2) some US&FCS posts failed to follow guidelines for end use checks, and
(3) BXA needed to provide more guidance and product information to the posts.

In our 1997 Commerce OIG report on BXA’s watchlist screening process,62 we found the
following to be issues in the area of end use checks: timeliness of end use checks, US&FCS use
of foreign service nationals (FSNs) and personal service contractors (PSCs) to conduct end use
checks, need for improvement in posts’ response cables, accessibility of Safeguard trip reports,
and better coordination by posts with other parts of the embassy in conducting end use checks.

During our current review, we conducted an analysis of 124 PLCs and 18 PSVs selected from the
October 1998 ECASS report. We also participated in end use checks conducted by US&FCS
Israel and a Safeguard verification team in Malaysia. In addition, we conducted a survey of 27
US&FCS posts identified by BXA’s 1998 strategic plan as priority areas for PLC/PSV selections.

Based on this work, we found that BXA had made improvements in its end use checks process,
e.g., in September 1998, BXA issued an updated handbook for the posts, “How to Conduct Pre-
License Checks and Post Shipment Verifications.” However, we again found some of the same
areas of concern identified in our earlier reports with respect to end use checks conducted by
US&FCS. We also found that BXA’s Office of Export Enforcement needs to provide clearer




        62
          Bureau of Export Administration: Export Application Screening Process Could Benefit From Further
Changes, Inspection Report No. IPE-9524, September 1997.



                                                    104
U.S. Department of Commerce                                                 Final Report IPE-11488
Office of Inspector General                                                              June 1999



guidance for the report process and information accessibility of Safeguard trip reports. We also
highlight some specific conditions regarding end use checks in China, Hong Kong, and Israel.

A.     More interaction between BXA and US&FCS posts is needed

According to a 1988 Memorandum of Understanding between BXA and the International Trade
Administration, in each country in which it has an office, US&FCS will conduct pre-license and
post shipment checks, within the statutory or regulatory time limits, where applicable, in
accordance with the BXA pre-license and post shipment guide and host country regulations.
Overall, we believe that US&FCS is generally complying with BXA’s guidance for conducting
end use checks. In addition, most of the end use check responses from the posts included all of
the information needed by BXA to make a determination about the outcome of the check.
However, we did identify weaknesses in the process that need to be corrected including:

l      Timeliness is still an issue with PLCs.

l      Post cable reports on completed end use checks do not always indicate who conducted the
       check.

l      On-site visits are not always conducted.

l      Record-keeping at some posts needs improvement.

l      Coordination among agencies at some embassies could be improved.

We also believe that BXA needs to make its guidelines clearer regarding who exactly is allowed
to conduct end use checks. In addition, more training is needed for US&FCS personnel to enable
them to effectively conduct these checks. We discuss these problems in detail below and
recommend a number of actions that BXA can take to encourage posts to improve end use
checks.

Timeliness is still an issue with PLCs but not PSVs

We found that timeliness is still an issue with PLCs, resulting in over 20 percent of PLCs canceled
in fiscal year 1998 due to the posts not responding in a timely manner. According to BXA’s 1998
Handbook, PLCs must be completed within 28 calendar days. However, according to an October
1998 ECASS printout of PLCs, we determined that the average processing time for the 331 PLCs
completed or canceled in fiscal year 1998 was 50 days. Timely PLCs are important because PLCs
suspend a decision on an export application until the check is completed. As a result, the longer
an application is “on hold” waiting for a PLC, the greater the risk for a U.S. exporter to lose a
sale based on its inability to deliver the product in a timely manner.




                                                 105
U.S. Department of Commerce                                                     Final Report IPE-11488
Office of Inspector General                                                                  June 1999



On the other hand, PSVs are generally conducted within BXA’s established time frames.
Specifically, BXA’s 1998 Handbook provided for 60 calendar days for completion of PSVs. We
determined that the average processing time for the 109 PSVs completed in fiscal year 1998 as
reported on an October 1998 ECASS printout was 42 days.

In our survey of US&FCS officers in 27 foreign posts, we asked them whether BXA’s requested
response times were reasonable. In response to this specific question, four posts indicated that
the 28-day turnaround period for PLCs was not enough at times. One specifically stated that
meeting response time deadlines can be problematic due to limited staffing and other demands at
post such as high-level visitors from headquarters that require special attention, local difficulties in
travel, and arranging appointments at restricted facilities. Another said that they encountered
problems with deadlines when travel had to be arranged while a third commented that the 28-day
limit did not take the many and varied priorities of the post into consideration.

Based on survey responses, the most common reason given by posts for untimely end use checks
was that their primary responsibility of export promotion took precedence over PLCs and PSVs,
particularly if (1) there was a trade mission or high level visitor in country, (2) it was a busy time
of year, or (3) the check involved an extended trip.

To ensure that posts were held accountable for responding to end use check requests in a timely
manner, we recommended in our 1997 report that BXA send an information copy of all outgoing
cables that relate to end use checks to the regional directors in US&FCS Headquarters’ Office of
International Operations. The regional directors, who are responsible for overseeing the
US&FCS posts overseas, would then have direct knowledge of which posts are delinquent and
can take action to correct their performance. BXA agreed with our recommendation and is now
including the regional directors on the outgoing cables. However, this does not appear to have
improved the timeliness of PLCs conducted by US&FCS posts. We encourage BXA senior level
management to discuss this issue with the US&FCS Director General and other senior level
US&FCS managers and work with them to improve the timeliness of PLCs.




In its written response to our draft report, BXA agreed to continue to work with US&FCS on
this issue. BXA also noted that it implemented the 1997 OIG recommendation to include an
information copy of every outgoing PLC request cable and follow-up cable to ensure that
US&FCS management was aware of delays in the completion of PLCs at overseas posts. In
addition, BXA stated that it always highlights the importance of timeliness on PLCs in briefings to
all post personnel prior to their placement overseas and that it is specifically highlighted in BXA’s
PLC-PSV guide sent to all posts.




                                                 106
U.S. Department of Commerce                                                     Final Report IPE-11488
Office of Inspector General                                                                  June 1999



Majority of PLCs are performed by American Officers but clearer guidance is needed

According to our survey of 27 US&FCS posts, American officers reportedly conduct PLCs and
PSVs at six posts, combination teams of commercial officers and FSN/PSCs conduct checks at 15
posts, and FSNs have conducted or are allowed to conduct checks at five posts. The remaining
post has a special arrangement under which the host government performs these checks.

In addition, based on our review of completed checks conducted by US&FCS personnel–90 PLCs
from our sample of 124 PLCs and 15 PSVs from our sample of 18 PSVs in fiscal year 1998–it
appears that the majority of PLCs and PSVs are being conducted by appropriate personnel such
as an American officer or a combination team that includes an American officer as well as either a
foreign service national or personal service contractor. (See Table 8.)

Table 8: US&FCS Personnel Conducting End use Checks

                    US&FCS                           End use check conducted by?
                     Checks
                    Reviewed        Officer       FSN/PSC        Combination         Unclear

 PLC                    90             22              5                   36           27
 PSV                    15             10              0                   0             5
 Total                  105            32              5                   36           32
Source: Office of Enforcement Analysis, Bureau of Export Administration.

However, it was not always clear from the posts’ reporting cable who conducted some of these
PLCs and PSVs. As discussed in our 1997 review, it is important for BXA to know whether the
end use checks were conducted by an American officer or not in order for them to weigh the
information accordingly. Although 10 of the response cables indicated that the “Commercial
Attaché” had performed the PLC, it was not clear whether that person was an American Officer
or a PSC because the latter personnel often use this title. Post responses in two PLCs referred to
“embassy officers,” but again it was not clear whether they were American officers. The
remaining 15 response cables did not provide any indication as to who had performed the PLC.
Furthermore, post responses were not always clear about who conducted PSVs. Of 15 PSVs
completed by US&FCS in our sample of fiscal year 1998 PSVs, it was not clear who had
conducted 5 PSVs, while American officers had conducted the remaining 10 PSVs. The
outcomes of the 15 PSVs were 14 favorable and one unfavorable. US&FCS posts clearly need to
provide unambiguous information in their reporting cables regarding who conducted the end use
check.




                                                    107
U.S. Department of Commerce                                                        Final Report IPE-11488
Office of Inspector General                                                                     June 1999



Our review also identified four PLCs that were conducted by FSNs in Austria, Hong Kong, and
the Ukraine. None of these posts had either requested or received a waiver from BXA
authorizing the FSNs to conduct these checks. Table 9 summarizes the circumstances of these
PLCs.

Table 9: PLCs Conducted by FSNs

   Country         Conducted        PLC Result         License                  Comments
                      by                               Outcome
    Austria            FSN           Favorable        Approved        Item controlled for nuclear
                                                                      nonproliferation.


  Hong Kong            FSN          Unfavorable        Returned       Results indicated China was to
                                                       Without        be country of final destination.
                                                        Action

  Hong Kong            FSN            Limited         Approved        On-site PSV done a month
                                                        with          earlier by American officer and
                                                      Conditions      FSN. Limited PLC due to FSN
                                                                      conducting PLC over phone.
    Ukraine            FSN          Unfavorable        Rejected       Crime control items.



Source: Office of Enforcement Analysis, Bureau of Export Administration.

We believe that BXA’s new guidelines for “How to Conduct Pre-License Checks and Post
shipment Verifications” dated September 1998 is unclear on the use of FSNs and PSCs for end
use checks. Specifically, the guidance in the Handbook itself states:

        “PLCs must be conducted by an FCS Officer when one is stationed at post. If one
        is not stationed at post, PLCs must be conducted by other U.S. Government
        personnel who are U.S. citizens. In rare circumstances, BXA might allow an FSN
        or PSC to conduct a check. Any post considering using an FSN or PSC must
        cable the individual’s credentials to the Office of Enforcement Analysis along with
        a justification of why an exception to this policy should be granted. The Office of
        Enforcement Analysis will consider the facts and circumstances and respond to the
        request. Do not proceed with the check until the Office of Enforcement Analysis
        has responded.”




                                                    108
U.S. Department of Commerce                                                       Final Report IPE-11488
Office of Inspector General                                                                    June 1999



However, while Appendix I reiterates “BXA’s strong policy preference that PLCs and PSVs be
performed by U.S. government employees who are U.S. citizens unless extraordinary
circumstances require the use of FSNs or PSCs,” it also states that if the country is not listed
under a particular control (e.g., nuclear, missile, chemical/biological), then anyone can conduct
the checks. We believe this type of instruction is very ambiguous and needs to be clarified. If
BXA’s new policy is to allow FSNs and PSCs to conduct end use checks in those countries not
specified in the Appendix, then it should clearly reflect this in both portions of the guidance.
Either way, BXA must provide clear and concise guidance on this issue; in addition, BXA should
remind posts to clearly identify who conducted an end use check in its reporting cable.

Based on BXA’s own argument on this issue, we believe that it would be in the best interests of
the U.S. government for these checks to be conducted by a U.S. citizen who is a U.S. government
employee. Specifically, as stated in Appendix I of BXA’s Handbook, there are three
disadvantages of using FSNs to conduct PLCs including credibility, possible reluctance to testify
against a fellow citizen in a U.S. court, and lack of access to classified material. Some or all of
these disadvantages may also apply if a PSC is used to complete end use checks. Even for those
PSCs that are U.S. citizens, their credibility as a temporary employee without any specific training
in conducting checks could be called into question. In addition, many PSCs may not have
appropriate security clearances to give them access to relevant files and data sources within other
agency files at post, a necessary research tool before conducting a check according to BXA’s
Handbook.




In its written response to our draft report, BXA stated that it would reiterate to US&FCS its
policy preference for having a U.S. citizen/U.S. government employee present at all end use
checks. Specifically, it stated that it will redraft the PLC/PSV Handbook to make it clear when
use of an unaccompanied non-USG employee, non-U.S. citizen is merely undesirable and when it
is unacceptable. However, we believe that BXA’s use of the word “undesirable” implies that it
may be acceptable to use an unaccompanied non-U.S. government employee or a non-U.S.
citizen. In our opinion, this still sends an ambiguous message to US&FCS personnel. If BXA is
willing to accept end use check results from non-U.S. government employees and/or non-U.S.
citizens on a case-by-case basis, then it should state just that and explain when and under what
specific conditions use of foreign nationals or personal services contractors is acceptable for the
conduct of end use checks.

On-site visits still not always conducted

Our survey questionnaire to the 27 posts asked whether they conducted on-site visits for PLCs
and PSVs. In their responses, one post stated it did not conduct on-site visits, and one post stated
it would conduct on-site visits “as appropriate.” A third post reported that it conducted on-site
visits in the capital city, but it did not conduct on-site visits outside of the capital city because of a



                                                  109
U.S. Department of Commerce                                                     Final Report IPE-11488
Office of Inspector General                                                                  June 1999



lack of funds. However, BXA’s 1998 Handbook provides the following guidance for on-site
visits for PLCs:

        “It is the visit to the company, however, that is by far the most important. This is
        why an on-site visit is considered to be a requirement except under unusual
        circumstances, which must be stated clearly in the reporting cable.”

However, we found in our PLC sample that some posts do not conduct on-site visits, as shown in
Table 10 below:

Table 10: On-Site Reviews for US&FCS End Use Checks

                                  US&FCS                       On-Site review conducted?
                                   Checks
                                  Reviewed              Yes                No        Unclear

           PLC                        90                  61               14           15
            PSV                       15                  15               0               0
           Total                      105                 76               14           15
Source: Office of Enforcement Analysis, Bureau of Export Administration.

In 1992 US&FCS sent several worldwide cables to US&FCS posts that explained funding
procedures for BXA PLCs and PSVs. Upon receiving a PLC or PSV request from BXA, the post
is to estimate the marginal costs anticipated for that specific check, cable BXA with the estimate,
and request for authorization of funds within five working days. If BXA informs post that the
check is canceled, no further action from post is required. If BXA cables back to post with
funding authorization, the 28-day time limit for completion begins on the day that cable is sent. A
January 1993 cable modified the funding procedure by allowing posts to spend up to $50 for a
single PLC or PSV with no advance approval by BXA. A standard paragraph included in BXA
cables to posts requesting PLCs states:

        “The deadline for this PLC is 28 calendar days from the date of the BXA cable
        providing funding. However, if the associated costs are less than 50 U.S. dollars,
        the deadline is 28 calendar days from the date of this cable.”

We believe that BXA should stress the importance of on-site visits in its cables requesting PLCs
and as part of periodic regional training seminars and workshops for US&FCS staff.




                                                    110
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999




In its written response to our draft report, BXA agreed with our recommendation to stress the
importance of on-site visits in its end use request cables and when meeting with US&FCS
personnel prior to their departure for a new post or when visiting BXA in Washington. In
addition, BXA stated that it has prepared a cable on this subject and, after US&FCS clearance,
will send it to all US&FCS posts.

Record-keeping at most posts needs improvement

BXA’s 1998 Handbook recommends that each PLC or PSV file at post be retained for five years,
the statute of limitations for the Office of Export Enforcement investigations. The Handbook also
recommends that posts maintain specific types of records from the end use check including date
and location of the on-site visit, names and titles of all company officials contacted, copies of all
commercial reference materials used, copies of any documents provided by the company, copies
of all applicable cables, and any notes made by the officer conducting the check. However, based
on our survey results, only eight of the 27 posts indicated that they retained records for five years
or more. In addition, the types of records retained by these posts varied, but generally did not
include all the record types recommended by the BXA. We believe that BXA should remind
US&FCS staff of this record-keeping requirement for end use checks.




In its written response to our draft report, BXA stated that it agreed with our recommendation to
remind US&FCS staff of its record-keeping requirement to retain proper end use check records
for five years. In addition, it stated that it will send a cable to all US&FCS posts reminding them
of this requirement after US&FCS management has cleared it. It also informed us that it will
reiterate this point when meeting with US&FCS staff prior to their departure for a new post or
when they visit BXA in Washington.

Most posts surveyed consult with other embassy agencies on end use checks

In our 1997 watchlist review, we recommended that posts’ processes for conducting end use
checks be improved by consulting with other agency sections at the embassy that may have
information about how certain items could be inappropriately used or diverted or about the
subject company or organization. In our recent survey of 27 foreign posts, 20 posts responded
that they had some involvement with other agencies of the embassy when conducting the checks.

Specifically, 12 of the posts reported that they coordinated or consulted with the State
Department’s political or economic officer while one post responded that it was State’s Economic
officer who conducts the end use checks for BXA and coordinates with US&FCS. Ten posts also



                                                111
U.S. Department of Commerce                                                 Final Report IPE-11488
Office of Inspector General                                                              June 1999



reported that they coordinate or consult with Defense offices at the embassy with one reporting
that it had to rely on the Defense attaché for appointments with the local military. Four posts
reported that they coordinate with the Customs attaché stationed at the embassy, and three posts
reported that they coordinate their end use checks with the Regional Security Officer at the
embassy. We believe that BXA’s guidelines for conducting PLCs and PSVs should specifically
list other embassy sections by name that US&FCS should confer with on PLCs and PSVs and
include suggested questions for each section.



In its response to our draft report, BXA disagreed with our recommendation to specifically list in
the PLC/PSV Handbook the other embassy sections by name that US&FCS should confer with on
PLCs and PSVs. It stated that it will continue to recommend that US&FCS check with all
appropriate sections at post, but it believes US&FCS staff stationed at a post are in a better
position than BXA personnel in Washington to be aware of which sections of a particular post are
likely to have useful information about an end user in that country. While we agree that all posts
are different and they may have different U.S. government sections present, we have found
during our recent inspections of US&FCS posts, as well as our recent visits to two US&FCS
posts in conjunction with this review, that US&FCS officials did not always know who they
should consult with on an end use check. Therefore, we still contend that BXA should provide in
its handbook a general list of U.S. government agencies that US&FCS should consult with when
conducting end use checks.

Additional training and guidance needed by US&FCS

Of the US&FCS posts surveyed during the current review, 13 of the 27 posts indicated a need for
better information in the form of training or other guidance by BXA in order to effectively carry
out BXA’s end use program. Five felt additional training was not needed, and nine had no
opinion. While two posts stated they had received some formal training either from a BXA
seminar or a briefing at US&FCS headquarters, the other 25 posts stated that they had received
no formal training in how to conduct BXA end use checks.

The posts offered a number of suggestions for what they felt would enable them to conduct more
productive and efficient end use checks. One post suggested that the BXA Handbook provide
more examples of procedures which proved to be useful with different commodities and in
different countries. Another suggested that “best practices” information and samples of
informative reports be sent periodically to the posts. Another suggestion was for BXA to provide
more background on the history of the need for the checks and exactly how the process should
work in the best circumstances. The posts would also like to have training cover up-to-date
information on Congressional mandates for export controls, changes to regulations, more
background on BXA activities, and case studies or successful and difficult end use checks in
workshops. Twelve of the 13 posts visited in recent years by Safeguard teams indicated that
accompanying the teams on their checks either provided valuable training or would provide



                                              112
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



valuable training if they were invited to accompany the teams. One Commercial Officer
summarized the comments of many of his colleagues at other posts when he said, “more direct
interaction is needed between BXA and the posts.”

We believe that BXA should speak at US&FCS regional conferences, training seminars, or
workshops to keep US&FCS staff abreast of current developments in export controls and BXA
regulatory procedures. In addition, we believe that BXA should take the opportunity to use its
Safeguard Verification program to train US&FCS staff by having the staff accompany
enforcement agents on their visits to foreign entities and/or providing other training while at post.



In its written response to our draft report, BXA generally agreed with our recommendation to
periodically train US&FCS staff and keep them abreast of current developments in export
controls and BXA regulatory procedures. However, it noted that while periodic training is always
an excellent idea, neither Export Enforcement nor BXA as a whole is currently in a position to
fund the travel of US&FCS officers to the proposed seminars. It was not our intent for BXA to
fund the travel of US&FCS officers to proposed seminars but rather that BXA speak at the annual
regional seminars that US&FCS holds for its officers, or at other appropriate US&FCS
conferences. Nevertheless, BXA also agreed that its Safeguard teams will provide training at
posts they visit to the extent possible.

B.     Safeguard Verification Program enhances end use check process, but some
       improvements are necessary

BXA’s Export Enforcement conducts numerous on-site end use checks under its Safeguard
Verification Program. The Safeguard program was originally developed in 1990 to ensure the
legitimate use of strategic U.S. goods and technology by the newly emerging democracies of
Central Europe, which could serve as diversion points to the former Soviet Union. Since then,
the program has been significantly expanded, and export enforcement agents conduct PLCs and
PSVs in countries worldwide. In cases where Export Enforcement's Safeguard Verification
Teams discover items are being inappropriately used or in a manner that is inconsistent with an
export license, they initiate appropriate enforcement actions. Due to the time-sensitive nature of
PLCs, almost all Safeguard visits are PSVs.

In addition to conducting pre-license and post shipment checks, Safeguard teams also conduct
educational or “outreach” visits to foreign firms and provide guidance and support on preventive
enforcement matters to the American Embassy personnel and/or host government export control
officials. In fiscal year 1998, Export Enforcement conducted Safeguard Verification trips to the
following countries: Jordan, the United Arab Emirates, Russia, Saudi Arabia, Oman, Qatar,
Slovenia, Romania, Bulgaria, South Africa, Hong Kong, Israel, Egypt, India, Turkey, Mexico,
and Singapore.




                                                113
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



From March 8 through March 11, 1999, we participated in 10 post shipment verifications and one
outreach visit as an observer on Export Enforcement’s Safeguard Verification trip to Malaysia.
We also took this opportunity to meet with U.S. Embassy personnel in Malaysia (including the
Ambassador, Deputy Chief of Mission, US&FCS Officers, the State Economic Officer, and other
appropriate embassy officials) to discuss their views on the Safeguard Verification Program and
U.S. end use checks in general. Our participation in that trip greatly enhanced our understanding
of how export enforcement agents conduct end use checks.

Based on this trip and our review of Safeguard Verification Trip reports from fiscal year 1998, we
believe this program is a valuable tool because of the “enforcement” element it brings to the end
use check process. However, we have identified several areas where we believe improvements
could make this program more effective, including the initial planning of trips, performing the
verifications, reporting the results, and disseminating the final results. We believe all of these
areas can be addressed with proper guidance. As noted previously, we also believe that BXA
should use Safeguard visits as an opportunity to better train US&FCS staff on conducting end use
checks.

Selection of verifications should be consistent

BXA has not prepared any written procedures for its export enforcement agents to use in
conducting Safeguard visits. Essentially, it is up to the individual Safeguard team to plan and
conduct its Safeguard visit however it sees fit without any feedback from headquarters. For
example, the team which conducted the verifications in Malaysia informed us that it is left up to
the individual team members to decide which PSVs they will perform based on no specific
selection criteria.

The agent who selected the checks for this trip used his previous experience in conducting
Safeguard visits as a guide to select targets. Specifically, he stated that he pulled all of the
licenses approved for Malaysia since the last Safeguard team had been there and then selected a
number of shipments based in large part on his familiarity with the commodity itself such as
filament winding machines, oscilloscopes, and a chemical known as botulinum toxin. While these
commodities appeared to be appropriate, it was not clear from our discussions if either agent
knew which types of commodities or end users were “more of a concern” from either a
proliferation or diversion perspective in Malaysia.

Since BXA’s Office of Enforcement Analysis issues a Strategic Plan for Targeting PLC/PSVs
annually which lists countries of concern by a regime office, we believe it might be helpful to
incorporate this information into a handbook for conducting Safeguard Verifications.




                                                  114
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



In-country consultations would be helpful

Also, the teams have not been given instructions as to whom they should meet with in the U.S.
mission at post to get a broad picture of the country’s economic, political, and security policies.
As a result, the Safeguard team we observed in Malaysia did not meet with any of these embassy
officials with the exception of the US&FCS. We believe the teams should also meet with host
government officials involved in local export control or enforcement areas as well as U.S.
embassy personnel (e.g., the Defense attaché, State’s Economic or Political Officer, the Customs
attaché, Federal Bureau of Investigation attaché, and other appropriate embassy officials) who
might be knowledgeable of proliferation threats or diversion activities associated with the
individual country, what export control programs the country has and how effective they are, as
well as the country’s relationships with countries of concern.

Safeguard reports are not consistent in content and format

In addition, we found that the quality and format of Safeguard trip reports varied. Some reports
we reviewed provided an initial description of critical details about the specific checks performed,
including whether it was a PLC or PSV; results of check; license number, if applicable; date of
shipment; commodity control number; exporter name and location; ultimate consignee name and
location; end user name and location; end user statement; and list of conditions placed on the
license. Other reports we reviewed had some of this information, but it was buried in the
descriptive summary of the particular check. However, one report never clearly identified the
actual commodities being verified. In addition, the method used to count the number of National
Defense Authorization Act checks appeared to vary from one report to another. We believe that
any guidelines created for conducting Safeguard Verifications should include a template or
standard format for agents to follow when preparing these reports.

In addition, Export Enforcement may want to encourage Safeguard teams to take photographs
during the course of their verifications. During the checks we observed in Malaysia, the agents
took photographs of various sites and commodities they checked out. We believe this could be a
useful tool for Export Enforcement with regard to educating other agents or licensing officials of
how certain generic commodities can actually have a variety of appearances (e.g., filament
winding machines). We believe that Safeguard teams should be encouraged to add such details to
their reports whenever possible.

Timeliness of reporting results is an issue

We believe that Safeguard Verification trips are an important source of information for both the
licensing officers and Export Enforcement analysts at headquarters. However, we found that
enforcement agents took an average of over three months to submit a written report to Export
Enforcement headquarters after each trip. Thus, the results of the Safeguard checks, mostly post
shipment verifications, were not entered into ECASS in a timely manner.




                                                115
U.S. Department of Commerce                                                           Final Report IPE-11488
Office of Inspector General                                                                        June 1999



Based on the 12 Safeguard visits conducted from October 1, 1997 thru September 30, 1998,
Export Enforcement reported it conducted 25 PLCs and 286 PSVs. However, according to an
October 1998 ECASS printout for all PLCs and PSVs conducted during fiscal year 1998, only 66
of these were listed.63 Five of the missing PSVs conducted resulted in unfavorable findings.
Licensing officers who are not aware of the unfavorable checks may approve export licenses for
exports to consignees with unfavorable end use checks. Thus, we believe it is critical for
unfavorable or questionable findings to be included in ECASS, as soon as possible, so that
licensing officers and export enforcement analysts can have that information when making
licensing and enforcement case decisions. As a part of any handbook created for conducting
Safeguard Visits we believe that Export Enforcement should provide guidelines for the prompt
reporting of unfavorable Safeguard results.

Wider dissemination of Safeguard trip reports is needed

While BXA has forwarded some hard copy Safeguard trip reports to the Nonproliferation Center
in the past, we found during our review that this has not been a routine practice. While the
Nonproliferation Center has found the reports it has seen to be informative, it indicated that hard
copy reports are difficult to use in its analysis because the reports are categorized by country and
it conducts its searches by end user. Therefore, the Nonproliferation Center suggested that these
reports be sent in an electronic format so that the data can more easily be uploaded into its
database of end users. Export Enforcement officials informed us that this should not be a problem
since the agents usually send the reports to headquarters in an electronic format. Therefore, we
encourage BXA to ensure that the Nonproliferation Center is on its distribution list for all of these
reports and that these reports are forwarded to the Nonproliferation Center in an electronic
format.

In addition, US&FCS has also expressed an interest in receiving Safeguard trip reports. They
believe that the results would be informative because of US&FCS’s role in working with local
businesses in the host country. The reports could also be a guide for commercial officers to
follow when they prepare their end use check reports for BXA. We believe that this could be
helpful and suggest that BXA include the appropriate US&FCS post on its distribution list.




In its written response to our draft report, BXA agreed with our overall recommendation to
develop guidance for EE agents for Safeguard Verifications, including (1) criteria to help guide
agents in selecting which PLC/PSVs to do, targeting countries and shipments of greatest concern,
(2) a template or standard format for agents to follow when preparing Safeguard trip reports,



        63
           BXA later provided us with an updated ECASS printout dated April 1998 and we determined that most
of the data related to Safeguard end use checks had been entered into ECASS.



                                                     116
U.S. Department of Commerce                                                     Final Report IPE-11488
Office of Inspector General                                                                  June 1999



(3) a suggestion that photographs be taken of the sites and commodities inspected, when
appropriate, during their verifications to be included in their reports, and (4) procedures for the
prompt reporting of unfavorable Safeguard results.

In addition, while BXA disagreed with our recommendation that there be a requirement for the
Safeguard Verification teams to meet with host government officials involved in local export
control or enforcement areas, as well as U.S. embassy personnel who might be knowledgeable of
proliferation threats or diversion activities associated with the specific country, it agreed that this
is a valuable suggestion and BXA will implement it where feasible. Specifically, BXA stated that
the feasibility of meeting these officials varies from country to country and will depend on the
interests of the host government and U.S. Embassy or Consulate officials.

Finally, BXA generally agreed with our recommendation to distribute its Safeguard trip reports to
the CIA’s NPC and US&FCS posts. Specifically, it reported that the Office of Export
Enforcement is currently working with the Office of Executive Support to make the Safeguard
trip reports available to the Nonproliferation Center in an electronic format. However, it stated
that its ability to distribute these reports to US&FCS posts is contingent upon US&FCS agreeing
to appropriate procedures to prevent their improper dissemination. We believe that BXA should
work out the details of such dissemination with US&FCS as soon as possible so that US&FCS
officials can benefit from the use of the Safeguard reports.

C.     End use checks in three countries of concern were reviewed by OIG teams

As a part of our inspections of US&FCS operations in the People’s Republic of China and Hong
Kong during August 1998, we reviewed these posts’ end use check activities. While the
reluctance of the Chinese government to allow end use checks has precluded the United States
government from performing many of these checks, BXA reports a slight improvement in this
area since the U.S. China summit in June 1998. In addition, we found that Hong Kong–even after
its reversion to Chinese sovereignty on July 1, 1997–has continued its willingness to work with
the United States to ensure that exported technologies are protected from diversion or misuse.
During the course of this review, we also visited Israel and observed how US&FCS conducted
end use checks there by participating in five post shipment verifications.

End use checks are an ongoing struggle in China

With a population of 1.3 billion, China is a market with enormous potential for U.S. exporters.
While the United States wants to help its high-tech industries remain competitive in China, it
cannot ignore China’s military modernization or its role in weapons proliferation. In April 1998,
the Justice Department began investigating two aerospace companies for possibly providing
sensitive information to China which could help it improve its ballistic-missile launch capabilities.
It is not yet known whether the recent allegations in the U.S. Congress and press over U.S.
sensitive technology trade with China will change the prospects for continuing growth in general
U.S.-China trade. To complicate matters, the controversy over U.S. strategic trade with China



                                                 117
U.S. Department of Commerce                                                            Final Report IPE-11488
Office of Inspector General                                                                         June 1999



has escalated considerably since our August 1998 visit to China with the recent accusations of
espionage by the Chinese at Energy’s laboratories.

The U.S. government’s ability to distinguish between a civilian and military end use is critical
when determining whether to issue an export license for sensitive technologies. Due to these
concerns, US&FCS and BXA reached an agreement in which BXA relinquished one of its
full-time equivalent positions to US&FCS China in exchange for placing one of BXA’s employees
in FCS Beijing.64

End use checks have always been an issue in China. For instance, the Chinese began denying
requests for PLCs from late 1996 to May 1998. Of the 10 PLCs requested in 1996, five were
completed and five were canceled. Of the five completed, four were considered favorable, and
one unfavorable. Of the four PLCs requested in 1998, two were completed and determined to be
favorable while two were canceled. Of the two that were canceled, one was due to the Chinese
refusal to allow the check and one was due to the fact that BXA determined that the item in
question did not require an export license. (See Table 11.)

While the Chinese allowed the United States to conduct some PLCs, no PSVs had ever been
conducted until September 1998. According to BXA officials, one of the accomplishments of the
U.S.-China Summit in June 1998 was that the Chinese agreed to a framework allowing PSVs of
U.S. exports. However, under this framework, the Chinese government still reserves the right to
arrange these visits on a case-by-case basis. If the Chinese government refuses the request for an
end use visit, the U.S. maintains the ability to take appropriate action–which can include denying
future licenses to the Chinese end user.

Table 11

                   Pre-License Check History in China Fiscal Years 1996-98
             Fiscal Year          Requested           Completed          Canceled          Pending
                1996                   10                   5                 5                0
                1997                   10                   0                10                0
                1998                    4                   1                 2                1
     Source: US&FCS Beijing

At the time of our inspection, there were three pending PSVs (two of which had been pending for
more than 30 days and a third that was new). We have since learned that the Chinese allowed


        64
           The employee, who speaks Mandarin Chinese, arrived in Beijing in August 1995 under a limited
appointee status. His responsibilities include both export controls and other US&FCS-related activities.



                                                     118
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



these checks to be conducted as well as an additional three. The results of these checks, which
were conducted jointly by Chinese and U.S. officials, were favorable.

End use checks in Hong Kong are being conducted with local government consent

There has been no change in the U.S. export licensing policy for dual-use goods and technologies
to Hong Kong since its reversion to Chinese sovereignty on July 1, 1997. Current U.S. policy is
to continue the preferential treatment of Hong Kong–a Special Administrative Region of the
Peoples Republic of China–for dual-use licensing despite more stringent export controls on China
itself. This is due in part to the Hong Kong Government’s own restrictions on the export of high-
technology products to countries proscribed under the current nonproliferation regimes, including
China.

In October 1997, the Secretary of Commerce and the Hong Kong Secretary for Trade and
Industry signed an “agreed minute” on ways to enhance export control cooperation, including
semi-annual interagency meetings to exchange information and provide updates. Officials at BXA
believe these semiannual meetings are an important component of its monitoring of Hong Kong’s
export control program to determine whether Hong Kong’s system continues to be effective and
autonomous, rather than influenced by the Chinese government.

Based on our discussions with BXA officials and various U.S. officials at the U.S. Consulate in
Hong Kong, it appears as though the U.S. has close and beneficial relations with the Hong Kong
Customs Authorities and the Hong Kong Trade Department which provides the basis for Hong
Kong’s continued access to exports of controlled U.S. technologies. However, it is still important
for the U.S. to continue its monitoring of trade to Hong Kong to ensure that exported
technologies are protected from diversion or misuse.

One significant way in which the Hong Kong government's approach to export controls continues
to be different from that of China is its policy regarding U.S. officials' preventive enforcement
activities. Specifically, the U.S. is not precluded from conducting these checks on its own as the
U.S. is in China.

During our inspection of US&FCS Hong Kong in August 1998, we found that the US&FCS
routinely coordinated its end use checks with other consulate agencies such as State’s
economic/political section and the U.S. Customs Service. Although we did not find that
US&FCS was coordinating these checks with the Defense section, both agencies agreed that such
coordination could prove useful. US&FCS Hong Kong subsequently agreed to notify the
Defense attaché’s office of any future end use check requests.

A review of the available records and interviews at the time of our on-site visit indicated that the
checks were generally conducted on-site by a commercial officer and a Foreign Service




                                                119
U.S. Department of Commerce                                                                 Final Report IPE-11488
Office of Inspector General                                                                              June 1999



National.65 During fiscal year 1997, US&FCS Hong Kong conducted 12 PLCs and one PSV.
From October 1997 to May 1998, US&FCS conducted 12 PLCs and four PSVs. We found the
response cables for these checks to be detailed and thorough. In addition to the normal “cable”
channels used by posts to officially report these results, US&FCS Hong Kong and BXA routinely
communicated with each other via e-mail which enabled US&FCS to ask additional questions of
BXA concerning the requested checks and for BXA to provide additional information to the post
in a more timely fashion. BXA officials informed us that they were satisfied with the information
US&FCS Hong Kong provided them on end use checks.

As mentioned previously in this section, BXA also sent two Safeguard Verification teams to Hong
Kong during fiscal year 1998 and one in March 1999. Both U.S. consulate officials and the
US&FCS Hong Kong consider BXA’s safeguards program to be an important part of U.S. efforts
to maintain vigilance of Hong Kong’s export control system and both are fully supportive of this
effort. The team that went to Hong Kong in June 1998 was able to conduct 13 PLCs and PSVs
(including one end use check that had been assigned to US&FCS). Eight of these checks resulted
in favorable and three in favorable ratings with reservations. The team that went in September
1998 were able to conduct 13 PSVs, two of which had unfavorable ratings. In addition, this team
noted that while they saw few signs of Chinese governmental presence, nearly every corporation
visited had a facility in China and many employees of Hong Kong companies live in China. At the
time of this writing, the results of the Safeguard trip in March 1999, had not been released.

This gradual blending of China and Hong Kong will undoubtedly create new challenges for U.S.
export control policy to Hong Kong. It is our understanding that the Secretary of Commerce’s
fiscal year 2000 budget submission to the Office of Management and Budget included a request
for an export enforcement agent to be stationed in Hong Kong. We believe such action is
warranted considering Hong Kong’s willingness to work with the United States to prevent and
detect illegal diversions of critical dual-use commodities and technologies to China.

US&FCS Tel Aviv generally follows BXA guidelines for end use checks

The United States is Israel’s major source of economic and military aid. According to U.S.
embassy officials in Tel Aviv, Israel has a technologically advanced market economy with




         65
             As discussed previously in part A of this section, one PLC consisted of an FSN calling the entity to set
up an appointment but learning that the entity intended to sell the commodities to factories in China. Based on
this information, BXA gave the PLC an unfavorable rating. In a second PLC, US&FCS personnel (CO and FSN)
had conducted an on-site PSV of the ultimate consignee one month prior and decided to call instead of revisiting
the entity. The ultimate consignee advised that one of the end users (also subject to this check) had not placed an
order yet and emphasized that the end users listed were potential customers. The FSN subsequently called one of
the end users to set up an on-site visit but the company verbally confirmed it had not placed an order yet. US&FCS
did not have any reason to question the legitimacy of the ultimate consignee and recommended approval. BXA
rated this check as “limited” because of the sole FSN involvement in the later conversation.



                                                        120
U.S. Department of Commerce                                                              Final Report IPE-11488
Office of Inspector General                                                                           June 1999



substantial government participation. However, as discussed in the 1999 Country Commercial
Guide prepared by the U.S. Embassy in Tel Aviv, Israel maintains very few export controls.
Those that do exist are primarily targeted against internationally controlled substances and/or
designed to protect national security. Israel adheres to the Missile Technology Control Regime
and maintains export controls on a variety of military and sensitive technologies destined for
certain proscribed countries. U.S. export licenses are required for exports to Israel of certain
high-technology, defense equipment/technologies and weapons for chemical/biological warfare.
Israel is considered by BXA to be a country of concern for nuclear control, chemical or biological
warfare control, and missile technology control.

As a part of our current review of export licensing, we visited Israel in January 1999 to
accompany US&FCS Tel Aviv personnel on five post shipment verifications to observe how they
conduct end use checks. In addition, we examined post records for fiscal year 1998 end use
checks. Overall, we found that US&FCS Tel Aviv generally performed the end use checks in
accordance with BXA guidelines. In fact, the Senior Commercial Officer informed us that he
likes to participate in these checks because not only do they emphasize the continued oversight of
exports by the United States Government, but they also afford US&FCS the opportunity to
establish or reestablish positive contacts with Israel’s commercial companies and military
organizations.

        End use checks observed by OIG

During our on-site visit, we discovered that US&FCS Tel Aviv was using BXA’s 1992 guidance
to conduct end use checks. US&FCS personnel stated that they were unaware that BXA had
issued subsequent guidance in 1996 and 1998 so we provided post personnel with BXA’s 1998
guidance.66

The five post shipment verifications conducted by US&FCS Tel Aviv during our visit all dealt
with high performance computers going to two commercial and three military end users in
Israel.67 US&FCS personnel classified all five checks as favorable. During our visits at one of
the military installations, we did not observe three of six systems. The military entity informed us
that the three systems had been installed at two other military installations located elsewhere in
Israel. US&FCS Tel Aviv’s response cable to BXA stated that despite only identifying three of
the six systems during the one visit, they had no reason to suspect that the other three systems




        66
          Upon our return, we asked BXA about its distribution method for its guidance and it informed us that
the guidance is given to US&FCS headquarters to send to post.
        67
          These post shipment verifications were performed pursuant to the requirements in the National Defense
Authorization Act for Fiscal Year 1998 as previously discussed in Section I of this report.



                                                      121
U.S. Department of Commerce                                                           Final Report IPE-11488
Office of Inspector General                                                                        June 1999



were not being used in accordance with the terms of the export licenses.68 The cable further
stated that if BXA believed US&FCS Tel Aviv’s report was incomplete, BXA should cable the
post with a new PSV request for on-site visits verifying the three remaining systems.

       End use checks conducted by post and Safeguard Verification Program

During fiscal year 1998, US&FCS Tel Aviv performed 13 PLCs and 13 PSVs. An additional
PSV was canceled because the equipment was allegedly incorporated into two flight simulators at
an Israeli air force base and US&FCS was unable to physically inspect the goods. Twenty five
out of the 26 checks were conducted by a US&FCS officer or a representative from the
Department’s International Trade Administration who was on temporary assignment at US&FCS
Tel Aviv. One PLC was performed solely by a senior FSN, however, the post had not requested a
waiver from BXA to do so as its guidelines require. Specifically, since the commodity subject to
the check was controlled for missile technology concerns and Israel is one of the countries that
BXA has identified as of concern for missile technology controls, FSNs may not be used (except
to accompany a permanent U.S. government employee who is a U.S. citizen) for PLCs or PSVs
for such checks. In the future, US&FCS Tel Aviv must request waivers from BXA before using
FSNs to conduct end use checks for nuclear, chemical or biological warfare, and missile
technology controls.

We also found that post personnel maintained fairly extensive records of current and prior end use
checks. Post personnel have maintained a log of every check for the last 12 years and file records
for all checks for the last three years. However, BXA’s current guidelines recommend that file
records be kept on all checks for five years. After we pointed this out to the SCO, he assured us
that the post will extend their file records for five years.

While there are other sections in the embassy that either perform end use checks (e.g., State’s
Economic Officer) or potentially could provide technical expertise or information (e.g., Defense
Attaché), US&FCS Tel Aviv does not exchange its end use check information or discuss end use
check issues with these other groups. US&FCS personnel stated that because each group at the
post is burdened with its own workload, structured coordination has not taken place. However, it
agreed that they could improve information exchange with the other groups.

We also discussed this issue with the embassy’s Deputy Chief of Mission and we suggested that
the various embassy sections attend quarterly meetings to discuss prior and current check cases,
issues, and problems. The Deputy Chief of Mission agreed that quarterly meetings would benefit
all personnel involved in end use checks. US&FCS personnel also believed that quarterly
meetings would be beneficial and plan to initiate meetings very shortly.




       68
            USDOC Tel Aviv 01544, dated February 2, 1999, and USDOC Tel Aviv 01817, dated February 8, 1999.




                                                     122
U.S. Department of Commerce                                               Final Report IPE-11488
Office of Inspector General                                                            June 1999



We also noted that a Safeguard Verification team visited Israel during June and July 1998 and
conducted 40 post shipment verifications–32 of them were for high performance computers as
required by the National Defense Authorization Act. However, other than one senior FSN
participating in this Safeguard Trip with BXA enforcement personnel, US&FCS Israel’s
commercial officers have not received any end use check training from BXA. As we pointed out
in Part A of this section, BXA needs to conduct periodic training seminars and workshops to keep
US&FCS staff abreast of current developments in export controls.




                                             123
124
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



IX.    Other OIG Concerns Are Related to the Export Licensing Process

During our review, we identified two areas in the export licensing process that have raised
enforcement concerns. One area is BXA’s practice of “returning without action” export license
applications for which unfavorable PLCs were received. A second area is the untimely processing
by Export Administration of license determination requests from Export Enforcement and the
U.S. Customs Service.

A.     Applications were returned without action after receiving unfavorable PLCs

A decision to return a license application to the exporter without action means that the license
application has been neither approved nor denied. If a license is required for the commodity
and/or destination, such a decision blocks the export. The exporters can still reapply for a license
in the future. In fiscal year 1998, BXA processed 11,015 license applications, 2,130 of which
were returned without action.

According to the Export Administration Regulations,69 an application may be “returned without
action” for one of the following reasons:

l      The applicant has requested the application be returned.

l      A License Exception applies.

l      The items are not under Department of Commerce jurisdiction.

l      Required documentation has not been submitted with the application.

l      The applicant cannot be reached after several attempts to request additional information
       necessary for processing of the application.

Based on our sample of fiscal year 1998 PLCs, we identified three export license applications that
were returned without action although they received unfavorable PLCs. We asked BXA and
Defense about these three cases, and their comments are discussed below. In the first case, the
application listed four end users located in Hong Kong. However, based on the PLC initiated by
Export Enforcement, all four end users reportedly planned to have the commodities shipped
directly to their factories in China. Although the application failed to mention that the ultimate
destination was China, the licensing officer requested that the application be returned without
action due to the age of the application (the application was received in early October 1997 and
returned without action in mid-March 1998). Ultimately, Export Enforcement concurred with
this recommendation.



       69
            15 CFR 772.



                                                125
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



The Deputy Assistant Secretary for Export Administration informed us that all referral agencies
reviewed the case and recommended approval with standard conditions. However, according to
the Defense OIG, the Defense Threat Reduction Agency (DTRA) believes that BXA should have
notified them of the unfavorable PLC even though it did not condition its approval on a favorable
check. DTRA said that if it had known about the unfavorable PLC, its recommendation would
have been different.

In the second case, comments by the licensing officer in the case history indicate that the licensing
officer wanted to return without action the case after Export Enforcement had recommended
rejection, but was prevented from doing so as long as Export Enforcement maintained its
rejection. Per the case history, one reason Export Enforcement was recommending rejection was
due to a guilty plea by a U.S. representative of the foreign entity in a 1995 U.S. Customs case
involving a similar export. In addition, there was an ongoing Customs investigation of the
company.

In his comments on this case, the Deputy Assistant Secretary wrote that when the investigation
was closed with no derogatory results for the foreign company, the licensing officer was advised
to call the exporter to see if he still wanted the license. The applicant asked that the application
be returned without action since the order had been canceled. Because the applicant requested
that this case be returned, the Office of Export Enforcement changed its rejection
recommendation to return without action. However, a non-derogatory pre-license check was a
requirement for a conditional approval by Defense. According to Defense OIG, DTRA was not
informed of the unfavorable PLC conducted by the post.

In a third case, a license application was returned without action after an unfavorable PLC by the
post reported that the equipment in question had already been delivered to the consignee in
Malaysia and reexported six weeks earlier. According to the regulations, an exporter may not
submit a license application for a shipment that has already been exported or reexported.70 If such
an export or reexport should not have been made without first securing a license authorizing the
shipment, the exporter should send a letter of explanation to BXA’s Office of Export
Enforcement. The Office of Export Enforcement headquarters referred this case to one of its field
offices for an investigation.

In his comments, the Deputy Assistant Secretary wrote that there is no indication in the file that
Export Enforcement recommended a rejection to this application. According to the Defense OIG,
Defense Threat Reduction Agency was again not informed of the unfavorable PLC. Although it
did not condition its approval on a favorable check, Defense stated that if it had known about the
unfavorable PLC, its recommendation would have been different.




       70
            15 CFR 748 and 15 CFR 748.4.



                                                126
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



In the opinion of a senior Export Enforcement official, if information is known that would cause
an application to be denied, that application should be denied, not returned per the applicant’s
request. If the application is not denied, the applicant is not officially informed as to why BXA
had a problem with the end user. In addition, if the commodity is one controlled by an
international regime with a “no undercut” policy, returning the application without action
prohibits the U.S. from notifying the group. The purpose behind the “no undercut” rule was to
discourage a country from licensing a commodity to a particular end user who has been denied a
shipment by another member of the group. This prevents the companies in one country from
profiting as a result of export controls in another country.

We believe that returning license applications without action, which have already received
unfavorable PLCs, sends an unclear message about the legitimacy of the export transaction to the
exporter. A denial of an application sends an unambiguous message that some part of a
transaction involving controlled U.S.-origin goods or technical data was not suitable. We also
believe that BXA should inform referral agencies of all derogatory PLC results.




In its written response to our draft report, BXA stated that it agreed with our recommendation to
inform the advisory agencies when it receives a negative result on a PLC involving a case that had
been referred to them, understanding that this additional information may affect the agencies’
original position on the application. However, it disagreed with the three examples we
highlighted. While we agree with BXA that returning a license application without action is not a
license to export, it does not change the fact that BXA should have consulted with the advisory
agencies on these three cases before doing so—especially since the PLCs were unfavorable. In
addition, the first case involved commodities controlled by the Australia Group and the United
States could have applied the “no undercut” rule if it had denied the application. Finally, we want
to point out that while our report does mention that there were 2,130 return without actions in
FY 1998, we did not state that we found only 3 cases of BXA returning a license without action
when a negative PLC existed from this number. The examples we found were identified from our
selected sample of 166 PLCs conducted in FY 1998.

B.     License determination process is untimely

BXA’s Export Enforcement implements the enforcement provisions of the Export Administration
Regulations, such as investigating allegations of violations of the Export Administration
Regulations. The U.S. Customs Service is also authorized to seize and detain any item whenever
they know or have probable cause to believe that the items are intended to be, are being, or have
been exported in violation of the Export Administration Regulations.71 In both circumstances, it
is often necessary for BXA’s export enforcement agents and Customs inspectors to request


       71
            22 U.S.C. Section 401, et seq.



                                               127
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999



license determinations from BXA licensing officials in Export Administration. The license
determination–similar to a commodity classification request from an exporter–includes an
assessment of (1) whether or not the item is “subject to the Export Administration Regulations,”
(2) the reason for control, and (3) the licensing policy for export of the item to the specified
destination. During fiscal year 1998, BXA completed 393 Export Enforcement and Customs
license determinations.

We examined Export Enforcement’s manual records for 212 license determinations referred to
Export Administration during the period January 1, to June 30, 1998, finding that the average
response took 36 days.72 Included in this 36-day average, are 12 license determinations that took
more than 100 days to be returned to Export Enforcement. Export Administration officials
informed us that six of the 12 license determinations took longer than 100 days to process
because of delays in obtaining additional information from the agents (such as additional technical
specifications and possible end uses for the item). However, Export Administration could not
justify why the remaining six took so long. As a result of the lengthy processing times, Export
Enforcement officials informed us that agents are sometimes forced to delay opening an official
investigation on an exporter.

In addition, we worked with the Department of Treasury’s OIG who examined 120 license
determination referral records from Customs to Export Administration during the period January
1, to June 30, 1998. While the average processing time was somewhat better than that for Export
Enforcement license determinations–the average processing time being 24 days–we still found
two license determinations which took more than 100 days. Treasury’s OIG sampled 10 of the
license determinations that were beyond the 20-day response time, finding that three license
determinations were agent inquiries involving no detention, three were referred to State, and the
remaining four were ultimately released because it was determined no license was required.

According to the Export Administration Act, Customs is only allowed to detain a shipment for up
to 20 days before it must either formally seize or release the goods.73 Thus, Customs essentially
has three options with regard to holding shipments up as a result of license determinations more
than 20 days old. It can either (1) continue to detain the shipment in violation of the Export
Administration Regulations, (2) formally seize the shipment, or (3) let the shipment go.
Depending on the view–law enforcement community or U.S. exporters–none of these three
options are optimal if the agent does not have a license determination. In options one and two,
Customs could hold up legitimate trade if it is determined that the item did not require a license
(as indicated in four of the cases above). On the other hand, by letting shipments go after 20 days




        72
           To Export Administration’s credit, Export Enforcement officials stated that Export Administration is
usually very responsive to emergency license determination requests.
        73
             Section 12 (2)(a) of the Export Administration Act.



                                                         128
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



due to untimely license determinations, controlled goods could leave the United States without a
valid license decision.

Some of the reasons for untimely processing of license determinations are similar to those which
cause delays in the CCATS process. They include a (1) lack of a front-end technical review in
Export Administration to pre-screen license determinations before assigning them to the
appropriate licensing division for review, (2) lack of incentives to process license determinations
in a timely manner, and (3) lack of written procedures for assigning license determinations that are
reviewed by LOs in multiple divisions. We believe our recommendations to correct these
deficiencies in the CCATS process should also be implemented for license determinations.
Namely, Export Administration needs to ensure that the quality control mechanism put in place in
February 1999 is not affected in the future by absences of key staff persons currently assigned this
function. Secondly, Export Administration managers must communicate to LOs the importance
of processing license determinations in a timely manner and hold them accountable for doing so.
To help managers with this task, BXA should program ECASS to allow for the “hold without
action” feature for limited circumstances, e.g., during a request for additional information
necessary related to the license determination request. Finally, Export Administration should
issue written procedures for assigning license determinations reviewed by multiple divisions as
soon as possible.

However, we also identified some additional reasons why license determinations may not be
processed in a timely manner including (1) Export Administration’s lack of established time
frames for processing license determinations and (2) BXA’s and Custom’s license determination
referral processes are not automated.

Lack of established time frames to process license determinations

Unlike the 14-day time requirement allocated to process CCATS requests for exporters, there is
no established time requirement for processing license determinations for the law enforcement
community.74 In October 1998, BXA’s Deputy Assistant Secretary for Export Administration
drafted guidance recommending that license determinations should be completed within the same
14-day time period as required for CCATS, as long as the license determination consists of six
items or less and all information necessary to complete the license determination has been
submitted. However, this guidance has not been officially approved or circulated to LOs. We
encourage Export Administration management to do so immediately.

In addition, we believe that some type of written agreement may be needed to outline the
responsibilities of each party involved in this process (i.e., Export Administration and Export
Enforcement, and Export Administration and Customs). Specifically, each agreement should set
forth standard procedures for (1) submitting license determination requests (e.g., required



       74
            15 CFR 750.2.



                                               129
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



information needed by Export Administration to make a determination), (2) processing license
determination requests in a timely manner, and (3) the escalation process for late license
determinations.

BXA and Customs license determination referral process not automated

When custom agents or inspectors in the field need a license determination from BXA, they must
first submit the request, by FAX or phone call, to the EXODUS Command Center at Customs
Headquarters. An individual in this unit then actually hand carries the request over to BXA’s
Headquarters. Once BXA has completed the license determination, someone from EXODUS
must physically come back over to BXA and pick it up. Then, EXODUS must feed the license
determination back to the original requester in the field, by FAX or phone call. We believe this is
an inefficient process which causes unnecessary delays for Customs in obtaining license
determinations. Both BXA and Customs officials have stated that this process should be
automated to make it more efficient. We agree and we would encourage BXA to work with
Customs to find a way to automate this process.




In its written response to our draft report, BXA agreed with our overall recommendation to
process license determinations in a timely manner. Specifically, it agreed to (1) institute a front-
end review process, (2) implement guidance requiring that license determinations be made within
14 days, and (3) develop a written agreement between Export Administration and Export
Enforcement and Export Administration and the Customs Service outlining the responsibilities of
each party involved in the LD process. With respect to the front-end review process and the
written agreement between Export Administration and Export Enforcement, BXA informed us
that these actions have already been completed. However, BXA did not indicate how it plans to
ensure that the front-end review of LDs will not be affected by absences of key staff persons who
are currently assigned this responsibility. Therefore, we reaffirm this recommendation.

In addition, BXA’s response stated that similar to our CCATS recommendation of instituting a
“hold without action” feature in ECASS for LOs to use in limited circumstances, it will
investigate the costs and benefits of this recommendation further. However, we still contend that
BXA managers are unable to tell why an LD has been delayed which makes it harder for them to
hold licensing officers accountable for their inactions. Therefore, we reaffirm our
recommendation.

BXA also indicated it was reviewing our recommendation to issue written procedures for
assigning LDs reviewed by multiple divisions. It went on to say that based on the experience
gained from its front-end assignment effort, it will develop written procedures as appropriate. We
agree.




                                                130
U.S. Department of Commerce                                               Final Report IPE-11488
Office of Inspector General                                                            June 1999



Finally, BXA concurred with our recommendation to automate the referral of LD requests from
Customs to Export Administration, resources permitting. We believe that automating this process
will greatly enhance the efficiency of processing LDs for Customs. Therefore, we reaffirm this
recommendation.




                                             131
132
U.S. Department of Commerce                                                                                                             Final Report IPE-11488
Office of Inspector General                                                                                                                          June 1999




X.      BXA Needs a New Automated Export Licensing System

BXA developed the Export Control Automated Support System (ECASS) in 1984 to expedite the
license approval process and better serve the U.S. exporter. ECASS is a large database designed
to process, store, and transmit dual-use export licensing information. It runs on a mainframe at
the departmental computer center in Springfield, Virginia. ECASS is an unclassified system and it
supports over 600 users including BXA headquarters and field offices; the Arms Control and
Disarmament Agency (now part of the State Department); the Central Intelligence Agency; and
the Departments of Defense, Energy, State, and Treasury. (See Figure 12.) During its life cycle,
ECASS has been upgraded to permit manual, electronic, and optical character recognition data
entry of license applications and commodity classification requests.

To complete our review of the export licensing process we (1) evaluated BXA’s plans to upgrade
ECASS, (2) determined whether current system coordination by the export licensing agencies has
been adequate, and (3) conducted an internal control review of ECASS general and application
controls. While we determined that ECASS internal controls are adequate, we concluded that a
new system is needed to process export license applications more efficiently and effectively, and
better interagency coordination is needed to coordinate system issues.

     Figure 12

                                                ECASS Database Configuration

                                                                         Springfield Computer Center
           Data Sources:                                                                                                                Data Users:
                                                                                 Mainframe
           Paper Applications                                                                   ECASS                                   BXA Personnel
           Automated                                                                                                                    ACDA
           Applications/Vendors                                                                                                         CIA
                                                                                       Subsystems:
                                                                                                                                        Customs
                                                                                       - LOA
                                                                                                                                        Defense
                                                                                       - Enforce
                                                                      Model                                                             Energy
                      BXA Network                                                      - Follow-up
                                                                       204             - STELA
                    -------------------------
                      Direct Lines                                                     - Reports
                                                                    Software
                                                                                                                                         Export Licenses
                                                                                        Files:
                                                                                        - LARS
           Data Users:                                                                  - Locator
                                                                                        - Tables
           ACDA                    CIA                                                  - Export                                         Congressional
           Defense                 Energy                                               - Consignee                                         Reports



                                                                                                                                           BXA Internal
                                                                                                                                             Reports


                                                                   LEGEND
        Subsystems                                                                    Files
        LOA                  Licensing Officer Access                                 LARS            License application information
        Enforce              Export Enforcement interface to LOA                      Locator       Tracks license history
        Follow-Up            Exporter follow up requirements                         Tables           List of system users
        STELA               System for Tracking Export License Applications          Export           List of exporter names and addresses
        Reports              BXA reports for user requests                           Consignee        List of consignee names and addresses



     Source: Office of Administration, Bureau of Export Administration.




                                                                               133
U.S. Department of Commerce                                                Final Report IPE-11488
Office of Inspector General                                                             June 1999



A.     ECASS has major limitations and needs to be replaced

ECASS was designed to be an “assembly-line” database that would process many applications
with minimal analysis and text input from the licensing officers and supervisors. By 1990, ECASS
was processing about 65,000 applications a year. While the number of license applications has
significantly fallen throughout the 1990s, the analysis required for each application has
significantly grown. ECASS is not suited for the current era of license processing. Today’s
licensing systems need good query capabilities, expanded text capabilities, modern interfaces,
online access to exporter technical specifications, and access to outside commercial databases.
ECASS lacks all of these functions.

l      ECASS has limited query capability. As such, it is difficult for licensing officers to
       obtain historical information on a commodity, consignee, or end user necessary to make
       the most informed licensing decision.

l      ECASS has limited text capability. Specifically, it does not allow licensing officers to
       incorporate detailed text into the license record.

l      ECASS has no modern interfaces. Licensing officers must exit the database every time
       they want to use any office automation applications such as word processing.

l      ECASS lacks online access to exporter technical specifications. Licensing officers at
       both BXA and referral agencies cannot review exporter technical specifications online
       through ECASS. Therefore, BXA must make copies and distribute the paper technical
       specifications to the applicable referral agencies, a task that is time consuming.

l      ECASS has limited access to outside databases. ECASS does not allow its users to
       obtain information from outside databases, such as Dun and Bradstreet, and directly input
       the information into a license application file. Licensing officers and supervisors must
       obtain information outside of ECASS and then “cut and paste” information into the
       system.

B.     Future export licensing automation needs interagency commitment and coordination

BXA’s licensing officers have maintained for some time that the above problems severely limit
their processing capabilities. BXA management, recognizing these problems with ECASS, has
spent over two years and approximately $500,000 on a contractor’s analysis for a new automated
licensing system. The contractor’s final product included (1) a business case study of BXA’s
export licensing process, (2) a business process re-engineering study, and (3) an information




                                              134
U.S. Department of Commerce                                                         Final Report IPE-11488
Office of Inspector General                                                                      June 1999



architecture study.75 The contractor concluded that “ECASS is no longer mission capable”
because it was not designed to meet the current licensing and enforcement requirements, and that
BXA should re-engineer its automated licensing, enforcement, policy, and administrative
processes. Specifically, the contractor recommended that BXA implement an integrated
relational/document oriented system with a centralized architecture located at Commerce
headquarters. A relational database would store structured data, including the names, consignees,
and end users from license applications, and a document-oriented system would store
unstructured data, including licensing officer notes, supervisory comments, and enforcement
reports.

BXA personnel stated that the contractor’s three studies provided valuable information, including
technical architecture requirements, information architecture principles, and information
architecture standards. We agree. Overall, the three reports provide BXA with excellent
guidelines, requirements, and standards for future system development and, we believe, support
BXA’s justification for a new system. However, after reviewing the three studies, we found that
the contractor was not tasked with evaluating all reasonable alternatives. Specifically, the
contractor did not (1) determine whether developing a classified system made sense,
(2) evaluate how the current interfaces with the referral agencies could be improved, and
(3) determine if a joint interagency system was feasible. Nor did the contractor fully justify the
proposed move of BXA’s licensing operations to Commerce headquarters.

Other Alternatives Not Explored

In the 1993 special interagency IG review report, we recommended that the various export
licensing agencies develop improved access to ECASS to enhance the effectiveness of the
licensing review process. However, BXA’s contractor did not evaluate the current or future
interfaces with the other licensing agencies, including whether a classified or joint interagency
system would be desirable or feasible, in its re-engineering effort.

        Classified system may be warranted

Currently, three of the five referral agencies–Defense, Energy, and the CIA’s Nonproliferation
Center–have classified export licensing systems. Because ECASS is an unclassified database,
there are no direct connections between it and the three agency databases. BXA exchanges




        75
          Process Reengineering and Implementation Plan, Booz Allen & Hamilton, June 22, 1998; Information
Architecture and Implementation Plan, Booz Allen & Hamilton, October 1998.



                                                    135
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999



licensing data with these agencies through electronic data interchange.76 As such, these agencies
receive license applications daily when the data is uploaded to terminals connected to their
respective classified databases. BXA personnel stated that this interchange has been a reliable
interface with a reconciliation program to ensure that data is received. However, if BXA had a
classified system, licensing data could be sent directly to these agency databases in a real-time
basis without going to an unclassified terminal (State and ACDA already work off of ECASS
terminals located at their sites).

A classified system would not only enable BXA to interface more easily with the other referral
agencies, but also enable BXA licensing officers on-line access to classified data needed to
process applications. Currently, when the Nonproliferation Center sends its electronic response
to BXA on a particular export license application, it references a report number in the system and
then manually faxes the reports over to a centralized secure location. Then the licensing officers
have to physically go to that location to read the report. However, if ECASS was classified, the
intelligence reports themselves could be attached to the actual license record, and all licensing
officials who review that case would have ready access to the data.

In addition, BXA export enforcement managers stated that they would like to develop an online
database of end user profiles that its agents and licensing personnel could use when analyzing
applications. Because such profiles may contain classified information, this database would have
to be on a separate stand-alone computer, making it inefficient to use during the everyday
licensing evaluation process when this information would be most important. Based on these
reasons, we believe a classified system would be a more efficient and effective tool in processing
export license applications.

BXA’s Information Technology Steering Committee, which is chaired by the Deputy Under
Secretary for Export Administration, agreed that a classified system would be more beneficial in
processing export licenses through better interfaces and information exchanges with the referral
agencies. BXA’s Under Secretary agrees that a classified system has benefits. However, he is
concerned that BXA’s new initiative, to allow exporters to submit export license applications over
the Internet, will be affected by having a classified system. We disagree. Exporters’ submission
of licenses should not be affected by a classified or unclassified system. BXA’s current plan is to
have these applications stored on a network site physically separated from ECASS. After
applications are received, BXA will download them into ECASS. Nor do we think that a
classified BXA system would pose a problem for the other federal agency users that would




        76
           Electronic data interchange is commonly defined as the application-to-application transfer of business
documents between computers. Many businesses choose electronic data interchange as a fast, inexpensive, and
safe method for sending purchase orders, invoices, shipping notices, and other frequently used business documents.
Since the transfer of information from computer-to-computer is automatic, there is no need to rekey information.
Electronic data interface standards are internationally adopted and are effective in the electronic exchange of
information in commerce. With no data entry, the chance for error drops to near zero.



                                                       136
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999



interface with BXA’s system. There should be adequate firewall protection that would preclude
any public access to the other classified systems or data.

        Export licensing agencies need to coordinate

BXA staff informed us that they discuss the routine exchange of data with other agency
personnel, but admitted that the agencies have had little discussion about improving system
coordination or addressing problems related to multiple systems and interfaces. In fact, we found
that both the BXA and Defense export licensing systems were independently undergoing
re-engineering efforts. By not coordinating these efforts, Commerce and Defense will both be
pumping in millions of dollars to upgrade two separate automated licensing systems without also
trying to improve the multiagency license processing capabilities. In addition, the State
Department has been developing software called “Tracker” that is being used by foreign countries
to track commodities and process licenses. This new software could potentially be adapted for
the dual-use export licensing system in the United States.

We understand that both BXA and Defense desperately need improved licensing systems.
However, for these two agencies, there may not be another opportunity for many years to
implement common requirements. We believe that BXA and Defense need to coordinate and
implement common system architecture requirements, such as a database management system and
text management system. If common requirements are implemented, three of the six agencies
involved in licensing–BXA, Defense, and State–would have the same system.77

We believe that BXA and the other export licensing agencies can effectively use one database
management system to provide user access to licensing subsystems and other support tools, while
allowing agencies to maintain control of their respective databases. By working together, the
export licensing agencies can improve license processing while reducing their operating costs.78
Although we understand that developing one database management system is not easy, there is no
technical or operational need for multiple redundant licensing database management systems to
exist. Therefore, we strongly recommend that BXA coordinate its systems development efforts
with the other export licensing agencies and encourage them to consider implementation of
common system architecture requirements. If the agencies can agree to common requirements,
we believe this would create a de facto integrated system providing better systems transparency
while still allowing agencies to maintain control of their databases.




        77
        Because the Department of State uses ECASS in an on-line real-time mode, State personnel would use
BXA’s new system.
        78
           There are a number of savings from a consolidated system, such as consolidating computer facilities,
standardizing hardware and software, reducing systems support staff, and reducing the image processing of
hard-copy documents and storage from many locations to one location.



                                                       137
U.S. Department of Commerce                                                            Final Report IPE-11488
Office of Inspector General                                                                         June 1999



Alternative computer centers not explored

BXA’s contractor recommended that the new BXA system comprise a centralized architecture
located at Commerce headquarters to restrict the number of entry points into the system.
However, both departmental and BXA personnel stated that security at the Department’s
Computer Center in Springfield, Virginia, where the BXA system currently operates, has been
excellent. Nonetheless, BXA wants to move its license processing to its existing
telecommunications room in Commerce headquarters because of the reportedly high cost of using
the Springfield center.

While the contractor prepared a cost-benefit analysis documenting BXA’s move to Commerce
headquarters, the analysis did not take into account all costs and other options, including the costs
of moving the operation to another Commerce computer center, other federal computer centers
(such as a combined computer facility with Defense), or outsourcing. In addition, although BXA
has operated its own telecommunications center for many years, we question its ability to run a
full-service computer center. We discussed this issue with Commerce’s Chief Information
Officer, who said he does not see a need for any departmental agency to develop a new computer
service center since the Department already has 10 in place.

       Summary and funding issues

In February 1999, BXA’s Information Technology Steering Committee requested that BXA
information technology personnel analyze other potential information system architecture
alternatives. They are currently looking at different relational databases and text processing
packages. The information technology personnel have told us that no matter what information
architecture alternative is chosen, the licensing component needs to be implemented first. The
enforcement, policy, and administrative components are important, but they believe that the
licensing component has the most weaknesses that need correction. BXA’s planned time frame to
fully implement the licensing component is October 2002.79

BXA’s contractor estimated that BXA would need about $6.4 million over five years–fiscal years
1998-2002–to fund its proposed unclassified system.80 To date, BXA has not received any
funding for its new system. The President’s fiscal year 2000 budget submission to the Congress
requested $2.1 million for a new system. However, for BXA to implement a classified system,
BXA may need more than the $6.4 million for an unclassified system as estimated by its
contractor.




       79
            BXA’s IT Strategic Plan for FY 1999-2004, January 1999.
       80
            Information Architecture and Implementation Plan, Booz Allen & Hamilton, October 1998.



                                                      138
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



Building on the results of its cost-benefit analysis of the best alternatives for a new system, BXA
needs to revise the budget and funding plan for its system development effort and obtain
departmental, Office of Management and Budget, and congressional commitment to fund it. With
approval of the $2.1 million in its fiscal year 2000 budget request, BXA can immediately start on
its licensing system development while exploring the feasibility of a classified system and greater
interagency cooperation on systems development.

As the export licensing referral process has become increasingly transparent over the past five
years, the agency automation systems are lagging way behind. Without improved coordination
between the licensing agencies, multiple and distinct automation efforts will continue.
Throughout our review, BXA personnel expressed tremendous dissatisfaction and impatience
with the outdated capabilities of ECASS and with hearing promises for many years that a new
system would be developed. While an ECASS replacement is urgently needed, we believe it
makes sense to ensure that the best available options (e.g., classified system) are considered and
the most cost-effective one is selected and funded. Therefore, we would encourage BXA to work
with the Department, OMB, and the Congress to obtain a commitment to fully fund the chosen
option to replace ECASS. As part of its new system development effort, BXA needs to take the
following actions:

1.     Establish (and charter) a project management “team,” including a full-time project director
       as soon as possible.

2.     Prepare a cost-benefit analysis for developing a classified database system with software
       upgrades that could be made to allow better interface capabilities with other U.S.
       Government licensing systems at a later date. This would include:

       l       Performing a network analysis to determine future network requirements.

       l       Performing one or more prototype tests of proposed systems before a final system
               alternative is chosen.

       l       Obtaining approval from the departmental Information Technology Steering
               Committee for the chosen alternative.

3.     Evaluate the most viable options for the location of BXA’s computer operations.
       Specifically, it should look at the possibility of service by another Commerce center,
       another federal center, and outsourcing, as well as the creation of an in-house BXA
       center. BXA must obtain departmental approval if it decides to leave the Springfield
       Computer Center and move to another location.

However, as part of the above system development efforts, we believe that BXA should
coordinate with the Defense and State Departments to maximize efficiencies and savings as well
as acquire a better, integrated licensing data system. BXA should encourage not only the Defense



                                               139
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



and State Departments, but the other export licensing agencies as well, to establish an interagency
steering committee to review the automation portion of the export licensing process and take the
necessary actions to:

1.     Coordinate and implement common system architecture requirements.

2.     Coordinate and implement a common set of licensing database elements.

3.     Determine minimal security requirements for current and future joint processing.

4.     Determine where a common licensing database management system will reside.

5.     Determine how to incorporate or “bridge” all agencies into a future system.

6.     Evaluate Tracker software and other viable options for future licensing software.

7.     Determine how interagency resources can be used to fund and implement a fully integrated
       system.




In its written response to our draft report, BXA agreed with our recommendation to work with
the Department, OMB, and the Congress to obtain a commitment to fully fund its new export
licensing system to replace ECASS. In addition, it agreed to establish a project management
team, including a full-time project director to oversee the development and implementation of
BXA’s new system. Specifically, BXA reported that it has formed an interim team with a project
manager and when ECASS funding becomes available, a full time manager and team will be hired.

BXA also agreed with our recommendation to coordinate its system development efforts with the
other export licensing agencies. It indicated that it has already had initial discussions with its
counterparts and it will continue to do so to ensure full interoperability and compatibility of the
systems. Furthermore, BXA agreed to evaluate the most viable option regarding the location of
its computer operation and gain departmental approval for the selected option.

With regard to our recommendation that BXA prepare a cost benefit analysis for developing a
classified database system, BXA indicated that it has already conducted such an analysis as part of
its work with its contractor. The response also indicated that BXA should be able to encrypt its
new automated system at a reasonable cost which will enable them to deal with sensitive
materials. However, we disagree with BXA that it has already conducted such an analysis and
believe that its statement is misleading. BXA’s contractor conducted a cost benefit analysis for an




                                               140
U.S. Department of Commerce                                                                 Final Report IPE-11488
Office of Inspector General                                                                              June 1999



unclassified replacement system for ECASS–the analysis did not include a classified system
alternative.

Both BXA systems personnel and BXA’s contractor have confirmed this. Furthermore, we do
not believe that BXA’s plans to encrypt its new system will address our recommendation for BXA
to review the costs and benefits of a classified system. As a result, we strongly reaffirm our
recommendation that BXA prepare a cost benefit analysis of implementing a classified database as
a part of its new system development effort.

C.       ECASS internal controls are generally satisfactory, but some improvements are needed

According to General Accounting Office guidelines, when computer-processed data is an
important or integral part of a review and the data’s reliability is key to accomplishing the review
objectives, reviewers need to satisfy themselves that the data is relevant and reliable.81 To
determine data reliability, the reviewers may either conduct a review of the general and
application controls in the computer-based systems, including tests as warranted, or conduct other
tests and procedures if the general and application controls are not reviewed or are determined to
be unreliable.82 Since database controls are organized by database operational activity, such as
data management, database management, database integrity, database operations, and database
security, we identified and tested ECASS general and application controls in those areas. Overall,
we determined that ECASS general and application controls are generally adequate and that
ECASS data are sufficiently reliable but some controls need strengthening or further
implementation.

BXA has adequate data management controls in place

Data management addresses how data is defined, input, and controlled usually through an active
data dictionary and database administrator.83 Without adequate data management, data elements
are not controlled, incorrect data may be placed into production, and standard data definitions are
not enforced. We found that the ECASS data elements are well defined and controlled. We also
found that the data management function has sufficient organizational authority and is properly
divided between administrative and technical functions, and the data audit trail is fairly complete.
However, we determined that the audit trail can be improved, documenting changes to


         81
              Assessing the Reliability of Computer-Processed Data, General Accounting Office, April 1991.
         82
           General controls: The structure, methods, and procedures that apply to all computer operations in an
agency, including organization and management controls, security controls, and system software and hardware
controls. Application controls: Methods and procedures designed for each application to ensure the authority of
data origination, accuracy of data input, integrity of processing, and verification and distribution of output.
         83
           An active data dictionary provides an online list of standardized file names and ensures that database
and data dictionary file names are consistent. Users cannot define or access data unless those data definitions are
processed through the data dictionary system.



                                                         141
U.S. Department of Commerce                                                                     Final Report IPE-11488
Office of Inspector General                                                                                  June 1999



recommendations in open and closed licenses can be improved, and the ECASS data element
responsibility can be assigned to the individuals who use the individual data elements.

            Data audit trail complete but needs improvement

Office of Management and Budget Circular A-123 (Revised) states that government agencies
must maintain documentation to justify decisions and operations. An audit trail in a database
environment comprises data input, processing, and output to substantiate transaction processing,
support financial or other critical totals, and provide a means to reconstruct the database in the
event of a system crash or major processing problem. The nature of BXA operations, whereby
hundreds of users share the same database from on-line terminals through local and wide area
networks, magnifies the importance of an adequate system audit trail.

We found that BXA’s licensing process provides a fairly complete audit trail to reliably assess
licensing performance. This audit trail comprises 11 major elements: (1) paper and automated
license applications;84 (2) automated license applications containing licensing decisions by
licensing officers, supervisors, and referral agencies; (3) paper files maintained by licensing
officers; (4) paper Operating Committee licensing decisions disseminated to licensing officers and
the referral agencies; (5) scanned exporter technical specifications;85 (6) current and archived
licenses in ECASS; (7) backup tapes of current and archived licenses; (8) the ECASS file that
documents reopened cases; (9) the ECASS logs that record database and security activities; (10)
system documentation for each program change; and (11) ECASS verification of data transmitted
to the referral agencies.

Even with these 11 major elements, BXA’s system audit trail is systemically limited. ECASS
cannot combine key license elements into one automated file; for example, the license application,
database updates and modifications, and applicable exporter technical specifications are in
separate systems.86 ECASS has no central repository where a user can go to directly view all
database updates and modifications. However, this limitation has not precluded BXA from
having an adequate audit trail because the 11 major elements of BXA’s audit trail complement
one another.

In addition to the above limitation, we identified four areas relating to the audit trail that need
correction. First, ECASS does not record what change has been made to each field. The ECASS



            84
                 Exporter paper applications become automated license applications after they are scanned in and
verified.
            85
                 Exporter technical specifications include brochures and design drawings.
            86
         The Multipurpose Archival and Records Retrieval System electronically archives all export license
documents and forms by scanning paper documents and storing them as images on a server in BXA’s network
room. The system became operational in fiscal year 1997 to replace BXA’s old microfiche system.



                                                             142
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



electronic record only records when and by whom a change to a data field was made. If, for
example, licensing officers make changes to data fields in pending licenses, the current data in that
field is “written over,” or eliminated. The database management system (or Model 204) cannot
“audit” each field in the database to show what specific changes are made. As a result, licensing
officers are supposed to “document” changes in licensing officer notes, but that is not consistently
done. To determine what fields have been changed, BXA personnel would have to painstakingly
compare different versions of backup tapes. To correct this problem, BXA’s Acting Chief
Information Officer stated that a separate record with the old value will be coded to show the old
and new value. We agree that this change will improve the ECASS audit trail. For issued cases,
BXA’s audit trail comprises an electronic record documenting who, when, and what was changed.

Second, BXA does not ensure that all license conditions agreed to by the Operating Committee
are correctly inputted into ECASS. If conditions are not properly input, the audit trail changes,
data integrity is affected, and quality control is reduced.

Third, we found that the departmental computer center in Springfield is adequately maintaining
automated applications by backing up the ECASS database on a daily, weekly, and monthly basis,
and copies are stored at the center and at the Department of Commerce headquarters. However,
there is the possibility that these tapes could be modified by BXA personnel, invalidating the audit
trail. In 1993 we recommended that BXA provide a duplicate read-only tape to the Under
Secretary for Export Administration every day, highlighting any changes that might be made by
lower ranking BXA personnel. BXA personnel stated that getting the tape to the Under
Secretary’s office and finding enough space to store it would be a difficult daily task. As a result,
this has not happened. Since we still maintain that the audit trail would be strengthened by having
the stored databases owned by BXA’s Under Secretary with read-only access to produce
historical reports as required, we recommend that a duplicate read-only tape be provided to the
Under Secretary every 90 days, highlighting any changes that might be made by lower ranking
BXA personnel.

Fourth, we also recommended in the 1993 report that paper applications and technical
specifications be retained for five years. Currently, BXA physically retains hard-copy information
for only 90 days except memorandums from BXA personnel or exporters requesting system
changes, which are maintained for one year. BXA personnel stated that maintaining paper
applications for five years is too long. We are satisfied that maintaining paper applications for 90
days is adequate.

       Improvements are needed to better document changes to recommendations of open
       and closed cases in ECASS

We examined ECASS to determine whether recommendations entered into the database were
later changed without the consent or knowledge of licensing officials. We found two key controls
to preclude this from happening.




                                                143
U.S. Department of Commerce                                                                 Final Report IPE-11488
Office of Inspector General                                                                              June 1999



The first control is that supervisors cannot make changes to pending or closed licenses without
the licensing officers’ knowledge.87 For pending licenses, supervisors can only verbally suggest
changes to LOs or insert changes into the licensing officer notes section of the automated license
application. For example, supervisors can request that LOs reject licenses based on current
intelligence that the LOs are not privy to. If the LOs are verbally instructed to make changes,
they are supposed to document the request in the LO notes section. However, we have found
that the LOs do not consistently document their changes or changes requested by a supervisor in
LO notes. If a supervisor goes into the file and electronically requests that an LO make changes
to a pending license, ECASS automatically documents the request. Supervisors can move cases
from one LO to another to balance an LO’s workload, but again, the supervisors cannot
physically make changes in the system. Even cases decided by the Operating Committee and the
Advisory Committee on Export Policy are returned to the LOs for inclusion of new conditions
and/or deletion of conditions. Our survey confirmed that the LOs believe that their
recommendations are not changed without their consent or knowledge.

For closed licenses, supervisors, LOs, and exporters must submit a written request to BXA’s
operations staff to reopen a case and make the appropriate change. Changes to cases closed and
archived are rare, with only 120 cases reopened in fiscal year 1998 (out of approximately 11,000
license applications). After the operations staff reopens a case and makes the appropriate change,
the case is then sent to the applicable LO for review. Reasons for reopened cases included:
correcting data input errors; changing case decisions from denied to approved or approved with
conditions, and adding or deleting conditions as a result of the escalation or appeals processes.

However, we identified two areas where corrections are needed. First, BXA lacks written criteria
for when a case can be reopened. Second, although the operations staff receive written
justifications for reopening a case, no one periodically reviews the reopened case report to ensure
that valid reasons for reopening cases are received and that the electronic audit trail describing
why the case was reopened is complete. We found that the electronic audit trail ranged from very
complete descriptions of why a case was reopened and who requested the case be reopened, to
very minimal descriptions of why a case was reopened (e.g., “modify conditions”) and no
description of who made the request. This is an important audit trail issue because when the
paper document requesting a case be reopened is eliminated, the electronic audit trail is the only
source for why a case was reopened. BXA needs to ensure that the electronic audit trail is more
complete.

The second control to prevent unauthorized changes to ECASS involved the interagency referral
process. We found that Defense, Energy, and the Nonproliferation Center could not make
changes either directly to ECASS from their ECASS terminals or to the ECASS files they




         87
           Countersigners or supervisors review and sign off on license cases from the licensing officers before the
licenses are issued, returned without action, or denied.



                                                        144
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999



download to their systems. We also found that State and ACDA could not make changes directly
to ECASS from their ECASS terminals.

       ECASS data element responsibility has not been assigned to the individuals who own
       the individual data elements

Although BXA’s operations staff scans and verifies application data before it goes into ECASS,
they do not “own” the data. BXA has identified 18 “principles” that its future system will
incorporate, the 7th of which states that “The managers of the organizations entering and
capturing the data will be accountable for its accuracy and content.”88 Under the proposed new
system, BXA senior management must indicate their desire to manage data and, through a
database administrator, assign data element responsibilities to individuals throughout the
organization. Thus, an individual or individuals would have the responsibility for authorizing
access to the data element, and assuring the integrity of the data element.

Database management controls have ensured that ECASS has run properly for many years

Adequate database management requires an appropriate organizational structure and resources
needed to effectively use database technology and recognize and prevent risks. ECASS has been
well managed for many years by the same individual who ensures that data elements are well
defined, analyzes database performance statistics, and corrects problems that occur. However,
this individual is a contractor who has never been officially designated as the database
administrator. BXA needs to officially designate a database administrator, designate an official
database review board, perform ongoing internal control reviews, and reorganize ECASS.

       BXA has not officially designated a data base administrator

In 1991, we recommended and BXA agreed to develop a charter that clearly identifies the duties
and responsibilities of a database administrator and ensure that a database administrator performs
these duties.89 While BXA had a database administrator for about three years after our review,
when he left, BXA did not fill the position. Since then, BXA’s de facto database administrator
has been a contractor. BXA has not prepared a charter for the de facto database administrator.
BXA’s Acting Chief Information Officer plans to designate himself the official administrator and
prepare a charter. We believe this action will satisfy this requirement.




       88
            Task 5: Information Architecture, Booz Allen & Hamilton, October 1998.
       89
            Inspection of ECASS Internal Controls, Final Report, Office of Inspector General, June 1991.



                                                        145
U.S. Department of Commerce                                                          Final Report IPE-11488
Office of Inspector General                                                                       June 1999



       BXA lacks an official database review board

BXA needs a review board that is independent of the database administrator and software team to
ensure that ECASS database standards and procedures are being followed and that ECASS is
meeting user needs. In some organizations, these boards are called quality assurance boards or
systems assurance groups and have their own charter. While BXA has an IT Steering Committee,
it lacks a charter. In addition, this committee has focused solely on BXA’s system re-engineering
project and not on database standards and procedures. BXA’s contractor recommended that a
standards development group be “constituted to establish the appropriate database standards,”
including data definition, data documentation, passwords, and writing and testing programs.90 In
order for an organization to achieve promised performance, specific standards must be established
and plans developed to achieve the standards. This process requires the continual monitoring of
results versus standards. Database leaders should work with users to develop performance
standards which are then measured against results.

       BXA does not perform ongoing internal control reviews

Internal controls must be periodically reviewed to determine whether they are functioning as
planned. Although BXA personnel have performed prior internal control reviews of ECASS, the
last documented review was performed in 1991. However, ECASS has undergone numerous
changes since then. BXA’s standards team could perform ongoing internal control reviews, or
BXA could establish a team to periodically (about once a year or when conditions materially
change) review the internal controls and risks associated with its system. The team could
comprise the database administrator, security officer, users, database analysts, and operations
personnel.

       BXA has not reorganized ECASS in two years

In 1991, we recommended that BXA reorganize and verify the database, using appropriate
software, and maintain a record of results. BXA personnel informed us during our current review
that the database has been reorganized a few times since 1991, but not since 1997. After normal
usage, data becomes physically unorganized, logically unlinked, and possibly lost. The physical
and logical database needs to be restructured periodically to meet the changing needs of users. A
database verifier is a software package that reviews the integrity of the database to ascertain that
all the designated paths through the database are complete. Reorganizing ECASS will arrange
files more efficiently and ensure data linkage. BXA’s database administrator should reorganize
the database every year.




       90
            Task 5: Information Architecture, Booz Allen & Hamilton, October 1998.



                                                      146
U.S. Department of Commerce                                                          Final Report IPE-11488
Office of Inspector General                                                                       June 1999



Database integrity controls need improvement

Database integrity controls help the database administrator ensure the accuracy, completeness,
and authorization of database data. Without adequate database integrity controls, inaccurate or
incomplete data can be entered into ECASS, data may not be entered on a timely basis, and
integrity errors may not be detected. We evaluated ECASS data input and processing controls to
determine data and system integrity, finding that changes to pending, issued, and archived licenses
are adequately controlled. However, the overall process of inputting and verifying paper licenses
is an ineffective process prone to errors. Data processing controls have allowed some licenses to
be issued without exporter codes and export control classification numbers.

       Data input controls need improvement

While it is unlikely that any computer system contains error-free data, we found that (1) paper
applications take too long to get scanned, verified, and inputted into ECASS, (2) paper
applications get scanned, verified, and inputted into ECASS with errors, and (3) some exporters,
consignees, and end users have more than one identification number. As mentioned previously,
BXA and its system contractor prepared 18 principles for its new information system architecture
to ensure data consistency, accuracy, quality, and system integrity.91 However, until BXA’s new
system is developed and its 18 principles implemented, the three problems described above need
to be addressed and corrected.

First, BXA’s License Application Scanning System was implemented in 1994 to process paper
license applications using a PC-based forms processing and image management system. We found
that, before being loaded into ECASS, scanned applications take too long to process. BXA
receives approximately 200 license applications a week. In fiscal year 1998, it took an average of
5.4 days to input each application. BXA personnel stated that scanning and verification have been
inadequate because of (1) poor work and low motivation of the employees, (2) poor staff
management, (3) increased applications, and (4) the habitual illnesses of some staff members.
BXA is currently testing a new system, called SNAP, whereby exporters will submit license
applications over the Internet. BXA personnel hope that the electronic submission of licenses will
significantly reduce the number of paper applications. If the new system does not successfully
reduce paper applications, BXA would like to mandate that all paper applications be replaced by
the new system. Although we agree, this might be difficult to enforce. When asked if some type
of outreach effort would influence exporters to use the new system, BXA personnel stated that
they have been performing outreach efforts.

Second, the licensing officers have complained that the poor quality of some inputted applications
causes them to have to make changes or submit changes to the operations staff. Input controls
are critical in a database environment because many programs use the same data for processing.



       91
            Task 5: Information Architecture, Booz Allen & Hamilton, October 1998.



                                                      147
U.S. Department of Commerce                                                        Final Report IPE-11488
Office of Inspector General                                                                     June 1999



Thus, there must be increased reliability. From February 1, 1998, to February 1, 1999, BXA
received 7,333 applications and the operations staff made changes to 3,766 of these applications
(51 percent). From November 1998 through January 1999, about 45 percent of the applications
had at least one change, such as an address change or inputting a missing sentence. BXA
personnel cited little quality control of verified applications before they are entered into ECASS as
the reason for the number of changes being made by the operations staff and LOs. The operations
staff director stated that she believes her staff finds most errors because there were only 120 cases
reopened in fiscal year 1998 for various reasons–not just data input errors. However, these
changes should be corrected before the applications are inputted into ECASS, because some
errors may not be detected by the operations staff, LOs, and outside parties, and remain in the
database.

We suggested that BXA consider the feasibility of one clerk’s work being reviewed by another
before it goes into the database or contract this function out. The operations staff director stated
that her staff does not have time for such reviews, nor does BXA have the funding to contract out
this function. However, if BXA’s new system greatly reduces the number of paper applications,
the operations staff should have time for this quality control measure. In addition, BXA
personnel suggested that the old “User Meetings” between the operations staff, LOs, and
Information Technology staff should be reestablished so that issues are discussed and problems
quickly identified and resolved. We concur with that suggestion.

Third, the Office of Export Enforcement uses a computer name-matching program to assign
unique identification numbers to all exporters, consignees, and end users on an application, so that
its agents can flag and review any party to a case. However, some exporters, consignees, and end
users in the ECASS database have more than one identification number, resulting in a long
watchlist, lengthy searches for the LOs, and some identification numbers that may not get flagged
by the Office of Export Enforcement.

Although data integrity means that the same company does not have more than one identification
number, this was not an initial business rule of BXA. For many years, Export Enforcement
assigned a different code to an exporter, consignee, or end user even if their name and address
was only slightly different. More importantly, Export Enforcement assigned different codes to a
company even if that company, with the same name and address, already had an identification
number. Export Enforcement did this to ensure that all parties to a case were added to or
screened against its watchlist. However, the General Accounting Office stated that BXA has not
ensured that each party is given only one identification number and has in some cases assigned
multiple identification numbers to the same party.92 Some of these identification numbers have
watchlist flags, while others do not. As a result, license applications involving parties on the
watchlist may not be caught because the parties may be assigned identification numbers that do



        92
         Export Controls: License Screening and Compliance Procedures Need Strengthening, General
Accounting Office, NSIAD-94-178, May 1994.



                                                   148
U.S. Department of Commerce                                                     Final Report IPE-11488
Office of Inspector General                                                                  June 1999



not carry watchlist flags. BXA personnel stated that multiple identification numbers provide the
LOs and export enforcement agents with different results when they query ECASS. As a result,
both LOs and agents must submit queries many different ways to ensure that they find all relevant
information.

By evaluating just one page of BXA’s January 1997 Watchlist printout, we found several
company entries that were spelled the same and had the same addresses (e.g., OIG Corporation)
and companies that were spelled differently (e.g., OIG Corp. or Office of Inspector General
Corporation) that had the same and different addresses. All of these entries had different
identification numbers. We asked BXA if they could determine how many companies are in the
database (i.e., OIG Corporation) but are spelled differently (i.e., Office of Inspector General
Corporation, or OIG Corp.). To answer our question, BXA personnel stated that they would
have to use many hours of system processing time, which would affect the processing of licenses.
BXA’s new system is expected to have an improved identification numbering process. In the
meantime, BXA personnel stated that companies with duplicate identification numbers remain in
the database, which makes reviewing all companies provided by a licensing officer query a very
time consuming task.

BXA has taken steps to reduce the number of duplicate codes in its database, including an
extensive archiving effort to retire a large number of duplicate company entries. For example, in
1993, BXA evaluated two states and two countries to determine what duplicate companies
existed, finding and archiving many of them. However, BXA has not performed a similar review
since 1993. This needs to be done.

       Coding and case numbering controls need improvement

Although we found that most data processing controls were adequate, a few cases were issued
without a code and/or export control classification numbers. We identified five cases that were
issued without being properly coded. Specifically, three cases were issued without the end users
being coded, and two were issued without the system being set to “Y” (yes) indicating the parties
had been coded. We also found that 35 cases were issued without export control classification
numbers. According to the General Accounting Office, each computer system should have steps
aimed at ensuring the accuracy of computer processing, and these steps are designed to verify that
all relevant records were completely processed and, more importantly, that computer processing
met the intended objectives of the system.93

Although the number of cases issued without codes and numbers is small compared to all the
cases in the database, this is still a serious breach of internal controls. BXA personnel could only
speculate on why cases had been issued without codes or numbers. At our request, they have
agreed to determine what caused this breakdown in data processing controls. Without a code for



       93
            Assessing the Reliability of Computer-Processed Data, April 1991.



                                                       149
U.S. Department of Commerce                                                           Final Report IPE-11488
Office of Inspector General                                                                        June 1999



an exporter, consignee, or end user, Export Enforcement cannot perform a match against its
watchlist.

       Operating Committee Chair does not verify that conditions agreed upon on each case
       are placed on the final license

According to the Executive Order 12981, the conditions agreed to by the Operating Committee
should be the official record. However, as discussed in Section V of this report, we found some
issued cases where conditions that exporters must comply with, and agreed to by the Operating
Committee, have been changed, which seriously undermines data integrity.

Database operations have been significantly improved

Database operations comprise the day-to-day maintenance and recovery procedures of the
database. Since ECASS runs on a mainframe computer at the departmental computer center in
Springfield, a large part of database operations is handled by that staff. In February 1998, the
Office of Inspector General reviewed the general controls pertaining to the center’s management,
operations, and security. At that time, we recommended improvements in the center’s security
program, access control, segregation of duties, system software, and service continuity.94 During
our current review, we found that the center had made significant improvements to access
controls, security, and service continuity. Both the center and BXA maintain adequate copies of
database information. However, we found that BXA lacks a current contingency plan and risk
analysis, and BXA personnel do not know where to report database problems.

       BXA lacks a system contingency plan

In 1991, we recommended that BXA revise and test its ECASS disaster plan and train appropriate
personnel in its use to comply with Federal Information Processing Standards Publication 87
guidelines.95 Federal Publication 87 states that unless contingency plans are continually reviewed
and tested, they may fail when needed. Personnel should test contingency plans at the designated
backup site by taking copies of all needed data and other information. The test should show that
the backup site remains unharmed in a simulated catastrophe or disruption or service.

BXA personnel stated that they had taken an old disaster plan and converted it into a current
continuity-of-operations plan but the new plan needs improvement. BXA’s contractor, as part of
a Year 2000 Business Continuity and Contingency Plan for BXA mission critical systems and high




       94
        Office of Computer Services General Controls, Office of Inspector General, Audit Report No.
FSD-10021-8-0001, February 18, 1998.
       95
            ECASS Internal Controls, June 1991.



                                                    150
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



priority non-mission critical systems, plans to upgrade its current continuity-of-operations plan to
include BXA policy and procedures regarding security of BXA systems, prevention, incident
handling, and planned response to catastrophic emergency events.96 BXA plans to disseminate its
plan to all employees.

Although BXA has historically relied on the Springfield Computer Center in the event of a system
catastrophe, there are other issues that BXA needs to document including how its network and
users would operate after a catastrophe. BXA does not believe that its network warrants a
complete backup facility, due to the small probability of a catastrophic network failure. BXA will
include its local area network facility in its plan. BXA plans to do export licensing outside of its
network via dial-up from LO and special agent workstations. However, we found that BXA lacks
written procedures for its LOs and agents to use. Because BXA’s core mission of processing
licenses depends on the Springfield Computer Center’s hot-site contingency plan, if there is a
problem at the center, BXA’s licensing operation is in jeopardy. The contractor who prepared a
draft 2000 Business Continuity and Contingency Plan for BXA recommended that BXA develop,
where possible, manual licensing and enforcement contingency processes. We agree that BXA
should update its plan to include all appropriate manual and system contingency processes as soon
as possible.

       BXA lacks a risk analysis/vulnerability assessment

BXA has not updated its risk analysis in five years. Federal Publication 65 states that risk
analyses should be conducted at least every three years and when significant changes are made to
the equipment, system, or physical environment. A risk analysis should document system
vulnerabilities, threats, and safeguards. In addition to having exceeded the three-year standard,
BXA is planning to significantly change its system, equipment, and physical environment. Before
this is done, BXA needs to update its risk analysis to outline the potential unfavorable events and
the corresponding safeguards. For example, moving to a new system at Commerce headquarters
could be very disruptive unless BXA has outlined potentially unfavorable events and the
corresponding safeguards.

BXA plans to complete a vulnerability assessment of ECASS during fiscal year 1999.97 To
address this issue, BXA should either establish a risk management team to identify and assess the
severity of risk in its database environment or have a contractor perform the assessment. A risk
management team comprised of users, database analysts, security personnel, and data processing
personnel would have detailed knowledge of the system. Although more costly, a contractor
would provide an outsider’s independent view of the system.




       96
            BXA IT Strategic Plan for FY 1999-2004, January 1999.
       97
            BXA IT Strategic Plan for FY 1999-2004, January 1999.



                                                      151
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



       BXA personnel do not know where to report database malfunctions

Although BXA’s Acting Chief Information Officer stated that BXA personnel are suppose to call
the BXA hotline with all problems, we told him that some personnel were unaware of where to
call with a database problem. BXA personnel stated that they would only call the hotline with a
problem that directly affected them, such as their computer breaking down. If a larger problem
occurred, BXA personnel stated that they would call BXA’s main database analyst and lead
programmer. Malfunction reporting provides a formal process that normally involves a form and
procedures to identify the malfunction, its potential cause, and potential course of action. BXA’s
database administrator receives daily database error reports, but he has not designed a form for
users of the database to complete and return when suspected problems have been detected. A
database malfunction reporting process could encourage users to present any condition that may
not be a database problem, such as a personal computer not working, as a database problem.
However, with BXA planning to implement a new database environment, a malfunction reporting
process is needed. BXA needs to send out a “network message” to emphasize that all database
problems should be reported via the hotline.

Database security controls have improved, but additional improvements are needed

Database security comprises the overall methods, procedures, and techniques used to prevent,
detect, and correct intentional, unintentional, and unauthorized access to the database. By
reviewing the general controls, including security controls, of the departmental computer center,
we found that access to and use of the ECASS have greatly improved. However, we found that
BXA’s security controls could be improved by improving database access controls, preparing a
security plan, performing periodic security reviews, officially assigning the security duties to its
security officer, providing all users with current security training, and restricting the number of
BXA employees with file manager access.

       BXA lacks a security plan

We found that BXA had no strategic security plan addressing its licensing process. It had no
overall strategy to minimize risk and thereby safeguard sensitive license information. According
to the Commerce ADP Security Manual, effective security planning is the basic prerequisite for
implementing any cost-effective system of security controls. It requires (1) the application of risk
analysis techniques to improve the security planning process, (2) a continuing evaluation of
security measures, and (3) the safeguarding of data processed by a system. BXA’s security
officer is aware of BXA’s need for an overall security plan. She found an old BXA security plan
and plans to prepare a new plan. We would like to review BXA’s new security plan before it is
issued in final.




                                                152
U.S. Department of Commerce                                                          Final Report IPE-11488
Office of Inspector General                                                                       June 1999



        BXA does not perform periodic security reviews or tests

BXA’s security officer could not remember when the last security review of ECASS was
conducted. Without routine, repeated reviews, security weaknesses may not be promptly
identified or corrected. The Department’s ADP Security Manual requires continuing security
evaluations be performed. We recommend that BXA conduct yearly security reviews to update
and improve ECASS security, improve user security awareness, and improve security training.
BXA’s security officer agrees with our recommendation, stating that she plans to set up a security
program including periodic security tests.

        BXA has not officially assigned its security responsibilities

BXA’s Information Technology Strategic Plan for fiscal years 1999-2004 states that BXA
appointed an IT security officer in the latter half of 1998. However, the appointed individual
stated that she had not been officially designated the security officer. Specifically, she has not
received an official designation in writing or had her performance plan updated to reflect her new
duties. We found that some LOs were uninformed of who the BXA security officer was and
where to report security incidents. BXA’s Security Standards Operating Procedures state that
employees should report all suspected or actual security incidents to their supervisor and the
ECASS Security Administrator.98 However, if the LOs do not know who the security
administrator is, reporting security incidents is difficult. BXA needs to designate its current
security officer as the official security officer and distribute a network message stating who is the
security officer and where to report incidents. BXA should also provide the security
administrator’s telephone number in its security manual.

        BXA users, including BXA’s security officer, have not received complete security
        training

BXA’s security officer stated that she plans to provide security awareness training to everyone
with network access. Some BXA personnel stated that they had not received any security training
over the last few years. As a first step, BXA’s security officer plans to issue and have all BXA
employees sign for BXA’s updated security manual. BXA’s security officer would also like to
attend a training session on ACF-2, which is the security package used by the Springfield
Computer Center. She has little knowledge of the capabilities of the package, and what security
improvements, if any, could be made.




        98
          Security Standard Operating Procedures, Export Control Automated Support System, Bureau of Export
Administration, March 1999.



                                                    153
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



       Database access controls need to be improved

In February 1998, the OIG issued a report documenting the Office of Computer Services general
controls.99 The report stated that the office controls needed improvement in access control.
During our current review, we found three problems with access controls identified in our prior
report that had not been addressed: (1) the Springfield Computer Center is not regularly analyzing
security violations, (2) the center is not analyzing user access privileges, and (3) BXA and the
center lack an electronic mechanism where terminated/transferred employees are immediately
removed from center access.

Database access controls assure that only authorized individuals gain access to database
resources. Feedback information should indicate both the number of times the access rules
prevent an unauthorized access, and the number of detected access violations. During our
inspection, we found that the center was still not regularly monitoring its security log for security
violations. The individual responsible for this activity at the center stated that the center lacked
adequate resources to perform this function. We recommended that the Acting Director consider
hiring a third individual to assist in performing log-on account administration, to provide existing
personnel with more time for such duties as monitoring violation reports. The Acting Director
agreed to consider hiring a third individual depending on any reorganization or job function
changes. The office needs to start regularly monitoring its security log as soon as possible.

During our inspection, we found that neither BXA nor the center was regularly analyzing the
population of inactive log-on accounts and multiple and generic log-on IDs. In our prior report,
we recommended that the center analyze the population of inactive log-on accounts in the
ACF-2 database and delete and suspend accounts no longer needed, and analyze the population of
multiple and generic log-on IDs and delete all unnecessary duplicates.100 The center’s Acting
Director stated that the center analyzed the database in November 1997 and suspended all
identification numbers that had been inactive for 60 days. He further stated that the center’s
security team would review the ID database on a quarterly basis, and take appropriate action.
However, from November 1997 to March 1999, only one review had been performed. The center
needs to perform these analyses every quarter.

BXA is not immediately notifying the center when users move or are terminated. During our
prior review, we found that there was no reliable mechanism for informing the center of employee
transfers or terminations. Formal procedures and direct communication lines between center
personnel and security departments would increase the effectiveness of controlling user access to
the production environment. We recommended that the center develop communication links to
client personnel departments for immediate notification of terminated or transferring employees in
order for system access to be promptly revoked or modified. Center personnel stated that center


       99
            Office of Computer Services General Controls, February 1998.
       100
             Office of Computer Services General Controls.



                                                       154
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



procedures require each client to have a security administrator who is responsible for notifying the
center security when an employee is terminated or transferred. However, we recently determined
that BXA’s security officer had not notified the center of some terminated or transferring
employees. Center security will institute a procedure whereby client personnel departments will
be queried to ascertain terminated or transferred employees.

We reaffirm our recommendation that a communication link be developed to immediately notify
the center of terminated or transferring employees in order for system access to be promptly
revoked or modified (by the end of each working day).

       Too many BXA IT employees have file manager access

Five BXA employees have file manager access to ECASS. This is too many, since this level of
access can override all system controls. File manager access needs to be restricted to only the
database administrator and a backup.



In its written response to our draft report, BXA generally agreed with all of our recommendations
to implement or strengthen the internal controls for ECASS. With regard to our recommendation
to have the database administrator assign data element responsibilities to individuals throughout
the organization, BXA stated it plans to assign ownership of data elements to BXA organizations
and subunits. We concur with this suggestion. In addition, we recommended that BXA designate
an official database review board that is independent of the database administrator, but it
responded that these functions should be handled by its Chief Information Officer. We concur
with this suggestion.

With regard to our recommendation that BXA determine why some cases were issued without
codes or Export Control Classification Numbers, BXA indicated that it has researched this issue
and found that it occurred in only a minimal number of cases and it has not occurred at all since
1996. BXA does not believe further attempts will be successful. However, if this happens again,
BXA has implemented procedures to quickly determine why such cases have been issued. This
action satisfies our recommendation.




                                               155
156
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



                                    RECOMMENDATIONS

We recommend that the Under Secretary for Export Administration take the following actions:

Legislative Authority, Executive Orders, and Regulations

1.     Continue to work closely with the Congress and the Administration to renew legislative
       authority for export controls (see page 27).

2.     Work with the Congress to revise the current NDAA requirement to conduct a post
       shipment verification for every high performance computer shipped to Tier 3 countries.
       Seek legislation that (a) requires checks on only those high performance computers that
       are of greatest concern to national security, and (b) provides resources to conduct these
       checks so that BXA agents can also target other critical commodities and technologies for
       end use checks (see page 33).

3.     Request the National Security Council to clarify the issue of the appropriate level of
       representation at the Advisory Committee on Export Policy meetings (see page 34).

4.     In conjunction with the National Security Council, seek a viable alternative for ACEP
       decisions that may result in a tie vote (see page 34).

5.     Coordinate with the National Security Council to clarify what the United States’ goal is
       with regard to requiring deemed export licenses and to revise the policy and regulations
       for deemed exports as necessary to make it clear who needs to get deemed export licenses
       and then enforce those regulations (see page 37).

6.     Develop and implement an outreach program to explain and seek compliance with the
       requirements for export licenses for deemed exports. Outreach target audiences should
       include high tech companies, industry associations, and federal, university, and other
       private research laboratories (see page 37).

Commodity Classification

7.     Make the commodity classification process more timely and transparent by taking the
       following actions:

       (a)     Ensure that there is a front-end technical review of commodity classifications, and
               that this responsibility is not dropped in the future because of absences of key staff
               persons (see page 40).




                                                157
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



       (b)     Reemphasize the importance of processing commodity classification requests from
               exporters in a timely manner and hold licensing officers accountable for doing so
               (see page 40).

       (c)     Program ECASS to allow licensing officers to use the “hold without action”
               feature, when processing CCATS (see page 41).

       (d)     Develop policy and procedures for the intra-agency review of commodity
               classifications, as BXA did for the intra-agency review of export license
               applications (see page 41).

       (e)     Work with the Departments of Defense and State to make the CCATS process
               more transparent with regard to items or technologies specifically designed,
               developed, configured, adapted, and modified for a military application, or derived
               from such items as called for in the NSC guidance. As a part of this effort, work
               with the NSC to develop specific criteria and procedures on how to implement its
               1996 guidance for the referral of munitions-related commodity classifications to
               Defense and State. In addition, consult with Defense to determine if it wants to
               continue or withdraw its delegation to BXA on munitions-related CCATS (see
               page 45).

Policies, Procedures, Guidance, and Training for Licensing Officers

8.     Expand the new licensing officer case analysis guidance by providing licensing officers
       with a specific list of questions that they should address when processing export license
       applications to specific countries (e.g., China), and require that the licensing officers
       include the dates of the most recent approvals or denials in the license history
       (see page 50).

9.     Ensure that export licensing policies and procedures are updated on a regular basis to
       reflect current issues and new regulations. Fully implement BXA’s electronic library to
       maintain these policies and procedures and develop a long-term plan for maintaining the
       library, including designating who will be responsible for updating it and what procedures
       will be followed for updates (see page 51).

10.    Develop and implement a training program for BXA licensing officers and designate either
       a training team or training coordinator to manage and implement this program
       (see page 53). In addition to classroom, seminar, manual, and on-line training, consider
       including the following alternative training options in the LO training program:

       (a)     Regular briefings by the various other licensing and referral agencies.




                                               158
U.S. Department of Commerce                                                     Final Report IPE-11488
Office of Inspector General                                                                  June 1999



       (b)     Brief exchanges of licensing personnel among the referral agencies, or even short-
               term assignments of BXA’s LOs to another licensing office or the Central
               Intelligence Agency’s Nonproliferation Center.

       (c)     Temporary internships for new LOs to work on the Operating Committee staff to
               observe the types of questions and issues that will be raised by the referral
               agencies.

License Referral Process

11.    Instruct LOs to follow BXA’s referral procedures to ensure that all applicable export
       license applications are referred to the reviewing agencies, including seeking concurrence
       from the referral agencies when processing amendments to existing licenses that they
       reviewed (see page 62).

12.    Engage in discussions with the Director of the Central Intelligence Agency to seek ways
       to strengthen the role of the intelligence community in the export licensing review process.
       Topics to be addressed should include:

       (a)     Referral of all license applications to the CIA (see page 64).

       (b)     Performance of risk assessments on end users (see page 65).

       (c)     Need for more detailed intelligence information (see page 65).

       (d)     Establishment of a more realistic time frame for its review of end users, especially
               in countries of concern like China (see page 66).

       (e)     Feasibility of developing a mechanism to track and assess the cumulative effect of
               dual-use exports to a specific country or region (see page 67).

13.    Instruct licensing officers to indicate in the referral history the reason they believe the
       CIA’s Nonproliferation Center should review an end user when it is contrary to the MOU
       between the two agencies regarding the export licensing application referral policy
       (see page 67).

14.    Periodically look at the State Department’s timeliness in reviewing export license referrals.
       If there is an increase in the number of “pullback” cases, work with State to identify
       additional resources or other solutions to improve that agency’s ability to handle referrals
       within the 30-day deadline (see page 70).

15.    Update the 1993 MOU between BXA and Customs to provide for BXA’s transmission of
       names, addresses, and telephone numbers from new pending license applications to



                                                159
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



       Customs for screening against the Treasury Enforcement Communication System (TECS)
       for at least a two-year trial period (see page 71).

16.    Notify all referral agencies that stipulated a favorable pre-license check for approving a
       license when a PLC is canceled and obtain the agencies’ concurrence to proceed with
       closing out the license (see page 76).

Dispute Resolution Process

17.    Avoid any action that would interfere with the OC Chair’s ability to render an independent
       licensing decision and use BXA’s right to escalate cases to the ACEP when BXA
       disagrees with the OC Chair’s decision on a case (see page 81).

18.    Work with referral agencies that have delegated back to Commerce some of their initial
       license review authority to find a solution to expediting late reviews by these agencies (see
       page 82).

19.    Provide the OC with the responsibility and adequate resources to become a “one-stop
       shop” for processing all licensing decisions made by the OC, ACEP, and EARB to ensure
       quality control (see page 85).

Exporter Appeals Process

20.    Coordinate with the National Security Council to amend Executive Order 12981 to
       establish formal procedures to include the referral agencies in the appeals process
       (see page 92).

Monitoring of License Conditions

21.    Improve BXA’s monitoring of license conditions by taking the following actions:

       (a)     Direct officials in the Office of Exporter Services to regularly purge its follow-up
               subsystem of expired licenses and, in doing so, contact the exporters to determine
               whether or not shipments were made against the licenses. In addition, direct
               personnel to periodically perform a random spot-check on licenses in the
               subsystem that have not expired in an effort to remind exporters that BXA is
               serious about monitoring exporter compliance with conditions placed on export
               licenses (see page 97).

       (b)     Notify licensing officers and supervisors of the importance of not flagging licenses
               with “Write Your Own” conditions for follow-up if they have no reporting
               requirement (see page 97).




                                               160
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



       (c)     Routinely spot-check companies related to deemed exports, to verify that security
               procedures are indeed in place and meet the established criteria (see page 99).

       (d)     Utilize the steps taken by licensing officers involved in monitoring exporter
               compliance with license conditions for encryption and deemed exports as a best
               practice by the other licensing divisions (see page 99).

       (e)     Provide licensing officers with “read-only” access to the compliance subsystem so
               that they can verify an exporter’s compliance history and deny a license based on
               noncompliance, if necessary (see page 99).

       (f)     Ensure that licensing officers review all compliance reports submitted by the
               exporter and be involved with contacting exporters who do not comply with the
               reporting conditions (see page 99).

       (g)     Direct the Office of Export Analysis to perform timely follow-up work on licenses
               with condition “14" to verify compliance among exporters and uncover any
               noncompliance. Incorporate this responsibility into the supervisory export
               compliance specialist’s performance plan to ensure accountability (see page 102).

End Use Checks

22.    Seek to improve the timeliness and quality of end use checks performed by the US&FCS
       overseas posts by taking the following actions:

       (a)     Work with the Assistant Secretary and Director General for US&FCS to improve
               the timeliness of pre-license checks conducted by US&FCS posts (see page 106).

       (b)     Provide clear and concise guidance to US&FCS and its overseas posts regarding
               the use of foreign service nationals and personal service contractors to conduct
               end use checks. Revise the PLC/PSV Handbook accordingly and make sure that it
               is sent to all US&FCS posts (see page 109).

       (c)     Communicate more with US&FCS posts about the importance of (1) identifying
               who conducted an end use check in their reporting cables (see page 109);
               (2) conducting on-site visits for each end use check (see page 110); and
               (3) retaining proper end use check records for five years, the statute of limitations
               for Office of Export Enforcement investigations (see page 111).

       (d)     In the PLC/PSV Handbook, specifically list embassy sections by name that
               US&FCS should confer with on end use checks and include suggested questions
               for each section (see page 112).




                                                161
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



       (e)     Provide periodic regional training seminars and workshops to keep US&FCS staff
               abreast of current developments in export controls and BXA regulatory
               procedures. Also consider using the Safeguard Verification program as a
               mechanism to train US&FCS staff (see page 113).

23.    Develop guidance for export enforcement agents to use in conducting Safeguard
       Verifications. This guidance should include:

       (a)     Criteria to help guide agents in selecting which PLCs/PSVs to do, targeting
               countries and shipments of greatest concern (see page 114).

       (b)     A template or standard format for agents to follow when preparing Safeguard trip
               reports (see page 115).

       (c)     A requirement that the Safeguard verification teams meet with host government
               officials involved in local export control or enforcement areas, as well as U.S.
               embassy personnel who might be knowledgeable of proliferation threats or
               diversion activities associated with the specific country, to determine what export
               control programs the country has, how effective they are, and the country’s
               relationships with countries of concern (see page 115).

       (d)     A suggestion that photographs be taken of the sites and commodities inspected,
               when appropriate, during their verifications to be included in their reports (see
               page 115).

       (e)     Procedures for the prompt reporting of unfavorable Safeguard results
               (see page 116).

24.    Ensure that the CIA’s Nonproliferation Center and the appropriate US&FCS posts are on
       BXA’s distribution list for all Safeguard trip reports. These reports should be forwarded
       to the CIA’s Nonproliferation Center in an electronic format (see page 116).

Other OIG Concerns

25.    Notify referral agencies of all negative pre-license checks (see page 127).

26.    Take the following actions necessary to ensure license determinations prepared for Export
       Enforcement and Customs are conducted and communicated in a timely manner. Such
       actions should include:

       (a)     Institute a front-end technical review of license determinations and make sure that
               they are not affected by absences of key staff persons currently assigned this
               function (see page 129).



                                               162
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



       (b)     Ensure that licensing officers process license determinations in a timely manner and
               hold them accountable for doing so (see page 129).

       (c)     Program ECASS to allow LOs to use the “hold without action” feature while
               processing license determinations under limited circumstances, e.g., during a
               request for additional information necessary to complete the request
               (see page 129).

       (d)     Issue written procedures for assigning license determinations reviewed by multiple
               divisions (see page 129).

       (e)     Approve and implement Export Administration’s draft guidance recommending
               that license determinations should be completed within the same 14-day time
               period as required for CCATS, as long as the license determination consists of six
               items or less and all information necessary to complete the license determination
               has been submitted (see page 129).

       (f)     Develop written agreements between Export Administration and Export
               Enforcement, and Export Administration and U.S. Customs Service, to outline the
               responsibilities of each party involved in the license determination process.
               Specifically, the agreements should set forth standard procedures for
               (1) submitting license determination requests (e.g., required information needed by
               Export Administration to make a determination), (2) processing license
               determination requests in a timely manner, and (3) the escalation process for late
               license determinations (see page 129).

       (g)     Work with Customs to find a way to automate the referral of license
               determinations between Customs and Export Administration (see page 130).

ECASS

27.    Work with the Department, OMB, and the Congress to obtain a commitment to fully fund
       the chosen option to replace ECASS (see page 139). As part of its new system
       development effort, BXA needs to:

       (a)     Establish a project management team, including a full-time project director, as
               soon as possible, to oversee development and implementation of BXA’s new
               information database system (see page 139).

       (b)     Conduct a cost-benefit analysis for developing a classified database system with
               software upgrades that could be made to allow better interface capabilities with the
               referral agencies’ licensing systems at a later date, including (1) performing a
               network analysis to determine future network requirements; (2) performing one or



                                               163
U.S. Department of Commerce                                                      Final Report IPE-11488
Office of Inspector General                                                                   June 1999



               more prototype tests of proposed systems before a final system alternative is
               chosen; and (3) obtaining approval of the departmental Information Technology
               Steering Committee for the chosen alternative (see page 139).

       (c)     Coordinate BXA’s system development efforts with the other export licensing
               agencies. Encourage these agencies to establish an interagency steering committee
               to review the automation portion of the export licensing process from coordinating
               common system architecture requirements to determining how interagency
               resources can be used to fund and implement a new system (see page 139).

       (d)     Evaluate the most viable options for the location of BXA’s computer operations.
               Specifically, look at the possibility of continuing at its current facility, or service by
               another Commerce center, another federal center, outsourcing, as well as creation
               of an in-house BXA center. BXA must obtain departmental approval if it decides
               to leave the Springfield Computer Center and move to another location (see page
               139).

28.    Take the following actions necessary to implement or strengthen the internal controls for
       ECASS, including:

       (a)     Provide a duplicate read-only tape to the Under Secretary for Export
               Administration every 90 days, highlighting any changes that might be made by
               lower ranking BXA personnel (see page 143).

       (b)     Establish criteria for reopening closed cases in the system (see page 144).

       (c)     Ensure that the electronic audit trail is more complete (see page 144).

       (d)     Have the database administrator assign data element responsibilities to individuals
               throughout the organization (see page 145).

       (e)     Establish an official database review board (see page 146).

       (f)     Establish a standards development group to develop appropriate database
               standards, including data definition, data documentation, passwords, and writing
               and testing programs (see page 146).

       (g)     Designate a team to periodically review the internal controls and risks associated
               with BXA’s system, about once a year or when conditions materially change
               (see page 146).




                                                 164
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



       (h)     Require the database administrator to reorganize the database every year
               (see page 146).

       (i)     Consider the feasibility of one data entry clerk’s work being reviewed by another
               before it goes into the database, or contract this function out (see page 148).

       (j)     Reestablish the old “User Meetings” between the operations staff, licensing
               officers, and information technology staff to discuss issues and identify and resolve
               problems quickly (see page 148).

       (k)     Take steps to reduce the number of duplicate codes in the database, including an
               extensive archiving effort to retire a large number of duplicate identification
               numbers (see page 149).

       (l)     Update the current continuity of operations plan to include all appropriate manual
               and system contingency processes as soon as possible (see page 151).

       (m)     Establish a risk management team to identify and assess the severity of risk in
               BXA’s database environment, or have a contractor perform the risk analysis
               (see page 151).

       (n)     Send a “network message” to emphasize that all database problems should be
               reported via the hotline (see page 152).

       (o)     Prepare a BXA system security plan (see page 152).

       (p)     Perform periodic security reviews (see page 153).

       (q)     Officially assign the security duties of BXA’s computer system to BXA’s security
               officer (see page 153).

       (r)     Provide all ECASS users with current security training (see page 153).

       (s)     Develop a communication link to immediately notify the Springfield Computer
               Center of terminated or transferring employees so that system access can be
               promptly revoked or modified, by the end of each working day (see page 155).

       (t)     Restrict the number of BXA employees with file manager access (see page 155).




                                               165
166
U.S. Department of Commerce                                                           Final Report IPE-11488
Office of Inspector General                                                                        June 1999



                                                                                             APPENDIX A

                        Answers to the Chairman of the Senate Committee
                              on Governmental Affairs’ Questions
                                        of August 26, 1998

In a letter dated August 26, 1998, Senator Fred Thompson, Chairman of the Senate Committee
on Governmental Affairs, requested that the Inspectors General from the Departments of
Commerce, Defense, Energy, State, and the Treasury and the Central Intelligence Agency
conduct an interagency review of the export licensing process for dual-use commodities and
munitions. The Chairman specifically asked the six Inspector General offices to update a 1993
interdepartmental OIG review of the export licensing process101 and, at a minimum, answer 14
specific questions. Our report, in its entirety, fulfills this request. However, Appendix A
(1) presents the 14 specific questions raised and (2) summarizes our responses as follows:

1.      Please examine whether the current, relevant legislative authority contains
        inconsistencies or ambiguities regarding the licensing of dual-use and munitions
        commodities, and the effect of any such inconsistencies and ambiguities.

The Export Administration Act of 1979, as amended, is the primary legislative authority for
controlling the export of dual-use commodities. As first reported in the 1993 special interagency
OIG review, the act does contain ambiguous language concerning the extent to which the
Commerce Department must refer license applications to other federal agencies. Specifically, the
act gives decision-making authority for dual-use license applications to Commerce and
encourages Commerce to carry out its authority with limited referral to other agencies. On the
other hand, the act also states that the Secretary of Commerce will seek recommendations from
government agencies concerned with aspects of U.S. policies and operations that have an
important bearing on exports. This ambiguity led to many conflicts or misunderstandings between
the various export control agencies as to which licenses Commerce should refer for review by
other agencies.

However, in December 1995, Executive Order 12981 more clearly defined the export licensing
referral process by authorizing the Departments of Defense, Energy, and State, and the U.S. Arms
Control and Disarmament Agency (ACDA)102 to review any license application received by
Commerce. As a result, each agency has an opportunity to provide its individual perspective
(e.g., national security or foreign policy) about a potential dual-use export transaction, thus
making the licensing process more transparent.


        101
           The Federal Government’s Export Licensing Processes for Munitions and Dual-Use Commodities,
conducted by the OIGs at the Departments of Commerce, Defense, Energy, and State, September 1993.
        102
          Since April 1, 1999, ACDA has been part of the State Department, as mandated by the Foreign Affairs
Agencies Consolidation Act of 1998.



                                                     167
U.S. Department of Commerce                                                              Final Report IPE-11488
Office of Inspector General                                                                           June 1999



Nonetheless, the fact that it has been 10 years since the expiration of the act103 could send an
ambiguous message to other countries (including our allies) that the United States is not truly
committed to export controls. Thus, we believe that it is imperative that the Congress renew
legislative authority for export controls. In the new legislation, the Congress should maintain the
transparency provided for in the executive order and continue to give all licensing agencies the
authority to review all export license applications.

In addition, the Congress should maintain the dispute resolution process outlined by Executive
Order 12981. Under the current process, any dissenting agency can escalate its concerns about
any license application to various ascending levels of review all the way to the President. As we
discuss in Question number 4 below, we found the interagency dispute resolution process to be
working well.

Furthermore, the Congress should discuss the benefits of opening up the munitions licensing
process to the Commerce Department’s Bureau of Export Administration (BXA). Although the
other export licensing agencies have the opportunity to participate in the dual-use export licensing
process, BXA lacks the same opportunity to participate in the munitions licensing process. The
Arms Export Control Act of 1976 authorizes the President to control the commercial export of
goods and technologies that are on the U.S. Munitions List. The authority for administering the
export control functions of this act was delegated to the Secretary of State. State’s Office of
Defense Trade Controls (DTC) administers the International Traffic in Arms Regulations, which
govern the export of munitions. DTC refers license applications to other agencies or bureaus for
review because of concerns about technical or policy issues related to the applications, but it does
not refer any applications to BXA.

However, since there are a limited number of items that may be subject to both the International
Traffic in Arms Regulations and the Export Administration Regulations, we believe both
Commerce and State could benefit from having a complete picture of what each agency is
approving or denying for consistency’s sake. Although we are not suggesting that BXA be
consulted on export licenses for “arms,” we do believe that the Congress and the Administration
should evaluate the benefits of making the munitions licensing process more transparent with
regard to those items that may be “dual-use” but fall under the U.S. Munitions List. (See Section
I of our report,104 page 23, for further discussion of export control legislation.)




        103
           The Export Administration Act has been expired since September 1990, except for a brief time in 1994
when it was reinstated. During periods in the past when one version of the act has expired and a new version has
not been enacted, the authority for imposing export controls is derived from the International Emergency
Economic Powers Act (IEEPA). Most recently, IEEPA has enabled BXA to control exports for the period from
August 1994 to the present while the Congress continues to debate enactment of a new export control act.
        104
           Improvements Are Needed to Meet the Export Licensing Requirements of the 21st Century, Draft
Inspection Report IPE-11488, May 1999.



                                                      168
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



2.     Please examine whether Executive Order 12981 (1995) as implemented is consistent
       with the objectives of the Export Administration Act and other relevant legislative
       authority.

We determined that Executive Order 12981 is generally consistent with the objectives of the
Export Administration Act. As we stated in our response to Question number 1, the executive
order more clearly defines the export licensing referral process by giving the Departments of
Defense, Energy, and State, and ACDA the right to review any license application received by
Commerce. As a result, each agency has an opportunity to provide its individual perspective
about a potential dual-use export transaction.

However, unlike the Export Administration Act, the executive order fails to mention the exporter
appeals process. Specifically, once an export license application has been formally denied, the
exporter has the right to appeal to Commerce’s Under Secretary for Export Administration,
whose decision is considered final. Although BXA informally confers with the referral agencies
on appeals, there is no requirement that this decision be made in consultation with these agencies.

Officials at the Department of Defense have questioned the authority for the exporter appeals
process now that the Export Administration Act has expired and the executive order makes no
mention of the process. However, we believe that there is ample authority for the appeals process
and we do not share the view that because the executive order fails to mention the exporter
appeals process that somehow this process is invalid. On the other hand, we recognize that the
question arises as to whether an exporter could use the appeals process to circumvent the
interagency referral process; i.e., a case denied during the interagency license review could be
approved during the appeals process, with no formal interagency review.

While we found no evidence indicating that BXA does not consult with the referral agencies
before overturning a denial, we believe that for the sake of transparency in the export licensing
process, the referral agencies should be formally included in the appeals process. Therefore, we
are recommending that BXA work with the National Security Council to establish formal
procedures to include the referral agencies in the appeals process. We would also encourage the
Congress to address this issue in drafting new export control legislation. (See Section VI of our
report, page 87, for further discussion of the exporter appeals process.)

We also determined that minor changes are needed to Executive Order 12981 with regard to the
impact of ACDA’s merger with State, as well as clarification on agency representatives at the
assistant secretary-level Advisory Committee on Export Policy (ACEP). Specifically, the merging
of ACDA into State leaves the ACEP, an important part of the dispute resolution process, with
only four standing voting members. Since ACEP decisions are based on a majority vote, the
committee faces a potential problem if a vote comes down to a tie. We recommend that BXA
request that the National Security Council review this issue and provide a procedure to follow in




                                               169
U.S. Department of Commerce                                                                Final Report IPE-11488
Office of Inspector General                                                                             June 1999



the event of a tie vote. In addition, the Congress should consider this issue when drafting new
export control legislation.

During our review, BXA managers expressed their frustration regarding the failure of referral
agencies to send the appropriate representation level to the ACEP meetings. Upon examination
of the executive order, we found that its language gives referral agencies the flexibility to decide
who should attend these meetings. BXA officials disagree with this interpretation and insist that it
was the intent of the drafters of the executive order for ACEP representatives to be at the
assistant secretary-level or its equivalent. To settle this dispute, we recommend that BXA request
the National Security Council to clarify this issue in an amendment to the executive order. In
addition, the Congress should consider this issue when drafting new export control legislation.
(See Section I of our report, page 23, for further discussion of Executive Order 12981.)

3.       Please determine if there is a continued lack of interagency accord, as stated in your
         1993 interagency report, regarding whether the Commerce Department is properly
         referring export license applications (including supporting documentation) out for
         review by the other agencies.

In the 1993 special interagency report, the OIGs pointed out that there was not complete accord
between Commerce and most of the other federal licensing agencies regarding which license
applications should be referred for comments to the other agencies. During our recent review, we
determined that the dual-use export licensing process is clearly more transparent today than it was
in 1993. Specifically, in fiscal year 1998, 85 percent of all export license applications submitted to
Commerce were referred to other export licensing agencies as compared to only 53 percent in
1993.

As we stated in our response to Question number 1, in 1995 the President issued Executive Order
12981, which authorized the Departments of Defense, Energy, and State, and ACDA to each
have the authority to review any export license application submitted to the Department of
Commerce. While the four referral agencies can now see all applications, they have provided
Commerce with delegations of authority for certain types of applications, based on the level of
technology, the appropriateness of the items for the stated end use, and the country of destination.
Even with the delegations, most export license applications are still referred to Defense. In
addition, since the transfer of jurisdiction of commercial encryption products from State to
Commerce in 1996, the Justice Department has been given a role in the license review process for
encryption license applications.105 Furthermore as we discuss in our response to Question number




         105
            Executive Order 13026, Administration of Export Controls on Encryption Products, November 15,
1996, authorizes the Department of Justice to review any export license applications pertaining to encryption items.
In addition, the National Security Agency was delegated authority by the Defense Threat Reduction Agency to
review most encryption item exports referred to the Defense Department.



                                                        170
U.S. Department of Commerce                                                                   Final Report IPE-11488
Office of Inspector General                                                                                June 1999



4 below, when the reviewing agencies cannot agree on a final disposition of an export license
application, the case is automatically escalated to the dispute resolution process.

However, although the referral of export license applications has improved due to increased
transparency, the commodity classification process is vulnerable to incorrect classifications due to
a lack of transparency. Specifically, BXA holds the exporter responsible for classifying an export
item, but it will advise an exporter whether an item is subject to the Export Administration
Regulations and, if applicable, identify the appropriate Export Control Classification Number.
Exporters may verbally inquire about a commodity classification (e.g., telephone call), but only
written inquiries result in binding determinations.

Both Defense and State indicated to us a need for this process to be completely opened for
interagency review similar to the export licensing process. To illustrate the need for this, the
agencies point to the 1995 investigative report on the crash of a Chinese rocket carrying a satellite
for which BXA mistakenly determined no license was required. BXA allowed the release of the
investigative report without consulting the referral agencies. BXA has since admitted that this
decision was incorrect because the accident occurred in part of the rocket, not in the satellite
being carried, and thus was a munitions item that fell under State’s jurisdiction.

As part of our review, we sought to determine whether past commodity classification
determinations by BXA did, in fact, support the concerns of Defense and State. We invited
analysts from State and Defense to review a sample of commodity classification line items and
second-guess the original determinations made by BXA.106 Of the 103 selected for our sample,
Defense identified 13 it found to be the most troublesome, and after discussing these cases with
Commerce, Defense ultimately disagreed with BXA’s decision in 5 of them.

In two of the five cases, Defense argued that the items were not under the Commerce Control
List, and the commodity classifications should have been referred to State as commodity
jurisdiction requests. BXA disagreed. According to 1996 NSC guidance, BXA is required to
share with State and Defense all commodity classification requests for items or technologies
specifically designed, developed, configured, adapted and modified for a military application, or
derived from such items or technologies.107 Therefore, regardless of whether these items fall
under the Commerce Control List or the U.S. Munitions List, we believe that BXA should have at
least referred these two commodity classifications to State–especially since the manufacturers’
own literature describes them as “militarized.” In the remaining three cases, Defense agreed that


        106
              Officials from State’s Defense Trade Controls chose not to participate in the review.
        107
           Subsequent to the NSC guidance on this subject, Defense informed BXA in 1996 that it did not want
the opportunity for an initial review of munitions-related commodity classifications and instead requested that
Commerce provide, on a weekly basis, a copy of such completed commodity classifications requests and decisions
to Defense. Defense’s current position on this matter is significantly different than it was in 1996.




                                                          171
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



the items fell under the Commerce Control List but disagreed with BXA’s export control
classification number. BXA ultimately agreed with Defense’s classification for one of the three
commodity classifications but maintained its original position on the other two.

Nonetheless, as our sample demonstrates, BXA appears to not have fully complied with NSC’s
1996 guidance to refer all munitions-related commodity classification requests to State.
Furthermore, per Defense’s request, BXA has not referred all of the completed commodity
classifications for such items to Defense. At this time, we are not convinced that BXA should
refer all CCATS to both Defense and State given the fact that these agencies may not have
adequate resources to review all CCATS in a timely manner. However, we strongly believe that
BXA needs to work with both Defense and State to ensure that the CCATS process is more
transparent with regard to items or technologies specifically designed, developed, configured,
adapted and modified for a military application, or derived from such items as called for in the
NSC guidance. Therefore, we recommend that BXA, in conjunction with the Defense and State
Departments, work with the NSC to develop specific criteria and procedures on how to
implement its 1996 guidance for the referral of munitions-related commodity classifications to
Defense and State. In addition, we believe BXA should consult with Defense to determine if it
wants to continue its delegation to BXA on munitions-related CCATS or withdraw it. (See
Section II of our report, page 39, for further discussion of the commodity classification process.)

4.     Please determine if the interagency dispute resolution (or “escalation”) process for
       appealing disputed license applications allows officials from dissenting agencies a
       meaningful opportunity to seek review of such applications, and assess why this
       process is so seldom used.

Overall, we found that the interagency escalation process for disputed license applications allows
officials from dissenting agencies a meaningful opportunity to seek additional review of such
cases. Of the 9,405 export license applications referred to other agencies in fiscal year 1998, only
8 percent were escalated to the dispute resolution process. The other 92 percent were resolved
by consensus among the agencies without escalation. In many cases, individual agency concerns
are addressed during the referral process by adding or modifying license conditions. If any of the
reviewing agencies does not agree on a final disposition of a license application, the case is
automatically escalated to a higher level of review as mandated by Executive Order 12981.

There are four levels of escalation for dual-use cases: Operating Committee (OC) at the senior
civil service level, Advisory Committee on Export Policy at the assistant secretary-level, the
Export Administration Review Board (EARB) at the Cabinet level, and the President. Each level
of the escalation process is required to consider all matters referred to it, giving consideration to
foreign policy, national security, and domestic economy concerns as well as concerns about the
proliferation of weapons of mass destruction.




                                                172
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



From fiscal years 1991 to 1998, the number of cases escalated to the OC increased by 353
percent, while the number of cases escalated to the ACEP decreased by 62 percent. In addition,
only 21 license applications have been escalated to the EARB during this time period, and only
one since 1991. The fact that there has been a significant increase in the cases escalated to the
OC, and a decrease in cases escalated to the ACEP and EARB, as well as a small percentage of
OC cases overturned at the ACEP, indicates that this process is working well.

At the first level of escalation, the Department of Commerce serves as the Chair of the Operating
Committee and its voting members also include Commerce, Defense, Energy, Justice (for
encryption cases), State, and ACDA. Representatives of the Director of the Central Intelligence
Agency and the Chairman, Joints Chief of Staff, are nonvoting members. The OC meetings are
held weekly. A notice of the OC license decision is sent to the designated person in each
participating agency. Any decision not escalated to the ACEP by a dissenting agency within five
days of the notification of the OC decision becomes final.

Based on the three OC meetings we observed, we found that the OC Chair affords each
agency–including BXA–the opportunity to present its recommendation on every application. We
generally found that the meetings build consensus through healthy exchanges and debates. While
the OC Chair has been given the authority to decide all cases at this level without having to reflect
the recommendations of the majority of the participating agencies, the decisions of the Chair are
usually based on interagency consensus. Typically, agencies who maintain a denial but do not
wish to escalate to the ACEP, often play a key role in crafting the conditions placed on the
approved licenses. Only about five percent of the OC decisions decided by the Chair are contrary
to the majority decision, and virtually all of these cases were escalated to the ACEP for a final
decision. BXA records indicate that of the 70 cases escalated to the ACEP between February
1997 and February 1999, in only 6 cases did the ACEP decisions overturn the OC Chair’s
determination.

The Assistant Secretary for Export Administration serves as the Chair of the ACEP. The ACEP,
which meets monthly, also includes assistant secretary-level representatives from the Departments
of Defense, Energy, State, and ACDA. Appropriate representatives of the CIA’s
Nonproliferation Center and the Joint Chiefs of Staff are non-voting members of the committee.
ACEP decisions are based on recommendations of the majority of the agencies voting at the
meeting. One of the primary reasons agencies escalate a case to the ACEP is because they want
the case to be decided at higher levels because of policy implications raised by the proposed
transaction.

Any dissenting department or agency may appeal an ACEP decision to the Export Administration
Review Board within five days. The EARB is chaired by the Secretary of Commerce, and its
members include the Secretaries of Defense, Energy, and State and the Director of ACDA. The
Chairman of the Joint Chiefs of Staff and the Director of the Central Intelligence Agency are
nonvoting members of the EARB. The EARB’s decision is based on a majority vote. Again,




                                                173
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



within five days of this decision, any dissenting agency may make a final appeal to the President.
No cases have been escalated to the President since the implementation of Executive Order 12981
in December 1995. We would conclude that the upper three levels of the resolution process are
seldom used because both the regular referral process and the Operating Committee are working
well and disputes over specific licenses are effectively resolved at those levels. (See Section V of
our report, page 77, for further discussion of the dispute resolution process.)

5.     Please review whether the current dual-use licensing process adequately takes into
       account the cumulative effect of technology transfers resulting from the export of
       munitions and dual-use items, and the decontrol of munitions commodities.

The current dual-use licensing process does not take into account the cumulative effect of
technology transfers. While individual technology sales may appear benign, combining
technology sales over a long period of time may allow U.S. adversaries to build weapons of mass
destruction or other capabilities that could threaten our national security.

We found that BXA licensing officers have some institutional knowledge about what goods and
technologies specific end users or countries are receiving because they tend to process similar
export license applications dealing with the same commodities, exporters, and end users over
time. However, according to the responses from licensing officers to our survey, they do not
routinely analyze the cumulative effect of proposed exports or receive such assessments to use
during license reviews. During our review, many licensing officials noted that to fully analyze the
cumulative effect would be very difficult because, in addition to knowing what U.S. exports have
been received, one would have to know what internal capabilities a specific country has and what
technology it has acquired from other countries. We believe that this type of cumulative effect
analysis, while difficult, would be valuable during the export license application decision-making
process.

We understand that the Department of Energy’s seven laboratories conduct a limited cumulative
effect assessment review for nuclear dual-use exports, but there is no coordinated effort to
conduct such an assessment for all commodities. In addition, we learned that Defense has a
requirement to perform annual assessments of the total effect of transfers of goods, munitions,
services, and technology on U.S. security, but it had not yet performed such reviews. We believe
that BXA should work with the intelligence community, including the CIA, Defense, and Energy,
to determine the feasibility of developing a mechanism to better track and assess the cumulative
effect of dual-use exports to a specific country or region and to make that information available
for the licensing process.




                                               174
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



6.     Please review whether the current munitions licensing process adequately takes into
       account the cumulative effect of technology transfers resulting from the export of
       munitions and dual-use items, and the decontrol of munitions commodities.

This question is not applicable to the Department of Commerce because it does not participate in
the munitions licensing process.

7.     Please determine whether license applications are being properly referred for
       comment (with sufficient time for responsible review) to the military services, the
       intelligence community, and other relevant groups (the “recipient groups”) by the
       Defense Department and other agencies. Please consider in particular numerical
       trends in the frequency of such referrals, trends in the types of applications referred,
       trends in the nature of the taskings made in connection with the referrals, and the
       perceptions of officials at the recipient groups.

While we believe the overall referral process is generally effective, we did identify some areas that
need management attention. Specifically, as part of our review, we looked at a randomly selected
sample of 60 non-referred cases to determine whether BXA had sufficient justification for not
referring those applications. The most common reasons export license applications in the sample
were not referred were because they (1) lacked sufficient information to allow BXA to evaluate
the application and were returned to the exporter; (2) were automatic denials, e.g., they involved
certain items going to India due to its detonation of nuclear explosive devices; and
(3) were routine cases that the other agencies have elected to delegate to Commerce. However, 6
of the 60 non-referred export license applications should have been referred to Defense
(5 cases) and Energy (1 case). Two of these cases involved amendments to previous licenses, and
the other four raised procedural concerns. We recommended that BXA remind its licensing
officers to reread BXA’s referral procedures and to follow them in the future to address these
concerns.

Furthermore, we identified two weaknesses in the export licensing referral process itself. First,
while the intelligence community plays a critical role in license review and threat analysis, we
found that the CIA and its Nonproliferation Center are not fully engaged in the export licensing
process. Specifically, the CIA, at its own request, does not review all dual-use export license
applications or always conduct a comprehensive analysis of export license applications it does
receive. In addition, we believe that the CIA may not have adequate review time for its end user
checks, especially in countries of concern like China.

Second, as we have reported in the past, another key element missing from the export licensing
referral process is the screening of all parties to pending license applications against the Treasury
Enforcement Communication System (TECS) database maintained by the Treasury Department’s
U.S. Customs Service. TECS was created to provide multi-agency access to a common database
of enforcement data to satisfy a recognized need to promote the sharing of sensitive information
between federal law enforcement agencies. Screening every export license applicant and



                                                175
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



consignee against TECS during the initial phases of the licensing process would give licensing and
enforcement authorities early warning of any potential concerns Customs may have. (See Section
IV of our report, page 57, for further discussion of the export licensing referral process.)

8.     Please determine whether license review officials at each of the agencies are
       provided sufficient training and guidance relevant for reviewing license
       applications, and whether more formal training and guidance is warranted. Dr.
       Leitner noted a paucity of such training and guidance in his Committee testimony.

Our review disclosed that the policy and procedures used by licensing officers varied. Many of
our survey respondents, as well as those we interviewed throughout the review, identified the lack
of up-to-date guidelines as one of BXA’s major weaknesses. However, in an effort to improve
licensing officer guidance, on March 31, 1999, BXA officials implemented new procedures that
emphasize the importance of obtaining sufficient information before processing a case and
documenting all relevant facts and details pertaining to it. While the new guidance is clearly more
thorough than the previous guidance, we believe it would also be beneficial to provide licensing
officers with specific questions they should consider when processing export license applications
to dynamic markets, such as China and Russia.

We also note that BXA is developing an electronic library to store its policies and procedures.
We believe that this on-line licensing officer manual will be a valuable reference tool for licensing
officers to access while preparing their case analyses. We have recommended that BXA develop
a long-term plan for maintaining the library, including designating an individual to be responsible
for updating the procedures, and determining when they will be updated and what procedures will
be followed for updates.

During our review, we also found training provided to licensing officers to be inconsistent and
often unresponsive to their needs. The export licensing function requires a continuous structured
training program to ensure that the licensing officers’ critical thinking and knowledge of export
control issues and concerns are as strong as possible.

We were particularly concerned about the adequacy of training for new licensing officers. Such
training is left up to the individual divisions and generally consists of reading the Export
Administration Regulations and learning on-the-job by directing questions to experienced staff.
However, we found that the Encryption Policy Division provides a comprehensive training
program for all of its new analysts. Specifically, new analysts (1) spend three weeks answering
phones and sitting in on other calls in the Exporter Counseling Division, (2) observe the division
director’s telephone responses to exporter questions, (3) attend regulations and technology
seminars sponsored by BXA for exporters, and (4) observe interagency working group and
industry meetings. While we recognize that training needs to be flexible to allow for a variety of
learning methods in a variety of disciplines, we recommend that Export Administration consider
using this kind of training program for all new licensing officers.




                                                176
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999



BXA needs to identify and prioritize the current and future learning needs of its licensing officers
and then establish a formal training program to meet those needs. In addition, BXA should
designate either a training team or training coordinator and provide the necessary resources to
manage and implement an export administration training program. We provide a number of
suggestions for in-house and outside training, as well as interagency exchanges, that we believe
could improve licensing officers’ performance. (See Section III of our report,
page 47, for further discussion of policies and procedures and training provided to licensing
officers.)

9.      Please review the adequacy of the databases used in the licensing process, such as
        the Defense Department’s FORDTIS, paying particular attention to whether such
        databases contain complete, accurate, consistent, and secure information about
        dual-use and munitions export applications.

Overall, we determined that ECASS, BXA’s Export Control Automated Support System,
contains complete, accurate, consistent, and secure information about dual-use license
applications.108 ECASS, developed by BXA in 1984, is an unclassified database system that
provides license processing and historical license information to BXA and the referral agencies.
We determined that the system’s internal controls are generally adequate and that its data is
sufficiently reliable. However, we have identified some controls that need strengthening or
further implementation.

Furthermore, although the export licensing referral process has been working reasonably well and
become increasingly transparent over the past five years, the agency automation systems are
lagging way behind. We strongly agree with BXA that it needs a new system to process export
license applications efficiently and effectively. While we encourage BXA and the Congress to
move ahead with the development and funding of a new system as soon as possible, we believe
that BXA should concurrently ensure that it considers the best available options, including a
classified system. We urge BXA to coordinate its system development efforts with the other
export licensing agencies to ensure that all of the systems are compatible and, at a minimum, are
able to interact with one another. (See Section X of our report, page 133, for further discussion
of ECASS.)




        108
             We identified and tested the controls in five major areas: (1) data management, (2) database
management, (3) database integrity, (4) database operations, and (5) database security. General controls apply to
all computer operations in an agency, including organization and management controls, security controls, and
system software and hardware controls. Application controls ensure the authority of data origination, accuracy of
data input, integrity of processing, and verification and distribution of output.



                                                       177
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999



10.     In his testimony, Dr. Leitner described instances where licensing recommendations
        he entered on FORDTIS were later changed without his consent or knowledge.
        Please examine those charges, and assess whether such problems exist at your
        agencies.

We examined ECASS to determine whether recommendations entered into the database were
later changed without the consent or knowledge of licensing officers. We found two key controls
to preclude this from happening.

The first control is that supervisors cannot make changes to pending or closed licenses, without
the licensing officers’ knowledge.109 For pending licenses, supervisors can only orally suggest
changes to licensing officers or insert changes into the licensing officer notes section of the
automated license application. For example, supervisors may request licensing officers to reject a
license based on current intelligence that the licensing officers are not privy to. Nevertheless, if
the licensing officers are orally instructed to make changes, they are supposed to document the
request in the licensing officer notes section. However, we have found that licensing officers do
not consistently document their changes or supervisor-suggested changes in licensing officer
notes.

If a supervisor goes into the case file and electronically requests that a licensing officer make
changes to a pending license, ECASS automatically documents the request. Supervisors can
move cases from one licensing officer’s queue to another queue to balance a licensing officer’s
workload, but again, the supervisors cannot physically make changes to the electronic record.
Our survey confirmed that the licensing officers believe that their recommendations are not
changed without their consent or knowledge.

With regard to closed licenses, both supervisors and licensing officers must submit a written
request to BXA’s operations staff to reopen a case. Reopening a case is rare; for example only
120 out of approximately 11,000 export license applications were reopened in fiscal year 1998.
After the operations staff reopens a case and makes the appropriate change, the case is then sent
to the applicable licensing officer for review. Reasons for reopening a case include: correcting
data input errors, changing case decisions from denial to approved or approved with conditions,
and adding or deleting conditions and riders as a result of the escalation or appeals processes.
However, while there is a paper audit trail of who requested the case be opened, we found a few
examples where the electronic audit trail did not have this information. BXA must ensure that the
electronic audit trail is complete because when the paper document requesting a case be reopened
is eliminated, the electronic audit trail will be the only source to determine why and at whose
request a case was reopened.




        109
            Countersigners or supervisors review and sign off on license cases submitted to them by licensing
officers before the licenses are issued, denied, or returned without action.



                                                       178
U.S. Department of Commerce                                                   Final Report IPE-11488
Office of Inspector General                                                                June 1999



The second control to prevent unauthorized changes to ECASS involves the referral agencies.
Specifically, we determined that Defense, Energy, and the CIA’s Nonproliferation Center could
not make changes either directly to ECASS from their terminals or to the files they download to
their systems. We also found that State and ACDA could not make changes directly to ECASS
from their ECASS terminals. (See Section X of our report, page 133, for further discussion of
ECASS.)

11.    Please determine whether license review officials are being pressured improperly by
       their superiors to issue or change specific recommendations on license applications.
       Dr. Leitner testified about one such incident that happened to him at DTSA.

While BXA managers provide their opinions on many cases, our survey confirmed that most
licensing officers believe that their recommendations entered are not changed without their
consent or knowledge, and more importantly, they are not improperly pressured into changing
specific positions on license recommendations. Specifically, out of the 36 licensing officials’
responses to this survey question, only 3 indicated that they had received pressure to change
positions on recommendations.

One of the three respondents indicated that he had been pressured to change his
recommendations, but “not very often.” However, after we met with this individual to get more
details on the cases on which he was allegedly pressured, the licensing officer could not remember
the license numbers or provide us any more details on the cases.

The second respondent stated that,

       “There have been numerous instances of management at all levels putting pressure
       on licensing officers to approve applications over the years. Even
       when the event becomes known, no action is taken to remove or chastise the
       manager. This is well known to be the case throughout the organization.”

We attempted to substantiate this statement even though the survey response was sent
anonymously. However, the remaining licensing officer responses to the survey, as well as our
interviews with BXA personnel, do not support this individual’s position.

The third respondent, who also is the Chair of the Operating Committee, indicated that upper
management sometimes conveys instructions about the decision she should make on a specific OC
case. Both National Security Agency and Justice officials informed us that the OC Chair has also
indicated to them that any OC decisions written in the passive voice (e.g., “It has been decided....”
versus “The Chair determines....”) can be interpreted to mean that BXA management told her
how to decide a case and, therefore, it was not “her” decision.

When we questioned the OC Chair about these allegations, she confirmed that she writes in the
passive voice when she believes management has told her how to decide a case. However, she



                                                179
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



also indicated that this is a rare occurrence and generally it involves a situation where she believes
more information is needed about the transaction before a final decision can be made, and not
necessarily a decision that she would ultimately disagree with if she had more time to consider the
case.

We discussed this issue with both the Assistant Secretary for Export Administration and his
deputy, who informed us that they have never “told” the OC Chair how to vote on a particular
case. However, since the OC Chair reports to both of them, they did state that they have a
responsibility to ensure that the OC Chair carries out her responsibilities efficiently and in concert
with U.S. regulations and policy. As a result, they indicated that they may have from time to time
instructed the OC Chair on the provisions of the regulations or on changes in U.S. licensing policy
to ensure that her actions are consistent with U.S. regulations and policies or to bring a case
review to closure by making a decision (e.g., where the loss of a sale is imminent or a case has
exceeded the time frames of the Executive Order).

The OC plays a pivotal role in the export licensing process. Overall, we heard only positive
feedback about both the committee and its Chair. While we recognize that the OC Chair is a
BXA employee and that the Executive Order recognizes that an OC decision is a Commerce
decision that can be escalated by a dissenting member agency, we also believe that one could
interpret the role of the OC Chair as outlined in the Executive Order to be “independent” since the
procedures call for the OC Chair to preside over the OC meeting and listen to all of the reviewing
agency arguments–including BXA’s–before rendering a decision on a case.

Our review indicated that the main reason the OC review process is so successful is because of
the current OC Chair’s willingness to be objective in her decisions and not necessarily just vote
the “Commerce” position. As noted above, the OC Chair works very hard to involve all agency
representatives in a very interactive and dynamic decision-making process on each case, and most
decisions are based on interagency consensus. In addition, we were impressed with the Chair’s
willingness to stand firm on the licensing decisions she makes. For instance, in one recent case,
the Chair approved a license with conditions over the objections of all of the participating
agencies–including BXA. While the case was escalated to the ACEP, it illustrates that the OC
Chair does not give in easily if she firmly believes in her decision.

Nonetheless, no matter what the rationale is, we believe that the OC Chair should be free to
independently decide a case. BXA management should definitely not give the impression that it is
instructing the Chair on what licensing decisions to make. If the Chair makes a decision that BXA
disagrees with, BXA should use the avenue afforded it under the executive order to escalate cases
to the ACEP in order to avoid any misconceptions that this part of the process is not transparent.
(See Section V of our report, page 77, for further discussion of the Operating Committee.)




                                                180
U.S. Department of Commerce                                                                  Final Report IPE-11488
Office of Inspector General                                                                               June 1999



12.       Please determine whether our government still uses foreign nationals to conduct
          either pre-license or post-shipment licensing activities and whether such a practice is
          advisable.

Based on our sample of end use checks completed in fiscal year 1998 by Commerce’s United
States and Foreign Commercial Service (US&FCS) personnel and a survey of 27 US&FCS
overseas posts, most end use checks are being conducted by American officers or BXA
enforcement agents.110 However, foreign service nationals (FSN) are still occasionally used, and
it was not always clear from the posts’ reporting cables who conducted some of these pre-license
checks (PLCs) and post shipment verifications (PSVs).

There were a total of 283 PLCs and 346 PSVs conducted in fiscal year 1998. Of 283 PLCs,
approximately 91 percent were conducted by US&FCS post personnel, and the other 9 percent
by Export Enforcement Safeguard Verification teams. Of 346 PSVs, approximately 17 percent
were conducted by US&FCS post personnel, and approximately 83 percent by Safeguard
Verification teams.

In addition, based on our review of completed checks conducted by US&FCS personnel–90 PLCs
from our sample of 124 PLCs and 15 PSVs from our sample of 18 PSVs in fiscal year 1998–it
appears that the majority of PLCs and PSVs are being conducted by appropriate personnel, such
as an American officer or a team that includes an American officer as well as either an FSN or a
personal services contractor (PSC). (See Table 1.)

  Table 1

                         US&FCS              US&FCS Personnel Conducting End Use Checks
                          Checks
                         Reviewed          Officer         FSN/PSC          Combination            Unclear

      PLC                     90              22                5                  36                  27
      PSV                     15              10                0                   0                  5
      Total                  105              32                5                  36                  32
      Notes: PLC= pre-license check, PSV= post shipment verification, FSN= foreign service national, and
           PSC= personal services contractor

  Source: Office of Enforcement Analysis, Bureau of Export Administration.




          110
                End use checks are conducted by BXA’s export enforcement agents under the Safeguard Verification
program.



                                                         181
U.S. Department of Commerce                                                                     Final Report IPE-11488
Office of Inspector General                                                                                  June 1999



However, it was not always clear from the posts’ reporting cables who conducted some of these
PLCs and PSVs. Although 10 of the response cables indicated that the “Commercial Attache”
had performed the PLC, it was not clear whether that person was an American officer or a PSC
because the latter personnel often use this title. Post responses on two PLCs referred to “embassy
officers,” but again it was not clear whether they were American officers. The remaining 15
response cables did not provide any indication as to who had performed the PLC.

Furthermore, post responses were not always clear about who conducted PSVs. Of 15 PSVs
completed by US&FCS in our sample of fiscal year 1998 PSVs, it was not clear who had
conducted 5 PSVs, while American officers had conducted the remaining 10. US&FCS posts
clearly need to provide unambiguous information in their reporting cables regarding who
conducted the end use check.

According to a survey of 27 US&FCS posts conducted during our review, American officers
reportedly conduct PLCs and PSVs at six posts, combination teams of commercial officers
accompanied by FSNs or PSCs conduct checks at 15 posts, and FSNs have conducted or are
allowed to conduct checks at five posts. The remaining post has a special arrangement under
which the host government performs these checks.

Based on BXA’s own argument on this issue, we believe that it would be in the best interests of
the United States for these checks to be conducted by U.S. citizens who are also U.S. government
employees. Specifically, as stated in Appendix I of BXA’s Handbook, there are three
disadvantages of using FSNs to conduct PLCs: the credibility of the check, the possible reluctance
of an FSN to testify against a fellow citizen in a U.S. court, and lack of access to classified
material. Some or all of these disadvantages may also apply if a PSC is used to complete end use
checks. Even for those PSCs who are U.S. citizens, their credibility as a temporary employee
without any specific training in conducting checks could be called into question. In addition,
many PSCs may not have appropriate security clearances to give them access to relevant files and
data sources within other agency files at post, a necessary research tool before conducting end use
checks. (See Section VIII of our report, page 103, for further discussion of end use checks.)

13.         Please determine whether the agency licensing process leaves a reliable audit trail
            for assessing licensing performance.

We found that BXA’s licensing process provides a fairly complete audit trail to reliably assess the
licensing process and decision-making on any specified license. BXA’s audit trail comprises 11
major elements: (1) paper and automated license applications;111 (2) automated license
applications containing licensing decisions by licensing officers, supervisors, and referral agencies;




            111
                  Exporter paper applications become automated license applications after they are scanned in and
verified.



                                                             182
U.S. Department of Commerce                                                             Final Report IPE-11488
Office of Inspector General                                                                          June 1999



(3) paper files maintained by licensing officers; (4) paper copies of the Operating Committee
licensing decisions that were disseminated to licensing officers and the referral agencies;
(5) scanned exporter technical specifications;112 (6) current and archived licenses in ECASS;
(7) backup tapes of current and archived licenses; (8) the ECASS file that documents reopened
cases; (9) the ECASS logs that record database and security activities; (10) system documentation
for each program change; and (11) ECASS verification of data transmitted to the referral
agencies.

Nonetheless, we identified several areas that still need correction. First, the ECASS electronic
record records only when and by whom a change to a data field was made in a pending case, not
what change was made. If, for example, licensing officers make changes to data fields in pending
licenses, the current data in that field is “written over” or eliminated. The database management
system cannot “audit” each field in the database to show what specific changes are made. As a
result, licensing officers are supposed to “document” changes in licensing officer notes, but that is
not consistently done. To determine what fields have been changed, BXA personnel would have
to painstakingly compare different versions of backup tapes. To correct this problem, BXA’s
Acting Chief Information Officer stated that a separate record with the old value will be coded to
show the old and new value. We agree that this change will improve the ECASS audit trail.

Second, BXA does not ensure that all license conditions agreed to by the OC, ACEP, or EARB,
are correctly inputted into ECASS. If conditions are not properly input, the audit trail changes,
data integrity is affected, and quality control is reduced. We have recommended that the OC be
given the authority and resources to process all licensing decisions made during the escalation
process to better ensure quality control. (See Section V of our report, page 77, for further
discussion of the quality control of OC decisions.)

Third, we found that the departmental computer center in Springfield, Virginia, is adequately
maintaining automated applications by backing up the ECASS database on a daily, weekly, and
monthly basis, and copies are stored at the Springfield Computer Center and the Department of
Commerce headquarters. However, there is the possibility that these tapes could be modified by
BXA personnel, invalidating the audit trail. In 1993 we recommended that BXA provide a
duplicate read-only tape to the Under Secretary for Export Administration every day, highlighting
any changes that might be made by lower ranking BXA personnel. BXA personnel stated that
getting the tape to the Under Secretary’s office and finding a place to store the tapes would be
difficult to do on a daily basis. As a result, this has not happened. Since we still maintain that the
audit trail would be strengthened by having the stored databases owned by BXA’s Under
Secretary with read-only access to produce historical reports as required, we recommend that a
duplicate read-only tape be provided to the Under Secretary every 90 days, highlighting any
changes that might be made by lower ranking BXA personnel.




       112
             Exporter technical specifications include brochures and design drawings.



                                                        183
U.S. Department of Commerce                                                    Final Report IPE-11488
Office of Inspector General                                                                 June 1999



Fourth, we also recommended in the 1993 report that paper applications and technical
specifications be retained for five years. Currently, BXA only physically retains hard-copy
information for 90 days except memorandums from BXA personnel or exporters requesting
system changes, and these are maintained for one year. BXA personnel stated that maintaining
paper applications for five years is too long. BXA believes that reliance on electronic records is
appropriate. We agree. Therefore, we have modified our recommendation based on BXA’s
concerns to reflect its current practice. (See Section X of our report, page 133, for further
discussion of ECASS.)

14.    Please describe the procedures used by agencies to ensure compliance with
       conditions placed on export licenses (e.g. no retransfers without U.S. consent, no
       replications, and peaceful use assurances), and assess the adequacy and effectiveness
       of such procedures.

BXA has several tools to monitor conditions placed on export licenses, including (1) a computer
tickler system to identify conditions that require follow-up reporting, (2) post shipment
verifications, and (3) outreach visits. The ability to place conditions on a license is an important
part of the license referral and resolution processes, as well as an additional means to monitor
certain shipments. Frequently, the conditions are the result of lengthy negotiations among the
referral agencies.

While there are 28 standard conditions that could be placed on an export license, only 7 actually
require the exporter to submit documentation back to BXA concerning any shipment made
against the license. BXA’s Export Administration is responsible for monitoring six of these
conditions, and BXA’s Export Enforcement monitors the other one. However, BXA is still not
adequately monitoring these license conditions, as first reported in the 1993 special interagency
OIG review.

Specifically, we found that BXA’s Export Administration follow-up subsystem was out of date
due to (1) the low priority placed on this function, (2) the improper flagging of licenses requiring
reports from exporters, and (3) the subsystem not tracking two major reporting conditions. As a
result, exporters may continue to receive licenses even though they were non-compliant on prior
licenses. In addition, most licensing officers (except for those responsible for deemed exports and
encryption) are not involved in monitoring conditions placed on the licenses, and they did not
have access to exporters’ compliance history in order to make the most informed decision about
an export license application. By not having an adequate monitoring system, BXA cannot assure
itself that the goods were not diverted to an unauthorized end user, and exporters may receive
new licenses even though they did not comply with previous ones.

We believe that the steps taken by licensing officers involved in monitoring exporter compliance
with encryption and deemed exports license conditions should be used as a best practice by the
other licensing divisions. Specifically, both licensing divisions were closely monitoring conditions
they place on licenses. The encryption licensing staff monitor conditions by making follow-up



                                                184
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



telephone calls to exporters, reminding them of their reporting requirements. They also use this
opportunity to keep the exporters informed about pending policy changes and to find out how
new regulations are affecting their businesses.

In addition, the program director for deemed exports informed us that besides calling U.S.
companies, he was able to perform one on-site visit with a company who had received the most
deemed export licenses over the past several years. Since deemed export licenses usually involve
foreign nationals working for entities in the United States, we believe it should be easy for BXA
to routinely spot-check these companies to physically verify that security procedures are in place
and meet the established criteria to protect controlled technology, and we encourage BXA to do
so.

We also found that BXA’s Office of Export Enforcement was not closing out licenses from its
subsystem after they had expired. After we pointed out the problem, Export Enforcement took
immediate action and began contacting the exporters who held these licenses. However, we
discovered that at least three of the exporters who were noncompliant on old license conditions
from Export Enforcement’s follow-up subsystem continue to receive licenses. Thus, it is
imperative that Export Enforcement perform timely follow-up work to verify compliance among
exporters and uncover any noncompliance. In July 1998, Export Enforcement hired a supervisory
export compliance specialist to, among other things, monitor exporter compliance with regard to
this reporting condition. However, we found no mention of the compliance monitoring follow-up
task in the employee’s performance plan. We recommended that BXA incorporate this
responsibility into the supervisor’s performance plan to ensure accountability. (See Section VII of
our report, page 93, for further discussion of exporter compliance with reporting conditions.)

The remaining 21 license conditions do not require the exporter to submit any documentation or
information to BXA but may require the exporter to perform certain actions or to ensure that
certain rules are followed. For example, one condition stipulates “No reexport of the items listed
on this license is authorized without prior authorization by the U.S. Government,” while another
one stipulates “The items authorized for export by this license/authorization are not to be used by
nuclear end users or for nuclear end uses.” These types of conditions are only monitored when
export enforcement agents perform Safeguard visits overseas or when US&FCS personnel
perform post shipment verifications.

As we mentioned in Question number 12, PSVs give BXA a reading as to whether exporters,
shippers, consignees, and end users are complying with the terms of export licenses and licensing
conditions. PSVs help BXA determine whether goods exported from the United States were
actually received by the party named on the license and are being used in accordance with the
license provisions. BXA focuses its PSVs on shipments that have special conditions attached to
the license to make certain those conditions are being met. In fiscal year 1998, 346 PSVs were
conducted.




                                               185
U.S. Department of Commerce                                                  Final Report IPE-11488
Office of Inspector General                                                               June 1999



Our review found some of the same concerns identified in previous OIG reports with respect to
end use checks conducted by US&FCS. Among these concerns are (1) US&FCS’s use of foreign
service nationals and personal services contractors to conduct some checks, (2) failure to perform
on-site checks, (3) inadequate record-keeping at posts, and (4) insufficient US&FCS coordination
with other parts of the embassy and host governments in conducting checks.

Furthermore, we participated in 10 PSVs and one outreach visit as an observer on Export
Enforcement’s Safeguard Verification trip to Malaysia. Our participation in that trip greatly
enhanced our understanding of how export enforcement agents conduct end use checks. Based
on this trip and our review of Safeguard Verification Trip reports from fiscal year 1998, we
believe this program is a valuable tool because of the “enforcement” element it brings to the end
use check process. However, we have a number of suggestions that could make this program
more effective: (1) better initial trip planning, (2) better in-country consultations, (3) clearer
guidance or a standard format for trip reports, and (4) faster and wider dissemination of
Safeguard check results, especially negative findings. We also believe that BXA should use the
Safeguard visits as an opportunity to better train US&FCS staff on conducting end use checks.
(See Section VIII of our report, page 103, for further discussion of end use checks.)

Finally, we found that BXA’s export enforcement agents conduct outreach visits to selected
exporters in high concern categories to determine how the exporter has complied with license
conditions. Although we did not assess this program, we believe that educating exporters of the
importance of complying with license conditions can be a valuable exercise.




                                               186
U.S. Department of Commerce                                            Final Report IPE-11488
Office of Inspector General                                                         June 1999



                                                                             APPENDIX B


                                      Tier 3 Countries



                      Afghanistan                        Laos
                      Albania                            Latvia
                      Algeria                            Lebanon
                      Andorra                            Lithuania
                      Angola                             Macedonia
                      Armenia                            Mauritania
                      Azerbaijan                         Moldova
                      Bahrain                            Mongolia
                      Belarus                            Morocco
                      Bosnia & Herzegovina               Oman
                      Bulgaria                           Pakistan
                      Cambodia                           Qatar
                      China (People’s Republic of)       Romania
                      Comoros                            Russia
                      Croatia                            Saudi Arabia
                      Djibouti                           Serbia and Montenegro
                      Egypt                              Tajikistan
                      Estonia                            Tunisia
                      Georgia                            Turkmenistan
                      India                              Ukraine
                      Israel                             United Arab Emirates
                      Jordan                             Uzbekistan
                      Kazakhstan                         Vanuatu
                      Kuwait                             Vietnam
                      Kyrgyzstan                         Yemen




                                             187
188
U.S. Department of Commerce                                             Final Report IPE-11488
Office of Inspector General                                                          June 1999



                                                                              APPENDIX C


                                     List of Acronyms


ACDA                  Arms Control and Disarmament Agency
ACEP                  Advisory Committee on Export Policy
AG                    Australia Group
BXA                   Bureau of Export Administration
CBCTC                 Office of Chemical and Biological Controls & Treaty Compliance
CCL                   Commerce Control List
CFR                   Code of Federal Regulations
CJ                    Commodity Jurisdiction
CWC                   Chemical Weapons Convention
DTC                   Office of Defense Trade Control
DTRA                  Defense Threat Reduction Agency
EAA                   Export Administration Act
EAR                   Export Administration Regulations
EARB                  Export Administration Review Board
ECASS                 Export Control Automated Support System
EPCI                  Enhanced Proliferation Control Initiative
IEEPA                 International Emergency Economic Powers Act
LE                    License Exception
MTCR                  Missile Technology Control Regime
MTEC                  Missile Technology Export Control Group
NLR                   "no license required"
NMT                   Office of Nuclear & Missile Technology Controls
NSG                   Nuclear Suppliers Group
OC                    Operating Committee
OEA                   Office of Export Analysis
OEE                   Office of Export Enforcement
OEXS                  Office of Exporter Services
OIG                   Office of Inspector General
SED                   Shipper's Export Declaration
SIES                  Office of Strategic Industries & Economic Security
SNEC                  Subgroup on Nuclear Export Coordination
STFPC                 Office of Strategic Trade & Foreign Policy Controls
WA                    Wassenaar Arrangement




                                            189
190
U.S. Department of Commerce         Final Report IPE-11488
Office of Inspector General                      June 1999



                                          APPENDIX D




                              191
U.S. Department of Commerce                                                                           Final Report IPE-11488
Office of Inspector General                                                                                        June 1999




         new interagency export control system. I have no doubt your support will be helpful in obtaining
         funds for this project from the Appropriations Committees.

         Third, the question of cumulative effect analysis deserves further study. We believe that it properly
         belongs as part of our regular list review exercise rather than something that should be undertaken
         with respect to individual license application. Either way would require new resources for BXA, but the
         requirements would be far larger if we undertook such analysis as a part of each licenses application.

         Fourth, we have some concern that your answers to Senator Thompson’s questions do not precisely
         track the body of the report. Obviously, the report will be a more detailed and more nuanced document
         than answers to questions, but since the Senator is likely to use your answers as points of departure for
          his further work, it is particularly important that they accurately reflect the full substance of your report.
         We provide some specific suggestions for the answers at Tab C.

         Fifth, I am concerned that virtually none of your recommendations, whether we agree with them or not,
         include any assessment of their budgetary impact. None are cost free, and many would require substantial
         increases in our budget. Without an appreciation of the cost of neither the Congress not the Department
         can endorse them. To be fully responsive to the Congress and to be a document with the most impact,
         we believe that this is a critical shortcoming that needs correction. We would be pleased to work with
         your staff in developing cost estimates.

         Finally, your report notes that you found BXA’s managers, licensing officers, and systems personnel to
          be cooperative. I am not surprised as our policy is one of full support to the activities of the I.G.
         Your report goes on to note the terrific strain that the agency has been under in the past year in trying to
         respond to the literally hundreds of requests for information that we have received from outside
         organizations. You correctly point out that BXA personnel felt under siege during this period. However,
         I am disappointed that you go on to state that BXA personnel “were somewhat defensive in responding to
         our request for information.” I am sure that there were cases where you did not get information as quickly
         as you would have liked, but I can assure you that, even with all the conflicting claims for time and
         resources placed on the staff, nothing we did took a higher priority than being responsive to your analysts.

         Again, thank you for the opportunity to review your draft. I hope that our comments will be
         useful as you prepare your final report.



         Attachments




                                                             192
U.S. Department of Commerce           Final Report IPE-11488
Office of Inspector General                        June 1999




                              Tab A




                                193
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999




            BXA COMMENTS ON THE RECOMMENDATIONS OF THE DRAFT REPORT
                      OF THE OFFICE OF THE INSPECTOR GENERAL:
         IMPROVEMENTS ARE NEEDED TO MEET THE EXPORT LICENSING REQUIREMENTS
                            OF THE 21ST CENTURY (IPE-11488)


       LEGISLATIVE AUTHORITY, EXECUTIVE ORDERS, AND REGULATIONS

       1. Continue to work closely with the Congress and the Administration to renew legislative
       authority.

       Agree. We are actively working with the Congress and have testified several times on the
       importance of renewing the Export Administration Act.

       2. Work with Congress to revise the current NDAA requirement to conduct PSV for every
       computer in Tier III.

       Agree. We concur that this requirement is a waste of enforcement resources and are seeking
       correction by the Congress that will permit us to focus checks on transfers of concern.

       Conducting a post shipment verification for every computer with a composite theoretical
       performance exceeding 2,000 millions of theoretical operations per second (MTOPS) diverts
       enforcement resources from other activities that contribute more to our non-proliferation goals.
       In the first year of NDAA implementation, end users in the communications, utilities and
       financial industries received a majority of the high performance computers exported. A U.S.
       government employee has to visit all of these end users no matter how well known, and
       no matter how many times they have been visited in the past, to judge whether their computers
       are being used for weapons development. As a result, the burden of these visits becomes
       disproportionate to the benefits derived from them. When NDAA was passed, the PSV
       requirement affected some mainframes, high end workstations and powerful servers. As of
       May 1999, several manufacturers have introduced dual processor desktop workstations that
       exceed 2,000 MTOPS and top-of-the-line personal computers that exceed 1,200 MTOPS.
       At the rate computer performance is growing, export enforcement will soon be expected to
       verify the end use of personal computers that are sold by the millions.

       3. Request the NSC to clarify the appropriate level of Representation at the ACEP.

       We agree that our advisory agencies need to improve the level of representation at the ACEP
       and are working with them toward that end. We do not believe that this issue needs to be
       referred to the NSC. Additionally, we believe that the cited language that Energy relies upon to
       send less that assistant-secretary representation is taken out of context. The EO intended to
       provide for the absence of the correct person by making it clear that someone with the full




                                                      194
U.S. Department of Commerce                                                                Final Report IPE-11488
Office of Inspector General                                                                             June 1999




       authority of the assistant secretary may attend and vote. This ability to send an “acting”
       official in the absence of the correct official is far different from routinely sending a
       “designee” when the right one is at work and in town. The report should address the validity
       of the BXA position on this point.

       4. In conjunction with the NSC, seek a modification to ACEP procedures to deal with
       decisions that may result in a tie vote.

       Agree. This review is already underway in the NSC.

       5. Coordinate with the NSC in clarifying the goals of the deemed export licensing
       requirement and modify the policy and regulations accordingly.

       While your draft report points out some of the ambiguity surrounding this provision and
       possible uneven compliance by U.S. companies and other federal agencies, it ignores the
        most serious aspect of the issue which is the current standard being employed for triggering
       “deemed export” license applications. The current standard requires an export license for
       hiring a foreign national when he or she will be exposed to technology in the United States
       that would require export authorization if it were to be transferred to his or her home country.
       U.S. industry has suggested an alternative that relies on the exporter's knowledge of a potential
       export, i.e., knowledge that the foreign national being hired will return to his or her home
       country. There are also concerns with Constitutional issues involved in the application of the
       current standard dealing with prior restraint of free speech. We believe that modifications to
       our present requirements should appropriately await the resolution of these issues.

       6. Develop outreach programs on “deemed exports.”

       We regularly include the “deemed export” provisions of the EAR in our seminar and outreach
       activities and will ensure that this subject is covered fully in our programs with the DOE labs.
       We are prepared to expand these efforts once the issues noted above are resolved.

       COMMODITY CLASSIFICATIONS

       7. Make the commodity classification process more timely and transparent by:

                a.       Ensuring that the front end review process is continued.

                Agree. We have the front end review process in place to improve the timeliness and
                consistency of commodity classifications.




                                                       195
U.S. Department of Commerce                                                                Final Report IPE-11488
Office of Inspector General                                                                             June 1999




       b.       Reemphasizing the importance of processing commodity classifications in a timely
                manner and hold licensing officers accountable.

       Agree. Our goal is to complete all commodity classifications within the fourteen days
       stipulated in the EAA. This has been difficult in recent months due to the demands placed
       on the agency by external interests. We are hopeful that the requests for information from
       the Congress and other agencies and the public will return to traditional levels, allowing us to
       reallocate our resources to our normal functions.

       c.   Program ECASS to allow commodity classifications to be put on “hold without action.”

       This is an interesting suggestion that we will review as we balance the interest in timely
       completion of commodity classifications with the need for accurate time accounting.

       d.   Improve intra-BXA referral of commodity classifications between divisions.

       Agree. As part of the front-end review, we have developed guidelines to ensure that
       commodities covered by more than one division are properly referred to all interested parties.

       e.   Commodity classification referral criteria needs to be clarified.

       Agree. We concur with your recommendation that the NSC 1996 memorandum should be
       revisited to clarify the guidance on the referral of commodity classifications and munitions
       licenses. While we are prepared to continue to refer commodity classifications requests to
       Defense and State “for items/technologies specifically designed, developed, configured,
       adapted and modified for a military application...,” we disagree with some of your analysis.

       !    First it is important to note the fundamental difference between CCATS and license
            applications. The former are technical determinations that can and should be divorced
            from policy or politics. Basically, a CCATS determines what a product is and where it
            appears on the CCL. Whether or how an item appears on the CCL is an empirical
            judgment well within the expertise of a BXA licensing officer and should not be the
            subject of interagency negotiation. On the other hand, licensing determinations are
            policy decisions on whether a certain export should be approved or not. These are
            fittingly interagency decisions, as the perspectives of different agencies are important
            in these policy decisions.

       !    With respect to commodity classifications, the extensive review of these by DOD and
            BXA resulted in DOD acknowledging that it had no disagreement with the Commerce
            decisions in 98 of the 103 classifications reviewed. For the remaining five, BXA
            contends that only one case was improperly classified, though the net practical result




                                                        196
U.S. Department of Commerce                                                                    Final Report IPE-11488
Office of Inspector General                                                                                 June 1999




           would have been to require a license application in any case. For the four with which
           DOD took issue, BXA continues to stand by its classifications. Regardless of whether
           one accepts BXA's or DOD's conclusions about the analysis, in either case the high level of
           accuracy argues strongly for leaving the system as it is. (We were surprised
           that in your review, the IG did not reach an independent assessment of the accuracy of BXA's
           referral, but, rather, simply reported the dissent by DOD.)

       !   Nevertheless, under the NSC guidance of 1996, we referred 27 cases to DTC. You
           report that DTC claims to have only received 21 cases. Under separate cover, we have
           provided your office with the complete list of all 27 classification requests provided to
           DTC, and we stand by that number.

       !   As you point out in your report, part of the 1996 NSC decision directed the State
           Department to refer to BXA any munitions license applications that might more properly be
           controlled under the CCL. To date we have received no such referrals. You point out the
           additional issue of the items controlled as dual-use commodities by our allies and the
           multilateral export control regimes being controlled as munitions in the United States.
           Certainly these are areas where greater transparency would serve both the public and our
           foreign policy interests well. As the Department of Defense becomes increasingly dependent
           on commercial-of-the-shelf procurement, the viability of the commercial sector (whose growth
           has been export driven) becomes a national security issue. Commerce's involvement in those
           dual-use licenses currently under State's jurisdiction is appropriate.

       !   Finally, you make mention of the investigative report on the crash of a Chinese rocket
           carrying a commercial communication satellite under Commerce's jurisdiction. You use this
           as an example of an incorrect commodity classification. Of course this was not a true
           commodity classification at all but part an export license which had been referred to the other
           agencies. The licensing officer's error was to inform the exporter that the
           information it wished to convey was covered by the license, when in fact it probably
           needed a separate authorization from State. The fact that the licensing officer used a
           CCAT form to convey this information does not change the fact that it related to an export
           license and was guidance on the scope of the specific validated license. We suggest you drop
           this example of a licensing effort from your discussion of commodity classifications.

       GUIDANCE AND TRAINING FOR LICENSING OFFICERS

       8. Provide a check list for licensing officers and require them to include the dates of the most
       recent approval or denials in the licensing history.

       Pursue. We are willing to explore the implementation of these suggestions. As each case is
       unique, it is not clear that any specific check list or list of questions will fit every contingency.




                                                         197
U.S. Department of Commerce                                                                 Final Report IPE-11488
Office of Inspector General                                                                              June 1999




       Nevertheless, as part of our training of licensing officers on case analysis, we will pursue the
       development of such a list with them. Licensing officers are encouraged to provide full support
       of their licensing recommendations/decisions. In most cases, past licensing history will be relevant
       and should be included in the analysis. Recent guidance issued to the LOs on Case Analysis
       requires that past licensing history be considered.

       9. Update policies and procedures regularly and fully implement the BXA electronic library.

       Agree. As your report notes, we have recently augmented our policy and procedural guidance to
       the licensing officers and will continue to do so. The electronic library is nearing completion and
       will go far in improving the consistent and timely provision of guidance to licensing officers.

       10. Develop and implement a training program for BXA licensing officers.

       Agree. Though we disagree with your finding that BXA “has not emphasized the need to develop
       and maintain a corps of highly qualified LOs......” we do recognize that the current diversion of
       resources to respond to the extraordinary requests for information placed on the agency has
        impacted our ability to conduct formal training programs. Accordingly, the Licensing Officer
       Task Force is organizing an extended formal training program for all licensing officers that will
       include briefings by other agencies, including the NPC. One such session was already conducted
       with other agency representatives last fall. Though mentioned in your report, we do not think your
       report makes clear that the primary method for training licensing officers (especially new ones) is
       On-The-Job in concert with a senior licensing officer. This is central to our commitment to “a corp
       of highly trained LOs.” We will continue this approach, as well.

       In part, your analysts may have reached their conclusions about LO training as a result of
       comparing the training programs of EE and EA. EE, with two-thirds of its staff in the field, has
       standard job requirements among its special agents and intelligence analysts, which enables it to
       conduct extensive, formal, systematic, centralized training. EA, with its widely different areas of
       expertise and responsibilities, must tailor its training on a more individual basis. Nevertheless,
       more training is desirable, and we do not argue with the basic thrust of your recommendation.
       It is ironic that this recommendation comes at a time when budgetary constraints on the agency
       not only limit our ability to expand training but will force us to cancel certain planned activities.

       LICENSING REFERRAL PROCESS

       11. Instruct LOs to follow BXA's referral procedures, including amendments.

       Agree that amendments to referred cases should be referred themselves. However, as
       mentioned above, we believe that the review conducted by your office demonstrated conclusively
       that BXA refers cases with an exceptionally high degree of accuracy. And shows that in every
       case BXA made the correct decision with respect to agency referrals and nonreferrals. While you




                                                       198
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999




       have contended that we did not refer three India cases to DOD that we should have, our review
       shows that these were items destined for end users on the Entities List and that we appropriately
       denied them without referral. We had informed DOD of our intention to deny such cases. While
       we never received a response to our letter, we contend that we acted appropriately and have not
       received any objection to our proposal from DOD. Though many amendments are inconsequential
       and do not affect the what is to be exported or to whom, we will consider issuing new guidance
       requiring that they be routinely referred regardless of the insignificant nature of the amendment.

       12. Strengthen the role of the Intelligence Community to include: a) referring all cases,
       b) assessing the risk of end users, c) obtaining more detailed information, and d) providing more
       review time.

       We can agree with all of your suggestions in items (a)-(d), with the possible exception of
       providing for additional review time. However, we note that all of your recommendations are
       resource intensive, and we defer to the intelligence community on the costs and feasibility of
       implementing your suggestions. With respect to additional time, this too is really a resource issue,
       as increased resources at the NPC would permit a more timely review of license applications.
       Obviously, additional time for review must be reconciled with the competitive realities that U.S.
       exporters face and their need for prompt decisions from the government.

                “e) Track and assess the cumulative effect of dual-use exports.”

                We concur that this is desirable; though, difficult. We believe that the assessment of
                cumulative effect should be made in the list review process, not on each individual license
                application. Cumulative effects result not only from the transfer of items under approved
                licenses but also occur as the result of the provision of items not requiring a license. Perhaps
                most importantly, cumulative effects also occur as the result of shipments from foreign suppliers
                that would not be caught by our licensing system. Nevertheless, we agree with your position
                and have included as part of our 2001 budget request the resources that we would need to
                conduct such assessments.

       13. Require LOs to document why an NPC referral is necessary when it is outside the MOU.

       Of course, if we adopted your recommendation to refer all applications to the CIA, this
       suggestion would become moot. We encourage LOs to refer cases to the NPC whenever they
       have doubts about the parties to the transaction. Current guidance, which we will reiterate, calls
       for documenting the reasons way such referrals are made when the established guidance would
       normally preclude referral.

       14. Review State's “pullback” profile.

       Agree. However, as State has requested to review certain cases under the E.O., it is incumbent
       on that agency to determine how to meet its own responsibilities. Obviously the solution lies in a




                                                      199
U.S. Department of Commerce                                                                Final Report IPE-11488
Office of Inspector General                                                                             June 1999




       combination of giving licensing review greater priority and more resources, improving internal
       efficiency, and/or cutting back on its work load through greater delegation back to Commerce.

       15. Update the 1993 MOU between BXA and Customs to provide for TECS screening of
       pending license applications.

       Disagree. Since the IG's last recommendation to BXA on this issue, Customs has provided BXA
       with data to add to its watch list, and OEA has provided that data (on disk) to the Office of
       Administration to load into Enforce for daily screening. As of April 1999, Administration has
       had this data and is working to ensure that all of this data is uploaded properly into Enforce to
       perform exactly the screening function that the IG has recommended. Therefore, we do not
       believe the alternative solution recommended by the IG is necessary.

       16. Notify Referral Agencies when pre-licensing checks (which were licensing conditions) are
       canceled.

       Agree.

       DISPUTE RESOLUTION PROCESS

       17. Ensure the independent licensing decision-making authority of the OC Chair.

       We do not read your report as finding significant problems with management influence over
       the vote of the OC Chair. Thus, we are a bit surprised that it results in so much discussion in
       your report. The Chair of the OC is a Commerce employee and as the E.O. itself indicates is
       not intended to be entirely impartial. (See Section 5(b) of the E.O. which states, “If any
       department or agency disagrees with a licensing determination of the Department of Commerce
       made through the OC, it may appeal the matter to the ACEP for resolution.” (Emphasis added.)

       Of course, the OC Chair reports to the DAS and AS of EA, and both have a responsibility to
       ensure that the OC Chair carries out her responsibilities efficiently and in concert with U.S. law.
       In this regard, both have from-time-to-time instructed the OC Chair to bring a case review to
       closure by making a decision (e.g., where the loss of a sale is imminent or a case has exceeded
       the time frames of the E.O.) In addition, both have instructed the OC Chair on the provisions of
       the regulations or on changes in U.S. licensing policy to ensure that her actions are consistent
       with USG rules and policies. We saw nothing in your report that would recommend or lead to
       a change in this oversight.

       Both the DAS and AS have encouraged the OC Chair to make decisions consistent with the
       EAR and U.S. licensing policy, even if that means voting against the position of the BXA
       representative or the majority of agencies in attendance. Your own analysis appears to
       support this contention. You may wish to revisit this section.




                                                       200
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999




       18. Work with advisory agencies who have delegated decisions to BXA to deal with their
       representation at the OC so that cases are not unnecessarily delayed.

       Agree.

       19. Let the OC become, a "one-stop shop" for licensing decisions brought before that body.

       This is a complex issue that is currently under review by the Licensing Officer Task Force.
       BXA needs to carefully balance the desire for efficient processing with quality and vulnerability
       controls. By foregoing review and countersigning by the technical licensing offices,
       BXA may compromise its ability to ensure the accuracy and consistency of licensing
       decisions and their regulatory sufficiency. In addition, by foregoing meaningful
       countersigning, BXA exposes itself to possible improper licensing actions. However, we
       continue to review this matter toward overall improvement of our processes.

       EXPORTER APPEALS PROCESS

       20. Include Referral Agencies in the Appeal Process

       We do not in principle object to your major recommendation that the other agencies be
       brought into the appeals process in a more formal way, and we are prepared to work with
       the NSC on this matter.

       The concern you expressed about deciding cases informally in lieu of action by the
       Under Secretary is not well taken. In the single case that you cited, the exporter was clearly
       told that if action by the OC did not produce a favorable result, the Under Secretary would
       address the issue, favorably or unfavorably, in the appeals process. Additionally, the appeal
       was not closed until after the interagency decision to grant the license was completed. The
       Under Secretary was prepared to address this appeal at his level, but that became unnecessary
       as the case was settled without his action. The exporter did not lose his appeal right. To follow
       your recommendation in situations like this one would only delay a case's resolution and
       prolong the exporters uncertainty.

       MONITORING OF LICENSE CONDITIONS

       21. Improve BXA's monitoring of license conditions.

       Agree. BXA has recently implemented a new Licensing and Enforcement Action Program
       designed to deal with the vast majority of the problems with assigning conditions and their
       follow-up. We are proposing additional resources to fully implement the program. In the
       meantime, we will take steps to improve our implementation of conditions, including their
       monitoring, consistent with budgetary realities.




                                                      201
U.S. Department of Commerce                                                                Final Report IPE-11488
Office of Inspector General                                                                             June 1999




       With respect to the recommendation to perform timely follow-up work on licenses with
       condition “14.” We disagree with the recommendation to incorporate this responsibility as a
       specific function of a supervisory export compliance specialist's performance plan. OEA has
       specific written instructions in place for the individual to perform this function. BXA believes
       the written instructions are sufficient without making them part of the performance plan.

       END USE CHECKS

       22. Improve timeliness and quality of EUCs performed by US&FCS

                a.       Work with the Assistant Secretary and Director General for US&FCS to improve
                         the timeliness of pre-licensed checks conducted by US&FCS posts.

                Agree. We will continue to work with the US&FCS on this issue as we have in the past.
                BXA implemented the 1997 IG recommendation to include an information copy of every
                outgoing PLC request cable and follow-up cable to ensure FCS management was aware of
                delays on the completion of PLCs at overseas posts. In addition, BXA always highlights the
                importance of timeliness on PLCs in briefings to all overseas post personnel prior to their
                placement overseas. Also, this point is specifically highlighted in BXA's PLC-PSV guide
                sent to all posts.

                b.       Provide clearer and concise guidance to the US&FCS and its overseas posts
                         regarding the use of foreign service nationals and personal service contractors to
                         conduct end use checks. Revise the PLC/PSV Handbook accordingly and make
                         sure that it is sent to all US&FCS posts .

                Agree. We will redraft the PLC/PSV Handbook to eliminate the perceived ambiguities.
                We will make clear when use of an unaccompanied non-USG employee, non-U.S. Citizen is
                merely undesirable and when it is unacceptable. We will reiterate our clear policy preference
                for having a U.S. citizen/U.S. government employee present at all checks.

                c.       Communicate more with US&FCS posts about the importance of (1) identifying
                         who conducted an end use check in their reporting cables (see page 96);
                         (2) conducting onsite visits for each end use check (see page 97); and (3) retaining
                         proper end use check records for five years, the statute of limitations for Office of
                         Export Enforcement investigations.

                Agree. After US&FCS clearance, we will send a cable to all US&FCS Posts reminding them
                of these points. In addition, we will reiterate these points when meeting with FCS personnel
                prior to their departure for a new post or when visiting BXA while on home leave.




                                                       202
U.S. Department of Commerce                                                              Final Report IPE-11488
Office of Inspector General                                                                           June 1999




               d.       In the PLC/PSV Handbook, specifically list embassy sections by name that
                        US&FCS should confer with on end use checks and include suggested questions
                        for each sections .

               Disagree. We will continue to recommend that FCS check with all appropriate sections at post.
               However, US&FCS personnel stationed at a post are in a better position than BXA personnel in
               Washington to be aware of which sections of a particular post are likely to have useful
               information about an end user in that country.

               e.       Provide periodic regional training seminars and workshops to keep US&FCS staff
                        abreast of current developments in export controls and BXA regulatory procedures.
                        Also consider using the Safeguard Verification program as a mechanism to train
                        US&FCS staff.

               Agree. One issue that will have to be decided is how this proposal will be funded. While
               periodic training is always an excellent idea, neither Export Enforcement nor BXA as a whole
               are currently in a position to fund the travel of FCS officers to the proposed seminars. In the
               meantime, EE Safeguards teams will provide training at posts they visit to the extent possible.

       23. Develop guidance for EE agents for Safeguard Verifications

               a.       Criteria to help guide agents in selecting which PLC/PSVs to do, targeting
                        countries and shipments and greatest concern.

               Agree.

               b.       A template or standard format for agents to follow when preparing
                        Safeguard trip reports.

               Agree.

               c.       A requirement that the Safeguard verification teams meet with host government
                        officials involved in local export control or enforcement areas as well as U.S.
                        embassy personnel who might be knowledgeable of proliferation threats or diversion
                        activities associated with the specific country, to determine what export control
                        programs the country has, how effective they are, and the country’s relationship with
                        countries of concern.

               We disagree that this should be a requirement but agree that it is valuable where feasible.
               The feasibility of meeting varies from country to country and will depend on the interests
               of the host government and U.S. Embassy or Consulate officials.




                                                     203
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999




                d.       A suggestion that photographs be taken of the sites and commodities
                         inspected, when appropriate, during the course of their verifications to be
                         included in their reports.

                Agree. While we do not believe that this should be a requirement, we agree that it is valuable
                where appropriate.

                e.       Procedures for the prompt reporting of unfavorable Safeguard results
                         (see page 101).

                Agree.

       24. Distribute list of safeguard trip reports to NPC and US&FCS

       Ensure that the CIA's Nonproliferation Center and the appropriate US&FCS posts are
       on BXA's distribution list for all Safeguard trip reports. These reports should be forwarded
       to the CIA's Nonproliferation Center in an electronic format (see page 102).

                Agree. The Office of Export Enforcement is currently working with the Office of Executive
                Support to make the Safeguard trip reports available to the Nonproliferation Center in an
                electronic format. Our ability to distribute these reports to the posts, however, is contingent
                upon the US&FCS agreeing to appropriate procedures to prevent their improper dissemination.

       OTHER OIG CONCERNS

       25. Notify referral agencies of all negative PLCs

       We agree with the thrust of your recommendation and will inform our advisory agencies when
       we get a negative result to a PLC on a case that had been referred to them, understanding that
       this additional information may affect their position on the application.

       Your report also discusses 2,130 RWAs in FY 1998, in which you found only three instances
       when a case was RWA'd when a negative PLC existed. Each of these is an exceptional case and
       appears to have been appropriately RWA'd. An RWA is not permission to export for items
       requiring a license.

       In the first case, due to the delay in completing the PLC and the age of the case (six months),
       the LO recommended that the case be RWA'd when the PLC determined that the ultimate
       country of destination appeared to be different than that specified on the license. EE concurred.




                                                      204
U.S. Department of Commerce                                                             Final Report IPE-11488
Office of Inspector General                                                                          June 1999




       In the second case, the transaction involved EE and Customs concerns about a U.S.
       representative of the foreign party involved in the transaction. The case was closed with no
       derogatory information about the consignee. However, by the time the investigation was
       completed, the order had been lost and the applicant asked for the case to be RWA'd. Again,
       EE concurred.

       In the third case, the PLC determined that the goods had already been shipped. Consistent
       with BXA policy not to take a licensing action on a shipment that has already been made, the
       application was RWA'd and the matter turned over to EE for investigation of a violation of the EAR.

       26. Ensure the timely completion of license determinations

               a.       Institute a front-end review

               Agree. Done.

               b.       Process in a timely manner

               Agree. Your report points out that LDs take an average of 36 days for EE and 24 for
               Customs. (It is interesting to note that CCATS take a comparable length of time (37 days),
               which is not surprising as they involve similar kinds of analysis.) The reasons for delay are
               also similar as those for CCATS--lack of necessary technical information which EE agents
               must obtain from the manufacturer, the press of other activities (FOIAs, Congressional
               requests, licenses, etc.), and inadequate resources. Nevertheless, EA is committed to
               improving its responsiveness (both for CCATS and LDs). As you noted yourself in your
               report, many of the process modifications described above for CCATS will also benefit the timely
               processing of LDs.

               c.       Program ECASS to allow LDs to be put on HWA

               As with CCATS, we will investigate the costs and benefits of this recommendation further.
               Putting cases on HWA does permit the time tracking system to reflect when the work on Lds
               has stopped due to the need to get additional information from the exporter or special agent,
               but it can also affect the time disciplines imposed on the agency.

               d.       Issue written procedure for assigning LDs to be reviewed by multiple divisions.

               Reviewing. The assignment of LDs is currently being managed by the new front-end process.
               Based on the experience gained from this effort, we will develop written instructions as
               appropriate.




                                                       205
U.S. Department of Commerce                                                                 Final Report IPE-11488
Office of Inspector General                                                                              June 1999




                e.       Implement draft guidance.

                Agree. Done.

                f.       Develop written agreements between EA and EE and Customs

                Agree. Done with EE. Will undertake with Customs.

                h. [sic--should be "g"] Automate referral of LDs between Customs and EA

                Agree. We started this two years ago but had to curtail due to budgetary constraints.
                Budget permitting, we will recommence this effort.

       ECASS

       28.      Work with the Department, OMB, and Congress to obtain a commitment to fully fund the
                chosen option to replace ECASS (see page 122). As part of its new system development
                effort, BXA needs to:

                a.       Establish a project management “team,” including a full-time project director, as
                         soon as possible to oversee development and implementation of BXA's new
                         information database system.

                         Agree. We have formed an interim team with a project manager. In the absence
                         of funding, the team is limiting activities to developing a project plan and risk
                         mitigation strategies. If and when ECASS funding becomes available, a full time
                         project manager and team staff will be hired.

       29.      Prepare a cost benefit analysis for developing a classified database system with software
                upgrades that could be made to allow better interface capabilities with the referral agencies'
                licensing systems at a later date.

       We have already conducted a cost benefit analysis as part of our work with Booz Allen and
       Hamilton. While we do not believe that a further, formal analysis is necessary, system
       security is of the utmost importance to us and will be a major component of the new system
       architecture. With the advancements that have been made in commercially available
       encryption in the past couple of years, we should be able to encrypt our system at reasonable
       cost in a fashion that will enable us to deal with sensitive materials in our redesigned system,
       and we will be exploring this option fully. Our plan for hiring a full-time project team, if we
       receive full funding for ECASS, includes a position for a security expert for this system.
       This person will assist us in working through the myriad of security issues that we must
       consider, including the cost-benefit analysis.




                                                       206
U.S. Department of Commerce                                                             Final Report IPE-11488
Office of Inspector General                                                                          June 1999




               c.       Coordinate BXA's system development efforts with the other export licensing
                        agencies. Encourage these agencies to establish an interagency steering
                        committee to review the automation portion of the export licensing process from
                        coordinating common system architecture requirements to determine how
                        interagency resources can be used to fund and implement a new system.

                        Agree. Our ITSC has already recognized the importance of this and has had initial
                        discussions with our counterparts. We will continue this process to ensure the full
                        interoperability and compatibility of our systems.


               d.       Evaluate the most viable options for the location of BXA's computer operations.
                        Specifically, BXA should look at the possibility of continuing at its current
                        facility, or service by another Commerce center, another federal center,
                        outsourcing, as well as creation of an in-house BXA center. No matter which
                        option BXA selects, it must obtain departmental approval to leave the Springfield
                        Computer Center and move to the selected option.

                        Agree. BXA is choosing Oracle as the new database management system and,
                        in so doing, we gain the flexibility to run anywhere and on any hardware platform.
                        We will evaluate the most viable option regarding the location of the computer
                        operation and gain Departmental approval for the selected option.

       30.     Take the following actions necessary to implement or strengthen the internal controls for
               ECASS, including:

               a.       Provide a duplicate read-only tape to the Undersecretary for Export
                        Administration every 90 days, highlighting any changes that might be made by
                        lower ranking BXA personnel.

               Agree.

               b.       Maintain paper license applications for at least 90 days.

               Agree. This is current practice.

               c.       Establish criteria for reopening closed cases in the system.

               Agree. We will establish written criteria in this area.




                                                     207
U.S. Department of Commerce                                                              Final Report IPE-11488
Office of Inspector General                                                                           June 1999




               d.       Ensure that the electronic audit trail is more complete.

               Agree. If funding is approved for the new system then this improvement will be a
               requirement of the new system. If funding is not received we will incorporate it into
               ECASS. Incorporating this feature into the present ECASS will require a major
               modification and considerable resources. For this reason we are delaying action until
               we know status of funding for a new system.

               e.       Have the database administrator assign data element responsibilities to
                        individuals throughout the organization.

               Data accuracy is certainly a priority and concern for BXA. However, it may not be
               practical to assign ownership of every field to an individual. For example, the field
               containing the final recommendation can be assigned to EA but it cannot be assigned to
               just one person unless that person is the Assistant Secretary or Deputy Assistant Secretary
               for EA. We primarily assign ownership of data elements to organizations or subunits.

               f.       Designate an official database review board.

               We are unclear how this would work or what problem it is designed to rectify. We are
               not sure what this board would do in addition to those functions assigned to the BXA
               Chief Information Officer.

               g.       Establish a standards development group to develop appropriate database
                        standards including data definition, data documentation, passwords, and writing
                        and testing programs.

               Agree. This will be part of the system design effort, if funded, and will be headed by BXA's OIC.

               h.       Designate a team to periodically review the internal controls and risks associated
                        with BXA's system, about once a year or when conditions materially change.

               Agree.

               i.       Require the database administrator to reorganize the database every year.

               Agree.




                                                      208
U.S. Department of Commerce                                                              Final Report IPE-11488
Office of Inspector General                                                                           June 1999




               j.       Consider the feasibility of one data entry clerk's work being reviewed by another
                        before it goes into the database, or contract this function out.

               While we are willing to consider this, we are hopeful that data entry automation innovations,
               such as SNAP, will preclude the necessity of implementing this procedure. We will monitor
               this closely.

               k.       Reestablish the old “User Meetings” between the operations staff, licensing
                        officers, and information technology staff to discuss issues and identify and
                        resolve problems quickly.

               Agree.

               l.       Take steps to reduce the number of duplicate codes in the database including an
                        extensive archiving effort to retire a large number of duplicate identification numbers.

               Agree. This will be part of our next archiving process. If the new system is funded,
               exhaustive efforts will be made to preclude duplicates from migrating to the new system.

               m.       Determine why some cases were issued without codes or Exporter Commodity
                        Classification Numbers and make sure that all cases have such numbers in the future.

               We have researched this issue and found that it occurred in only a minimal amount of cases
               and has not occurred at all since 1996. We have tried, without success, to determine how
               these cases were issues without codes or ECCNs. We are not hopeful that more attempts will
               meet with success. However, we have taken steps to give us a quick alert if it ever does.

               n.       Update the current continuity of operations plan to include all appropriate manual
                        and system contingency processes as soon as possible.

               Agree. We are currently working on the update of the COOP.

               o.       Establish a risk management team to identify and assess the severity of risk in
                        BXA's database environment, or have a contractor perform the risk analysis.

               Agree. A vulnerability assessment team will be formed and this team will perform this
               assessment in FY 2000.

               p.       Send a “network message” to emphasize that all database problems should be
                        reported via the hotline.

               Agree. Done.




                                                     209
U.S. Department of Commerce                                                              Final Report IPE-11488
Office of Inspector General                                                                           June 1999




                q.       Prepare a BXA system security plan.

                Agree.

                r.       Perform periodic security reviews.

                Agree.

                s.       Officially assign the security duties of BXA's computer system to BXA's
                         security officer.

                Agree. Done.

                t.       Provide all ECASS users with current security training.

                Agree.

                u.       Develop a communication link to immediately notify the Springfield Computer
                          Center of terminated or transferring employees so that system access can be
                         promptly revoked or modified, by the end of each working day.

                Agree. We will continue to communicate with Springfield in writing, by phone and email to
                provide this information.

                v.       Restrict the number of BXA employees with file manager access.

                Agree. File manager access will be restricted to only the database administrator and a backup
                administrator as recommended.

       ADDITIONAL COMMENTS

       Page #

       6        In the Background section (page 6), you refer to the establishment of BXA in 1987,
                caused in part because of the concern that the export control function should not be
                part of the export promotion agency--ITA. You go on to say, “Despite the separation,
                there is still much debate about whether the Commerce Department and BXA
                maintain the appropriate balance between promoting U.S. trade and exports and
                controlling the export of goods and technology that could be detrimental to our national
                security interests.” While we concede that periodically this issue is raised by those
                unhappy with U.S. export control policy, in fact there has been little debate about this
                issue since 1987. As you provide no data to support your contention and do nothing




                                                      210
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999




               more with it in your report (i.e., provide any analysis or recommendations), we suggest
               you delete this reference from your report.

       29      Para 2. The argument here misses the forest for the trees. Rather, than highlighting
               a problem with the inefficiency of end use checks, the real point here relates to the
               futility of certain export controls in the area of networked computers.

       32      Para 1. The IG should make clear that this is not an inadequacy of the export control
               system. Academic freedom, protected by the First Amendment, is beyond the scope of
               export controls.

       32      Para 4. That DOE considers the deemed export rules difficult to interpret is not
               surprising or relevant. The IG should not give credence to DOE's contention that
               federal funding equals “publicly available” treatment under the EAR.

       34      Para 1. First sentence. Your report should note industry's responsibilities for
               classifying their own products and, thus, for determining their responsibilities under
               the EAR. This is not solely a BXA role.

       36      First full para., beginning “Second...” Penultimate sentence says that the IG has
               been told misunderstandings have occurred resulting in processing delays. Did you
               identify any? It is inappropriate to make allegations like this without disposing
               of them by determining whether or not there was any evidence for them.

       39      2nd para. last line. somehow “disagreements” have become BXA “mistakes”.
               This is unfair. If we made a mistake, the IG should say so and say why. Otherwise,
               it should continue to be a disagreement.

       44      Second full para. Reference to our March 31 updated guidance should be made earlier.
               Otherwise, the reader will assume we have done nothing for several pages until he gets to this
               point.

       46      Para 1. To state that we have a new LO with no training is misleading. On-the-job
               training conducted by working under the guidance of an experienced LO is relevant
               and should be considered as training. The comment, as is, implies that someone
               fresh off the street is making uninformed decisions. This is not true

       55      Second para. under B. should make clear that this is at the insistence of the NPC
               not BXA. BXA is more than willing to send them more requests. This is implied later
               on but should be explicit here.




                                                      211
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999




       57      Para 2. NPC statement that BXA does not understand “intelligence” information
               should be removed. This most likely represents the opinion of a particular CIA
               employee and does not represent the position of the agency. It is self-serving for
               the IG to include this. It is also inconsistent with what the CIA considers its primary
               objective (as stated on p 55, para 1, last sentence).

       61      Second para. from bottom. As a presentational matter it would be more balanced if
               the IG would state the reasons for BXA's objection to this recommendation up front
               rather than solely in the context of refuting them in later pages.

       62      First paragraph under “Customs involvement....” Last sentence says, “... we learned
               during our current review that this has not happened.” Why not? Your report should
               discuss what you found out about why Customs hasn't delivered on its promises.

       71      Para 3. Last sentence. “...voting at the meeting” implies agencies abstain at the
               ACEP. In fact, they do not.

       83      1st para. A. (1) The Office of Exporter Services does not place a low priority on
               maintenance of the follow-up subsystem; however, full support is resource dependent.

       84      1st para. The IG reported that the employee told them that she had not received any
               written procedures or guidelines for maintaining the subsystem. The employee
               either misspoke or was incorrectly quoted. When the employee assumed the follow-up
               functions, the employee received written and verbal instructions and formal training
               from the employee who developed the subsystem.

       104     first paragraph. BXA's policy is pursuant to law--Hong Kong Policy Act of 1992 and
               not just a matter of Presidential discretion. This should be pointed out.

       130     Top of Page. Data base reorganization. This is one of several places where the IG
               recommends a lot of work without providing any evidence that there is a problem
               and without estimating the cost that goes along with implementing the recommended
               reorganization.

       130     Last para. Here, as in other places in the report, the IG states as facts the opinions
               of certain staff members without doing any independent verification. There have been
               periodic delays in entering applications into the data base, due primarily to the
               diversion of employees to respond to Congressional inquiries, GAO investigations,
               FOIA requests, and the IG study itself. Undoubtedly, there have been other factors at
               work, as well, but simply repeating employee gossip without independent verification
               does not contribute to meaningful solutions.




                                                      212
U.S. Department of Commerce                                                              Final Report IPE-11488
Office of Inspector General                                                                           June 1999




       134     First full para. This has been taken care of in the new Continuity of Operations Plan.
               The IG should examine it.

       137-8   BXA has no comment to make on the Springfield operations. However, the IG should
               properly check with the Office of the Secretary on these observations.

       150     First line. This is not technically correct. The EAA was last reenacted 11 years ago,
               but it last expired in August 1994, 5 years ago.




                                                     213
U.S. Department of Commerce           Final Report IPE-11488
Office of Inspector General                        June 1999




                              Tab B




                               214
U.S. Department of Commerce                                                                Final Report IPE-11488
Office of Inspector General                                                                             June 1999




       LICENSE AND ENFORCEMENT ACTION PROGRAM (LEAP)

       A. CLARIFYING EXPORTER AND END-USER RESPONSIBILITY

       Standardize license conditions

       BXA will review its standard license conditions, revise as appropriate, and communicate them to the
       other licensing agencies. The Office of Chief Counsel will review standard conditions to assess
       enforceability.

       Organize and clarify license conditions

       BXA will organize license conditions according to who is bound by them. Certain conditions may
       apply to the exporter, while other conditions may apply only to the consignee, and still other
       conditions to the end-user. BXA will specify explicitly in the license to whom conditions apply.

       Require exporter to notify consignee(s) of all license conditions

       Exporters are currently required to convey licensing conditions to their customers by regulation and
       direction. BXA will place a rider on each export license stating that the exporter is required to
       convey to consignee(s), and end-users, freight forwarders and banks as appropriate, all conditions that
       affect them. BXA will also revise its regulations as necessary to ensure that they make this exporter
       obligation clear.

       Require end-user and intermediary acknowledgment of license conditions

       BXA will amend the regulations to require that all such parties to the transaction acknowledge in
       writing to the exporter the receipt of the conditions conveyed by the exporter. Exporters will be
       required to retain such acknowledgments consistent with their other record keeping obligations and to
       report to BXA if they fail to receive them. This will require OMB approval since it will increase the
       paperwork burden on the exporter.

       Contact exporters after license approval but before shipment to confirm that they
       understand the conditions and have not shipped prior to receipt of a license

       For sensitive exports identified by licensing or enforcement officers or other agencies, Export
       Administration (EA) will contact the exporter after the issuance of the license but prior to actual
       shipment to stress the importance of adhering to all licensing conditions and being
       vigilant during the course of the export to ensure that the equipment or technology goes to
       the proper end-user, and that it is appropriately used. This contact may be in writing, by
       telephone or in person.




                                                       215
U.S. Department of Commerce                                                              Final Report IPE-11488
Office of Inspector General                                                                           June 1999




       Contact companies failing to file required reports

       BXA uses a computer tickler system to identify conditions that require follow-up reporting.
       Delinquent companies will be contacted by phone and in writing within 30 days after a
       report's due date to remind them of their obligations. BXA will document all attempts to
       obtain required information. Failure to respond to BXA's written request will generally
       result in suspension of the license and referral to Export Enforcement (EE) for enforcement
       action.

       Include US government access to end-user and intermediary facilities as a license condition

       For defined transactions of concern, BXA will include a license condition requiring access to
       the end-users' and intermediaries' facilities by U.S. government officials to ensure that the
       conditions imposed are being implemented.

       B. RECORDKEEPING TO SUPPORT LICENSING AND ENFORCEMENT

       Maintain a comprehensive and readily accessible system of records pertaining to its
       licensing and enforcement activities

       BXA will fund, staff, and routinely audit its recordkeeping system to ensure strict compliance
       with its policy and all applicable statutes.

       Specifically, BXA will ensure that it keeps records pertaining to commodity classifications,
       license determinations, license conditions, communications with license applicants and other
       parties, and investigations.

       Ensure all license conditions are properly documented

       BXA will redesign its computer data system (ECASS) to ensure that conditions can be entered
       more easily and comprehensively.

       C. EXPANDED ENFORCEMENT ACTIVITIES

       Notify enforcement agencies of all approved, denied, and RWA'd cases

       BXA will continue its system of keeping enforcement agencies notified of licensing actions.
       BXA's EE has on-line access to all pending, approved, denied, and returned without
       action (RWA) licenses. U.S. Customs receives a daily data transfer of all completed
       licensing actions. EE maintains the ECASS screening and flag system to ensure that all
       cases are reviewed in concert with existing enforcement concerns and cannot be approved
       without EE's concurrence.




                                                      216
U.S. Department of Commerce                                                                Final Report IPE-11488
Office of Inspector General                                                                             June 1999




       Expand Pre-License Check (PLC) and Post-Shipment Visit (PSV) Focus on License Conditions

       EE, with input from EA, will identify more appropriate candidates for PLCs and PSVs that focus
       on license conditions. Enforcement's Office of Enforcement Analysis will set PLC and PSV
       priorities and manage the process with our embassies consistent with its Performance Plan.

       EA and EE will identify more candidates for PSVs and identify product categories and end-users
       warranting more frequent visits. Enforcement's Office of Enforcement Analysis will initiate the
       visit requests, and the Office of Export Enforcement will conduct more PSVs through the Foreign
       Commercial Service's officers or its own agents' Safeguards Verification Trips and manage the
       PSVs consistent with its Performance Plan.

       D. REVIEWS AND SPOT CHECKS

       Select one license exception category each year for comprehensive review

       BXA will conduct an annual analysis of one commonly used license exception (LE) to
       determine its ease of use, adherence to conditions, affect on legitimate trade, potential
       opportunities for abuse, and recommend corrective action and modification of LE terms, as
       needed. While there are thirteen different LEs, BXA will focus on the six that are based on
       destination or value (CTP-Computers, GBS-Group B Shipments, CIV -Civil End-users,
       TMP-Temporary Exports, LVS-Limited Values Shipments, and
       KMI-Key Management Infrastructure).

       Conduct reviews of all Special Comprehensive License (SCL) holders

       BXA will conduct thorough systems reviews of all SCL holders at least once every two years.
       BXA also will conduct reviews on all SCL consignees at least once during the validity period
       of the license. EA will make the results of systems reviews available to EE upon request. Any
       evidence of violations of the Export Administration Regulations (EAR) will be referred
       immediately to EE.

       Enhance spot-checks of use of license exceptions

       BXA will intensify its identification of exporters of sensitive items to countries of concern and
       identify those exporters' use of license exceptions. It will contact exporters and review
       documents justifying the application of the license exception or visit the company to verify
       the correct use of license exceptions.




                                                       217
U.S. Department of Commerce                                                                Final Report IPE-11488
Office of Inspector General                                                                             June 1999




       Conduct periodic reviews of select companies' internal compliance plans/export
       management systems, including procedures for ensuring license condition compliance

       BXA will identify companies that sell large volumes of controlled products to destinations of
       concern and conduct reviews of their internal control and export management procedures,
       prepare a report of findings and make appropriate recommendations.

       If evidence of violations of the EAR is discovered during the course of the review, it will be
       forwarded to EE for action.

       E. INFORMATION SHARING WITH THE INTELLIGENCE COMMUNITY

       Obtain broader information sharing with the intelligence community

       BXA will work with the intelligence community for better information exchange, especially
       on potential parties of concern.

       F. EXPANDED OUTREACH EFFORTS

       Enhance visits to exporters that focus on compliance with license conditions

       EE will enhance outreach visits to selected exporters in high concern categories. These visits,
       generally conducted in person, will focus on how the exporter has complied with license
       conditions.

       Educate exporters on license conditions

       BXA will emphasize the importance of complying with license conditions in seminars and
       other outreach activities.

       Develop a special training initiative for freight forwarders, trading companies, and
       distributors

       BXA will establish specialized training opportunities for freight forwarders, trading companies,
       and distributors.

       Revise the EAR and work with Census to revise the Foreign Trade Statistics Regulations
       (FSTR), in order to clarify the responsibilities of seller, buyer, and freight forwarder




                                                       218
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999




       G. MULTILATERAL COOPERATION

       Work with other agencies to seek support from international partners in developing
       common practices with respect to:

       - Imposition of conditions
       - Control of reexports/retransfers
       -Sharing of information, especially with respect to denials
       -Obtaining end-use assurances
       -Enforcement cooperation
       -Sharing of investigative information
       -Sharing of intelligence information
       -Export Management Systems/Internal Control Programs

       Seek to develop a shared vision with our major partners of security concerns for the
       next century and common approaches to combating proliferation through enhanced
       export controls

       A major part of this effort will be the development of case studies and presentations for our
       closest trading partners on our export licensing and enforcement concerns in order to enlist
       their cooperation in implementing similar policies and practices.




                                                      219
U.S. Department of Commerce           Final Report IPE-11488
Office of Inspector General                        June 1999




                              Tab C




                               220
U.S. Department of Commerce                                                                Final Report IPE-11488
Office of Inspector General                                                                             June 1999




                                 BXA'S COMMENTS’
                                        ON
                     THE INSPECTOR GENERAL'S PROPOSED ANSWERS
                                        TO
            SENATOR THOMPSON'S QUESTIONS ON THE EXPORT LICENSING PROCESS


       1.       Please examine whether the current, relevant legislative authority contains
                inconsistencies or ambiguities regarding the licensing of dual-use and munitions
                commodities, and the effect of any such inconsistencies and ambiguities.

       Agree.

       2.       Please examine whether Executive Order 12981 (1995) as implemented is consistent
                with the objectives of the Export Administration Act and other relevant legislative
                authority.

       As mentioned in our comments on your report, we do not concur with your reading of E.O. 12981
       regarding attendance at ACEP meetings. We do not believe the E.O. gives other agencies
       “the flexibility to decide who should attend these meetings.” Rather, the E.O. states that
       “Representatives of the departments or agencies shall be the appropriate Assistant Secretary or
       equivalent (or appropriate acting Assistant Secretary or equivalent in lieu of the Assistant Secretary
       or equivalent) of the concerned department or agency, or appropriate Deputy Assistant Secretary or
       equivalent (or the appropriate acting Deputy Assistant Secretary or equivalent in lieu of the Deputy
       Assistant Secretary or equivalent) of the concerned agency.” In other words, representation is to be
       by an Assistant Secretary, Deputy Assistant Secretary, or someone officially acting for them.

       As we mentioned in the comments on the I.G. report (Recommendation 20), the Export
       Administration Act itself provides for the right of appeal to the Department by exporters. It does
       not include a provision for referring this decision to (or even consultation with) other agencies.

       Nevertheless, as a practical matter, the Under Secretary has routinely consulted with his colleagues
       in other agencies before taking any action on an appeal. Consistent with your recommendation in
       your report, we are prepared to work with the NSC in bringing the other agencies into this process
       in a more formal manner.

       While your proposed answer raises a theoretical possibility that an exporter might attempt to use
       the appeals process to somehow circumvent the interagency licensing process, nothing in your
       analysis indicates that this has been done or that any of the decisions taken by the Under Secretary
       have been inconsistent with the goals and objectives of the EAA. Your report provides no evidence
       that there is a problem here needing fixing. Accordingly, we would recommend that your answer
       be revised to stress the lack of any indication of problems in this area.




                                                       221
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999




       3.      Please determine if there is a continued lack of interagency accord, as stated in your
               1993 interagency report, regarding whether the Commerce Department is properly
               referring export license applications (including supporting documentation) out for
               review by the other agencies.

       We have significant problems with your proposed response to this question, as we did for your
       analysis in the body of your report.

       l       In the initial paragraph of your response, where you state that 85 percent of applications are
               referred, it would be useful to mention here (as you do in the next paragraph) that the other
               agencies have a right to see 100 percent but have decided, through delegations, to forego that
               right in 15 percent of the cases due to the low level of the technology or the country of
               destination.

       l       The laborious review conducted by the Inspector General on the referral/nonreferral of
               applications, which took a great deal BXA resources, demonstrated conclusively that BXA
               operates with an exceptionally high degree of accuracy. For example the review of the
               nonreferral of applications resulted in a finding that in every case BXA made the correct
               decision. Though your report identifies six instances where other agencies (primarily DOD)
               felt that the licenses should have been referred, referral policy at the time did not require such
               referral. (We continue to contend that cases for end users on the Indian Entities list which we
               denied did not require referral to DOD based on our letter informing them of our intentions to
               deny these types of cases and to which they offered no objection.) With respect to amendments,
               we will issue new guidance requiring that they be referred to the agencies to whom the original
               case was referred.

       l       With respect to commodity classifications themselves, the extensive review of these by DOD
               and BXA resulted in even DOD admitting that they had no disagreement with the Commerce
               decisions in 98 of the 103 classifications reviewed. For the remaining five, BXA contends that
               only one case was improperly classified, though the net practical result would have been to
               require a license application in any case. For the four with which DOD took issue, BXA
               continues to stand by its classifications. Regardless of whether one accepts BXA's or DOD's
               conclusions about the analysis, in either case the high level of accuracy argues strongly for
               leaving the system as it is. (We were surprised that in your review the IG did not reach an
               independent assessment of the accuracy of BXA's referral, but, rather, simply reported the
               dissension by DOD.)

       l       We agree with your recommendation to have the NSC clarify its 1996 guidance on the referral
               of certain munitions-related commodity classifications to DOD and State and for State to refer
               to BXA certain dual-use munitions license applications.

       l       Finally, here as you did in your report, you make mention of the investigative report on the
               crash of a Chinese rocket carrying a commercial communication satellite under Commerce's




                                                      222
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999




                jurisdiction. You use this as an example of an incorrect commodity classification. As we
                stated in our comment on your report, we do not consider this to be a commodity
                classification at all but part of an export license which had been referred to the other
                agencies. The licensing officer's error was to inform the exporter that the information it
                wished to convey was covered by the license, when in fact it probably needed a separate
                authorization from State. While the licensing officer used a CCATS form to convey his
                guidance to the exporter, that doesn't change the fact that this was advice concurrent with
                the review of an export license. We suggest you drop this example of a licensing error
                from your discussion of commodity classification.

       4.       Please determine if the interagency dispute resolution (or “escalation”) process for
                appealing disputed license applications allows officials from dissenting agencies a
                meaningful opportunity to seek review of such applications, and assess why this process
                is seldom used.

       Agree.

       5.       Please review whether the current dual-use licensing process adequately takes into
                account the cumulative effect of technology transfer resulting from the export of
                munitions and dual-use items, and the decontrol of munitions commodities.

       As you state in your response, assessing the cumulative effect of transfers would be desirable.
       However, though your response admits it would be difficult, you go no further in assessing
       what would be a major budget increase to develop this capability. As you point out in your
       response, cumulative effects also occur as the result of the contributions from indigenous
       capabilities and shipments from foreign suppliers that would not be caught by our licensing
       system. In addition, cumulative effects can result from the transfer of items not requiring a
       license. This suggests to us that the appropriate place to conduct such analyses is during our
       regular list review process rather than in the context of individual license applications. That
       would permit a more comprehensive approach, the information from which could then be used
       in reviewing individual licenses. That approach too, however, also requires significant
       additional resources, a need we believe you should stress in your report.

       6.       Please review whether the current munitions licensing process adequately takes into
                account the cumulative effect of technology transfers resulting from the export of
                munitions and dual-use items, and the decontrol of munitions commodities.

       No comment.

       7.       Please determine whether license applications are being properly referred for comment
                (with sufficient time for responsible review) to the military services, the intelligence
                community, and other relevant groups (the “recipient groups”) by the Defense
                Department and other agencies. Please consider in particular numerical trends in the




                                                      223
U.S. Department of Commerce                                                                 Final Report IPE-11488
Office of Inspector General                                                                              June 1999




                frequency of such referrals, trends in the types of applications referred, trends in the nature
                of the taskings made in connection with the referrals, and the perceptions of officials at the
                recipient groups.

       Your answer here is at odds with your findings in the body of your report. Here, you state
       categorically that BXA failed to refer 6 of 60 cases or ten percent. However, the body of
       your report points out that this was the assessment of DOD and DOE and not your independent
       conclusions. As you know, BXA disagrees with the opinions of DOD and DOE in this matter
       and believes that our conclusion not to refer the applications was correct in every instance. We
       request you delete the conclusion about our error rate (10%) or at least attribute this view to the
       other agencies while noting our dissent.

       In pointing out that the NPC does not review all cases, it would be useful to note that this is due
       to the NPC declining to review certain categories of cases. You should also point out that to
       review more case will require more resources. In addition, it would be useful to note that an
       alternative to simply giving the NPC more time would be to give it more resources.

       Although the IG recommended furnishing licensing data to the Customs Service to be used
       for screening parties against the Treasury Enforcement Communication System database, we
       believe that this is not a desirable policy. The TECS system contains a variety of data, much
       of it irrelevant to export licensing decisions. We believe that screening will be more effective
       if Customs provides Commerce with a list of names that are appropriate for screening as is
       provided for in the memorandum of understanding between Commerce and Customs. Since the
       IG's last recommendation to BXA on this issue, Customs has provided BXA with data to add to
       its watch list and OEA has provided that data (provided on disk) to the BXA's Office of
       Administration to load into our computer data base for daily screening. As of April 1999,
       Administration has had this data and is working to ensure that all of this data is uploaded
       properly into Enforce to perform exactly the screening function that the IG has recommended.
       Therefore, we do not believe the alternative solution recommended by the IG is necessary.


       8.       Please determine whether license review officials at each of the agencies are provided
                sufficient training and guidance relevant for reviewing license applications, and
                whether more formal training and guidance is warranted. Dr. Lietner noted a paucity
                of such training and guidance in his Committee testimony.

       We generally agree with your response; though, we think you might wish to point out, as your
       did in the body of your report that the current diversion of resources to respond to the
       extraordinary requests for information placed on the agency has impacted our ability to conduct
       formal training programs. In passing, you state that training is “left up to the individual divisions
       and generally consists of ... learning on the job......”(emphasis added), as if that were an
       undesirable approach.




                                                       224
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999




       As we mentioned in our response to your report, the primary method for training licensing
       officers (especially new ones) is On-The-Job in concert with a senior licensing officer. Due
       to the idiosyncracies of each licensing division's technical areas, this is highly desirable. EA,
       with its widely different areas of expertise and responsibilities, must tailor its training on a
       more individual basis. Nevertheless, more training is desirable, and we do not argue with the
       basic thrust of your recommendation. As mentioned in our response to your report, an expanded
       training program is not resource-neutral. If you are going to recommend more training in your
       answer to Senator Thompson, you might point out that more budgetary resources for this effort
       will have to be appropriated by the Congress.

       You might want to point out that you are unable to assess the accuracy of Dr. Leitner's
       statement as he was referring to DOD where he is employed.

       9.       Please review the adequacy of the data bases used in the licensing process, such as the
                Defense Department's FORDTIS, paying particular attention to whether such data
                bases contain complete, accurate, consistent, and secure information about dual-use
                and munitions export applications.

       Agree. We have already conducted a cost benefit analysis as part of our work with Booz Allen
       and Hamilton. While we do not believe that a further, formal analysis is necessary, system
       security is of the utmost importance to us and will be a major component of the new system
       architecture. With the advancements that have been made in commercially available encryption
       in the past couple of years, we should be able to encrypt our system at reasonable cost in a
       fashion that will enable us to deal with sensitive materials in our redesigned system, and we
       will be exploring this option fully. Our plan for hiring a full-time project team, if we receive
       full funding for ECASS, includes a position for a security expert for this system. This person
       will assist us in working through the myriad of security issues that we must consider, including
       the cost-benefit analysis.

       10.      In his testimony, Dr. Leitner described instances where licensing recommendations he
                entered on FORDTIS were later changed without his consent or knowledge. Please
                examine those charges, and assess whether such problems exist at your agencies.

       While we generally agree with this answer, we are surprised that you do not categorically state,
       “We found no instances where any licensing officers' recommendations were later changed
       without his or her knowledge in Commerce's ECASS system.”

       11.      Please determine whether license review officials are being pressured improperly
                by their supervisors to issue or change specific recommendations on license
                applications. Dr.Leitner testified about one such incident that happened to him at DTSA.

       Senator Thompson's question concerns the “improper” direction of subordinates by their
       supervisors. As mentioned in our response to your report, we disagree with the way in which you




                                                      225
U.S. Department of Commerce                                                                Final Report IPE-11488
Office of Inspector General                                                                             June 1999




       have dealt with this issue and responded to this question. We believe that based on your
       own analysis you should state categorically, “We found no evidence of license review
       officials being pressured improperly to issue or change specific recommendations on license
       applications.”

       We do not read your report as finding significant problems with management influence over
       the vote of the OC Chair. Thus, we are a bit surprised that it results in so much discussion in
       your report. The Chair of the OC is a Commerce employee and as the E.O. itself indicates is
       not intended to be entirely impartial. (See Section 5(b) of the E.O. which states, “If any
       department or agency disagrees with a licensing determination of the Department of Commerce
       made through the OC, it may appeal the matter to the ACEP for resolution.” (Emphasis added.)

       Of course, the OC Chair reports to the DAS and AS of EA, and both have a responsibility to
       ensure that the OC Chair carries out her responsibilities efficiently and in concert with U.S. law.
       In this regard, both have from-time-to-time instructed the OC Chair to bring a case review to
       closure by making a decision (e.g., where the loss of a sale is imminent or a case has exceeded
       the time frames of the E.O.) In addition, both have instructed the OC Chair on the provisions of
       the regulations or on changes in U.S. licensing policy to ensure that her actions are consistent
       with USG rules and policies. We saw nothing in your report that would recommend or lead to a
       change in this oversight.

       Both the DAS and AS have encouraged the OC Chair to make decisions consistent with the EAR
       and U.S. licensing policy, even if that means voting against the position of the BXA representative
       or the majority of agencies in attendance. Your own analysis appears to support this contention.
       You may wish to revisit this section.

       12.      Please determine whether our government still uses nationals to conduct either prelicense
                or post-shipment licensing activities and whether such a practice is advisable.

       BXA has and will continue to express its clear policy preference for having checks done by U.S.
       Government employees who are U.S. citizens. Its handbook for the conduct of pre-license
       checks and post shipment verifications makes this point and, in addition, sets forth the
       circumstances when the risks engendered by allowing unaccompanied foreign nationals to conduct
       a check are so grave that BXA will not consider such a check to be complete. As a result of this
       study, BXA will revise the handbook to reiterate this preference and to eliminate any perceived
       ambiguities as to when a check by a foreign national is merely undesirable and when it is
       unacceptable.

       13.      Please determine whether the agency licensing process leaves a reliable audit trail
                for assessing licensing performance.

       With respect to your answer that you recommend that the OC Chair be given additional
       responsibility for taking the final action on cases, we mentioned in the response to your report




                                                       226
U.S. Department of Commerce                                                                Final Report IPE-11488
Office of Inspector General                                                                             June 1999




       that we are reviewing this matter. While there may be benefits to this approach, we feel
       that you could better balance your answer by pointing out that there are down sides, too.
       BXA needs to carefully balance the desire for efficient processing with quality and
       vulnerability controls. By foregoing review and countersigning by the technical licensing
       offices, BXA may compromise its ability to ensure the accuracy and consistency of licensing
       decisions and their regulatory sufficiency. In addition, by foregoing meaningful countersigning,
       BXA exposes itself to possible improper licensing actions. However, we continue to review
       this matter toward overall improvement of our processes.

       With respect to modification of Springfield controlled tapes by BXA personnel, you fail to
       explain how this “possibility” could occur, and you provide no support for the need to have the
       Under Secretary store duplicate, read-only tapes in response to this theoretical problem. You
       also make no budgetary recommendations to cover the duplication and storage costs. With
       respect to the maintenance of paper files, we continue to support retaining such documents for
       90 days. As you did not in your original suggestion to save these files for five years, you again
       do not offer a compelling rational for saving these files for one year or provide evidence that
       any additional benefit would outweigh the costs to the agency. In this day and age, we believe
       that reliance on electronic records is appropriate as evidenced by our current retention of
       information for both paper applications and technical specifications in digitized image format
       in our MARRs system.

       With respect to the first of the 11 major elements to the BXA audit trail, the item should read
       paper and “electronically submitted” license applications rather than “automated”. Paper
       applications become “electronic” applications after they are scanned and uploaded into the
       ECASS automated system where they are processed in electronic format.

       14.      Please describe the procedure used by agencies to ensure compliance with conditions
                placed on export license (e.g. no retransfers without U.S. consent, no replications, and
                peaceful use assurances), and assess the adequacy and effectiveness of such procedures.

       Since your answer comments in some detail on post-shipment visits, it would also be appropriate
       to include here the comments in your report to the effect that NDAA visits are a questionable use
       of resources. The National Defense Authorization Act of 1998 (NDAA), which requires post
       shipment verifications for every computer with a composite theoretical performance exceeding
       2,000 millions of theoretical operations per second (MTOPS) to a Tier 3 country, diverts
       enforcement resources from other activities that contribute more to our non-proliferation goals.
       In the first year of NDAA implementation, end users in the communications, utilities and
       financial industries received a majority of the high performance computers exported. A U.S.
       government employee has to visit all of these end-users no matter how well known, and no matter
       how many times they have been visited in the past, to judge whether their computers are being used
       for weapons development. As a result, the burden of these visits becomes disproportionate to the
       benefits derived.




                                                       227
U.S. Department of Commerce                                                               Final Report IPE-11488
Office of Inspector General                                                                            June 1999




       As mentioned in the response to your report, BXA has recently implemented a new
       Licensing and Enforcement Action Program designed to deal with the vast majority of the
       problems with assigning conditions and their follow-up. We have proposed additional resource
       for FY 2001 to fully implement the program. In the meantime, we will take steps to improve
       our implementation of conditions, including their monitoring, consistent with budgetary realities.
       We would hope that you would mention this important initiative in your answer to Senator
       Thompson, as well as point out the additional resources that will be needed to carry out your
       recommendations in this area.




                                                      228
229
  U.S. DEPARTMENT OF COMMERCE
      Office of Inspector General
          Room 7898C, HCHB
14th Street & Constitution Avenue, N.W.
        Washington, D.C. 20230

         Internet Web Site:
  http://www.oig.doc/gov
